<html>
<title> - UNDERSTANDING THE IMPACT OF U.S. POLICY CHANGES ON HUMAN RIGHTS AND DEMOCRACY IN CUBA</title>
<body><pre>[Senate Hearing 114-70]
[From the U.S. Government Publishing Office]





                                                         S. Hrg. 114-70

                        UNDERSTANDING THE IMPACT
                    OF U.S. POLICY CHANGES ON HUMAN
                      RIGHTS AND DEMOCRACY IN CUBA

                                  AND

                         U.S. CUBAN RELATIONS_
                            THE WAY FORWARD



=======================================================================

                                HEARINGS

                               BEFORE THE

                   SUBCOMMITTEE ON WESTERN HEMISPHERE
                TRANSNATIONAL CRIME, CIVILIAN SECURITY,
                      DEMOCRACY, HUMAN RIGHTS, AND
                         GLOBAL WOMEN'S ISSUES

                                AND THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                   February 3, 2015 and May 20, 2015

                               __________

       Printed for the use of the Committee on Foreign Relations

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Available via the World Wide Web: http://www.gpo.gov/fdsys/


                         U.S. GOVERNMENT PUBLISHING OFFICE 

96-108 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001






                COMMITTEE ON FOREIGN RELATIONS          

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                ROBERT MENENDEZ, New Jersey \1\
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts
              Lester E. Munson III, Staff Director        
           Jodi B. Herman, Democratic Staff Director        


----------
  \1\ On April 1, 2015, Senator Menendez temporarily stepped down as 
the committee's ranking member; Senator Cardin became ranking member on 
April 2, 2015.

                         ------------          

               SUBCOMMITTEE ON WESTERN HEMISPHERE        
            TRANSNATIONAL CRIME, CIVILIAN SECURITY,        
                  DEMOCRACY, HUMAN RIGHTS, AND        
                     GLOBAL WOMEN'S ISSUES        

                 MARCO RUBIO, Florida, Chairman        

JEFF FLAKE, Arizona                  BARBARA BOXER, California
CORY GARDNER, Colorado               TOM UDALL, New Mexico
DAVID PERDUE, Georgia                TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts


                             (ii)          

  














                            C O N T E N T S

                              ----------                              
                                                                   Page

                            February 3, 2015

Boxer, Hon. Barbara, U.S. Senator From California, opening 
  statement......................................................     2
Corker, Hon. Bob, U.S. Senator From Tennessee, opening statement.     4
Jacobson, Hon. Roberta S., Assistant Secretary of State for 
  Western Hemisphere Affairs, U.S. Department of State, 
  Washington, DC.................................................     7
    Prepared statement...........................................     9
    Responses of Roberta S. Jacobson to questions submitted by 
      Senator Marco Rubio........................................    65
Leiva, Miriam, human rights activist and independent journalist, 
  Havana, Cuba...................................................    43
    Prepared statement...........................................    44
Malinowski, Hon. Tomasz, Assistant Secretary for Democracy, Human 
  Rights, and Labor, U.S. Department of State, Washington, DC....    10
    Prepared statement...........................................    12
    Responses of Tomasz Malinowski to questions submitted by 
      Senator Marco Rubio........................................    73
Menendez, Hon. Robert, U.S. Senator From New Jersey, opening 
  statement......................................................     4
    Prepared statement...........................................     6
Morua, Manuel Cuesta, spokesperson for Progressive Arc and 
  coordinator of New Country, Havana, Cuba.......................    49
    Prepared statement...........................................    52
Paya, Rosa Maria, Cuban Christian Liberation Movement and 
  daughter of slain dissident, Oswaldo Paya Sardinas.............    46
    Prepared statement...........................................    47
Rubio, Hon. Marco, U.S. Senator From Florida, opening statement..     1
Soler, Berta, president, Cuban Ladies in White, Cuba.............    53
    Prepared statement...........................................    55
    Inter-American Commission on Human Rights Resolution N.6/2013 
      submitted by Berta Soler, President, Cuban Ladies in White, 
      Cuba.......................................................   100
Udall, Tom, U.S. Senator From New Mexico, prepared statement.....    29

              Additional Material Submitted for the Record
          additional material submitted by senator marco rubio

Internet in Cuba Only for the Rich--Or Resourceful, by Alexandre 
  Grosbois, AFP, Business Insider................................    74
U.S. Products Help Block Mideast Web, by Paul Sonne and Steve 
  Steclow, Wall Street Journal, March 28, 2011...................    75
Cuba's $6B Debt to Americans for Seized Properties Hangs Over 
  U.S. Talks, by Kelley Beaucar Vlahos, FoxNews, January 27, 2015    78
Cuba-U.S. Relations, Neo-Castroism, and Regional 
  Authoritarianism, by Antonio G. Rodiles........................    95


                                 (iii)
         additional material submitted by senator barbara boxer

Dec. 17: A Day of Triumph for Cuban Americans, op-ed from the 
  Miami Herald, Dec. 29, 2014....................................    80
Open Letter to President Obama: Support for a New Course on Cuba, 
  multiple signers...............................................    82
Letter submitted by the Committee on International Justice and 
  Peace..........................................................    85
White House letter regarding White House staff attendance at 
  committee hearings.............................................    87
Statement submitted by Alan P. Gross, U.S. citizen imprisoned in 
  Cuba from 2009 until 2014......................................    94
Letter submitted by Dagoberto Valdes Hernandez, director, 
  Convivencia magazine...........................................    94

        additional material submitted by senator robert menendez

Letter submitted by the State Troopers' Fraternal Association of 
  New Jersey, Inc................................................    89
Resolution by the New Jersey State Association of Chiefs of 
  Police.........................................................    91
Letter submitted by Armando B. Fontoura, Sheriff, Essex County, 
  New Jersey.....................................................    93
U.S. Department of State Report on Human Rights Practices in 
  China (2013)...................................................   104

                             --------------

                              May 20, 2015

Cardin, Hon. Benjamin L., U.S. Senator From Maryland, opening 
  statement......................................................   148
Corker, Hon. Bob, U.S. Senator From Tennessee, opening statement.   147
Jacobson, Roberta S., Assistant Secretary of State for Western 
  Hemisphere Affairs, U.S. Department of State, Washington, DC...   151
    Prepared statement...........................................   152
    Responses of Roberta S. Jacobson and Thomas A. Shannon to 
      questions submitted by Senator Marco Rubio.................   198
    Responses of Roberta S. Jacobson and Thomas A. Shannon to 
      questions submitted by Senator David Perdue................   203
Shannon, Hon. Thomas A., Jr., Counselor of The Department, U.S. 
  Department of State, Washington, DC............................   154
    Prepared statement...........................................   156

              Additional Material Submitted for the Record

Prepared statement of Senator Barbara Boxer, U.S. Senator from 
  California.....................................................   191
Statement of Alan P. Gross submitted for the record by Senator 
  Benjamin L. Cardin.............................................   191
Daily Beast Article submitted for the record by Senator Robert 
  Menendez.......................................................   192
Two letters to Marco Rubio submitted for the record..............   195

 
                        UNDERSTANDING THE IMPACT
                    OF U.S. POLICY CHANGES ON HUMAN
                      RIGHTS AND DEMOCRACY IN CUBA

                              ----------                              


                       TUESDAY, FEBRUARY 3, 2015

        U.S. Senate, Subcommittee on Western Hemisphere, 
            Transnational Crime, Civilian Security, 
            Democracy, Human Rights, and Global Women's 
            Issues, Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:07 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Marco Rubio 
(chairman of the subcommittee) presiding.
    Present: Senators Rubio, Corker, Flake, Gardner, Boxer, 
Menendez, Udall, Cardin, Kaine, and Markey.

            OPENING STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. This hearing of the Subcommittee on the 
Western Hemisphere, Transnational Crime, Civilian Security, 
Democracy, Human Rights, and Global Women's Issues will come to 
order.
    Today's hearing is titled ``Understanding the Impact of 
U.S. Policy Changes on Human Rights and Democracy in Cuba.''
    And I want to begin by welcoming Assistant Secretary of 
State for the Western Hemisphere, Roberta Jacobson, and 
Assistant Secretary of State for Democracy, Human Rights, and 
Labor, Tom Malinowski. We appreciate your service to our 
country and your attendance here today.
    I would like to note that the committee invited two other 
administration witnesses to appear today, the reported 
negotiators of this deal with the Castro government, Mr. Ben 
Rhodes and Mr. Ricardo Zuniga from the National Security 
Council. Unfortunately, the White House Counsel's Office 
informed us that they would not be allowed to testify at this 
hearing. And I find this concerning given the fact that these 
are the two individuals who the administration put forward in 
negotiating the deal, but we will move forward from there.
    We have two excellent panels today. The first, of course, 
is the official panel that you see seated and ready to go, and 
then we are going to hear from a number of human rights 
activists, democracy activists on the island of Cuba who will 
talk to us about the changes.
    Let me preface this by saying that I believe every member 
of this committee this morning, as I do the vast majority of 
Americans and policymakers, share the goals of democracy and 
freedom on the island of Cuba. In fact, the administration, in 
announcing this policy, stated that the purpose of this new 
policy is to support the Cuban people to freely determine their 
own future, to freely determine their political future, and by 
that, I take it to mean democracy, which we all share, and also 
to freely determine their economic future. I would point out 
that a free Cuban people have a right to choose any economic 
model they want, although there is one that I would suggest. It 
is up to them to choose that future. So this is a goal we all 
share.
    And the question for us here today, as we review these 
policy changes, is how effective will these policy changes be 
in bringing about this shared goal. And so today, we are going 
to analyze both the process by which this arrangement was 
arrived at, and we are also going to talk about how effective 
these policies may, or may not, be in achieving the stated 
goals.
    I think it is no secret and I have publicly stated that I 
have deep reservations and in many instances direct opposition 
to many of the changes that we are going to review here today 
for the simple reason that I believe that they will not be 
effective at bringing about the sort of political opening on 
the island of Cuba that all of us desire for the Cuban people.
    You know, the Cuban people are the only people in this 
hemisphere that have not had a free and fair election in the 
last decade and a half. They deserve the right to have that 
just like any other people do. They are no less deserving of 
freedom and democracy than the people of Guatemala, Honduras, 
the Dominican Republic, Haiti, and a host of other nations, all 
of whom at some point over the last decade, have at least once 
had the ability to freely choose their leaders. And the notion 
that somehow we should be more patient with Cuba than all these 
other societies is quite frankly unfair and offensive.
    And so the goal of this hearing here today is to understand 
these changes, to understand, first of all, how it came about, 
what was the process by which they were negotiated, and second, 
how effective could these policies be in effectuating the 
change that we all want for the island of Cuba.
    With that, I recognize the ranking member, Senator Boxer.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you, Mr. Chairman, for this crucial 
hearing.
    I want to give a warm welcome to our distinguished 
witnesses, some of whom have traveled a very long way to be 
with us today. I am very pleased to see Miriam Leiva, whom I 
first met on a trip to Cuba in 2002.
    President Obama's announcement in December that the United 
States would begin the process of normalizing relations with 
Cuba will have wide-ranging impacts. But today's hearing will 
focus specifically on its impact on human rights and democracy 
in Cuba. By the way, a very legitimate concern.
    For more than 50 years, the United States pursued a 
sanctions policy designed to isolate Cuba. The goal was to 
undermine the Castro regime and promote human rights and 
democratic reform. And I well remember when that policy went 
into place, and I did not have gray hair at that time. That is 
how long ago it was.
    This policy has failed to achieve any of these goals. In 
fact, I believe it has done just the opposite. Instead of 
isolating Cuba, America has isolated itself--alienating 
regional and international partners. For the past 23 years, the 
United Nations General Assembly has voted to condemn the United 
States unilateral embargo against Cuba. So rather than 
undermining the Castro regime, America's embargo has helped the 
Castros maintain authoritarian control over Cuba by restricting 
the free flow of information and contacts between Americans and 
Cuban citizens. And it has given the Castro regime a very 
convenient scapegoat for the suffering of the Cuban people. Far 
from ushering in democratic change and improved human rights 
for Cuba's 11 million citizens, Cuba remains a one-party 
Communist state that continues to restrict the most basic 
rights of its citizens and targets its opponents using 
intimidation, harassment, surveillance, and arbitrary arrest 
and detention.
    It is long past time to abandon this failed policy of the 
past. And that is why I strongly support President Obama's 
decision to chart a new course in United States-Cuba relations.
    Now, it is important to note that President Obama follows 
in a long line of United States leaders who pursued diplomatic 
breakthroughs after years of isolation and conflict, whether it 
was President Nixon going to China or President Reagan working 
toward peace with Soviet leader Mikhail Gorbachev or Senator 
McCain and then Senator Kerry working with President Clinton to 
normalize relations with Vietnam. These breakthroughs did not 
result in immediate change, and even years later, as we speak, 
these efforts have not brought an end to repression or 
corruption or human rights abuses, but they did provide an 
opening, a chance for dialogue and real engagement with the 
people of these nations.
    So I strongly agree with the President that the best way to 
promote American values and ideals and to empower Cuban 
citizens, as they work toward a free and democratic Cuba, is 
through a policy of engagement, not isolation. And I believe 
polls show that the American people agree.
    A letter signed by 74 Cuban citizens, including prominent 
political prisoners, bloggers, independent journalists, 
clerics, and intellectuals in May 2010 underscores this point. 
It states that lifting U.S. restrictions would allow Americans 
to, ``first, serve as witnesses to the suffering of the Cuban 
people; second, be even more sensitized to the need for changes 
in Cuba; and third, offer solidarity and a bridge to facilitate 
the transition we Cubans so greatly desire.''
    Now, I know not everybody in Cuba agrees with that, but 
these were 74 Cuban citizens, some of whom are prominent 
political prisoners and clerics. Independent journalist 
Lilianne Ruiz recently said that, ``This flow of people who are 
going to come, along with the increase in the remittances, 
means the country's return to normalcy. The Cuban Government is 
going to weaken; the only thing left is the repression and the 
restrictions. This will make people more accurately identify 
the origin of our difficulties.''
    So as the United States furthers its engagement with the 
Cuban people, we will continue to press leaders in Cuba on 
human rights because all Cubans deserve the right to live 
without fear of violence or intimidation. That is a right of 
all people--all people--not just the people of Cuba, but 
certainly the people of Cuba who have been so repressed. And we 
will mobilize our regional and international partners in this 
effort.
    And we know this policy is not going to change Cuba 
overnight, but we have spent the past five decades pursuing a 
policy that has not worked. I still remember my trip to Cuba in 
2002. We would approach people to ask them their views. They 
would literally run away from us. They were too afraid to speak 
to us. How is our Nation well served by a policy that does not 
even allow us to engage with the people we seek to empower?
    Now, in closing, I want to leave you with a thought. There 
is an old saying: ``The definition of insanity is doing the 
same thing, over and over, and expecting a different result.'' 
Now, I know no one here is insane. We are all quite sane, and 
we are all working toward the same thing. And I hope we can 
unite around this. We owe it to the Cuban citizens who truly 
aspire to see a free and democratic Cuba to give this new 
policy a chance.
    Thank you very much, Mr. Chairman.
    Senator Rubio. Thank you, Senator Boxer.
    We are joined today by both the chairman and the ranking 
member of the full Foreign Relations Committee. I wanted to 
recognize them for any comments they might have.
    Mr. Chairman.

                 STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. I just want to thank the leadership of this 
committee, the chairman and ranking member. I know that we 
expect the subcommittee leadership, which we have outstanding 
leadership on all of our subcommittees, to have robust 
hearings, which you are doing today. I thank you for the way 
you framed this. I know there are a lot of divergent views on 
what has happened relative to the administration's changes in 
policy on Cuba. And I hope that through these hearings we will 
converge on a policy that is good for America.
    Thank you for your leadership.
    Senator Rubio. Thank you, Mr. Chairman.
    Senator Menendez.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Well, thank you, Mr. Chairman, for 
holding the hearing along with the ranking member, and thank 
you for this opportunity on an issue that I have followed for 
some time.
    Let me be as clear today on this issue as I was in December 
that 18 months of secret negotiations produced a bad deal, a 
bad deal for the Cuban people while it may have been done with 
the best of intentions, in my view with compromised bedrock 
principles for virtually no concessions.
    And I would just say I do not want to relive 50 years of 
engagement with China that has brought us forced abortions, 
prison camp labor, one-child policy, ethnic cleansing in Tibet, 
exile of the Dalai Lama, and most recently repression in Hong 
Kong's democracy, as well as arrests of human rights activists 
and political dissidents--50 years of those engagements. Maybe 
we can say that we are doing business with China, but we cannot 
really hold up democracy and human rights as a great success 
story of that engagement. If that is what we hope for the Cuban 
people, then it is a sad day.
    At the end of the day, 53 political prisoners were released 
while so many more remain in jail. And the Cuban people, who 
have suffered most under the regime, still have zero guarantees 
for any basic freedoms.
    I am also concerned that the 53 prisoners were not released 
unconditionally and continue to force legal hurdles, and that 
several of them have been rearrested, including Marcelino Abreu 
Bonora, who was violently beaten by Cuban security the day 
after Christmas and detained for 2 weeks.
    I am concerned that the President announced that the 
International Committee of the Red Cross and the United Nations 
would be granted access in Cuba. Yet, we know from the State 
Department briefings that they will be allowed to travel to 
Havana but only to discuss prison conditions with regime 
officials and will not be given access to Cuban jails or Cuban 
prisoners, which does nothing to improve human rights 
conditions in Cuba.
    I am concerned that there was not one substantial step 
toward transparent democratic elections, improved human rights, 
freedom of assembly, or the ability to form independent 
political parties and independent trade unions. Ironically just 
2 weeks after the announcement, the regime arrested more than 
50 people who tried to speak about the hopes for the future of 
their country. That is all they tried to do.
    The deal achieved nothing for Americans whose family 
members have been victims of the Castro regime's crimes and 
terrorism or for the thousands of United States citizens that 
hold over $6 billion in claims for properties and businesses 
confiscated by the Castros or the Americans that are still 
waiting for Cuba to settle the $2 billion in judgments rendered 
by United States courts against the Castro regime.
    I am concerned that we released a Cuban spy convicted of 
conspiracy to commit murder. He gets to go back to Cuba, and we 
get no movement on the dozens of United States fugitives living 
under asylum in Cuba, including Joanne Chesimard who is still 
on the FBI's list of most wanted terrorists for killing a New 
Jersey State trooper. Why was her return not part of the deal?
    And I am concerned that on December 17 of this past year, 
in an article in Politico, Congressman James McGovern said that 
Raul Castro admitted to giving the order to shoot down two 
private airplanes with U.S. citizens on board in 1996. Quote. 
``He said, `I gave the order.' Castro said, `I'm the one 
responsible.' And yet, this is who we are negotiating with.''
    And now Raul Castro is demanding the return of Guantanamo, 
a full list of U.S. concessions, including compensation for the 
impact of the embargo, eliminating our democracy programs, at 
least in today's press accounts that I was reading. And he 
concedes nothing.
    So how much more are we willing to give? How much more are 
we willing to do to help the Castro regime fill the coffers of 
its military monopolies while the Cuban people still struggle 
to make ends meet.
    And that is why, among many other reasons, Mr. Chairman, I 
think this is a bad deal.
    And I ask unanimous consent that the rest of my statement 
be included in the record.
    Senator Rubio. Without objection.
    [The prepared statement of Senator Menendez follows:]

             Prepared Statement of Senator Robert Menendez

    Thank you, Mr. Chairman, for holding this hearing. Let me be as 
clear on this issue as I have been since December--18 months of secret 
negotiations produced a bad deal, bad for the Cuban people. While it 
may have been done with the best of intentions, in my view, we've 
compromised bedrock principles for minimal concessions.
    At the end of the day, 53 political prisoners were released while 
so many more remain in jail, and the Cuban people--those who suffered 
most under the regime--still have zero guarantees for any basic 
freedoms.
    I'm also concerned that the 53 prisoners were not released 
unconditionally and continue to face legal hurdles and that several of 
them have been re-arrested including Marcelino Abreu Bonora who was 
violently beaten by Cuban Security the day after Christmas and detained 
for two weeks.
    I'm concerned that the President announced that the International 
Committee of the Red Cross and the United Nations would be granted 
increased access in Cuba. Yet, we know from the State Department 
briefings that they will be allowed to travel to Havana, but only to 
discuss prison conditions with regime officials, and won't be given 
access to Cuban jails or Cuban prisoners, which does nothing to improve 
human rights conditions in Cuba.
    I'm concerned that there was not one substantial step toward 
transparent democratic elections, improved human rights, freedom of 
assembly, or the ability to form independent political parties and 
independent trade unions... Ironically, just two weeks after the 
announcement, the regime arrested more than 50 people who tried to 
speak about the hopes for the future of their country.
    The deal achieved nothing for the Americans whose family members 
have been victims of the Castro regime's crimes and terrorism. Or for 
the thousands of U.S. citizens that hold over $6 billion in claims for 
properties and businesses confiscated by the Castros. Or the Americans 
that are still waiting for Cuba to settle the $2 billion in judgments 
rendered by U.S. courts against the Castro regime.
    I'm concerned that we released a Cuban spy convicted of conspiracy 
to commit murder. He gets to go back to Cuba, and we can get no 
movement on the dozens of U.S. fugitives living under asylum in Cuba, 
including Joanne Chesimard, who is still on the FBI's list of Most 
Wanted Terrorists. Why was her return not part of the deal?
    And I'm concerned that--in a December 17, 2014 article in 
Politico--Congressman James McGovern said that Raul Castro admitted to 
giving the order to shoot down two private airplanes in 1996. ``I gave 
the order,'' Castro said. ``I'm the one responsible.'' This is who we 
are negotiating with.
    And now Raul Castro is demanding the return of Guantanamo and a 
full list of U.S concessions including compensation for the impact of 
the embargo; and yet, he will concede nothing. How much more are we 
willing to give? How much more are we willing to do to help the Castro 
regime fill the coffers of its military monopolies while the Cuban 
people still struggle to make ends meet?
    It was a bad deal, and I will oppose any further changes to U.S. 
policy, any additional sanctions relief, that are not conditioned on 
clear, upfront concessions from the Castro regime that moves the Cuban 
people toward a free and open democratic government.
    And, Mr. Chairman, on a personal note, I'm amazed when people say: 
``Senator, you seem so `passionate' about Cuba.'' Yes, I am passionate. 
I will always be passionate, but no more passionate than many Irish are 
passionate about Northern Ireland, no more passionate than Armenians 
who care about the genocide in Armenia, no more passionate than Jewish-
Americans about the preservation of the state of Israel. Yes, I am 
passionate about Cuba, and I will remain passionate until the Cuban 
people are free.
    I will insist that there be no concessions to the Castro regime 
that do not bring human rights, freedom of assembly, and transparent 
democratic elections to the people of Cuba.
    Finally, I would note that a deal like this is what can happen when 
members of Congress are notified about the administration's policy 
decisions, rather than consulted as part of a process. I find it 
incredibly disconcerting that President Obama made his announcement on 
December 17th, and I still have not been granted a private discussion 
with the White House negotiating team, despite weeks of requests.
    With that, let me thank you, Mr. Chairman, for holding this 
subcommittee hearing. I look forward to hearing our witnesses' views on 
exactly what additional freedoms the people of Cuba hope to enjoy with 
the administration's new Cuba policy.


    Senator Rubio. Okay, we are ready to move to our testimony. 
And with that, I recognize Secretary Jacobson. Your full 
statement is in the record, and we would ask if you could keep 
the statement to about 5 minutes or so so we can get into the 
questioning. Thank you for being here today.

 STATEMENT OF HON. ROBERTA S. JACOBSON, ASSISTANT SECRETARY OF 
STATE FOR WESTERN HEMISPHERE AFFAIRS, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ms. Jacobson. Thank you, Mr. Chairman, Ranking Member 
Boxer, and members of the committee for the opportunity to 
testify today on the new approach to the United States-Cuba 
policy.
    I appreciate your engagement on issues related to Cuba and 
to the Western Hemisphere, and I know your strong commitment to 
democratic values, human rights, and expanding social and 
economic opportunity in the Americas.
    I also want to thank this committee for its assistance in 
welcoming the long overdue return of Alan Gross to his family. 
Mr. Gross' 5 long years of detention--during that time, the 
administration worked closely with many Members of Congress 
from both Chambers and both parties to secure his release. As 
the President and the Secretary have said, we are also grateful 
for the essential roles of Canada, Pope Francis, and the 
Vatican in reaching an agreement that made Mr. Gross' freedom 
possible.
    On December 17, the President announced the new policy 
toward Cuba. Our previous approach to relations with Cuba over 
a half a century, though rooted in the best of intentions, 
failed to empower the Cuban people. Instead, it isolated us 
from democratic partners in this hemisphere and around the 
world and was used by the Cuban Government as an excuse for 
restrictions on its citizens. As a result, those most deprived 
were the Cuban people.
    The President's initiative looks forward, and it is 
designed to promote changes that support universal human rights 
and fundamental freedoms for every Cuban. We also seek to 
promote our other national interests. These steps emphasize the 
value of people-to-people contact and very specific forms of 
increased commerce. We are already seeing indications that our 
updated approach gives us a greater ability to engage other 
nations in the hemisphere and around the world in promoting 
respect for fundamental freedoms in Cuba.
    From the beginning of this administration, we have sought 
to support the Cuban people in freely determining their own 
future, their own political and their own economic future, 
because ultimately it will be the Cuban people themselves who 
drive political and economic reforms. That is why we lifted 
restrictions to make it easier for Cuban Americans to travel 
and send remittances to their families in Cuba and opened new 
pathways for academic, religious, and people-to-people 
exchanges. And these changes created powerful new connections 
between our two countries. Our new steps build on this 
foundation by increasing authorized travel and commerce and the 
flow of information to, from, and within Cuba. The regulatory 
changes will increase the financial resources to support the 
Cuban people and the emerging Cuban private sector. They will 
also enable United States companies to expand 
telecommunications and Internet access into Cuba. United States 
policy will no longer be a barrier to connectivity in Cuba.
    Two weeks ago, I made a historic trip to Cuba, one that 
helped me understand the burden and hope embodied in this 
policy when average Cubans and Cuba Americans wished me luck or 
said God bless you and encouraged our efforts. During talks, we 
were clear that our governments have both shared interests and 
sharp differences. On practical issues such as establishing 
direct mail, counternarcotics cooperation, and oil spill 
mitigation, among others, we agreed to continue dialogue and 
increase cooperation.
    But this administration is under no illusions about the 
nature of the Cuban Government. I also raised with our Cuban 
interlocutors our concerns about its harassment, use of 
violence, and arbitrary detention of Cuban citizens peacefully 
expressing their views. I met with dissidents, entrepreneurs, 
and independent media voices to talk about what they need from 
their government and what they need from us.
    I raised several elements that presently inhibit the work 
of our U.S. interest section, including travel restrictions on 
our diplomats, limits on staffing and local access to the 
mission, and problems receiving shipments. The successful 
resolution of these issues will enable the future U.S. Embassy 
to provide services commensurate with our other diplomatic 
missions around the world.
    Having just seen our diplomats in Havana in action, I hope 
you will not object if I take this opportunity to salute their 
tireless work to advance U.S. interests on the island. These 
dedicated public servants have done their jobs under often 
difficult circumstances.
    We have only just begun the official talks on normalizing 
relations, which will take considerably longer than this first 
step of the reestablishment of relations. But even while we do 
so, we will continue to encourage our allies to take every 
public and private opportunity to support respect for human 
rights and fundamental freedoms in Cuba, and I encourage 
Members visiting Cuba to expand their engagement with the 
independent voices in Cuban civil society and to engage 
effectively on human rights and democracy.
    We know there is a diversity of views in the Congress on 
this issue, and we hope we can work together to find common 
ground toward our shared goal of enabling the Cuban people to 
determine their own future.
    Thank you very much.
    [The prepared statement of Ms. Jacobson follows:]

               Prepared Statement of Roberta S. Jacobson

    Chairman Rubio, Ranking Member Boxer, and members of the committee, 
thank you for the opportunity to testify today on our new approach to 
U.S.-Cuba policy. I know many of you have a deep interest in U.S. 
policy toward Cuba and have closely followed the President's 
announcement on December 17 and subsequent events, including my 
meetings in Havana 2 weeks ago. I appreciate the committee's engagement 
on issues related to Cuba and the Western Hemisphere and applaud your 
strong commitment to democratic values, human rights, and expanding 
social and economic opportunity in the Americas.
    I also want to thank the committee for its assistance in welcoming 
the long-overdue return of Alan Gross to his family. During Mr. Gross' 
5 long years of detention, the administration worked closely with many 
Members of Congress--from both Chambers and from both parties--to 
secure his release. As the President and the Secretary have said, we 
are also grateful for the essential roles of Canada, Pope Francis, and 
the Vatican in reaching an agreement that made Mr. Gross' freedom 
possible.
    Our previous approach to relations with Cuba over a half century, 
though rooted in the best of intentions, failed to empower the Cuban 
people and isolated us from our democratic partners in this hemisphere 
and around the world. Additionally, the Cuban Government has used this 
policy as a rationale for restrictions on its people. As a result, 
unfortunately and unintentionally, those most deprived were the Cuban 
people.
    The President's initiatives look forward and are designed to 
promote changes that support universal human rights and fundamental 
freedoms for every Cuban, as well as changes that promote our other 
national interests. They emphasize the value of people-to-people 
contact and very specific forms of increased commerce. We are already 
seeing indications that our updated approach gives us a greater ability 
to engage other nations in the hemisphere and around the world in 
promoting respect for fundamental freedoms in Cuba. It has also drawn 
considerably greater attention to the actions and policies of the Cuban 
Government.
    From the beginning of this administration, our approach has been to 
implement policies toward Cuba that support the Cuban people in freely 
determining their own future--their own political and economic future. 
Because ultimately, it will be the Cuban people themselves who drive 
political and economic reforms. That is why we lifted restrictions to 
make it easier for Cuban Americans to travel and send remittances to 
their families in Cuba, and opened new pathways for academic, 
religious, and people-to-people exchanges. These changes created 
powerful new connections between our two countries. The steps we are 
implementing now build on this foundation by increasing travel, 
authorized commerce, and the flow of information to, from, and within 
Cuba. The regulatory changes we announced will increase the financial 
resources to support the Cuban people and the emerging Cuban private 
sector. They also enable U.S. companies to expand telecommunications 
and Internet access within Cuba. U.S. policy will no longer be a 
barrier to connectivity in Cuba.
    This administration is under no illusions about the continued 
barriers to internationally recognized freedoms that remain for the 
Cuban people, nor are we under illusions about the nature of the Cuban 
Government. When we sat down with our counterparts in Havana, we were 
clear that our governments have both shared interests and sharp 
differences. From mail service to counter narcotics to oil spill 
mitigation, we owe our people a diplomatic relationship that allows an 
effective pursuit of their interests. On these types of practical 
issues, we agreed to continue dialogue and increase cooperation. At the 
same time, I raised with the Cuban Government our concerns about its 
harassment, use of violence, and arbitrary detention of Cuban citizens 
peacefully expressing their views. I met with dissidents, 
entrepreneurs, and independent media voices to talk about what they 
need from their government and from us.
    I talked with my Cuban counterpart about several elements that 
presently inhibit the work of our U.S. Interests Section, including 
travel restrictions on our diplomats, limits on staffing and local 
access to the mission, and problems receiving timely shipments to the 
mission. The successful resolution of these issues will enable a future 
U.S. Embassy to provide services commensurate with our other diplomatic 
missions around the world and on a par with the many foreign diplomatic 
missions in Cuba. We began a useful discussion and intend to meet again 
this month.
    Having just seen our U.S. diplomats in Havana in action, I would 
like to take this opportunity to salute their tireless work to advance 
U.S. interests on the island by conducting educational and cultural 
diplomacy, monitoring significant political and economic developments, 
and promoting respect for democracy and human rights, including 
engaging with Cuba's independent civil society. These dedicated public 
servants have done their jobs under often very difficult circumstances. 
Our diplomats unite families through our immigration processing, 
provide American citizen services, and issue visas for qualified 
visitors to the United States. Our Refugee Processing Center provides 
assistance to victims of political repression. Our public diplomacy 
officers work in partnership with a range of journalists, including 
those from civil society, and provide hundreds of Cubans each week with 
uncensored Internet access through our three Information Resource 
Centers. Our consular officers issue tens of thousands of travel 
documents annually to Cubans traveling to the United States for the 
purposes of emigrating or visiting friends and family. These efforts 
will continue and expand once we establish diplomatic relations with 
Cuba.
    We have only begun the official talks on normalizing relations--
which will take considerably longer than the first step, which is the 
reestablishment of diplomatic relations. But even while we do so, we 
will continue, both directly and through diplomatic channels, to 
encourage our allies to take every public and private opportunity to 
support increased respect for human rights and fundamental freedoms in 
Cuba. We will continue to use funds appropriated by Congress to support 
the exercise of political and civil liberties in Cuba, facilitate the 
free flow of information, and provide humanitarian assistance. We also 
look forward to increased engagement to empower the Cuban people 
through authorized contact with Members of Congress, U.S. Government 
officials, and American travelers. We encourage Members visiting Cuba 
to expand their engagement with the independent voices in Cuban civil 
society and, whenever possible, to engage effectively on human rights 
and democracy with the Cuban Government.
    We will continue our discussions with our oversight and 
appropriations committees as we move toward a new relationship. We 
appreciate that there is a diversity of views in the U.S. Congress on 
the new direction toward Cuba. However, we hope that we can also work 
together to find common ground toward our shared goal of enabling the 
Cuban people to freely determine their own future.
    We appreciate your attention to these important issues. Thank you 
and I welcome your questions.

    Senator Rubio. Thank you.
    Secretary Malinowski.

 STATEMENT OF HON. TOMASZ MALINOWSKI, ASSISTANT SECRETARY FOR 
 DEMOCRACY, HUMAN RIGHTS, AND LABOR, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Malinowski. Thank you so very much, Mr. Chairman, 
Senator Boxer, members, for having us today.
    It is plain from the debate that we are having that people 
who care passionately about the cause of freedom in Cuba can 
disagree, sometimes passionately, about the best way to advance 
it. I have been working on this cause for many years myself, 
and I believe with all my heart that the President made the 
right decision. I have also listened with great respect and 
care to those who disagree, and I certainly do not dismiss 
their concerns.
    I want to start, though, by making a few points on which I 
hope we all do agree.
    First of all, all of us agree that human rights and the 
empowerment of the Cuban people must be the bedrock of our new 
policy toward Cuba, and it will be. As to how we will take our 
cues from the Cuban people, supporting their vision for Cuba's 
future, Secretary Kerry has explicitly said that we endorse the 
objectives that Cuban civil society groups have rallied around.
    Second, I trust we all agree that the most immediate result 
of this new policy, the release of 53 activists who are now 
back with their families, able to continue their brave work, is 
a good thing. The released men and women include virtually 
everybody known to my Bureau for having been prosecuted in Cuba 
for the peaceful exercise of their political views. And I can 
assure you that we will spare absolutely no effort to ensure 
that everybody in this category is free in Cuba, not just from 
prison but from harassment, threats, and restrictions.
    Third, we all agree that the release of these prisoners 
does not change the fundamental nature of a state that tries to 
stifle everything it does not control. We have no illusions 
about the current leadership's desire to keep things just as 
they are, and we fully agree that none of this, neither Cuba's 
repression, nor its poverty, nor its isolation is the fault of 
the United States or of the embargo. The responsibility lies 
with the Cuban Government. Period.
    At the same time, after 50 years of experience with the 
embargo, we have to face the hard truth that it has not 
weakened the repressive apparatus of the Castro government or 
strengthened Cuban civil society. The dominant feature of life 
in Cuba these last 50 years has been the complete absence of 
change and of hope day after day, year after year.
    I say this as someone who often supports economic 
sanctions, and I totally agree with you, Senator Rubio, when 
you say that no country ever became a democracy simply because 
of trade or tourists.
    At the same time, we have all seen how the Castro 
government has succeeded around the world in making our embargo 
a bigger issue than its own repression, making it extremely 
hard to mobilize international pressure for human rights on the 
island. To its own people, the government has justified Cuba's 
isolation and poverty as a product of American hostility. These 
were terrible excuses. They justified nothing. But we have to 
acknowledge that this has worked for the Castros over the 
years.
    What has changed is that it is not going to work anymore. 
Every country knows now that the United States is not the 
obstacle to Cuba's integration or prosperity. Every citizen of 
Cuba knows that the United States is willing to have normal 
relations with their country, help them connect with the world. 
These steps have raised the Cuban people's expectations and 
shifted the burden for meeting those expectations to the Cuban 
state.
    The state can now respond in one of two ways. It can begin 
the reforms needed for its people to benefit from this opening 
to the United States, in which case the Cuban people will be 
less dependent on their government and have more power to shape 
their future, or it can keep resisting those reforms, in which 
case everyone will know who is to blame.
    So that is the opportunity. We now have to work together to 
try to seize it by getting more information to the Cuban 
people, more resources, by urging other countries to join us in 
pressing the Cuban Government on human rights and democracy. I 
was in Bolivia a couple of weeks ago for the inauguration of 
the new President there, but I went for the express purpose 
also of meeting with leaders and Foreign Ministers from 
throughout the hemisphere to urge them to do just that.
    We are working to ensure that civil society from Cuba can 
engage with governments at the Summit of the Americas in 
Panama. The Cuban Government has also proposed government-to-
government talks on human rights, and I will lead our 
delegation to that effort. And we will continue our programs 
that promote the realization of human rights in Cuba just as we 
do in scores of other countries around the world.
    Now, look, none of us can say what will happen next. Some 
of Cuba's bravest dissidents, people who we profoundly respect 
for their sacrifices, believe little good is likely to come 
from these changes. Others who have sacrificed for the cause of 
democracy believe just as strongly that we have done the right 
thing. There are different views because the future is 
uncertain.
    But I will close by suggesting that this uncertainty after 
decades of absolute depressing certainty that nothing can 
change in Cuba carries with it a sense of possibility. Our task 
is to seize that opportunity and to realize that possibility.
    And I look forward, Mr. Chairman, to working with you and 
other members to do that in the coming months. Thank you.
    [The prepared statement of Mr. Malinowski follows:]

                Prepared Statement of Tom P. Malinowski

    Mr. Chairman, Ranking Member, and members of the committee, thank 
you for the opportunity to testify today, and to share my thoughts 
about how we can best stand up for the human rights and fundamental 
freedoms of the Cuban people.
    It is plain from the debate that followed the President's 
announcement of our new policy that people who feel passionately about 
freedom for the Cuban people can disagree passionately about how best 
to advance it. I have long been committed to this cause, and I believe 
with all my heart that the President chose the right course. I have 
listened with great care and respect to those who disagree, and while I 
will try to address their concerns today, I want to be clear that I do 
not dismiss them.
    I want to start by making a few points on which I hope we all 
agree.
    First, the promotion of universal human rights and the empowerment 
of all Cubans must be the bedrock of our policy toward Cuba. President 
Obama has made clear that it will be. And here, we will take our cues 
from the Cuban people, supporting their vision for Cuba's future. As 
Secretary Kerry has said, we support the key points around which Cuban 
civil society groups have rallied:

  <bullet> Cuban ratification and compliance with various U.N. human 
        rights treaties;
  <bullet> Recognition of independent civil society;
  <bullet> Implementation of constitutional and legal reforms to ensure 
        full respect for labor rights, freedoms of expression, 
        association, peaceful assembly, and expression, and to allow 
        for free elections;
  <bullet> Release of prisoners arrested for political reasons; and
  <bullet> An end to government-sponsored harassment of independent 
        civil society.

    Second, the most immediate result of this policy shift--the release 
from prison of 53 activists who are now back with their families and 
able to continue their brave work--is unambiguously a good thing. The 
released men and women included all Cubans designated by Amnesty 
International as ``prisoners of conscience,'' and many known to my 
Bureau to have been prosecuted for peaceful expression, association, 
and assembly in Cuba. Among them is independent rapper ``El Critico,'' 
arrested after a government-organized counterprotest retaliated against 
him for painting antigovernment messages on his home and distributing 
pro-democracy pamphlets; Ivan Fernandez Depestre, arrested for the 
absurd offense of ``precriminal dangerousness,'' a label the government 
uses to detain people in anticipation of crimes that supposedly are yet 
to be committed; and Sonia Garro, who can march again on Sundays with 
her fellow Ladies in White. We will spare no effort to ensure that 
everyone still detained for simply exercising their rights to freedom 
of expression, association, or peaceful assembly is free, not just from 
prison but from harassment, threats and restrictions on their movement 
and their work.
    Third, we agree that the release of these political prisoners does 
not of itself change anything in Cuba. Cuba remains a one-party state 
that tries to stifle virtually all political, cultural, and economic 
activity that it does not control. The government continues to crack 
down on everything from art performances in Havana squares, to 
independent meetings by civil society out in the provinces. It 
continues to employ short-term detentions--at times with violence--to 
disrupt free expression and peaceful assembly, and has used this tactic 
since President Obama's announcement, including against recently 
released political prisoners. No one should have any illusions about 
the nature of this system, or about the determination of the current 
leadership to keep things just as they are for as long as possible.
    And let's be clear: none of this, Cuba's repression, its poverty, 
its isolation, is the fault of the United States or of the embargo. The 
responsibility lies with the Cuban Government, period.
    At the same time, after 50 years of experience with the embargo, we 
have to face the hard truth that it has not weakened the repressive 
apparatus of the Castro government. It has not strengthened Cuba's 
civil society. It has not given us the leverage we need to press for 
change, or the Cuban people the hope they crave. The Castro government 
has been happy in its isolation. The Cuban people have not.
    I say this as someone who often supports economic sanctions to 
leverage progress for human rights. I completely agree with Senator 
Rubio that no country ever became a democracy simply because of trade 
and tourists.
    At the same time, over many years of working on this issue, I have 
seen how the Castro government has turned our policy against us, and 
how this has helped an authoritarian form of government survive so 
close to our shores long after walls of repression from Berlin to 
Moscow to our own hemisphere came tumbling down.
    For decades, in capitals around the world, the Cuban Government has 
succeeded in making our embargo and its isolation from the United 
States a bigger issue than its own repression, making it difficult to 
mobilize international pressure to improve respect for human rights on 
the island. To its own people, the government has justified Cuba's 
isolation, poverty and lack of democracy as being a result of American 
hostility. These were bad excuses; they justified none of what the 
Cuban people have suffered all these years. But we have to acknowledge 
that, over the years, shifting the blame to America has worked for the 
Castro government.
    It is not going to work any more.
    Now, every country in Latin America and the Caribbean, and indeed 
around the world, knows that the United States is not the obstacle to 
Cuba's integration with the hemisphere and its prospects for economic 
development. Cuban policies are the obstacle. Now every citizen of Cuba 
knows that the United States is willing to have improved relations with 
their country, to support private business on the island, and to help 
connect them to the world. These steps have raised the Cuban people's 
expectations, and shifted the burden of meeting those expectations back 
upon the Cuban state.
    The Cuban Government can respond in one of two ways. It can begin 
the reforms needed for its people to benefit from the opening to the 
United States--by allowing greater Internet access, for example, and 
easing restrictions on private businesses, on travel, and on civil 
society--in which case the Cuban people will be less dependent on their 
government and will have more power to shape their future. This is what 
we hope will happen. Or it can keep resisting those reforms, in which 
case it will further lose domestic and international legitimacy, 
because Cubans and others in the international community will know 
exactly who is to blame for their country's problems.
    Critics of our new policy have argued that we gave away leverage by 
easing restrictions on engagement with Cuba without demanding 
democratic reforms up front. But the Cuban Government did not ask for 
and is not necessarily eager for us to take the steps the President 
announced, which involve efforts to get more information and resources 
to Cuban civil society and private citizens, and greater access to Cuba 
and its people for our diplomats. It should go without saying that the 
Cuban Government wasn't going to stop repressing its people in exchange 
for Americans connecting its people to the Internet. These steps were 
not tradable commodities, but actions we took in our own interest, to 
help ordinary Cubans, and to shift the attention of the world to the 
embargo that matters--the one the Cuban Government has imposed on its 
own people.
    Our new policy has opened these new opportunities to engage with 
the Cuban people; we will now work energetically to seize them and to 
advance them. In doing so, we will continue to consult with independent 
Cuban civil society to hear their views and plans for the future 
activities. And we will urge other countries to join us in pressing the 
Cuban Government on human rights and democracy.
    We have reengaged nations throughout our hemisphere on the 
importance of supporting genuine progress on human rights and 
democratic principles in Cuba as a means to advance meaningful and 
principled regional integration. Last week, I attended the inauguration 
of Bolivian President Morales where I had the opportunity to meet with 
leaders and Foreign Ministers from throughout the hemisphere to stress 
the importance of ensuring we speak with a united voice on Cuba. The 
common reaction was that we had taken a giant step for the hemisphere 
and that the time had come to encourage Cuba to do its part.
    We are also working with our friends in the region, and directly 
with the Government of Panama, to ensure that independent civil 
society, including independent voices from Cuba, can engage 
meaningfully with governments at the coming Summit of the Americas. I 
hope to be at the summit and meet with Cuban civil society, as well as 
other civil society representatives, particularly those who find 
themselves threatened by repressive governments.
    We are also deepening our engagement with Europe to encourage 
partners there to push for advances in human rights and democratic 
principles with their Cuban counterparts. We have engaged with European 
delegations here, and I plan to travel to Europe personally to further 
these discussions. As you know, efforts by the Vatican were critical to 
the successful negotiation that secured the release of Alan Gross and 
of the 53 imprisoned Cuban activists, and we will continue to work with 
the Vatican to encourage the Cuban Government to follow through on its 
other commitments. We will also encourage the EU to press for concrete 
improvements in human rights in their discussions with Havana and to 
support the agenda of independent civil society on the island. No 
government--neither that of the Castros nor those of third countries--
can credibly make the case that pushing the Cuban Government to respect 
universal human rights is taking sides in a dispute between Cuba and 
the United States.
    We are also looking for new and innovative ways to responsibly 
support the emergence of a Cuban private sector as a critical component 
of civil society. We also envision a role for Latin American and 
European countries to create links between private small businesses in 
Cuba and the small businesses in their regions.
    Cubans are also entitled to access uncensored information, 
including through the Internet. As Assistant Secretary Jacobson noted, 
the administration's regulatory changes will help U.S. and 
international telecommunications companies provide Internet service to 
the island. These regulatory changes respond directly to requests made 
to the administration by civil society to facilitate greater access to 
telecommunications equipment on the island. The Castro government can 
no longer argue that its failure to provide Internet access to all 
Cuban citizens is somehow the responsibility of the United States. And 
we hope Latin American and European companies can cooperate in our 
efforts to promote the free flow of information to, from, and within 
the island.
    We are also asking other countries to encourage the Cuban 
Government to allow greater access by the United Nations and other 
international organizations. These actors will provide much-needed 
transparency and are widely seen as credible, objective observers. 
Cuban dissidents have emphasized the important role that the United 
Nations can play in advancing human rights in Cuba, and we will use the 
new opportunities presented by our Cuba policy to mobilize others in 
the U.N. and other multilateral fora in support.
    The Cuban Government has proposed bilateral talks on human rights, 
and I look forward to leading the U.S. team to these talks. Our 
objective in such talks will be to develop an agenda of specific 
reforms that will bring about concrete improvements in compliance with 
applicable international human rights obligations and commitments. The 
Cuban side will of course raise its usual allegations about problems in 
the United States, and I will be proud to defend our record. But we are 
not interested in an abstract debate; we will continue such talks only 
if they chart a course for concrete progress on human rights and 
democratic principles in Cuba. And we will insist that the most 
important dialogue the Cuban Government should have on human rights is 
with its own people.
    President Obama has also made it clear that the U.S. Government 
will continue programs that promote the realization of human rights and 
fundamental freedoms such as freedoms of peaceful expression, 
association, and assembly in Cuba, just as we do in 95 countries around 
the world. These programs are a fundamental part of our human rights 
policy and national security interests around the world. The Cuban 
Government may continue to object to these efforts, and to try to crack 
down on those involved with their implementation. But it will find it 
harder to treat contacts with the U.S. Government and with 
international NGOs as criminal when Cubans see their own leaders 
engaging in diplomatic relations with us. In any case, we will continue 
to manage our programs in Cuba with appropriate discretion to protect 
human rights activists from further reprisal, even as we ask the Cuban 
Government to stop punishing its citizens for activities considered a 
normal part of life in most other countries. We greatly value the input 
and coordination of this committee on our programs and we look forward 
to further conversations.
    Of course, none of this will be easy. If I am right, and our new 
policy succeeds in empowering the Cuban people to shape their political 
destiny, then the Cuban Government may respond by cracking down harder 
in the short run but the Cuban people will have the best opportunity in 
more than half a century to freely determine their own future in the 
long run.
    None of us can say what will happen next. Some of Cuba's bravest 
dissidents--voices we profoundly respect--believe that we've made a 
mistake and that nothing good is likely to come from these changes. I 
hope critics of our policy will acknowledge that others in Cuba who 
have sacrificed for the cause of democracy believe just as strongly 
that we have done the right thing. There are many different views on 
this question, because the future is uncertain.
    I'll close by suggesting that this sudden uncertainty, after 
decades of absolute, depressing certainty that nothing can change, 
constitutes progress. It carries with it a sense of possibility; an 
opportunity for debate. This is what most of the Cubans we've heard 
from in recent days are saying; they don't know if the changes we've 
announced will bring better days or not, but they feel that something 
better is at least possible now.
    Reinaldo Escobar, a journalist who began his career writing for 
official Cuban Government media and now writes for the independent 
Cuban news outlet 14ymedio, summed up this feeling in an essay he 
titled ``A New Dawn.''
    ``The entire world,'' he wrote, ``now has its eyes set on the 
government of Cuba . . . They know it and will have to choose between 
loosening the repression or letting the world down. I am betting that 
they will let the world down, but I am hoping to lose the bet. All the 
signs and accumulated experience clearly say that this is only a new 
maneuver to win some time and to allow them to get away with their 
schemes, but this is also an unprecedented move and things can always 
turn out differently. The most important thing is that the domino game 
has been shaken up and it is time to move the pieces.''
    Mr. Chairman, members of the committee, having shaken up the game, 
we have a chance now to help things turn out differently for the Cuban 
people. I hope we can work together to seize that chance.

    Senator Rubio. Thank you both for your testimony.
    We will begin now the first round of questions. My hope is 
to get at least two rounds in. We are going to go 5-minute 
segments on questions, and we will go by seniority on the 
committee--or 7 minutes I guess; 7 minutes. So let me begin.
    Secretary Jacobson, when did you first learn about these 
negotiations with regards to a change of policy toward Cuba?
    Ms. Jacobson. Well, I knew throughout the period that there 
were efforts underway to secure the release of Alan Gross.
    Senator Rubio. When did you know about the policy changes 
being negotiated?
    Ms. Jacobson. I knew about the policy changes that 
accompanied that effort some weeks--probably about a couple of 
months before they were announced.
    Senator Rubio. In the 2 months that you knew about it, were 
you involved in the negotiations?
    Ms. Jacobson. I was not.
    Senator Rubio. Was anybody in the State Department involved 
in the negotiations?
    Ms. Jacobson. I cannot speak for the Secretary of State. I 
know that no one in my Bureau was involved.
    Senator Rubio. Who were the lead negotiators for the United 
States?
    Ms. Jacobson. To the best of my knowledge, they were the 
NSC personnel that you mentioned at the beginning of the 
hearing.
    Senator Rubio. And who were the lead negotiators for the 
Cuban Government? Were they diplomats or members of the 
military or intelligence?
    Ms. Jacobson. I do not know that.
    Senator Rubio. Were you consulted or regularly briefed by 
the negotiators for your input on the policy changes?
    Ms. Jacobson. What I can say is that when we were talking 
about securing the release of Alan Gross, the State Department 
was in the lead on that part of the Gross detention. We were in 
the lead on the conditions of confinement. We were in the lead 
in contacting his family and working with his family.
    Senator Rubio. But what about the policy changes?
    Ms. Jacobson. Well, there had been a process of looking at 
potential policy changes with Cuba that had been going on 
throughout the administration that had brought many agencies 
together. Much of that discussion was the basis for the 
conversation.
    Senator Rubio. But as the negotiations were ongoing with 
the two individuals that I have identified, who are not here 
today, were you personally contacted? As the person who is now 
in charge of making this come about, were you involved in 
interaction with the negotiators giving them input and advice 
during the last 2 months?
    Ms. Jacobson. In the last 2 months, as we were preparing 
for--on the policy changes, I was not. As we were preparing to 
implement the effect of those changes, I was.
    Senator Rubio. So it is fair to say that this negotiation 
occurred through NSC personnel. The State Department was not in 
charge or involved--unless the Secretary of State was--in 
providing advice and counsel on negotiating the policy changes.
    Ms. Jacobson. To the best of my knowledge, most of the 
preparation on the policy changes had been done through the 
policy committee that was an interagency policy committee prior 
to those negotiations, but during that process, we were not.
    Senator Rubio. Now, Secretary Malinowski, when did you 
learn about these negotiations on the policy changes?
    Mr. Malinowski. Like Assistant Secretary Jacobson, I was 
aware that there were discussions with respect to Alan Gross, 
but in terms of the policy changes----
    Senator Rubio. Did the negotiators reach out to you as 
someone in charge of the human rights portfolio for the State 
Department for a suggestion on who should be on the list of the 
53 political prisoners?
    Mr. Malinowski. We were involved in every conversation 
interagency about political prisoners in Cuba about who----
    Senator Rubio. But were you consulted about how the 53 or 
what the list should be and who should be----
    Mr. Malinowski. The list was based on inputs that were 
provided over time by Cuban civil society organizations.
    Senator Rubio. Were you consulted?
    Mr. Malinowski. Not personally, but I can tell you that 
they asked for exactly the right people to be released.
    Senator Rubio. Which civil society groups in Cuba or 
opposition figures were consulted, to the best of your 
knowledge, about the list?
    Mr. Malinowski. There are a number of Cuban civil society 
organizations, Senator, as you know, who document who is in 
prison in Cuba for the peaceful exercise of their political 
views. All of those lists from a variety of human rights 
organizations were consulted and incorporated, and the list was 
exactly the right list.
    Senator Rubio. So the administration, during these 
negotiations, consulted with civil society in Cuba about who 
should be on the list?
    Mr. Malinowski. We have been consulting as an 
administration for years with Cuban civil society and human 
rights groups.
    Senator Rubio. But specifically with regards to these 
negotiations, were groups within Cuba consulted and asked who 
should be the people that are on the list, who should we 
prioritize, what is the status of each individual on the list?
    Mr. Malinowski. Not specifically with respect to the 
negotiations, which as we all know----
    Senator Rubio. Just in general.
    Mr. Malinowski. But in general we based our knowledge of 
who is in prison in Cuba on their work.
    Senator Rubio. Secretary Jacobson, that takes me back to 
another question. Which civil society groups in Cuba were in 
the loop, so to speak, consulted during the process of this 
negotiation? I know you were not involved, but subsequently you 
have talked to some of them. Which groups within Cuba, which 
pro-democracy groups within Cuba were aware of these 
negotiations and consulted about the subject matter of the 
negotiations during the negotiations?
    Ms. Jacobson. I think you would probably have to ask some 
of those groups, but to the best of my knowledge, we continued 
to consult with those groups throughout that period through our 
interest section and through Tom and my work in the Bureau, as 
we always consult with them. But as part of the negotiations, I 
do not know that any were specifically consulted. The input 
that we get through our interest section and through our own 
work was certainly known to the negotiators.
    Senator Rubio. Okay. Let us talk about something you are 
involved in negotiating now. You traveled to Havana last week--
the week before. The lead negotiator for the Cubans is an 
individual by the name of Josefina Vidal. Correct? You have 
interacted with her in the past.
    Ms. Jacobson. Yes.
    Senator Rubio. Do you find her to be, as you said, a 
serious person?
    Ms. Jacobson. Yes.
    Senator Rubio. So when she speaks, you take what she says 
with some level of authority and seriousness. I mean, she 
obviously has some level of authority from the government to be 
at that table and speak on their behalf.
    Ms. Jacobson. Yes.
    Senator Rubio. I wanted to ask you about yesterday. She has 
a statement. It says, ``Cuba's lead negotiator said in an 
interview broadcast on state television that if the United 
States want free movement for its diplomats in Cuba, it must 
stop using them to support the political opposition.'' This is 
her quote.
    ``The way those diplomats,'' meaning the United States, 
``act should change in terms of stimulating, organizing, 
training, supplying, and financing elements within our country 
that act against the interests of the government of the Cuban 
people. The total freedom of movement, which the U.S. side is 
posing, is tied to a change in the behavior of its diplomatic 
mission and its officials.''
    Would we accept an embassy in Cuba where our diplomats are 
not allowed to meet with democracy activists on the island?
    Ms. Jacobson. We would not curtail the activities we are 
doing now, which is meeting with democracy activist and----
    Senator Rubio. One of the things that we are trying to 
negotiate is opening an embassy in Cuba.
    Ms. Jacobson. Correct.
    Senator Rubio. And she is saying in order for us to open an 
embassy in Cuba--and as you have said, she is a serious person 
who speaks with authority. She made very clear yesterday that 
in order for us to open an embassy in Cuba and allow our 
personnel greater freedom than they have now, we would have to 
agree not to allow them to interact with democracy activists. 
Can you categorically say today we will never accept that 
condition on our personnel?
    Ms. Jacobson. What I can say is that I do not yet know 
whether that is a real condition on their part, but we could 
not accept that condition----
    Senator Rubio. What do you mean it is not a real condition? 
You just said she is a serious person who speaks with authority 
on behalf of the government.
    Ms. Jacobson. I also think that sometimes things are said 
in public that are not necessarily a position in private, and I 
do not know that they have made that a condition yet. You have 
to ask them.
    Senator Rubio. But, in fact, that is their position in 
public today. Is it not?
    Ms. Jacobson. I saw what she said in public. But what I am 
saying is----
    Senator Rubio. But in practice that is their position.
    Ms. Jacobson [continuing]. We could not accept not meeting 
with democracy activists and with the broadest swath of Cubans 
possible. That is the point of this policy. So, yes.
    Senator Rubio. My time is up. I want to get to Senator 
Boxer.
    I guess what I am trying to get today is the following. Can 
you say today to people watching this broadcast and here in the 
audience and to the members of this committee that under no 
circumstances will the United States ever agree to limit--agree 
to limit--the ability of our personnel to interact with 
democracy activists and civil society in Cuba as a condition of 
expanding our embassy operation?
    Ms. Jacobson. We want to have the greatest possible ability 
to interact with everybody, including democracy activists all 
over the island. That is the point of our getting the 
geographic restrictions lifted.
    Senator Rubio. So we will never agree with the Cuban 
Government that in order to open an embassy, we will agree to 
limit our personnel.
    Ms. Jacobson. We are going to keep pushing to get those 
restrictions lifted as part of getting an embassy in Cuba.
    Senator Rubio. Secretary Jacobson, it is a pretty 
straightforward question. Would we ever agree in a negotiation 
to the Cubans that in order to open an embassy, we will agree 
not to send our people to meet with democracy activists? Yes or 
no. Will we ever agree to that?
    Ms. Jacobson. I cannot imagine that we would go to the next 
stage of our diplomatic relationship with an agreement not to 
see democracy activists. No.
    Senator Rubio. Senator Boxer.
    Senator Boxer. Thank you, Mr. Chairman, very much.
    On this question of the White House staff not coming here, 
I would ask unanimous consent to place in the record a White 
House counsel letter which points out that the administrations 
of both political parties do not have White House staff at 
these hearings. I would like to put that in the record.
    Senator Rubio. Without objection.
    Senator Boxer. Thank you very much.


[Editor's note.--The document referred to can be found on page 
87.]


    My friend, the ranking member, seems to say--and I do not 
know that he meant to say this--that Nixon going to China and 
normalizing relations was really not a good thing to do. That 
is what I heard him say. And as I said in my opening statement, 
clearly whether it is relations with China or Vietnam or 
Russia, all of which were normalized by Democratic and 
Republican Presidents, we know human rights abuses are still a 
heart-wrenching problem. And Assistant Secretary Malinowski--I 
mean, that is his middle name, ``human rights.'' And we know 
these countries are tough.
    And the question really is what about the citizens of those 
countries. Does it help them to be isolated from Americans, 
whether it is through trade or talking on the street or the 
ability to interact? You know, I think having a policy in which 
Americans cannot interact with the people that we care about is 
not only, I think, unintelligent but it does not work. And for 
50 years, we have seen it does not work. And I hope that nobody 
here is considering revisiting relations we have had with other 
countries that still have human rights abuses. These abuses are 
a sin against humanity. But I believe if we have contact with 
the people, we give them hope. We give them the possibility of 
being empowered.
    So I have to say with all my heart and deep respect for my 
ranking member and my subcommittee chairman, whom I 
congratulate on the chair--even though I regret that we lost 
control, I do think he deserves congratulations. The fact of 
the matter is they represent the status quo and the status quo 
in Cuba has not worked. And I do not think there is anyone who 
could argue that it has worked, although we will probably hear 
a couple of people suggesting that it continue.
    I think President Obama had courage, just as Nixon had 
courage to go to China, just as Reagan had courage to deal with 
Gorbachev, just as Bill Clinton and John Kerry and John McCain 
had courage to fight for normalization with Vietnam.
    And I ask unanimous consent to place into the record 46 
statements by foreign governments in support of this policy 
change, including Brazil, Mexico, the European Union, and the 
Vatican. May I do that, sir?

[Editor's note.--The volume of statements mentioned above was 
too voluminous to include in the printed hearing. It will be 
retained in the permanent record of the committee.]

    Senator Rubio. Without objection.
    Senator Boxer. Thank you.
    And so in light of that, can I ask our panel in either 
order what effect has the President's new Cuba policy had on 
our relationship with other countries in the region, and the 
world?
    Ms. Jacobson. Thank you, Senator Boxer.
    I think that the reaction to this was immediate and 
extremely positive. We saw, certainly as you have noted, 
widespread throughout Latin America for the policy change. And 
frankly, there was shock by some of Cuba's allies in the 
region, Venezuela and others, who were not quite sure what to 
make of it, and that I think also was a very positive thing. My 
counterpart in the European Union reached out to me 
immediately. They are negotiating with Cuba, and he wanted to 
make sure that we were in sync because he felt immediately that 
we could work more closely together now, including on democracy 
and human rights issues.
    Senator Boxer. Right. So if I can interrupt you. So our new 
policy is in line with our allies' policy.
    Ms. Jacobson. Yes, but just as importantly, when I was in 
Cuba 2 weeks ago, for the first time when we held a large 
reception for democracy and human rights activists, to which we 
invited European and Asian and other diplomats, they all came.
    Senator Boxer. Where was this held?
    Ms. Jacobson. This was at our principal officer's 
residence. They never came in the past, not wanting to be 
associated with our policy.
    Senator Boxer. This is in Cuba.
    Ms. Jacobson. Yes.
    Senator Boxer. Well, I think that kind of answers the 
question----
    Ms. Jacobson. Having the opportunity to meet dissidents.
    Senator Boxer. Could I hear from you, Mr. Malinowski?
    Mr. Malinowski. Certainly. And I have had the same 
experience. As I mentioned, when Assistant Secretary Jacobson 
was in Cuba, I was in La Paz in Bolivia where there was this 
gathering of leaders and ministers from throughout the 
hemisphere for the inauguration. And I met with probably a 
dozen of them, again for the express purpose of talking about 
human rights in Cuba. And I have to say the overwhelming 
reaction I got was ``you have done a great thing for the 
hemisphere. How can we help?'' And for the first time, I think 
we were able to have conversations at that level about what 
these countries can do for human rights in Cuba by raising key 
cases, by urging no more harassment of dissidents, by urging 
Cuba to meet the commitments that it has made on allowing the 
U.N. and the ICRC, including, to prisons, which I agree with 
you, Senator Rubio, is very, very important. On meeting Cuban 
dissidents themselves, for the first time, we can have a 
conversation about that without the overhang of the embargo, 
without anyone being able to say it is your policy that is to 
blame.
    Senator Boxer. Let me just say because I am running out of 
time. To me, one of the most important statements came from the 
Vatican and it said, ``the Holy See will continue to assure its 
support for initiatives which both nations will undertake to 
strengthen their bilateral relations and promote the well-being 
of their respective citizens.''
    Now, having this statement from the Vatican is a big deal. 
I am just wondering. Were you aware that the Vatican was going 
to make that statement, or was this just a reaction? Was there 
any discussion with the Pope just to get his views on this 
prior to this policy?
    Ms. Jacobson. Well, the Vatican's involvement in this 
policy change was crucial. The support of the Vatican and Pope 
Francis was something that was crucial to both sides. The 
respect for this Pope, because he is Latin American, and his 
importance in Cuba and throughout the hemisphere, I think is 
part of the reason it is so well-respected not just in and of 
itself, as Tom said, but because of the emphasis that the Pope 
has put behind it. And I do think that our work with the 
Vatican and the Pope has been instrumental in this.
    Senator Boxer. Do you think that the Pope's strong support 
for this is resonating in Cuba itself?
    Ms. Jacobson. Absolutely. I heard about it everywhere from 
Cardinal Ortega and from others in the church, as well as from 
Cubans I met while I was there, independent private 
entrepreneurs and independent media. This has galvanized them 
as well. They are also encouraged by the fact that the Pope's 
continuing involvement and the Vatican's continuing involvement 
as a facilitator and to some extent as a guarantor gives them 
greater hope that compliance will be assured.
    Senator Boxer. I will close with this. I think that is 
critical. And I am going to write a letter to Pope Francis 
thanking him for his leadership on this. But he has got to stay 
involved. And I do not think there is any doubt we are going to 
have problems with the government there, just like we do, as my 
friend pointed out, in China. Of course, this is not going to 
change everything overnight. So I think his involvement, 
calling it the way he sees it, and being sincere and honest 
about what is happening is going to help us move forward.
    I just want to thank you both of you very much, and I would 
conclude.
    Senator Rubio. Thank you.
    Senator Flake.
    Senator Flake. Thank you. Thanks for having this hearing.
    The chairman and I agree on a lot of things in the Senate. 
We even agree on taste in ties apparently. [Laughter.]
    Senator Flake. But we do disagree on this subject.
    One of the first pieces of legislation I introduced 14 
years ago when I entered the House of Representatives was 
legislation to lift the travel ban. I have always felt that we 
ought to have more Americans traveling to Cuba, not fewer. 
Cuban American families in particular ought to be able to visit 
family members. I was pleased to see the President loosen those 
restrictions a couple of years ago and then take the further 
step of allowing more people to travel to Cuba. It is not an 
acknowledgement that things are better in terms of human rights 
in Cuba or any more democracy. It is a recognition, as was said 
in your testimony, that we hope that we can improve the 
situation.
    So following on that, Ms. Jacobson, you mentioned in your 
testimony that you differentiate between normalization of 
relations and diplomatic relations. Can you expand on that 
briefly?
    Ms. Jacobson. Certainly, Senator. Full normalization of 
relations is a process that will take years and has to include 
a range of issues--and I want to be very clear here--including 
the issues of claims and expropriations. And that was made very 
clear to the Cuban Government.
    The reestablishment of diplomatic relations is a first step 
in that process in the nearer term and enables us to have the 
conversations that can get us to a full normalization. And so 
those two things I think really have to be understood because 
sometimes people talk about normalization and things that they 
may demand in normalization, which is a much longer process 
than this initial step.
    Senator Flake. Thank you.
    With regard to diplomatic relations, there is some 
confusion about what we have in Cuba right now. Can you 
describe our mission in Cuba as it stands, what facilities we 
have, the number of personnel? I think a lot of people would be 
surprised to know what a presence that we have had for a while.
    Ms. Jacobson. We have a U.S. interest section. We are under 
the protection of the Swiss and have been since 1977. The 
building is the same one that we had as an embassy. We have 
about 360 people working in that interest section, of whom 
about 70, 60-something, are Americans. A number of agencies are 
in that building. I believe we are one of the larger diplomatic 
presences in Havana. They do extraordinary work processing 
refugees to come to the United States, obviously, visa 
processing, protection of Americans who travel there, outreach 
to dissidents and civil society, and general support for the 
emerging private sector in Cuba. So it is as much of a range of 
activities as we can do within Cuba today.
    Senator Flake. So establishing a formal embassy is not so 
much a budget issue as it is a change in policy.
    Ms. Jacobson. That is correct. It would not be a budget 
issue in changing our presence. Over time, there might be other 
agencies that would be interested in a fuller relationship. It 
would enable us to do more, pursue additional things, for 
example, in our law enforcement in getting fugitives returned. 
There might be a need to have additional presence. But for now, 
it would be not a major budgetary exercise.
    Senator Flake. I was glad to see the chairman raise--we 
have spoken about this previously--that a fully functioning 
embassy will be expected to have the same requirements and 
protocols that fully functioning embassies elsewhere in the 
world have in terms of a diplomatic pouch and being able to 
travel freely. Those are part of the negotiations that you are 
talking about right now to make sure that we have those items. 
This will be a fully functioning embassy.
    Ms. Jacobson. Right, absolutely. And there are a number of 
things: that ability to see the entire range of Cuban civil 
society, including democracy activists; also the fact that free 
access to the interest section has been controlled by Cuban 
security. We request security, obviously, to protect our 
embassy, but that does not mean screening, and right now people 
are, in essence, screened and their names are taken. That is a 
feature that we would undertake in the future, as we do in 
other embassies. But we basically want to ensure that the 
embassy runs commensurate with embassies all over the world.
    Senator Flake. Mr. Malinowski, you were talking about the 
issues that obviously still remain in the area of human rights. 
Do you believe that with normalized relations or diplomatic 
relations or improved relations that you can more effectively 
press on those issues than we have been able to over the past 
couple of decades?
    Mr. Malinowski. Absolutely, with the strong caveat that we 
have no illusions about this. This is going to be hard. 
Authoritarian regimes do not just give up their power 
voluntarily. But change comes by empowering people to demand 
change. It comes by making the Cuban people less dependent on 
the Cuban state for their livelihood, for their survival. It 
comes through information coming from the outside and less 
control by the Cuban state. And it comes from international 
pressure, and we will be able to generate more international 
pressure on the Cuban Government as a result of this policy.
    Senator Flake. Thank you.
    Ms. Jacobson, do you view the policy changes that have been 
made as a concession to the Cuban Government?
    Ms. Jacobson. Absolutely not, Senator. I think that is a 
really important point. There is nothing in the policy that we 
undertook that was not something done in our national interest. 
Indeed, some of these things are things the Cuban Government 
would not have asked for, and certainly we do not see them as 
concessions. They are designed to empower the Cuban people more 
effectively than we have been able to in the past and to enable 
us to cooperate on those areas where our interests and the 
Cuban Government's may overlap.
    Senator Flake. Well, thank you. I have seen that for a long 
time, and people see that normalization of relations or 
allowing Americans to travel to Cuba is somehow a concession to 
the Cuban regime.
    Ms. Jacobson. Many regimes do not consider U.S. embassies a 
gift. We are pretty active and pretty outspoken.
    Senator Flake. And I would view it the same way in terms of 
travel. We have had various programs. We spend, I think, about 
$20 million a year on democracy programs trying to give more 
Cubans access to the Internet, for example. And the way I see 
it, as Americans travel freely, more freely, and hopefully 
ultimately completely freely, that we can do more in a week by 
just allowing Americans to travel than we could spending tens 
of millions of dollars in untold resources and trouble with the 
policy that we have had in trying to promote democracy to Cuba.
    So thank you for your testimony.
    Thank you, Mr. Chairman.
    Senator Rubio. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Madam Secretary, you know, based on your answers to the 
chairman, in which largely, it seems to me, the State 
Department as an institution which is responsible for 
conducting our Nation's diplomacy was kept in the dark. And you 
can imagine that I was particularly concerned when your deputy 
informed my office that the changes to U.S. policy were not 
used as leverage at the negotiating table, that they were not 
used to secure any concessions from the Castro regime, that 
this was not ``a transactional process.''
    Now, I see you made no mention of fugitives in Cuba, no 
mention of law enforcement issues in your statement, no mention 
of $6 billion in property rights, no mention of $2 billion in 
judgments, no mention of indictments in Federal courts in the 
United States of Cuban officials for the purposes of committing 
murder. And the same deputy informed my office that the U.S. 
Government is conducting a review of Cuba's status as a state 
sponsor of terror in response to a request from the Castro 
regime.
    So despite that everything that we have heard from the 
regime and its surrogates here who operate relatively freely in 
this country is that they wanted exactly what you have largely 
given them. You elicited nothing in return. Even your list of 
53, 14 of those 53 were released before the list was ever 
composed, and several were rearrested. The Red Cross cannot get 
into Cuban jails. You know, this is my problem in understanding 
the nature of the decision here not to elicit anything at the 
end of the day.
    So let me ask you, since you are conducting a review at the 
Cuban Government`s petition as it relates to their being on the 
state sponsor of terrorism, is it not true that the Castro 
regime provides sanctuary to Joanne Chesimard who is on the 
FBI's list of most wanted terrorists for murdering a New Jersey 
State trooper?
    Ms. Jacobson. It is, sir.
    Senator Menendez. Is it not true that the Castro regime is 
providing sanctuary to members of organizations that the State 
Department has named as foreign terrorist organizations?
    Ms. Jacobson. That has certainly been the case.
    Senator Menendez. Is it not true that the State Department 
considers a foreign government providing sanctuary to a 
terrorist that has committed a terrorist in another country to 
be support for international terrorism?
    Ms. Jacobson. Certainly in that past we have used that 
sanctuary, as that has been clearly noted in our reports on 
Cuba in our terrorist----
    Senator Menendez. And just beyond that in general, that is 
a standard that you have used, providing sanctuary to a 
terrorist, because here is what the law says.
    Ms. Jacobson. Yes, yes.
    Senator Menendez. Let me read from the Export 
Administration Act of 1979, which establishes part of the legal 
foundation for designating a country as a sponsor of terrorism. 
It defines the term sponsor of terrorism, ``repeatedly provided 
support for acts of international terrorism to include the 
recurring use of any part of the territory or the country as a 
sanctuary for terrorists for terrorist organizations as a 
sanctuary.'' And that is exactly what we have here, among 
others.
    Now, let me ask you this. The 18-month-long secret 
negotiations began in June 2013. The next month Cuba and North 
Korea got caught smuggling 240 metric tons of weapons through 
the Panama Canal, the single largest violation of U.N. Security 
Council resolution sanctions to date. Was this issue, to your 
knowledge, discussed during the negotiations?
    Ms. Jacobson. I do not know if it was discussed.
    Senator Menendez. Has it been discussed since?
    Ms. Jacobson. Has it been discussed with the Cuban 
Government? It certainly has been discussed with the Cuban 
Government, since the revelation of that, repeatedly.
    Senator Menendez. But since your engagement.
    Ms. Jacobson. It has been discussed with other governments 
and then with the U.N. with the Cuba Government. Since my 
engagement, has it been discussed with them? We have certainly 
discussed the need to comply with international law and 
requirements of that.
    Senator Menendez. Well, good. I am glad we are talking 
about following international law because in the aftermath of 
this incident, the United Nations acted forcefully and applied 
strong sanctions against North Korea----
    Ms. Jacobson. Correct.
    Senator Menendez. Let me finish, Madam Secretary. Against 
North Korea but Cuba got off with nothing more--nothing more--
than a slap on the wrist. So you wonder if having the Cubans 
have the biggest U.N. Security Council violation of sending 
Migs and missiles and tons of equipment to North Korea--so 
North Korea gets further sanctions and Cuba gets nothing maybe 
because that would have upset the secret negotiations that were 
taking place.
    Let me ask you this. You talk about connectivity. Is it not 
true that Cuba has had Venezuela lay a fiber optic cable to 
Cuba, that an Italian telecommunications company partnered with 
ETECSA for several years, and yet dissidents on the island 
still do not have access to the Internet and other forms of 
communication? Because even if you think the law allows the 
investment of U.S. dollars to provide the link to the island, 
there is no guarantee, as we see in China and other places, 
that the Government of Cuba will permit such linkages to 
ultimately take place to the average Cuban. Do you have any 
guarantees of that in your negotiation?
    Ms. Jacobson. We have no guarantees, but that is why, as 
Assistant Secretary Malinowski said, it will be clear who is 
keeping the Cuban people from having that connectivity when 
they can no longer blame any barrier on us.
    Senator Menendez. Well, they do not have a barrier. They 
already have a fiber optic line directly laid by Venezuela into 
Cuba. They had an Italian company participating with them. And 
yet, there is no connectivity for the Cuban people because the 
Castro regime will not permit that connectivity to take place. 
If not, I would be the first one to say let us go ahead and do 
that. But at the end of the day, you got no concessions from 
the regime that even if you allow the fiber optic or other 
technological connections to take place, that they will allow 
the Cuban people to have access to it.
    So this is replete with challenges that we have in terms of 
not getting anything on behalf of the Cuban people.
    And, Mr. Chairman, I would like to include statements in 
the record by the New Jersey Association of Chiefs of Police, a 
letter to President Obama from the New Jersey State Troopers 
Fraternal Association and by various sheriffs of New Jersey as 
it relates to Joanne Chesimard.
    Senator Rubio. Without objection.
    Senator Menendez. Thank you, Mr. Chairman.


[Editor's note.--The submissions referred to can be found 
beginning on page 89.]


    Senator Rubio. Thank you.
    Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    And thank you, Secretary Malinowski and Secretary Jacobson, 
for your attendance today.
    In announcing the policy change, the President stated that 
this is fundamentally about freedom and openness. While I agree 
with the President's words and vision, I have questions about 
the Castro regime which continues to wield absolute power on 
the island, and I am concerned that they may not see it the 
same way.
    In the briefing material that we received for this hearing, 
it stated, short-term detentions in Cuba for political reasons 
have increased significantly over the past several years, a 
reflection of the government's change of tactics in repressing 
dissent. The Havana-based Cuban Commission on Human Rights and 
National Reconciliation reports that there were at least 2,074 
such detentions in 2010, 4,123 in 2011, 6,602 in 2012, and 
6,424 in 2013. For 2014, the group reported that there were 
8,899 such detentions, almost 39 percent higher than the 
previous year. Since the announcement of this policy, have 
those detentions lessened or increased?
    Mr. Malinowski. Since the announcement, from December to 
January, we have actually seen a significant decrease, but I do 
not want to say that 1 month represents a trend. We want to be 
very, very precise and realistic here, and even a single one of 
these detentions is too many. We are going to be watching this 
very, very closely.
    Senator Gardner. Has there been a single detention since 
the announcement of this policy?
    Mr. Malinowski. There have been short-term detentions, 
absolutely, yes.
    Senator Gardner. How many?
    Mr. Malinowski. The number for January--this has not come 
out publicly yet, but I believe it is about 140 or so.
    Senator Gardner. So since the announcement of this opening, 
this overture, there have been roughly 140 new detentions.
    Mr. Malinowski. The nature of the Cuban regime has not 
changed. Absolutely.
    Senator Gardner. I am sorry. What was that?
    Mr. Malinowski. The nature of the Cuban regime has not 
changed, and we have not claimed so.
    Senator Gardner. Do you believe that it will change?
    Mr. Malinowski. I am absolutely confident that the Cuban 
people who have been fighting for change in Cuba are going to 
prevail, and I think they will be more empowered to prevail as 
a result of this new policy.
    Senator Gardner. And do you believe the Castro regime will 
become your partner in that empowerment?
    Mr. Malinowski. I have no indication that they have any 
desire to become our partner in that. That is not the way this 
works in any authoritarian state.
    Senator Gardner. Going back to the issue of the political 
dissidents, Secretary Jacobson, you mentioned that there were 
divisions with the civil rights community, those people who 
support the changes being made and those people who do not. The 
people who do not support these changes that we have been 
talking about today--why do they not support those changes?
    Ms. Jacobson. Senator, I hesitate to speak for them, but I 
certainly listened to them when I was there. And it was very 
important for me to hear from all sides while I was there. Many 
believe that it was not the right thing to do because they fear 
that the Cuban Government will not respond to our willingness 
to have a dialogue. As Assistant Secretary Malinowski said, the 
policy is not based on the Cuban Government changing or 
necessarily being our partner here. We would like that to 
happen. We have no illusions about whether or not it will. It 
is based on trying to empower them. They also may have felt 
that we did not get enough in the deal. It was not really a 
deal. It was what was in our national interests. It was a 
policy in which we do not believe we conceded anything to the 
government.
    But there are differing views. I would let them speak for 
themselves, some in the next panel and elsewhere, to the best 
of their ability. But I heard from them differences in tactics 
and the way we go about this, but not differences in goals or 
what we are all hoping to achieve. And I certainly respected 
their views enormously and learned a great deal from some of 
them about things we might be able to do together going 
forward.
    Senator Gardner. Following up on Chairman Rubio's questions 
on the State Department and the State Department's role in the 
negotiations. You stated the policy committee is where these 
policy changes came from. Is that correct?
    Ms. Jacobson. Certainly within an interagency policy 
committee, many of these changes were discussed broadly before 
the negotiations began.
    Senator Gardner. And who from the State Department is on 
that policy committee?
    Ms. Jacobson. Well, either myself or my deputy who works on 
Cuban affairs or the experts in our Cuba affairs office when we 
are talking about regulatory changes.
    Senator Gardner. And so are they a part of the 
conversations you--or the two that you mentioned a part of 
these changes----
    Ms. Jacobson. We are certainly part of the interagency 
policy committee when those kind of--yes, when that whole 
regulatory change conversation was taking place. Yes.
    Senator Gardner. Secretary Jacobson, some critics of the 
policy have stated that the administration, ``threw an economic 
lifeline to the Castro regime, especially as its two top 
international backers, Russia and Venezuela, are struggling 
financially.'' Do you agree with this assessment?
    Ms. Jacobson. I know that there is concern over the Cuban 
Government gaining resources in the future because of this. 
What I can say is that the Cuban Government has been through 
extremely difficult economic times before, one of which they 
lost 30 percent of their GDP. They have survived those. In 
addition, we strongly believe that the benefits of what the 
Cuban people will gain in resources through this policy 
outweigh any benefit to the Cuban Government that may be gained 
in a policy like this, and those will be greater, we think, 
than what the Cuban Government gains.
    Senator Gardner. How has this affected traditional 
alliances of Cuba?
    Ms. Jacobson. Their alliances with other countries?
    Senator Gardner. Right, correct.
    Ms. Jacobson. Well, I think that I do not know exactly how 
it will affect their alliances, whether it is with Russia or 
Venezuela.
    But certainly what our hope is that we can empower the 
small entrepreneurs, the conversation with the emerging 
entrepreneurial class separating from the state, gaining access 
to information. I think that is very powerful. And obviously, 
the more people who are not reliant on the state for their 
economic future, make their own economic decisions, I think 
politically and economically the more it empowers people to 
think twice about those old alliances.
    Senator Gardner. Thank you, Mr. Chairman.
    Senator Rubio. Thank you.
    Senator Udall.
    Senator Udall. Thank you very much, Chairman Rubio and 
Senator Boxer, and thank you for calling us together in this 
very important hearing. I really appreciate having the 
witnesses here.
    For over 50 years, the United States has followed a failed 
policy in Cuba, a policy that has done nothing to lift up the 
lives of ordinary Cubans. And I think that has been one of the 
points that has been made over and over again, is that our 
thrust with an embargo has hurt the Cuban people while it has 
probably done more to enrich the Cuban Government.
    I believe President Obama, with his actions in December, 
has taken the courageous step toward true change here by 
opening up the island to Americans, increasing opportunities 
for business and agriculture, and taking the steps needed to 
improve telecommunications and access to Internet on the 
island. We will finally be able to engage Cuba in a way we have 
not been able to since the embargo.
    We, of course, need to go further. And I have been pleased 
to work with Senator Flake on his legislation and Senator Leahy 
and others to end the travel ban for Americans. In my mind, the 
best ambassadors we have or the best diplomats we have are the 
American people going and directly interacting with Cubans. And 
that is what we would do by ending this travel ban.
    I strongly believe that these new policies will help. A 
growing number of Cuban entrepreneurs can connect with 
Americans and Cuban Americans and support the free market. I 
met with these new business owners last November when I 
traveled with Senator Flake down to Cuba. There is an 
entrepreneurial spirit there which we can help foster through 
partnerships and interaction with U.S. businesses.
    Mr. Chairman, I would ask consent to put the rest of my 
statement in the record.
    Senator Rubio. Without objection.
    [The prepared statement of Senator Udall follows:]

                   Prepared Statement of Tom Udall, 
                      U.S. Senator From New Mexico

    Chairman Rubio, Ranking Member Boxer, thank you for putting this 
hearing together--to discuss an issue of great importance to this 
committee. For over 50 years the United States has followed a failed 
policy in Cuba--a policy that has done nothing to lift up the lives of 
ordinary Cubans.
    President Obama--with his actions in December--has taken the 
courageous step toward true change. By opening up the island to 
Americans. Increasing opportunities for business and agriculture. And 
taking the steps needed to improve telecommunications and access to the 
Internet on the island. We will finally be able to engage with Cuba--in 
a way we have not been able to since before the embargo.
    We, of course, need to go further. I have been pleased to work with 
Senator Flake on legislation to end the travel ban on Americans--so 
that our best diplomats, U.S. citizens, can interact with the Cuban 
people.
    I strongly believe these new policies will help. A growing number 
of Cuban entrepreneurs can connect with Americans and Cuban Americans--
and support the free market. I met with these new businessowners last 
November when I traveled with Senator Flake. There is an 
entrepreneurial spirit which we can help foster--through partnerships 
and interaction with U.S. businesses.
    We can also help create the tools for ordinary Cubans to 
communicate with their families and the world via the Internet. Even 
the Cuban Government realizes the importance of this. For their economy 
to be successful--and to attract overseas investment--they have to 
improve their telecommunications capabilities. Being the least wired 
country in Latin America is a dead end--and fails to help democracy, 
human rights, or a free market economy in the 21st century.
    The President's regulatory changes take a step in the right 
direction toward--giving U.S. telecommunications companies the ability 
to do business in Cuba. But we need to make these changes permanent. I 
hope to work with members interested in bringing the Internet to Cuba--
by passing such legislation in the future.
    The Embargo has been used as an excuse by the Castro regime for too 
long. It has not helped the Cuban people. Instead, it has left them cut 
off from the world and their families--and prevented change on the 
island.

    Senator Udall. And I would ask specifically, with regard to 
these interactions and entrepreneurship down there, what are 
the things that both of you contemplate in terms of 
interactions between Americans and Cubans in terms of 
furthering business interests?
    Ms. Jacobson. Well, Senator, I think you know that in the 
regulations that have been announced that were implemented in 
January and were announced by the President in December, the 
regulations state that support for private entrepreneurs, this 
emerging class in the 200 or so areas that the Cuban Government 
permits private businesses, small businesses, to exist, are now 
permitted, whether it is building materials or other forms of 
support.
    I met with a group of about seven private entrepreneurs 
when I was there from restaurateurs to barbers to a woman 
making soap, and their sense of optimism and freedom and 
independence was really quite inspiring. Their difficulty at 
getting reliable supplies was also clearly the biggest part of 
their challenge. And so the hope is that people can now, 
whether it is small businesses here or corporations or 
individuals, connect with some of those small businesses and 
try and support their work, whether it is equipment or goods, 
to help them get more reliable supplies. There may be 
foundations and other organizations that can do that as well, 
but it is clear that more people may be able to take advantage 
of the rather Byzantine rules that exist for these 
entrepreneurs with the new regulations.
    And I would also hope--and we have talked about this with 
some of the partners in the hemisphere--that this is an area 
where others throughout the hemisphere can support this 
emerging class and they are keen to do so.
    Mr. Malinowski. Let me just add.
    Senator Udall. Please, go ahead.
    Mr. Malinowski. This is important because this gets us back 
to, I think, the central question on the table today, and that 
is what Assistant Secretary Jacobson just described is not 
anything that the Cuban Government wanted or asked for. And 
this gets us back to the issue of leverage. These are steps, 
the steps that we have announced that are designed to get more 
resources and information to the Cuban people. And imagine what 
would have happened if we had gone to the Castro government and 
said open up your political system or else we will not help 
connect Cuba to the Internet or else we will not help these 
small business people. How much do you think we could have 
gotten for that, even on the question of diplomatic relations?
    As Senator Rubio pointed out, they are now, at least 
rhetorically, trying to put conditions on that. This is not 
something that they themselves are very comfortable with. They 
are nervous about it because it does create these 
possibilities, not guarantees because Senator Menendez is also 
absolutely right. It now depends on them, on their willingness 
to unleash this stuff, and they may not be willing to do that. 
But it does put the burden on them, and that makes them 
nervous. And that is the point of the strategy.
    Senator Udall. And the important point here is we are 
trying to empower the Cuban people, and we do that in the 
business area. We do that in a number of areas with these new 
policies. And I think that is the thrust of this policy, and it 
is a very important thrust in terms of moving us forward.
    Ms. Jacobson. If I could, Senator. The other thing I think 
is critical is, you know, when we held our press conferences 
after the first round of talks, the Cuban Government held a 
press conference and I did as well at the talks themselves. But 
Cuban independent media were not able to come to that press 
conference, which is why the next day I held a larger one in 
our principal officer's residence because all of the Cuban 
independent media that we knew of was invited. We made sure 
they were there.
    But the Cuban Government actually broadcast my press 
availability in Spanish live for the first time. And so I felt 
it was important to talk about things like human rights, to 
talk about things like private businesses because they were 
airing it live. Cuban people were able to hear from an American 
official for the first time live. And then to have Cuban 
independent media be at the principal officer's residence to 
empower them directly that way as well.
    Senator Udall. Thank you.
    Thank you, Chairman Rubio.
    Senator Rubio. Thank you.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    And thanks to our panelists on both panels and all the 
members of the committee.
    Just a moment of personal privilege. This is a subcommittee 
on the Western Hemisphere, and there was an interesting 
announcement earlier today from the Vatican that I just wanted 
to comment on. The Vatican has declared Archbishop Oscar 
Romero's death a martyrdom, a spiritual martyrdom, which is the 
first step toward potential beatification. He was killed by 
death squads in El Salvador in 1980. I think he was one of the 
towering figures in human rights in the 20th century. I was 
living in Honduras and El Salvador during this period and came 
to see the enormous influence that he had for good, standing 
against violence, standing for advocacy for the least of these. 
And we are here in a Western Hemisphere Subcommittee meeting, 
and I think it is an important thing to acknowledge that this 
just happened a couple of hours ago.
    This is a very important hearing and a very important 
debate. And I have dear friends who are kind of on both sides 
of it, and it has caused me to grapple both with the United 
States-Cuba relationship, but also with the whole concept of 
what do diplomatic relationships mean, what do they stand for, 
why do we have them.
    You know, I conclude, as I grapple with that question, that 
diplomatic relationships--they are not a Good Housekeeping Seal 
of Approval. They are not a validation as a star student or a 
gold star for good behavior. That is not what they are because 
we clearly have diplomatic relationships with so many nations 
that we disagree with so strongly about human rights or other 
issues. They are merely a normalized opportunity to create a 
channel so that we can raise issues of importance.
    Recently seven of us took a trip, under the leadership of 
Senator McCain, the chairman of the Armed Services Committee, 
to Saudi Arabia, Qatar, and Israel. In Saudi Arabia, we had an 
opportunity to raise a very important human rights issue. Saudi 
Arabia had sentenced a political blogger to a thousand lashes, 
administered 50 at a time, 1 day a week for 20 weeks, followed 
by 10 years in prison for something that in this country, you 
know, it might annoy us what the blogger had to say but would 
not be punishable in any means, especially in any way so 
barbaric.
    When we arrived in Saudi Arabia, they knew we were going to 
raise this issue. They had done the first day of the flogging, 
but they postponed the second day of the flogging the day that 
we arrived. And when we sat down with the officials, we raised 
it and we told them that this is an alliance. We are allies in 
many ways, but this is so counter to our culture. This is so 
counter to standards of human rights that we just urge you and 
encourage you to rethink this because it makes the relationship 
so much more difficult if you do things like this.
    The announcement came on Friday they were postponing the 
second proposed day of the flogging. That does not mean that 
they are going to not still do it. Just because we raise issues 
does not mean that anybody will do it because we ask. But we 
have a channel at the highest level when we have normalized 
diplomatic relationships to put on the table the things that 
really bother us and to encourage nations to be better. And 
whether or not we do, having that channel and that ability to 
push it is something that I think is very, very important.
    These human rights in Cuba are very, very severe. There are 
human rights issues. I read Oscar Romero's statements about the 
level of repression in El Salvador that he was dealing with, 
and he could be talking about El Salvador in 1982. He could be 
speaking about Cuba in 2015. He could be speaking about a lot 
of places in the world. These are very serious issues.
    But I tend to come down on the side that a more normal 
relationship will give us more angles and levers to play to 
promote better behavior.
    This was alluded to only briefly. Let me ask you this 
question. Senator Boxer put into the record a statement of 
nations that had expressed support. What about the regional 
reaction? I have worried over time that the United States 
position vis-a-vis Cuba has put sort of a ceiling on our 
relationships in the region in ways that could be a challenge, 
and whether it is in international institutions like the 
Organization for American States or even in bilateral 
diplomacy, I think there is so much up-side for more American 
engagement in the Americas. And we always give the Americas 
short shrift. We always are paying attention to the Middle East 
or now we are going to pivot to Asia. It was about Europe, then 
about the Middle East, and now we are going to pivot to Asia. 
It seems like we are always--always--making the Americas be the 
caboose on this train.
    But I have felt, to some degree, that our Cuba policy has 
put a little bit of a ceiling on our relationships in the 
region. Maybe I am wrong about that. What has been the reaction 
of regional allies in the Americas about this announcement?
    Ms. Jacobson. I think, Senator, the policy toward Cuba had, 
in fact, always been--some have called it an irritant in the 
Western Hemisphere, in our relationships with countries in the 
Western Hemisphere. Some have called it a weight. I think it 
has been a problem.
    We will always stand for our principles, talk about, and 
promote and seek to advance human rights. We are not going to 
give up on that for a moment. And we are going to do that as 
effectively as we can. But the hostility toward the way in 
which we have done it in the past five decades vis-a-vis Cuba 
was a real problem with the countries of this hemisphere. And 
they sought to distance themselves from us in ways that impeded 
us getting other things done with them, getting other things 
done on Cuba, but also getting other things done on human 
rights elsewhere in the hemisphere, whether it was press 
freedom throughout the hemisphere or other human rights issues.
    So as Tom said, the biggest reaction we got is this has 
changed--President Santos of Colombia said this has changed the 
history of United States-Latin American relations, that it will 
be really a change throughout the hemisphere. President Roussef 
in Brazil as well. We see it give lift to our policy objectives 
throughout the hemisphere.
    Senator Kaine. Secretary Malinowski, any additional 
thoughts on that?
    Mr. Malinowski. Sure. You know, let us be clear. There have 
been too many excuses made for Cuba in the hemisphere over too 
many years, and I do not like it. And I do not think they were 
good excuses. To the extent that they used the embargo and our 
policy as an excuse for being silent about human rights abuses 
in Cuba, that was not justified.
    But we have to be ruthlessly disciplined in analyzing what 
has been happening and why. The fact is it has been an excuse 
that has worked for Cuba, and we have now taken that away.
    And I think both Assistant Secretary Jacobson and I have 
already noted in our interactions with Latin leaders and 
Foreign Ministers over the last few weeks--we talked about that 
a little bit previously--that there is a completely new 
reaction from those folks when we ask them to help us on human 
rights in Cuba. So we are now going to take full advantage of 
that with your help.
    Senator Kaine. Mr. Chairman, if I could just close. Let me 
just read a quick quote to challenge us all, all Americans, all 
Cubans, all over the world from Archbishop Romero. ``Peace is 
not the product of terror fear. Peace is not the silence of 
cemeteries. Peace is not the silent result of violent 
repression. Peace is the generous, tranquil contribution of all 
to the good of all. Peace is dynamism. Peace is generosity. It 
is a right and it is a duty.''
    Thank you, Mr. Chair.
    Senator Rubio. Thank you.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    I think we all understand that Cuba is not going to change 
overnight. We are at the beginning of a process to change the 
dynamic between the two countries but also to change the 
dynamic between the United States and Latin America in general. 
And Cuba has historically been a centerpiece, a reference point 
that has been used by Latin America in our discussions on many 
issues. There is no question about that.
    Back in the 1980s as the chairman of telecommunications in 
the House of Representatives, I worked extensively on the issue 
of Radio Marti and TV Marti, that was a recognition of the role 
that communications play in opening the minds of Cubans to a 
world that was outside of their boundaries. And it was a 
central part of foreign and diplomatic policy in the United 
States.
    What heartens me in the new announcement is this initiative 
that can deal with greater access to telecommunications for the 
people of Cuba. Right now, there is only one fiber optic cable 
coming into Cuba. In the Dominican Republic, a country with 
almost the same population, they have five fiber optic cables 
coming in.
    So this whole issue of an increase in consumer 
communications devices, software applications, hardware, 
updating communications and Internet services, is something 
that could play a big role in giving information to the 
ordinary Cuban citizen that right now is not available to them. 
For example, it is $5 an hour in Internet cafes in Havana right 
now for the use of the Internet, and when the average income in 
Cuba is only $20 a month, that does not lend itself to the use 
by ordinary Cubans.
    So could you talk a little bit about that and what your 
hopes are for expanded telecommunications policy in Cuba in 
terms of the impact that it can have upon that country's 
people?
    Ms. Jacobson. Certainly, Senator. And I think that this is 
and really can be--and I do not know whether it will have the 
impact we all want. I know that Senator Rubio, the chairman, 
and Senator Menendez and I have talked a lot about trying to 
get more information into Cuba. It has been one of the things 
we have wanted most.
    You know, it allows telecommunications companies for the 
first time to make commercial sales of things like 
communications devices, whether that is cell phones or iPads or 
other forms of equipment, not just to donate them but to make 
those sales. They can also sell--and I do not want to get 
myself too far into this because I will get into Commerce or 
Treasury's regulations and get them wrong. But they also are 
able to sell other Internet-related items to improve the free 
flow of information without a license, without a specific 
license, under general license, without a license from the 
Commerce Department.
    They are also allowed to consolidate gift parcels. They are 
allowed to sell all sorts of things that the private sector can 
sell in terms of equipment and hardware that were not allowed 
before, telecommunications hardware.
    Now, the Cuban Government, including Raul Castro, has said 
they want telecommunications equipment. They want to upgrade 
their infrastructure in telecommunications. They know that they 
need that in order for their economic modernization. I do not 
know whether they really mean that. The point of these 
regulations is that we believe that they need that to offer 
more access to their people. We want to push them on that. They 
need it for their economic modernization. They need it to get 
economic progress. With that we believe will come an opening of 
information to more people, even if they are not intending 
that. And if they resist that, we want to be in the forefront 
of having made that offer aggressively.
    Now, telecommunications firms are just looking at this, and 
we have been in touch with quite a few. There are some that 
have already visited and many more that are now interested, as 
this plays out. So we are optimistic about the interest but not 
necessarily yet about how the Cuban Government will respond.
    Senator Markey. And I appreciate that. But I think because 
we are so close to them, because there are economic synergies 
that could be created from a telecommunications perspective 
between our two countries, understanding that it is a threat to 
an authoritarian regime, you still have this other component 
where there is a natural yearning, especially among young 
people, no matter where they are in the world, to have greater 
access to this modern technology. Americans did not have these 
devices in their pockets going into 1995, but in Africa in 
2001, only 12 million had cell phones. Today in Africa, 1 
billion people have cell phones.
    And so you can see how a huge paradigm shift can occur in a 
very brief period of time with access to these technologies and 
with the change in the access to technologies. It changes the 
relationship between the people and the government, 
notwithstanding their intents to completely control the 
people----
    Ms. Jacobson. And we have seen that in cell phone. Even 
though Internet penetration is very low, cell phone use has 
grown enormously and potentially could grow even more as an 
information tool.
    Senator Markey. So I think that trying to engage on that 
one issue gives us an opportunity to really make a difference. 
Actually I would add energy as well. There is, I understand, a 
huge effort to move to wind and solar in Cuba at a very 
significant level, which would further reduce their need for 
imports of oil from other countries that then kind of tie them 
into agendas in other countries as well.
    I know I am running out of time, but I do think that 
ultimately the more that we engage them at the economic level, 
it tends to then change the country in ways that were 
unanticipatable by the political leaders of that country.
    I thank you so much.
    Senator Rubio. Thank you.
    So we still have a second panel that I desperately want to 
get to. It is important that we hear from them. I am going to 
recognize for a second round of questions. I would ask that 
they be limited to 4 minutes. I know not all the members have a 
question.
    But I wanted to begin basically with the following, and I 
will focus on this. You talk about travel as a key component of 
this plan because you believe the benefits of travel to the 
island to the Cuban people outweigh the benefits to the 
government. So in Cuba, the largest owner of tourist facilities 
is a group. It is called Grupo de Turismo Gaviota. Recently 
``Hotel'' magazine called it the largest hotel conglomerate in 
Latin America. In Cuba, they own well over 52 hotels and the 
largest resorts on the island, 19,000 rooms. Their revenues are 
estimated at over $650 million a year. They plan 47,000 rooms 
by the year 2017. They also own marinas, car rentals, 
restaurants. You name it. They are the single largest player 
not just in Cuba but in Latin America.
    The CEO of that company is an individual by the name of 
General Luis Perez Rospide. He is also a general in the armed 
forces.
    Mr. Malinowski, let me ask you. Is the armed forces of Cuba 
a tool of repression?
    Mr. Malinowski. Yes.
    Senator Rubio. So the CEO of this company that owns all 
these hotels on the island is also a general of this repressive 
government.
    But this company Gaviota is actually owned by a larger 
company, a holding company by the name of GAESA, G-A-E-S-A. 
GAESA owns various companies including this one, but basically 
it has a monopoly on the island of Cuba on telecommunications, 
hotels, restaurants, shops, and gas stations. The CEO of the 
holding company that owns all of these hotels is an individual 
by the name of Luis Alberto Rodriguez Lopez Calleja. That is 
not just an individual with a long name. He is also a general 
in the repressive armed forces.
    Do you know who he is married to, Ms. Jacobson?
    Ms. Jacobson. I do not.
    Senator Rubio. He is married to a lady by the name of 
Debora Castro Espin. Do you venture to guess who that is?
    Ms. Jacobson. I can venture a guess that it is a member of 
the Castro family.
    Senator Rubio. It is. It is actually Raul Castro's 
daughter. So the CEO of the monopoly holding company in Cuba 
that owns all of these hotel rooms, the single largest 
conglomerate in Latin America of tourism, is not just a general 
in the repressive military. He is also the son-in-law of the 
dictator of Cuba.
    So is it not fair to say that if tomorrow an American gets 
on an airplane and travels to Cuba and stays at a hotel and 
rents a car and fills up the tank of their rental car at a gas 
station and eats at a restaurant and shops at his stores, in 
essence every penny they are spending in those facilities are 
more likely than not to wind up in the hands of the repressive 
Cuban military and its officials? Is that not a fair statement 
given the facts I have just given you here?
    Mr. Malinowski. Let me try to address that, Senator Rubio.
    I was born in a Communist country, and I have been studying 
these systems all my life. And what you just described is a 
common feature of every repressive, corrupt, Communist or 
otherwise, totalitarian system in the world. When you actually 
look at the numbers, you find that these hotels that they run, 
these businesses that they run--they earn hard currency, but 
they also seep hard currency because they run them 
inefficiently and that is why they fail. So we actually do not 
know--none of us know--exactly what the net is.
    Senator Rubio. But whatever the net is----
    Mr. Malinowski. But whatever the net is, in all of my 
experience advocating human rights and as someone who often 
supports targeted sanctions against the bad guys, I know of no 
example where we have successfully promoted democratic change 
somewhere by going after travel and tourism, by going after 
little people who travel and interact with each other. When we 
do go after people with those kinds of measures, we go after 
people at the top.
    Senator Rubio. Give me an example of a policy like this 
that you are implementing here today that has led, in the 20th 
or 21st century, into a reluctant tyranny becoming a democracy.
    Mr. Malinowski. I cannot think of any policy that we have 
successfully pursued in which we have gone after remittances 
and travel. There are plenty of situations where we have used 
diplomatic engagement. Sometimes we use diplomatic engagement 
plus sanctions, as we did in Burma, but we did not do it this 
way. We did it in a smarter way. This is a policy that is 
modeled----
    Senator Rubio. Is there an example of a country in the 
modern era that has gone from a tyranny to a dictatorship 
because of these sorts of economic openings that then have led 
the government to make political changes?
    Mr. Malinowski. In many ways, when I look at Cuba today, it 
reminds me of my home country Poland in the 1980s where you 
have a growing black market fed by growing interaction with the 
outside world with a movement at home that was backed by 
strong, moral pressure from the United States and the 
international community and a state that was increasingly 
corrupt and shrinking and shrinking all of the time because it 
could not manage any of this. So, yes, I think the answer is, 
yes.
    Senator Rubio. So Poland is the example. We will examine 
that further at a later date.
    Senator Boxer.
    Senator Boxer. Thank you.
    I would ask unanimous consent to place in the record the 
full statement of Alan Gross, an open letter to President Obama 
from 78 foreign policy thinkers and leaders, a statement--and I 
apologize if I do not pronounce this right--Dagoberto Valdes 
Hernandez, Director--can you help me with this magazine?
    Senator Rubio. Convivencia.
    Senator Boxer. As I was saying, Convivencia magazine. 
[Laughter.]
    Senator Boxer. I would ask that those be placed in the 
record, along with an op-ed in the Miami Herald, ``December 17, 
A Day of Triumph for Cuban Americans,'' by Rick Herrero, 
Executive Director of ``Cuba Now,'' a letter from Bishop Oscar 
Cantu, Chair of the Committee on International Justice and 
Peace, U.S. Conference of Catholic Bishops. I ask that they go 
into the record. Is that all right?
    Senator Rubio. Without objection.


[Editor's note.--The documents referred to can be found 
beginning on page 80.]
    Senator Boxer. I thank you.
    And I would close with this. I know I want us to get to the 
panel so much. So I will just close with a partial quote from 
Alan Gross. And we have to remember that he was held for 5 long 
years in prison in Cuba. And we are all so glad, no matter what 
our views are on Cuba, that he is out. And he submitted a 
written statement for today's hearing, and I am going to read 
this little part of it now and put the rest of the statement in 
the record.
    He says, ``In my opinion''--remember this is someone who 
was in prison there for 5 years--``In my opinion, access to 
information is itself a fundamental human right and is 
essential to empowering the Cuban people . . . Access to 
information enables people to make better-informed decisions 
and to give informed consent . . . Insufficient access to 
information is unhealthy for any citizenry and it materially 
impacts human rights issues on all levels . . . Reestablishing 
diplomatic relations with the Government of Cuba is only a 
first step in reestablishing freedom of information for those 
who live on that island. However, it is an essential step. Why 
would anyone not want to take that step?''
    And, Mr. Chairman, I so respect all the views. I really do. 
But I just think this sums it up from someone who suffered at 
the hands of this corrupt dictatorship. And I stand with him on 
his views.
    Senator Rubio. Thank you.
    Senator Flake.
    Senator Flake. Assistant Secretary Jacobson, do we prohibit 
travel to any other country in the world, restrict it in this 
way? I know we discourage travel sometimes, sometimes for 
security reasons or others. But do we restrict travel to any 
other country?
    Ms. Jacobson. I am going to turn to my colleague to make 
sure, but I think the answer is, no.
    Mr. Malinowski. No. I mean, there are plenty of 
dictatorships that restrict our travel. North Korea is a good 
example.
    Ms. Jacobson. The sanctions on Cuba are harsher than on 
many other countries in the world over the years.
    Senator Flake. There is no guarantee that if we completely 
got rid of the travel ban--I know the President went about as 
far as he could statutorily go--correct--in terms of loosening 
travel, but Congress needs to move to----
    Ms. Jacobson. Correct. He went as far as he felt he could 
within Executive authority.
    Senator Flake. But there is no guarantee that if we throw 
open travel for Americans, allowing them--there is no guarantee 
that the Cuban Government will allow all travel. They still 
have control.
    Ms. Jacobson. I think that is exactly right. I think being 
overwhelmed is a big part of their concern.
    Senator Flake. They obviously want the revenue that is 
associated with travel.
    Ms. Jacobson. They want the revenue associated with many of 
these new measures and are very concerned at how they balance 
that with control.
    Senator Flake. I have always said if somebody is going to 
restrict my travel, it should be a Communist. [Laughter.]
    Senator Flake. Not my own government unless there is a 
compelling national security reason otherwise.
    It would be untrue and it would certainly be a stretch for 
me to say that every travel dollar goes into the hand of an 
ordinary Cuban citizen, a bellhop or a taxi cab driver or 
somebody else, when Americans travel. Certainly some of that 
money does end up in the hands of the Cuban Government. Is that 
true?
    Ms. Jacobson. Yes.
    Senator Flake. But it would also not be accurate to say 
that every dollar goes to the Cuban Government, that there is 
not some kind of seepage. I mean, when you, yourself--you have 
lived in these kinds of systems--you take the writings of 
Hernando de Soto, ``The Mystery of Capital,'' and find out how 
black markets work and how the unofficial economy works. There 
is tremendous seepage that occurs. Is that not right?
    Mr. Malinowski. Absolutely. This kind of interaction 
encourages the development of a black market in which people, 
most important, in addition to enriching themselves, become 
more independent and less dependent on the state. And that is 
how change happens.
    Ms. Jacobson. Well, and I think Hernando de Soto's point 
was of entrepreneurship, that individuals become entrepreneurs 
if the system will not let them do that themselves.
    Senator Flake. Precisely. That is another point of this 
policy in some of the changes in unlimited remittances. How 
much of a change has there been on the island just in the last 
couple of years as a result of ordinary citizens having access 
to some of that capital?
    Ms. Jacobson. I mean, that has been a huge difference 
certainly in the ability of people to start their own 
businesses. That is the single reason that people have been 
able to start their own businesses. It is capital from abroad 
in remittances and in the growth of cell phones and the ability 
of people to get information via SMS and other information. And 
we think that is a crucial part of this, which is why we wanted 
to accelerate those areas.
    Senator Flake. We have seen, as you mentioned, a growth in 
cell phones. The average wage for a Cuban worker is about $20 a 
month. That is not enough to have a cell phone.
    Ms. Jacobson. Correct, which is why both cell phones and 
phone cards to charge them to get minutes are critical.
    Senator Flake. Thank you so much.
    Senator Rubio. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Secretary Malinowski, will you commit to this committee 
that human rights and democracy programs in Cuba will not be 
cut?
    Mr. Malinowski. We certainly will not cut them and I trust 
you will not. So, yes.
    Senator Menendez. Secondly, I have here the last human 
rights report for China. It is dozens of pages long. It talks 
about, among so many other things, enforced disappearance, 
strict house arrests, preventing public expression, repression 
of freedoms against ethnic Uighurs and Tibetans, extrajudicial 
killings, including executions without due process, enforced 
disappearance and incommunicado detention, widespread 
corruption, intense scrutiny and restrictions against NGOs, 
discrimination against women, minorities, persons with 
disabilities, a coercive birth limitation policy, and the list 
goes on and on. So I would like to enter into the record the 
State Department's human rights report on China.


[Editor's note.--The State Department report mentioned above 
can be found beginning on page 104.].]


    Senator Rubio. Without objection.
    Senator Menendez. And certainly you would not hold that as 
a standard after 43 years of democracy and human rights. Would 
you?
    Mr. Malinowski. If Cuba resembles what you just described 
in 20 years, we will have failed. At the same time, if I may 
add, Senator, if I had a choice right now to say that we should 
not have diplomatic relations with China or there should be no 
Internet in China or no private businesses in China, I would 
certainly not take that choice. So the question is the balance 
of possibilities is on our side.
    Senator Menendez. If 43 years from now this reality is 
China is the reality in Cuba----
    Mr. Malinowski. We will have failed.
    Senator Menendez [continuing]. We will have failed.
    Mr. Malinowski. Yes.
    Senator Menendez. And I agree with you on that.
    Now, I do not want to join the ``blame America'' crowd. So 
can you tell me is it not fair to say that the difficulties 
that the Cuban people face is a result of a command and control 
economy and political repression inside of Cuba?
    Mr. Malinowski. Absolutely.
    Senator Menendez. It is not because of the United States.
    Mr. Malinowski. I explicitly said in my opening statement 
it is not----
    Senator Menendez. Because, you know, the suggestion that 
the embargo has created this problem--Cuba can buy from many 
places in the world. It has been able to do so. It just does 
not have the resources to do so effectively.
    Mr. Malinowski. I totally agree.
    Senator Menendez. Let me ask you about this economic 
freedom that we hear all the time. Is it not true, as the 
chairman referred to--just a couple of items--that in Cuba most 
of the businesses are monopolies? It is either a monopoly of 
the Cuban Government and/or its military or a coowner in most 
cases. You just do not get to have an independent free 
business, unless it is a small one, of any consequence. Is that 
not a fair statement?
    Mr. Malinowski. That is correct, and we are trying to break 
that monopoly.
    Senator Menendez. Oh, yes, but you cannot break a monopoly 
unless the regime allows a monopoly to be broken. Even in the 
former Soviet Union, it was Glasnost and Perestroika, which 
were internal openings that allowed things to break forward.
    Now, you get a dollar from a remittance. And it is true 
that you get that dollar after the government takes a 
percentage of it for its transmission. Is it not also true that 
if you really want to buy anything of value, you have to go to 
a dollar store inside of Cuba?
    Ms. Jacobson. It is certainly true that the dollar stores 
are where the goods are.
    Senator Menendez. And who owns the dollar stores?
    Ms. Jacobson. The government.
    Senator Menendez. So the ultimate flow of that money ends 
up in the Cuban Government's hands at that dollar store.
    Now, is it not true that tourism is the second-largest 
driver of Cuba's economy?
    Ms. Jacobson. It may be, yes.
    Senator Menendez. I can assure you it is.
    And so, therefore, when we think about sanctioning any 
entity in the world, we sanction that which ultimately drives 
the greatest resources to a country to move them in a different 
direction.
    And finally, the elements of the whole regional reality. Is 
it not true, Mr. Secretary, that, in fact, many countries in 
the region violate their own human rights and democratic 
principles and like to use that as a cover, using the Cuba 
situation as a cover for their own short-failings? So I would 
expect then that the democratic charter of the OAS, which talks 
about the commitment of all the countries in the Western 
Hemisphere to human rights and democracy is now going to 
flourish as a result of us changing this policy. Is that a fair 
statement?
    Mr. Malinowski. I think we have a much better chance of 
advancing our human rights objectives in the hemisphere. We 
will continue to stand up for them in Cuba. We will stand up 
for them in Venezuela. You saw yesterday we announced our 
latest visa ban list for Venezuela. We have the wind at our 
backs today like we did not several months ago in part because 
of these changes.
    Senator Menendez. And I look forward to those results.
    Thank you, Mr. Chairman.
    Senator Rubio. Thank you.
    We do have a vote at noon, but I will continue to sit here 
so our second panel's testimony can be entered into the record. 
And, of course, I will come back after the vote and preside 
over the questions that we are going to ask them.
    Senator Udall.
    Senator Udall. Thank you very much.
    Obviously, the Pope felt very strongly about this. I 
believe he had a discussion with President Obama when he was at 
the Vatican. When Senator Flake and I went down, we talked with 
Cardinal Ortega.
    Could you tell us a little more about what--I mean, he felt 
this was a moral issue and wanted to speak out--more about what 
activities he took or Cardinal Ortega took in terms of weighing 
in on this issue?
    Ms. Jacobson. I cannot tell you too much of the details. I 
can tell you--because I do not know all of the details of the 
Pope's involvement.
    What I can tell you is that Cardinal Ortega was important 
in conveying messages from the Vatican and from the Pope to 
both of the leaders, and at crucial moments when it was not 
clear that this was going to be able to work, I think the 
Vatican's involvement and the trust that both sides place in 
the Vatican and in this Pope was crucial.
    But I also think that the role that the church has played, 
whether it is stimulating private sector training or education 
or at the time working on human rights issues, whether it was 
Pope John Paul's visit, which was so electrifying, or 
subsequently the release of 75 political prisoners in 2010, has 
been a very important fact. And it is also important that in 
the future the church remain engaged and as part of our own 
civil society engagement with the church moving forward.
    The importance of the Pope in the rest of the hemisphere 
cannot also be discounted. The importance of Pope Francis as a 
figure in Latin America just cannot be overstated. Coming from 
the region, his moral support and encouragement for this deal 
is critically important.
    But I also think that we all now feel an even greater sense 
of obligation to see it through. Certainly we expect that the 
Cuban Government will move forward on the basis of respect for 
the Pope and his imprimatur on this. And that is why we would 
also like to see the human rights groups within Cuba, many of 
them affiliated with the church--Dagoberto Valdes who was just 
referred to has been very involved in the church movement. 
Moving forward, this is a very important part of civil society 
and its growth.
    Senator Udall. Secretary Malinowski, did you have anything 
to say there?
    Mr. Malinowski. I have nothing to add to that.
    Senator Udall. Okay, thank you.
    Is it not true that in talking about businesses and small 
entrepreneurs that there has been dramatic growth in the last 6 
or 7 years in terms of the small entrepreneurs on the island of 
Cuba?
    Ms. Jacobson. There has been dramatic growth, but it is 
from a very small base and it is still relatively small. But 
there are over 200 professions now authorized for small 
business. And, Senator Menendez, you are right. The government 
still has a monopoly in many, many areas. Small businesses 
still feel as if they sort of get the leftovers, what is left 
of production or supply. But that is what we are trying to 
expand. If we can help provide inputs for those small 
businesses, they will not always be relying on the state for 
the leftovers because they are authorized to operate.
    Senator Udall. Thank you.
    Senator Rubio. Senator Kaine, do you have a question?
    Senator Kaine. No, thank you, Mr. Chairman.
    Senator Rubio. All right. Well, thank you both for being 
here today. We are very grateful. We are going to get our 
second panel to come forward. Thank you very much for your 
testimony.
    Mr. Malinowski. Thank you.
    Senator Rubio. Before we welcome the second panel of 
courageous human rights activists and members of the democratic 
opposition in Cuba, I would like unanimous consent that a 
statement by Mr. Antonio Rodiles be included in the record. The 
subcommittee has received a statement from Mr. Rodiles, but he 
could not attend the hearing because the Cuban regime denied 
him his travel documents. Without objection, show that entered 
into the record.
    Senator Rubio. He is a political activist who has achieved 
international visibility for his work and created a forum in 
July 2010 to encourage debate on social, cultural, and 
political issues in Cuba.


[Editor's note.-- The statement referred can be found on page 
95.]


    Now, our second panel. As they come forward, I will 
introduce them briefly. Rosa Maria Paya studied physics in 
Cuba. She was forced into exile in 2013 due to threats 
following the death of her husband, Oswaldo Paya Sardinas, and 
her friend, Harold Cepero, in what appears to have been a state 
security-engineered extrajudicial killing. She is a member of 
the Christian Liberation Movement and is dedicated to the 
struggle for a democratic Cuba.
    Berta Soler is a hospital technician from Havana. Her 
husband, Angel Moya Acosta, is a member of the democratic 
opposition in Cuba and became one of the 75 peaceful activists 
arrested during the March 2013 crackdown, known as the Black 
Spring. Berta is founding member and the current president of 
the Ladies in White, Damas de Blanco. This movement of wives 
and relatives of the Cuban political prisoners demands the 
immediate release of the loved ones and advocates for human 
rights in Cuba. In 2005, the European Parliament awarded the 
Ladies in White its Sakharov Prize for freedom of thought.
    Miriam Leiva is a human rights activist and an independent 
journalist. She is a founding member of the Ladies in White, 
although she left the organization in 2008 and since then has 
concentrated on writing as an independent journalist in the 
defense of human rights in Cuba. And we mourned the death of 
your husband in 2003, the late Oscar Espinosa Chepe.
    And lastly I would like to welcome Mr. Manuel Cuesta Morua, 
an anthropologist, philosopher, and historian. He is the 
secretary general of the Socialist Democratic Current, a 
dissident movement in Cuba, and he chairs the progressive 
Circle Party.
    We welcome your insights. And I will begin with Ms. Leiva. 
Welcome.

     STATEMENT OF MIRIAM LEIVA, HUMAN RIGHTS ACTIVIST AND 
              INDEPENDENT JOURNALIST, HAVANA, CUBA

    Ms. Leiva. Mr. Chairman, distinguished Senators, dear Rosa 
Maria Paya, whose inspiring father was my friend, dear members 
of the peaceful Cuban opposition and dissidents within the 
island nation and abroad, ladies and gentlemen, thank you for 
granting me the opportunity of bringing my voice from Cuba to 
this important hearing.
    I have been a dissident for over 22 years, and I have been 
subjected to surveillance, interrogations, harassment, and 
searches of my home. Like my late husband, Oscar Espinosa 
Chepe, I lost my job and right to a pension.
    In 2003, Oscar was imprisoned with 74 other peaceful Cubans 
and was sentenced to 20 years. Our only crimes have been 
speaking out, writing, and seeking the well-being of the Cuban 
people. For us, that means equal opportunities without 
discrimination and regardless of political opinions and 
economic prosperity.
    As you well know, we have lived under a totalitarian regime 
since 1959 that brought suffering and exile.
    In the United States, 2 million Cubans found that by 
working hard they could have the opportunity to enjoy the life 
they were denied in their own country. In return, they have 
contributed to this society, and today in this room we can 
address prestigious Cuban American lawmakers.
    Meanwhile, for 56 years, the government had been hammering 
Cubans' minds, depriving them of food, clothes, money, 
entertainment, and Internet and closely watching and 
repressing. Because the regime found in the United States the 
suitable culprit for all its failures, wrongdoings and 
repression, it said the perils and shortages were due to 
American imperialism and the embargo.
    Despite all this, change has taken place in the minds of 
the people and not only due to the government's unfulfilled 
promises and their hopelessness. Since the Obama administration 
started its proactive people-to-people policy in 2009, 
beginning with Cuban Americans, a lot has changed. Remittances 
from relatives and friends help Cubans to survive and even open 
small businesses.
    More important, Cubans are increasingly empowered as they 
exchange views with Cuban Americans coming to visit and with 
other Americans on people-to-people programs. The impact on 
Cubans from all walks of life traveling to the United States is 
overwhelming. Here they discover the opportunities offered by 
democracy and work.
    It is still hard to describe the amazement Cubans felt on 
December 17, 2014, when we watched the so-called enemy 
announcing the new measures and read President Obama's speech 
published next to Raul Castro's in the newspapers. Now 
everywhere one goes, there is one main issue in conversations 
and hopeful expectations broadly shared.
    Yet, there is more to be done. How could anyone understand 
that you can visit North Korea but not Cuba? The ability of 
Americans to interact with Cubans is impeded by restrictions to 
travel to our country, and this must be ended.
    Raul Castro is stepping down in 3 years, and currently he 
is paving the way for new leaders. This period is crucial for 
the transition and the future of Cuba, both for civil society 
and foreign partners.
    Brazil, Russia, and China are already positioned in Cuba. 
Yet, Americans and Cuban Americans are still prevented by their 
government from participating in economic and commercial 
relations with Cuba and from contributing to startups in self-
employment that offer independence from state-owned economy.
    While many dissidents and opponents support the new 
American approach, others do not. Nevertheless, our objectives 
are the same: defense of human rights, democratic values, and 
friendship and assistance to the Cuban people.
    The path to liberty, respect of human rights, and democracy 
is arduous, and we must always keep in mind that we must not 
depart from those goals.
    We welcome advice and support from our friends as we 
explain to them how Cuba is now and what can serve it better. I 
believe that is the reason we gather here now. American policy 
towards the Cuban Government has failed for 56 years. So it 
must be changed. The embargo must be lifted to the benefit of 
our people and nations.
    You can only get to know what is going on within the island 
nation, assist the civil society, and offer expertise of your 
commercial and economic entrepreneurs by being there.
    Reestablishing diplomatic relations will grant a better 
environment for American diplomats in Cuba to contact the Cuban 
people and the civil society. Normalizing a 56-year-long 
estrangement will take a long time. But there is now a unique 
opportunity to assist the people of Cuba and it must be not 
wasted.
    Thank you very much.
    [The prepared statement of Ms. Leiva follows:]

                   Prepared Statement of Miriam Leiva

    Mr. Chairman and distinguished Senators, dear Rosa Maria Paya, 
whose inspiring father was my friend, dear members of the peaceful 
Cuban opposition and dissidence within the island-nation and abroad, 
ladies and gentlemen, thank you for granting me the opportunity of 
bringing my voice from Cuba to this important hearing.
    I have been a dissident for over 22 years. I have been subjected to 
surveillance, interrogations, harassment, and searches of my home. Like 
my late husband, Oscar Espinosa Chepe, I lost my job and right to a 
pension.
    In 2003, Oscar was imprisoned with 74 other peaceful Cubans, and 
was sentenced to 20 years. Our only crimes have been speaking out, 
writing and seeking the well-being of the Cuban people. For us, that 
means the quest for equal opportunities without discrimination and 
regardless of political opinions, economic prosperity and a good 
quality of life. In short, freedom and democracy, and respect for all 
human rights.
    As you well know, we have lived under a totalitarian regime since 
1959 that brought suffering and exile.
    In the United States 2 million Cubans found that by working hard 
they could have the opportunity to enjoy the life they were denied in 
their own country. In return, they have contributed to this society, 
and today, in this room, we can address one of many prestigious Cuban-
American lawmakers.
    Meanwhile, 77 percent of Cuba's population was born after 1959. The 
utopia turned into a nightmare. For 56 years, the government had been 
hammering Cubans' minds, sending them to trenches through the island-
nation and abroad, depriving them of food, clothes, money, 
entertainment and Internet, and closely watching and repressing. 
Because the regime found in the United States the suitable culprit for 
all its failures, wrongdoings, and repression, it alleged the perils 
and shortages were due to American imperialism and the embargo.
    Despite all of this, change has taken place in the minds of the 
people, and not only due to impoverishment, disbelief in the 
government's unfulfilled promises, and hopelessness. Since the Obama 
administration started its proactive people-to-people policy in 2009, 
beginning with Cuban Americans, a lot has changed.
    Remittances from relatives and friends help thousands of Cubans to 
survive and even open small businesses.
    More important, Cubans are increasingly empowered as they exchange 
views with Cuban-Americans coming to visit and with other Americans on 
cultural, academic, scientific, religious, sport, and trade activities. 
The impact on Cubans from all walks of life traveling to the United 
States is overwhelming; here, they discover the opportunities offered 
by democracy and work.
    It is still hard to describe the amazement we felt on December 17, 
2014. On that date, Cubans watched the so-called ``enemy'' announcing 
the new measures, and read President Obama's speech published next to 
Raul Castro's in the newspapers. Now, anywhere one goes there is one 
main issue in conversations and hopeful expectations broadly shared.
    Yet, there is more to be done. Americans are the best assets in 
people-to-people diplomacy, but we cannot fully benefit from an 
exchange of ideas, values, and expertise with them. How could anyone 
understand that you can visit North Korea but not Cuba? The ability of 
Americans to interact with Cubans is impeded by restrictions to travel 
to our country, and these must end.
    Raul Castro is stepping down in 3 years, and currently is paving 
the way for the new leaders. This period is crucial for the transition 
and the future of Cuba, both for the civil society and foreign 
partners.
    Mainly, it is Brazil, Russia, and China who are already positioned 
in Cuba. Yet, Americans and Cuban-Americans are still prevented by 
their government from participating in economic and commercial 
relations with Cuba, and from contributing their know-how and 
technology to the startups in self-employment that offer independence 
from the state owned economy.
    President Obama has expressed his unwavering commitment to 
democracy, human rights, and civil society; the continuation of U.S. 
programs aimed at promoting positive change in Cuba; and the 
encouragement of reforms in high-level engagement with Cuban officials.
    While many dissidents and opponents support the new approach of the 
American administration in the relations with the Cuban government, 
others do not. Nevertheless, the objective is the same: defense of 
human rights, democratic values, and friendship and assistance to the 
Cuban people. Likewise in the opposition and dissidence, we all seek 
the well-being and progress of the Cuban people and our country.
    The path to liberty, respect of human rights and democracy is 
arduous, and we must always keep in mind that we must not depart from 
those goals.
    We must also keep on leaving aside personal interests, while we 
devise programs that reflect the needs and aspirations of Cubans to 
whom we aspire to reach out.
    We welcome advice and support from our friends as we explain to 
them how Cuba is now and what can serve it better. I believe that is 
the reason we are gathered here now. The American policy toward the 
Cuban government has disserved it for 56 years, so it must be changed. 
The embargo must be lifted for the benefit of our peoples and nations.
    You can only get to know what is going on within the island-nation, 
assist civil society, bring your values, knowledge, and expertise, and 
offer your commercial and economic entrepreneurs by being there.
    Reestablishing relations will grant a better environment for the 
American diplomats in Cuba, their contacts with the Cuban population 
and the civil society, and their ability to access a direct channel to 
the national officials, among other issues. Normalizing the 56 years 
long estrangement will take a long time. But there is now a unique 
opportunity to assist the Cuban people and it must not be wasted.

    Senator Rubio. Thank you.
    Just to remind the witnesses as well, your full statements 
are entered into the record. We, obviously, are not going to 
cut you off, but to the extent we can keep to the 5 minutes, 
which you did--it was excellent because it allows us to get all 
the statements in and then the questions.
    The vote will start momentarily. I will stay here 
obviously. At some point, I may have to briefly recess to go 
vote and then return, but we are going to continue until we 
hear from everyone.
    With that, welcome, Ms. Rosa Maria Paya.

   STATEMENT OF ROSA MARIA PAYA, CUBAN CHRISTIAN LIBERATION 
MOVEMENT AND DAUGHTER OF SLAIN DISSIDENT, OSWALDO PAYA SARDINAS

    Ms. Paya. Thank you for your invitation and thanks to the 
whole committee for taking their time to listen to my friends 
and I.
    In recent years, my country has been engaged in a 
deception. The Cuban Government is changing the law, but 
ignoring the rights of the people, which were sequestered over 
half of a century ago.
    More people are allowed to enter and leave the country, but 
the regime decides who can enjoy this privilege. The migratory 
reform was established as a control mechanism. For instance, 
the government has invalidated the passport of the artist Tania 
Bruguera just for attempting a performance in Havana.
    The Cuban Government has permitted more people to operate 
small businesses, but due to the Cuban laws, entrepreneurs 
cannot be a factor to foster democracy because their existence 
as private owners depends on their submission to the 
government. There cannot be free markets where there are not 
free persons.
    The Cuban Government said it would free 53 political 
prisoners, but instead it released them on parole. Meanwhile, 
many others were not freed at all. Yosvani Melchor was 
transferred to a maximum security prison last December. He was 
put in prison 4 years ago just for being the son of a member of 
the Christian Liberation Movement, who refused to cooperate 
with state security.
    As my father did 4 months before he was killed, I denounced 
the regime's attempts to impose a fraudulent change, and I 
denounced the interests that hamper a real transition. My 
father also denounced the attempt to link groups of exiles to 
this fraudulent change. He said, ``The diaspora is a diaspora 
because they are Cuban exiles to whom the regime denied all 
rights, as they do to all Cubans. In such a context of 
oppression, without rights and without transparency, the 
insertion of the diaspora would only be part of the fraudulent 
changes.''
    As the engagement would be fraudulent, if the United States 
were to accept the rule of the Cuban Government. We have never 
asked our people to be isolated or embargoed, but engagement 
will only be real if it occurs between free peoples.
    We urge you to truly open up to Cuba, but to advance a 
helping hand is essential to solidarity with the Cuban 
citizenry. It is essential to support the peaceful and legal 
changes that thousands of Cubans have presented to their fellow 
citizens and to the Cuban Parliament, an alternative that 
allows our people to decide their own future.
    There is no respect for the self-determination of the Cuban 
people when negotiations are a secret deal between elites or 
when there is no mention that Cubans can participate or be 
represented in their own society.
    I know that the U.S. Congress and the administration will 
do what you think is best for this country, which has served as 
refuge for nearly 20 percent of our population. But only a real 
transition to democracy in Cuba can guarantee stability for the 
hemisphere. We, the Cubans, are not the Chinese. We are not 
Vietnamese, and we definitely will not accept a Putin-like 
model towards despotism.
    The strategy to prevent a mass exodus from Cuba is not by 
saving the interests of the group now in control. This is an 
unstable equilibrium that could end in more social chaos and 
violence. In fact, this country is already facing a Cuban 
migratory crisis despite the record number of United States 
visas granted. More than 6,500 Cubans arrived in the United 
States via the Mexican border since last October, and more than 
17,000 did so in the previous year.
    With or without the Cuban Adjustment Act, the situation 
will get worse because of the attempts of those in power in 
Cuba for self-preservation of the status quo.
    We Cubans want real changes, to design the prosperous 
country that we deserve and we can build.
    The way that you can promote stability in the region is 
through supporting strategies that engage popular will, to 
reach the end of totalitarianism with dignity for everyone. You 
have the opportunity to support the petition for a 
constitutional plebiscite in favor of multiparty and free 
elections, already signed by thousands of citizens in the 
Varela Project.
    The Cuban Government would not have dared to carry out its 
death threat against my father if the U.S. Government and the 
democratic forces of the world had been showing solidarity. If 
you turn your face, impunity rages. While you slept, the regime 
was conceiving their cleansing of pro-democracy leaders to 
come. While you sleep, a second generation of dictators is 
planning with impunity their next crimes.
    That is why we hope that this Congress demands that the 
petition for an independent investigation regarding the attack 
against my father be included in the negotiations with the 
Cuban Government and that we hear publicly what response is 
given to this point.
    Do not turn your backs on Cubans again. Do not earn the 
distrust of the new actors of our inevitably free future in 
exchange for complicity with a gerontocracy who belongs to the 
cold war era.
    I want to conclude with the words that my father wrote to 
President Obama 5 years ago: ``Your government must move 
forward and extend a hand to the people and the Government of 
Cuba, but with the request that the hands of Cuban citizens not 
be tied. Otherwise, the opening will only be for the Cuban 
Government and will be another episode of an international 
spectacle for hypocrisy. A spectacle that reinforces oppression 
and plunges the Cuban people deeper into the lie and total 
defenselessness, seriously damaging the desire of Cubans for 
the inevitable changes to be achieved peacefully. The pursuit 
of friendship between the United States of America and Cuba is 
inseparable from the pursuit of liberty. We want to be free and 
be friends.''
    Thank you so much.
    [The prepared statement of Ms. Paya follows:]

                 Prepared Statement of Rosa Maria Paya

    Chairman Rubio, Ranking Member Boxer, and members of the committee, 
in recent years my country has been engaged in a deception. The Cuban 
Government is changing the Law, but ignoring the rights of the people, 
which were sequestered over half a century ago.
    More people are allowed to enter and leave the country, but the 
regime decides who can enjoy this ``privilege.'' The migratory reform 
was established as a control mechanism. For example, the government has 
invalidated the passport of the artist, Tania Bruguera, for attempting 
a performance in Havana. Sonia Garro, a member of the Ladies in White, 
and one of the political prisoners released during the Washington-
Havana secret deal, cannot travel abroad and thus she is still a 
hostage of the government, as Alan Gross was for 5 years. The same 
applies to the former prisoners of the Cause of the 75 from the spring 
of 2003.
    The Cuban Government has permitted more people to operate small 
businesses, but due to the Cuban laws, entrepreneurs cannot be a factor 
to foster democracy because their existence as ``private'' owners 
depends on their submission to the government. There cannot be free 
markets where there are no free persons.
    The Cuban Government said it would free 53 political prisoners, but 
instead it released them on parole. Meanwhile, many others were not 
freed at all. Yosvani Melchor was transferred to a maximum security 
prison last December. He was put in prison 4 years ago for being the 
son of a member of the Christian Liberation Movement, who refused to 
cooperate with State Security. The young artist Danilo Maldonado, known 
as El Sexto, was imprisoned after December 17 without committing any 
crime. The regime turns political prisoners into pieces to be 
exchanged, because they can catch-and-release at will more political 
prisoners, and democratic nations accept this blackmail with innocent 
citizens.
    As my father did, 4 months before he was killed, I denounce the 
regime's attempt to impose a fraudulent change, and I denounce the 
interests that hamper a real transition and the recovery of our 
sovereignty. My father also denounced the attempt to link groups of 
exiles to this fraudulent change. He said, ``The diaspora is the 
diaspora because they are Cuban exiles to whom the regime denied all 
rights, as they do to all Cubans. In such a context of oppression, 
without rights and without transparency, the insertion of the diaspora 
would only be part of the fraudulent changes.''
    As the engagement would be fraudulent, if the United States were to 
accept the rule of the Cuban Government. We have never asked our people 
to be isolated or embargoed, but engagement will only be real if it 
occurs between free peoples.
    We urge you to truly open up to Cuba, but to advance a helping hand 
is essential the solidarity with the Cuban citizenry. It is essential 
to support the peaceful and legal changes that thousands of Cubans have 
presented to their fellow citizens and to the Cuban Parliament, an 
alternative that allows our people to decide their own future.
    There is no respect for the self-determination of the Cuban people 
when negotiations are a secret pact between elites, or when there is no 
mention that the Cubans can participate or be represented in their own 
society.
    I know that the U.S. Congress and the administration will do what 
you think is best for this country, which has served as refuge for 
nearly 20 percent of our population. But only a real transition to 
democracy in Cuba can guarantee stability for the hemisphere. We the 
Cubans are not Chinese, we are not Vietnamese, and we definitely won't 
accept a Putin-like model toward despotism.
    The strategy to prevent a mass exodus from Cuba is not by saving 
the interests of the group now in control, this is an unstable 
equilibrium that could end in more social chaos and violence. In fact, 
this country is already facing a Cuban migratory crisis, despite the 
record numbers of U.S. visas granted. More than 65 hundred Cubans 
arrived in the United States via the Mexican border since last October, 
and more than 17 thousand did so in the previous year.
    With or without the Cuban Adjustment Act, this situation will get 
worse because of the attempts of those in power in Cuba for self-
preservation of the status quo.
    We Cubans want real changes, to design the prosperous country that 
we deserve and can build. The only violence here comes from the Cuban 
military against Cubans, that's way the solution is a peaceful 
transition, not an appeasement.
    The way that you can promote stability in the region is through 
supporting strategies that engage the popular will, to reach the end of 
totalitarianism with dignity for everyone. You have the opportunity to 
support the petition for a constitutional plebiscite in favor of 
multiparty and free elections, already signed by thousands of citizens 
in the Varela Project, as is allowed for the Cuban Constitution.
    There is an active campaign by Cubans from all over the globe, 
asking for rights for all Cubans and the Plebiscite, which is a first 
vote for the long-lasting changes that Cuba needs.
    On 22 July 2012, Cuban State Security detained the car in which my 
father, Oswaldo Paya, and my friend Harold Cepero, along with two young 
European politicians, were traveling. All of them survived, but my 
father disappeared for hours only to reappear dead, in the hospital in 
which Harold would die without medical attention.
    The Cuban Government wouldn't have dared to carry out its death 
threats against my father if the U.S. Government and the democratic the 
world had been showing solidarity. If you turn your face, impunity 
rages. While you slept, the regime was conceiving their cleansing of 
the pro-democracy leaders to come. While you sleep, a second generation 
of dictators is planning with impunity their next crimes.
    That is why we hope that this Congress demands that the petition 
for an independent investigation, regarding the attack against Oswaldo 
Paya and Harold Cepero, be included in the negotiations with the Cuban 
Government, and that we hear publicly what response is given to this 
point. Knowing the whole truth is essential in any transition process, 
and to tolerate impunity is to endanger the lifes of all Cubans 
wherever we live.
    Don't turn your backs on Cubans again; don't earn the distrust of 
the new actors of our inevitably free future, in exchange for 
complicity with a gerontocracy who belongs to the cold war era.
    I want to conclude with the words my father wrote to President 
Obama 5 years ago: ``Your government must move forward and extend a 
hand to the people and government of Cuba, but with the request that 
the hands of Cuban citizens not be tied. Otherwise, the opening will 
only be for the Cuban government, and will be another episode of an 
international spectacle full of hypocrisy. A spectacle that reinforces 
oppression, and plunges the Cuban people deeper into the lie and total 
defenselessness, seriously damaging the desire of Cubans for the 
inevitable changes to be achieved peacefully. The pursuit of friendship 
between the United States of America and Cuba is inseparable from the 
pursuit of liberty. We want to be free and be friends.''
    God bless and protect our peoples. Thank you.

    Senator Rubio. Thank you.
    We have 5 minutes left on the vote. So what I think I am 
going to do is briefly recess for 10 minutes, let the members 
vote because they do want to hear your testimony, and then we 
will continue in 10 minutes with you, Mr. Morua and Ms. Soler. 
We will be back in 10 minutes. The committee stands adjourned.

[Recess.]

    Senator Rubio. The committee will come to order.
    We are expecting our colleagues to return momentarily from 
their vote. And the witnesses are taking their seats. I will 
give them a moment to do that.
    So just by point of process for our witnesses, my 
colleagues have left to take a vote which should have 
concluded. They are on their way back I know. And we are going 
to continue, out of respect for your time, to take your 
testimony. So if we are ready, Mr. Morua.

STATEMENT OF MANUEL CUESTA MORUA, SPOKESPERSON FOR PROGRESSIVE 
        ARC AND COORDINATOR OF NEW COUNTRY, HAVANA, CUBA

    Mr. Morua. Thank you all for inviting me to this hearing 
here in the United States. Thank you to Senator Boxer who 
especially invited me here to stay and to share views with you. 
And especially I want to thank Senator Menendez who supported 
me in a hard and difficult moment in Cuba under the oppression 
of the Cuban Government.
    But I am going to continue reading my speech in Spanish 
because I do not want to see myself smashing the English 
language. So I ask you to open your ears and try to understand 
my views.
    Mr. Morua [through the interpreter]. My name is Manuel 
Cuesta Morua. I am a historian and I tried to be a lawyer until 
the regime determined that I could not be one. Imagine why. I 
am 52 years old, 24 of which I have dedicated to fighting for 
democratic change, establishing fundamental liberties, the 
struggle for social equity and also racial equality. I am what 
in Europe and Latin America is called a social democrat. This 
is someone who believes in liberties, the rule of law, justice, 
equality, and minority rights. Many things to be accomplished 
in only one life, but I will persevere.
    I am, above all, a Cuban. I have faith that things can be 
accomplished if we fight hard enough and if we act according to 
our moral compass and if we put reason above passion.
    I am also a politician who believes that politics can 
change things and that emotions can destroy the best of 
intentions. I am a politician and I am one in Cuba. Today this 
means putting the Cuban nation above ideological 
considerations. This means looking at what I consider to be in 
the best interest of my country before what I consider to be in 
the best interest of my party.
    Having said that, I believe that in many ways my 
compatriots here today can have a different focus on how to 
achieve democracy in Cuba but not a different purpose for the 
nation and the destiny we share. We are absolutely united on 
this.
    My focus after December 17 is the following. The policy 
change announced by the U.S. Government, first of all, allows 
for fostering to make way for political action. That means that 
all actors are obliged to act according to policy and not 
epics.
    Secondly, this places democratic debate on the main stage 
in Cuba.
    Three, this eliminates the burden of always having the 
external conflict between states trumping internal conflicts 
for democracy within the current framework of international 
relations.
    Four, this allows the open discussion about citizens' 
political sovereignty above the discussion focused on the 
sovereignty defended by states.
    Five, this destroys the narrative that has been peddled by 
the Cuban state to its society, a narrative that has been based 
pedagogically, on the natural confrontation between Cuba and 
the United States.
    This disarms the Latin American foreign policy that has 
allowed in the hemisphere the democratic debate to be disguised 
by the conflict between north and south.
    Seven, regarding the evasive Cuban state and its bad 
policies towards its citizens, this makes the public discussion 
over the error and horror of the state more possible.
    Eight, this eliminates the alibi of the failed economic 
model, if such a thing ever existed.
    Nine, this frames the debate over human rights in Cuba on 
the basis of a conflict about values, not a conflict among 
states.
    Ten, this opens the possibility of the soft power of 
culture and diplomacy and not the hard power of war or civil 
strife.
    Eleven, hyperventilates a closed regime that has been able 
thus far to control their own dose of oxygen that has allowed 
it to survive.
    Twelve, opens the way for the legitimization of civil 
society among actors in both Latin America and the United 
States.
    Thirteen, destroys the Cuban regime's victim-tormentor 
ambiguity, clearly exposing it as the tormentor not only of 
political and human rights activists but also of 99 percent of 
its citizens.
    There is a premise that I would like to share in order to 
put my analysis in perspective: Cuban authoritarianism cannot 
survive an opening the same way that Chinese authoritarianism 
can and has.
    And, of course, the impact of diplomatic normalization can 
be debated profusely, which is not the same as normalization 
among two countries, over the structural well-being of the 
country, which is what should matter the most if a clear vision 
by the state is assumed.
    In this sense, I do not believe that we should confuse 
economic liberty with economic liberalization. We cannot also 
confuse freedom of expression and information with greater 
access to information and better technological infrastructure 
for citizens to be informed, and moreover, we should not hide 
the economic lack of productivity with the trade deficit that 
would come with an avalanche of corn, soy, rice, oil, chicken, 
and potatoes from the United States to Cuba. However, I believe 
that it allows the conditions for Cubans to get involved in the 
struggle for fundamental rights. At the end of the day, the 
force of example goes a long way to push for change.
    I do not believe that the change in U.S. policy will bring 
us freedom, which would be the best outcome. The freedom of 
Cuba is exclusively a matter for Cubans. But believe me, that 
new policy will give us better options for us to obtain it by 
ourselves.
    Obviously, one thing is a new policy and the other is what 
is perceived about that new policy. The way in which the 
democratic community in Cuba learned of the new policy 
introduced by the administration created the sense that the 
normalization of diplomatic relations between states also 
supposed an international normalization for the Cuban regime. 
This immediately led to a new division, an artificial one and 
one in which in my view between those with a soft focus and 
those with a hard one, as if this was the equivalent of a 
division among those who defend human rights and basic freedoms 
in Cuba.
    I would like to break the news to you that this is not the 
case. My experience in the last few days, together with Cubans 
on the island, in the United States and Puerto Rico is that we 
walk and can walk together precisely thanks to our differences. 
In the past few days, many people have adopted a new mantra: 
differences enrich nations instead of weakening them.
    Miriam Leiva, Berta Soler, Rosa Maria, and Manuel Cuesta 
are together in the greater goal for democracy and the well-
being of Cuba, thanks to the fact that they are all different.
    Allow me to make a suggestion. The United States can engage 
the Cuban democratic community with all its plurality and 
sustain a frank, measured, and honest conversation with it. You 
will see that reason prevails.
    Mr. Morua. Thank you very much.
    [The prepared statement of Mr. Morua follows:]

    Prepared Statement of Manuel Cuesta Morua (English Translation)

    My name is Manuel Cuesta Morua. I am a historian and I tried to be 
a lawyer until the regime determined that I could not be one. Imagine 
why. I am 52 years old, 24 of which I have dedicated to fighting for 
democratic change, establishing fundamental liberties, and the struggle 
for social and racial equality. I am what Europeans and Latin Americans 
call a social democrat; which is someone who believes in liberties, the 
rule of law, justice, equality, and minority rights. Many things to be 
accomplished in only one life. But I persevere.
    Yet above all, I am Cuban. With faith in the things that can be 
accomplished if we fight hard enough, if we act according to our moral 
compass, and if we put reason above passion.
    I am also a politician who believes that politics can change 
things, and that emotions can destroy the best of intentions.
    I am a politician, and I am one in Cuba. Today this means putting 
the Cuban nation above ideological considerations.
    This means looking at what I consider to be in the best interest of 
my country, before what I consider to be in the best interest of my 
party.
    Having said that, I believe that in many ways my compatriots here 
today can have a different focus on how to achieve democracy in Cuba, 
but not a different purpose for the nation and the destiny we share. In 
that we are absolutely united.
    My focus after December 17 toward that nation that we share is as 
follows. The policy change announced by the United States Government:

    1. Allows for posturing to make way for political action. This 
means that all actors are obligated to act according to policy, not 
epics.
    2. It places the democratic debate on the main stage: Cuba.
    3. Eliminates the burden of always having the external conflict 
between states trumping internal conflicts for democracy, within the 
current framework of international relations.
    4. Allows the open discussion about citizens' political sovereignty 
above the discussion centered on the sovereignty defended by states.
    5. Destroys the narrative peddled by the Cuban state to its 
society, a narrative that has been based, pedagogically, on the natural 
confrontation between Cuba and the United States.
    6. Disarms the Latin American foreign policy that has allowed the 
democratic debate to be disguised by the conflict between North and 
South.
    7. Regarding the evasive Cuban state and its bad policies toward 
its citizens, this makes the public discussion over the error and 
horror of the state more possible.
    8. Eliminates the alibi of the failed economic model, if such a 
thing ever existed.
    9. Frames the debate over human rights in Cuba on the basis of a 
conflict about values, not a conflict among states.
    10. Opens the possibility of the soft power of culture and 
diplomacy, and not the hard power of war or civil strife.
    11. Hyperventilates a closed regime that has been able thus far to 
control their own dose of oxygen that has allowed it to survive.
    12. Opens the way for the legitimization of civil society among 
actors in both Latin America and the United States themselves.
    13. Destroys the Cuban regime's victim-tormentor ambiguity, clearly 
exposing it as the tormentor, not only of political and human rights 
activists, but also of 99 percent of citizens.

    There is a premise that I would like to share in order to put my 
analysis in perspective: Cuban authoritarianism cannot survive an 
opening the same way Chinese authoritarianism can and has.
    And of course the impact of diplomatic normalization can be debated 
profusely, which is not the same as normalization among two countries, 
over the structural well-being of the country--which is what should 
matter the most if a clear vision by the state is assumed.
    In this sense, I do not believe that we should confuse economic 
liberty with economic liberalization. We cannot also confuse freedom of 
expression and information with greater access to information and 
better technological infrastructure for citizens to be informed, and, 
moreover, we should not hide the economic unproductivity with the trade 
deficit that would come with an avalanche of corn, soy, rice, oil, 
chicken, and potatoes from the United States to Cuba. On the short run, 
what is good for U.S. industry and stomachs on the Island, will 
probably not be good on the long run for our country's project. 
However, I believe that it allows the conditions for Cubans to get 
involved in the struggle for fundamental rights. At the end of the day, 
the force of example goes a long way to push for change.
    I do not believe that the change in U.S. policy will bring us 
freedom, which would be the best outcome. The freedom of Cuba is 
exclusively a matter for Cubans. But believe me, that new policy will 
give us better options for us to obtain it by ourselves.
    Obviously, one thing is a new policy and the other is the way it is 
percieved. The way in which the democratic community in Cuba learned of 
the new policy introduced by the administration created the sense that 
the normalization of diplomatic relations between states also supposed 
an international normalization for the Cuban regime. This immediately 
led to a new division--an artificial one in my view--between those with 
a soft focus and those with a hard one, as if this was the equivalent 
of a division among those who defend human rights and basic freedoms in 
Cuba.
    I should break the news to you that that is not the case. My 
experience in the last few days together with Cubans on the Island, in 
the United States and Puerto Rico is that we walk and can walk together 
precisely thanks to our differences. In the last few days many people 
have adopted a new mantra: differences enrich nations, instead of 
weakening them.
    Miriam Leyva, Berta Soler, Rosa Maria, and Manuel Cuesta are 
together in the greater goal for democracy and the well-being of Cuba, 
due to the fact that they are different.
    Allow me to make a suggestion: the United States can engage the 
Cuban democratic community, with all its plurality, and sustain a 
frank, measured, and honest conversation with it. You will see that 
reason prevails.

    Senator Rubio. Thank you.
    And Ms. Soler.

             STATEMENT OF BERTA SOLER, PRESIDENT, 
                  CUBAN LADIES IN WHITE, CUBA

    Ms. Soler [through the interpreter]. Senator Marco Rubio, 
distinguished Members of the Senate, before all, I want to 
thank you for listening.
    We live presently a particularly defining moment for the 
future of our country in the wake of the recent announced 
reestablishment of diplomatic relations between Cuba and the 
United States.
    I am appearing here as the leader of the Ladies in White, a 
group of women activists who support change toward democracy in 
our country through nonviolent means, inspired by the example 
of women such as Rosa Parks and Coretta King, among others, who 
with courage and determination blazed paths for the full 
enjoyment of civil rights in this country. Now 50 years after 
the events in Selma, AL, and testifying before a subcommittee 
whose mandate includes global women's issues, it is a great 
honor and an historic opportunity for me to appear before you.
    I also speak on behalf of numerous leaders and activists 
from Cuban civil society who have entrusted me with speaking 
for them before you. It is a civil society that is particularly 
repressed by the intolerance of a government whose exercise of 
power consists of systematic violation of the human rights of 
the Cuban people. Just before I left Cuba in order to prepare 
for this event, last January 28th, we celebrated the birth of 
our founding father, Jose Marti, and just before I left Cuba, 
dozens of activists were arrested in Havana and other provinces 
for attempting to place offerings of flowers at statues of Jose 
Marti. In its totalitarian vision, the dictatorship seeks a 
monopoly on our national identity through the use of force 
against all independent activists.
    The most respected international human rights organizations 
have documented violations of human rights in Cuba. On October 
28, 2013, the Inter-American Commission on Human Rights issued 
an injunction on behalf of members of the Ladies in White to 
afford protection in the face of systematic repression by Cuban 
authorities. I submit the official Precautionary Measure issued 
by the commission for these purposes, as well as the report 
submitted to the commission by the Association of Independent 
Cuban Lawyers, Cubalex, which initiated the case before the 
commission. I request that these reports be made part of the 
record of this hearing as documentary evidence of our 
testimony.
    These documents demonstrate that the subject of political 
prisoners, one of the most sensitive issues in Cuba today, 
reaches far beyond the occasional or periodic release of some 
of them. Resolving this matter requires the unconditional 
freeing of everyone who has been jailed for political reasons 
on the island and the elimination of all legal restrictions 
used to repress those who think differently from the regime.
    Cuba continues to be a country with a one-party government 
where fundamental freedoms that are an absolute right in North 
American society are crimes against what they regard as state 
security. Separation of powers does not exist in Cuba. Freedom 
of expression and association continue to be repressed and the 
constitution establishes the Communist Party as the driving 
force for society. The right to strike is regarded as a crime, 
with workers on and off the island subject to conditions of 
labor slavery which have been denounced by international 
organizations. While these conditions prevail, it is not 
possible to speak of a willingness to change on the part of the 
Castro regime.
    That same January 28, during his appearance before the 
third Summit of the Community of Latin American and Caribbean 
States, CELAC, held in San Jose, Costa Rica, the dictator, Raul 
Castro, stated that Cuba will not give up one millimeter. For 
us, this signals the continuation of beatings, jailing, forced 
exile, discrimination against our children at school, and 
again, all manner of patterns of intimidation we suffer daily 
for wanting to see a pluralistic society, democratic, and 
inclusive in Cuba.
    Our aspirations are legitimate because they are undergirded 
by the Universal Declaration of Human Rights to which Cuba is a 
party, and the signed international pacts on civil and 
political rights which have not been ratified by the 
dictatorship. Our demands are quite concrete: freedom for 
political prisoners, recognition of civil society, the 
elimination of all criminal dispositions that penalize freedom 
of expression and association, and the right of the Cuban 
people to choose their future through free, multiparty 
elections.
    We believe these demands are just and valid. Even more 
importantly, for us they represent the most concrete exercise 
of politics, a step in the direction of democratic coexistence. 
Cuba will change when the laws that enable and protect the 
criminal behavior of the forces of repression and corrupt 
elements that sustain the regime change.
    In the name of those who have been executed by firing 
squads, in the name of Cuban political prisoners, in the name 
of the pilots from the humanitarian organization, Brothers to 
the Rescue, murdered on Fidel Castro's orders, in the name of 
the victims from the March 13th tugboat, in the name of the 
victims of Cuba's Communist regime, Cuba yes, Castro no.
    [The prepared statement of Ms. Soler follows:]

        Prepared Statement of Berta Soler (English Translation)

    Honorable Senator Marco Rubio, chairman of the Subcommittee on 
Western Hemisphere, Transnational Crime, Civilian Security, Democracy, 
Human Rights and Global Women's Issues, distinguished members of the 
subcommittee, above all, I want to thank you for listening to me and 
also to thank all of the people and organizations who have made it 
possible for me to testify on the human rights situation in my country, 
Cuba. We are presently living through a particularly defining moment 
for the future of our country in the wake of the recent announced 
reestablishment of diplomatic relations between Cuba and the United 
States.
    I am appearing here as the leader of the Ladies in White, a group 
of women activists who support change toward democracy in our country 
through nonviolent means, inspired by the example of women such as Rosa 
Parks and Coretta King, among others, who with courage and 
determination blazed paths for the full enjoyment of civil rights in 
this country. Now 50 years after the events in Selma, Alabama, and 
testifying before a subcommittee whose mandate includes Global Women's 
Issues, it is a great honor and an historic opportunity for me to 
appear before you.
    I also speak on behalf of numerous leaders and activists from Cuban 
civil society who have entrusted me with speaking for them before you. 
It is a civil society that is particularly repressed by the intolerance 
of a government whose exercise of power consists of the systematic 
violation of the human rights of the Cuban people. Just before I left 
Cuba to be here, last January 28th, the day we celebrate the birth of 
our Founding Father Jose Marti, dozens of activists were arrested in 
Havana and other provinces for attempting to place offerings of flowers 
at statutes of Jose Marti. In its totalitarian vision, the dictatorship 
seeks a monopoly on our national identity through the use of force 
against all independent activists.
    The most respected international human rights organizations have 
documented violations of human rights in Cuba. On October 23, 2013, the 
Inter-American Commission on Human Rights issued an injunction on 
behalf of members of the Ladies in White, to afford protection in the 
face of systematic repression by Cuban authorities. I submit the 
official Precautionary Measure issued by the Commission for these 
purposes, as well as the report submitted to the Commission by the 
Association of Independent Cuban lawyers (Cubalex) which initiated the 
case before the Commission. I wish also to submit a report prepared by 
Cubalex on Cuba's prison system.
    I request that these reports be made a part of the record of this 
hearing as documentary evidence for our testimony.
    These documents demonstrate that the subject of political 
prisoners, one of the most sensitive issues in Cuba today, reaches far 
beyond the occasional or periodic release of some of them. Resolving 
this matter requires the unconditional freeing of everyone who has been 
jailed for political reasons on the island and the elimination of all 
legal restrictions used to repress those who think differently from the 
regime.
    Cuba continues to be a country with a one-party government where 
fundamental freedoms that are an absolute right in North American 
society are crimes against what they regard as ``State Security.'' 
Separation of powers does not exist in Cuba, freedom of expression and 
association continue to be repressed and the constitution establishes 
the Community Party as the ``driving force'' for society. The right to 
strike is regarded as a crime with workers on and off the island 
subject to conditions of labor slavery which have been denounced by 
international organizations. While these conditions prevail, it is not 
possible to speak of a willingness to change on the part of the 
Castroite regime.
    That same January 28, during his appearance before the third Summit 
of the [Community of Latin American and Caribbean States] (CELAC), held 
in San Jose, Costa Rica, the dictator Raul Castro stated that [Cuba] 
``. . . will not give up one millimeter . . .'' of its system of 
government as negotiations between Cuba and the United States begin, 
and that it would make no sense to demand that he make changes to a 
military, dynastic dictatorship that has been in power for more than 
half a century. For us, this signals the continuation of beatings, 
jailing, forced exile, discrimination against our children at school, 
and all manner of patterns of intimidation and abuse we suffer daily 
for wanting to see a pluralistic, democratic, and inclusive Cuba.
    Honorable Mr. Chairman, honorable members of the subcommittee, our 
aspirations are legitimate because they are undergirded by the 
Universal Declaration of Human Rights to which Cuba is a party, and the 
signed international pacts on civil and political rights which have not 
been ratified by the dictatorship. Our demands are quite concrete: 
freedom for political prisoners, recognition of civil society, the 
elimination of all criminal dispositions that penalize freedom of 
expression and association and the right of the Cuban people to choose 
their future through free, multiparty elections.
    We believe these demands are just and valid. Even more importantly, 
for us they represent the most concrete exercise of politics, a step in 
the direction of democratic coexistence. Cuba will change when the laws 
that enable and protect the criminal behavior of the forces of 
repression and corrupt elements that sustain the regime change.
    In the name of those who have been executed by the firing squads.
    In the name of Cuban political prisoners.
    In the name of the pilots from the humanitarian organization, 
Brothers to the Rescue, murdered on Fidel Castro's orders.
    In the name of the victims from the ``March 13th'' tugboat.
    In the name of the victims of Cuba's Communist regime.
    Cuba yes, Castro no.
    Thank you very much.

    Senator Rubio. Thank you, and that last sentenced needed no 
translation. It was well understood.
    Thank you all for being here today.
    I have some questions. I know that my colleagues do as 
well. So let me begin.
    For all four members of the panel, this is in respect to 
time. If you wish to elaborate, of course, you can, but this is 
a pretty straightforward question. No matter how you feel about 
the new policy toward Cuba, do I take it that all four of you 
agree that it would be a mistake to move forward on these 
policies without direct consultation and step-by-step 
partnership with civil society and the democratic opposition on 
the island?
    Ms. Leiva. If I understand you is that if the American 
Government has to ask to talk with us for each step it takes. 
Is that what you mean?
    Senator Rubio. No. My question is would it be a mistake to 
move forward on changes with policy toward Cuba without direct 
and ongoing consultation with civil society and the democratic 
opposition on the island.
    Ms. Leiva. I still see it the same way.
    Senator Rubio. Okay. Anybody else?
    Ms. Paya. Yes. If I understand, you are putting the step of 
talking with us, of consultation with civil society and with 
the opposition. And I think that, of course, that is important 
for the future of this engagement if this engagement is going 
to be for the good of the Cuban citizens, but not just. What I 
want to be clear is that I think it is important to talk with 
the civil society, to talk with the opposition, and also to put 
onto the table of negotiations the voices of the citizenry. We 
are not just asking for recognition for the civil society and 
the opposition. This is not a partition scene. But the Cuban 
citizens have very specific demands, which are the demands of 
the Varela Project but are elemental demands that we share with 
the democratic countries. And I hope that the demands also be 
on the table of negotiation.
    Thank you.
    Senator Rubio. Mr. Morua.
    Mr. Morua [through the interpreter]. I believe that it is 
very important to maintain a continuous channel, a systematic 
approach for communication with the Cuban community both within 
and outside of Cuba in this process.
    Ms. Soler [through the interpreter]. I believe it is very 
important to note that really the Government of Cuba is not 
sovereign because it was not elected. It is the people who are 
the owners or the possessors of the sovereignty of the nation. 
And so it is very important that we, the Cuban people, be 
listened to and heard during this process.
    Senator Rubio. My second question of the panel is there are 
some in American politics who believe the democracy program and 
aid on behalf of the United States to the opposition in Cuba 
and civil society is an irritant that complicates and poisons 
the relationship between the United States and Cuba. Do you 
agree or disagree with my position that these democracy 
programs are essential to help the civil society and the 
democratic opposition in Cuba flourish and be prepared to take 
part in what hopefully will be a free and democratic Cuba in 
the future?
    Ms. Leiva. Well, I think that the programs should be 
directed directly to the Cuban civil society. The problem is 
that a great budget has been destined to these goals and most 
of them, most of the money has not gone directly to the 
opposition. And the problem is again that the Cuban Government 
says that we are mercenaries. We are paid by the American 
imperialists and the American Government, and we have been 
taken to prison because of that.
    So I think the best is to analyze what would be the best to 
support, to help the civil society. Listen to us. It is a very 
wide range. I think up to now, the exchange of views, the way 
we have been having relations with the interest section, with 
the government, and with delegations from Senate, Congress, et 
cetera, and also the way the new measures of the administration 
can take place, can be promoted--well, I think it should be the 
whole idea, not only we will send money through channels and 
maybe some get to you and you go to prison. That is what I felt 
all these years.
    My husband, Oscar Espinosa Chepe, was sentenced to 20 years 
in jail, and some of the crimes he was supposed to be 
committing was receiving money from the American Government, 
which was not true. So that is why I think it is very, very 
serious. It is a very serious matter and it should be very well 
treated and analyzed.
    Senator Rubio. Ms. Paya.
    Ms. Paya. Yes. I think that if the Government of the United 
States were to accept all the repressive rules of the Cuban 
Government, that is not going to be good for our people. This 
engagement would be another part of the fraudulent changes if 
the United States just said all this repressive and unfair 
rules that the Cuban Government has with their own citizenry. I 
think that you have the opportunity to support the real demands 
of the citizens, but this approach, this engagement only be 
true, only be good if it is performed between free persons.
    Mr. Morua [through the interpreter]. I believe that it is 
very important to maintain global solidarity with regard to 
helping Cuba with this struggle. It is very important to help 
the people within the country and outside of the country. And 
we see examples of how different states do this with programs, 
et cetera involved with the people.
    Senator Rubio. And my final question for you, Ms. Soler----
    The Interpreter. Excuse me. The interpretation.
    Senator Rubio. I am sorry. I understood it, but I am sorry. 
[Laughter.]
    Ms. Soler. It is very important that the U.S. Government 
continues to help Cuba but that the aid be directed to the 
people, to civil society and not to the government because, 
unfortunately, the government uses the resources that are sent 
to repress the people. So this is a problem when the funds go 
to help the government. Things like cell phones and the 
contributions made by the exiles are a very good will and this 
is helpful. And the information that we receive from TV Marti 
and Radio Marti is wonderful because it lets us know what is 
going on in the world. It helps civil society. So it is very 
important that the resources go directly to the people and 
civil society because in Cuba they will always say that we are 
mercenaries and that we are anti-Communist and anti-
imperialist. But the truth is I am anti-Communist but not anti-
imperialist.
    Senator Rubio. Thank you. And what I have told Senator 
Flake is do not worry about the translation. I will let him 
know later what they are saying. [Laughter.]
    Senator Rubio. My final question, Ms. Soler. You have met 
President Obama before. Correct?
    Ms. Soler [through the interpreter]. Yes, correct.
    Senator Rubio. And I believe it was in November of 2013?
    Ms. Soler [through the interpreter]. Yes, correct.
    Senator Rubio. At that time, did President Obama indicate 
to you that any changes of policy toward Cuba would first be 
consulted with groups like yourselves, like the Ladies in 
White?
    Ms. Soler [through the interpreter]. No, that is really not 
the way it was. I am actually just another woman, another Cuban 
woman. There is no reason for a government to count on me for 
any type of opinions and things like that.
    The important point is that the Government of Cuba is 
really not sovereign because they are not elected. They are a 
totalitarian government. They were not elected by the people. 
And what is important is for the people to be listened to. That 
is what really needs to be happening. And you cannot do 
business with a tyrant. It just does not work that way. And 
rather than establishing conditions from the United States to 
Cuba, Raul will be establishing conditions for the United 
States if you let him.
    Senator Rubio. Thank you. Thank you very much.
    Senator Menendez.
    Senator Menendez. Well, thank you, Mr. Chairman. It is 
regretful, the way the time has gone, that so many of our 
colleagues cannot be here because this is the part of Cuba that 
members need to hear because there is this romanticism but not 
the harsh reality of heroic individuals like these who every 
day languish inside of Cuba to create a greater space for civil 
society, human rights, and democracy. And we sweep that away. 
And people will say, oh, yes, I know there are violations and 
then we go on to let us do business. Let us travel. Let us do 
everything else. And this needs to have, in my mind, the equal 
stature. And so I appreciate you continuing the hearing and 
making sure all of these people are heard.
    I have a great deal of respect for all of you because it is 
easier to talk about democracy and human rights outside of a 
country that represses it. It is much more difficult to fight 
and languish inside of a country that ultimately does not allow 
its citizens their basic rights.
    And, Mrs. Leiva, you have my deep condolences on the loss 
of your husband, who I greatly admired.
    Mrs. Paya, you have my condolences on the loss of your 
father, who I also admired.
    And Mr. Cuesta Morua, I appreciate that you acknowledge my 
recognition of what you did in creating a parallel effort in 
civil society when Central and Latin American leaders were 
meeting, even though your efforts were repressed. But I am 
really thankful to individuals like you who actually tried to 
do that under a repressive system and tried to create an 
independent voice for civil society. So my thanks go to you, 
not to me.
    Now, I want to just take a couple of minutes here because 
those of us who follow these issues are deeply immersed in it, 
but I do not know necessarily that others are.
    So, Mrs. Paya, your father led a civil society effort 
inside of Cuba by seeking to petition the government under the 
existing Cuban Constitution for a redress of certain grievances 
and got thousands of signatures. Is that a fair statement?
    Ms. Paya. Yes, it is.
    Senator Menendez. Basically, what he was trying to do is 
create greater openings for the Cuban people within the context 
of the Cuban constitution. Is that fair to say?
    Ms. Paya. It would be, yes.
    Senator Menendez. And can you briefly describe what some of 
those openings that your father was petitioning for were?
    Ms. Paya. Of course. The most elemental ones. We--when I 
said ``we,'' it is because even when my father was the center 
of the Varela Project, the Varela Project does not belong to my 
father or to the opposition. It belonged to the citizenry, to 
the Cuban citizens. And more than 25,000 of Cuban citizens in 
the middle of the culture of fear and facing repression dared 
to put their names, their address, and their ID number and 
asked the Cuban Parliament for ask to the rest of the Cubans in 
a plebiscite for changing the law, to guarantee free 
association, free expression, the liberation of the political 
prisoners, the real right to have free and private enterprises, 
and change the electoral law in order to have free, 
competitive, and multiparty elections.
    Senator Menendez. So 25,000 Cubans signed onto this 
petition.
    Ms. Paya. The constitution asks for 10,000 of Cubans and 
more than 25,000 signatures were delivered.
    Senator Menendez. To seek those basic democratic and human 
rights principles that we enjoy here at home and observe 
throughout most of the world. And he did this with others 
following him under the existing Cuban Constitution. Is that 
right?
    Ms. Paya. Yes. We are actually still waiting for the answer 
of the Cuban Parliament. They are obligated by the constitution 
to answer, and they have not.
    Senator Menendez. And there was an answer in one respect, 
and that was you believe that your father was assassinated.
    Ms. Paya. I know that my father was assassinated.
    Senator Menendez. And can you say why you believe that?
    Ms. Paya. Well, we have accumulated a lot of evidence. We 
have talked with the survivors. One of them actually has 
published a book talking about how the state security hit their 
car and then moved the two survivors--first hid the survivors 
and then moved them away. And they just know that my father and 
Harold Cepero were alive and, I think, pretty much uninjured 
after the car was hidden. And 4 hours later, my father was dead 
and my dear friend, Harold Cepero, died in the hospital. We 
know that it was without medical attention.
    Senator Menendez. So that was the regime's answer.
    Mrs. Soler, the Ladies in White march every Sunday on their 
way to church in a peaceful manner. Is that fair to say?
    Ms. Soler [through the interpreter]. Yes, correct.
    Senator Menendez. And the purpose of your peaceful march is 
to protest the arrests of your sons or husbands who have been 
arrested simply because of their political views or statements 
or activities.
    Ms. Soler [through the interpreter]. Well, no, that is not 
exactly how it was. The truth is that the Government of Cuba 
represses our right to religious freedom, represses our right 
to movement, freedom of movement and association. Every Sunday 
the Ladies in White are going out to participate in religious 
activities.
    One example would be on the 18th of January, on Sunday two 
Ladies in White were detained in a patrol car and kept there 
for 4 hours without oxygen. The government is constantly 
repressing not only the Ladies in White but many activists who 
are trying to exercise these rights of gathering together to 
discuss matters of importance to them.
    For example, on December 10, Ladies in White who wanted 
again to exercise their right to freedom of association were 
thrown in jail by the repressive forces of the Cuban Government 
just because they said ``long live human rights.''
    Senator Menendez. Mr. Chairman, I have one final question 
if I may.
    Mr. Cuesta Morua, this effort at creating a parallel civil 
discourse of civil society of Cuba, which you tried with the 
last Latin American summit of CELAC--are you going to try to do 
that at the upcoming Summit of the Americas? And how can we be 
helpful if there is any way to be helpful without impinging on 
it? Because I assume even your testimony here today can be 
considered mercenaries if the Castro regime wants to claim it 
as such. So that is a challenge. But I am interested in your 
continuous effort to create a parallel civil society. The 
voices of all of you and many others can be heard in these 
discussions in the days ahead.
    Thank you, Mr. Chairman.
    Mr. Morua [through the interpreter]. Yes, of course.
    The Cuban Government does not have much credibility. People 
do not pay much attention to what they say.
    We did try to carry out a parallel summit.
    The Interpreter. The interpreter corrects.
    Mr. Morua [through the interpreter]. We are going to try to 
carry out a parallel summit following the tradition of the time 
when we tried to do the same when CELAC was held in Panama. We 
tried to do the same thing there following that tradition. In 
fact, we are going to attempt to have two parallel summits, one 
in Cuba and the other in Panama. We are working with democratic 
society groups in New Jersey, Miami, Puerto Rico, and other 
places to be able to attend and to have one voice and also to 
carry out a summit, a parallel one, in Havana for those Cubans 
who cannot go to Panama in order to participate as well and 
have their voices heard with the OAS.
    And, of course, we welcome the solidarity of the United 
States. It is welcomed in the manner in which this solidarity 
can be accomplished.
    Senator Menendez. My admiration to all of you.
    Senator Rubio. Thank you, Senator Menendez.
    Senator Flake.
    Senator Flake. Again, Mr. Chairman, thank you for holding 
this hearing. And this has been very enlightening. I wish, as 
was said, that all of our colleagues could hear what you said. 
I am sure they are following it and their staff is as well.
    But I just want to say how much I admire all of you for 
what you are doing. I have traveled to Cuba a number of times 
and have met with Ms. Leiva and your husband in prior years, 
and I have seen what the Ladies in White have done and the work 
of your father was just inspiring to everyone. And I just 
cannot say enough about what you do and continue to do in the 
face of very trying circumstances.
    But, Ms. Leiva, in a letter to the ``New York Times,'' you 
noted that, ``since the Obama administration started people-to-
people policy or expanded the people-to-people policy in 2009, 
encouraging exchanges between Americans and Cubans, a lot has 
changed and that Cubans are feeling empowered by exchanges of 
views with Cuban Americans coming to visit and Americans on 
cultural, academic, scientific, religious, sports, and other 
trade trips.''
    How do trips like that, particularly since Cuban Americans 
can travel freely back to Cuba--how has that changed things?
    Ms. Leiva. Well, not only because they have sent 
remittances or they bring presents, but mainly because they 
talk to the families, to the friends of how, working hard, they 
have great possibilities of improving their lives and also 
helping the Cubans in Cuba. And also, these remittances help 
open the new businesses, the very small businesses. It is true. 
But I think, let us say, the seed for a future bigger business 
in Cuba, and that is what we expect.
    So when somebody has a small business, then he has to hire 
others or he has to sell. And it is like a web. They get to be 
independent. And now, after these new measures taken by the 
President, there is a sense of happiness, of hope in Cuba among 
the population, most of the people, because there is not going 
to be this atmosphere of confrontation but also because they 
sense that there could be opportunities for everyone.
    Of course, there was a great frustration because the 
government of Raul Castro promised a lot of changes and almost 
nothing was fulfilled. And people said, well, this is the same 
and we are not going to be able to build our future. At 
present, we are not going to have a future.
    So now people see other possibilities. Of course, they know 
that this depends on how the Cuban Government is willing to 
admit the new measures of the United States because you can 
open for someone to send tools for a new business and maybe in 
the customs you cannot get them in. So, of course, people are 
afraid and also people are afraid that if here in the United 
States you change the law--how do you call it--for coming to 
Cuba--Cuba to the United States----
    Senator Rubio. The Cuban Adjustment Act.
    Ms. Leiva. The Cuban Adjustment Act is changed or if this 
dry/wet----
    Senator Rubio. Wet foot/dry foot.
    Ms. Leiva [continuing]. Is cancelled, they are afraid that 
they will not be able to get to the United States, those that 
want to get here. So I think that that is one of the causes 
that is increasing the flow of Cubans coming more rapidly since 
December because they are afraid that if it is closed, they 
would not be able to get here. So I think this is also 
something that should be thought because this could create a 
tense atmosphere between the governments. And imagine a new 
flow of Cubans coming to the United States, a tough situation 
in the United States.
    So I think that all this is very complex, I know, and we 
are hoping that we can help solve all.
    Senator Flake. Well, thank you. Thank you.
    Mrs. Paya, as I mentioned, I am a huge admirer of your 
father and what he did. I have quoted him often in a piece in 
the ``New York Times'' in 2003 I think. And then I was fond of 
a quote that ran in the ``Time'' story on him. It said Paya 
reiterated his opposition to the U.S. trade embargo against 
Cuba because he said it gave Castro the convenient excuse for 
his economic failures. I think that is something that a lot of 
us have always believed. But he also pointed out. He said I am 
for all Americans traveling to Cuba, but he said please do not 
think that Cuba will be democratized by people coming to dance 
salsa and smoke cigars. And so I think that is certainly true 
as well.
    For Americans who are able now--more Americans--to travel 
to Cuba, what would be your advice to how they can help the 
Cuban people?
    Ms. Paya. Well, with mojitos and Cuba Libres, we are not 
going to free our island. I think that it would be great if 
there are more relations with the real Cubans, with the people 
that are suffering the repression of the Cuban Government, 
which are all the citizenry. But what is also important to pay 
attention to is it is not the American Government and not the 
Americans laws, the ones who have kidnapped the strides of the 
citizenry. And there are no more opportunities for the Cuban 
people because the Cubans know how things change.
    I think that this new policy--I think that this new 
dialogue could be good if it is addressed with responsibility 
and with transparency, not more secrets. And I actually hope 
that the voice of the Cuban citizens that has been rising in 
the past for very specific and concrete demands be on that 
table of negotiation. Otherwise, mojitos, Cuba Libres, and 
salsa--that is just going to be more of this long history.
    Senator Flake. Well, thank you. My time is up. I appreciate 
this.
    Senator Rubio. Thank you all for your patience today. I 
know it has been a long hearing. We have spent more time today 
on Cuba than we have the 4 years that I have been here, and if 
there is a silver lining in all this, it is that for the first 
time, certainly in my time in the Senate and probably in a 
decade, when something is going on in Cuba now, a human rights 
abuse, any sort of outrage, it now is news in the United 
States. And I hope that today's hearing served not just to 
educate my colleagues but a broader sector of the American 
public about the Cuban reality, what the people of Cuba are 
facing, and hopefully what the opportunities are moving 
forward.
    But I want to thank all four of you for being here. I 
recognize that being here today--and we take this for granted. 
We have witnesses before this committee all the time who may 
something that leads them to criticism in a blog or in the 
press. But appearing here today, testifying here today puts 
many of you in real danger of being detained or being harassed 
and the people who you love, the same. In fact, all of you have 
experienced that in the past as well. It is a liberty that 
sometimes those of us who have been born and raised here in 
this country take for granted. And we should not. Just 90 miles 
from our shores is a place where the sorts of things that we do 
here as a matter of course, disagree in open with our 
Government, with our leaders, is punishable by imprisonment 
and, throughout its history, death on the island of Cuba.
    All of us share the same goal. I do not think that is in 
dispute. Every single member of this committee, I believe the 
vast majority of American people, and this administration, as 
well as my leadership of my party, all share the goal of a free 
and democratic Cuba. What we are having now is a debate about 
the best way to bring that about, and differences of opinion, 
as exhibited not just by our panel but by those here today on 
this committee, as to best way to achieve it.
    The good thing is that those of us on the American side of 
the debate are able to debate those differences openly, 
democratically. And we hope that in a future Cuba, all of civil 
society and all Cubans will be able to disagree with their 
leaders and do so without risking imprisonment or jail, but 
also to be represented by elected representatives who will work 
for you, who are accountable to you in the votes that they take 
and the decisions that they make. I hope that in a future Cuba 
there will be a free press so that you can gather news from any 
sources you want. I hope that in a future Cuba, you will be 
able to organize yourselves into political parties if you so 
choose. I hope that in a future Cuba everyone will be able to 
participate in the future of the country.
    And that is our hope here, to see what we can do with 
American foreign policy to bring that day about soon. It has 
been a very long time. Many generations, many people have seen 
mothers and fathers, brothers and sisters pass away without 
being able to be reunited. Many people hope that future will 
come soon. We have been waiting a long time.
    Thank you. God bless all of you for being here. Muchisimas 
gracias. Thank you.
    [Applause.]
    Senator Rubio. The record will remain open until the close 
of business tomorrow, February 4.
    With that, this hearing is adjourned.
    [Whereupon, at 1:30 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record

                                 ______
                                 

             Responses of Roberta S. Jacobson to Questions 
                    Submitted by Senator Marco Rubio

    Question. Deputy Secretary of State Tony Blinken has committed to 
provide a list of Members of Congress consulted about the negotiations 
with Cuba.

  <diamond> What Members of Congress were consulted prior to the 
        President's announcement on December 17?

    Answer. The administration has and will continue to regularly brief 
and consult with Congress regarding its Cuba policy.
    Prior to the President's announcement on December 17, the 
administration briefed the congressional leadership, key committees, 
and other Members.
    We will continue to work closely with Congress in a bipartisan 
manner to bring positive change to Cuba.

    Question. It appears that the administration secured no concessions 
on key issues of interest to the United States.
  <diamond> What commitments were secured regarding return of fugitives 
        from justice, property claims, and political reforms in Cuba?
  <diamond> Were these issues raised with the Castro regime? What was 
        their response?

    Answer. Reestablishing diplomatic relations with Cuba is in the 
U.S. national interest. This new approach is not about what the Cuban 
Government will do for us, but rather what we can do for the Cuban and 
American people. The reestablishment of diplomatic relations, including 
reopening our Embassy in Havana, will allow us to more effectively 
represent U.S. interests, including property claims, fugitives, human 
rights, and needed political reforms and increase our engagement with 
the Cuban people. Cuba remains a one party, authoritarian state. We 
have no illusions about the nature of the Cuban Government. We will 
continue to condemn any example of Cuban Government-sponsored 
harassment, use of violence, or arbitrary detention of Cuban citizens 
peaceably exercising their freedoms of expression and association.
    We proposed to the Cubans starting discussions of outstanding 
claims, in the event we reestablish diplomatic relations. Although 
reaching agreement on the resolution of outstanding claims is often a 
lengthy process, the Department is strongly committed to advancing this 
effort. On the issue of fugitives, the Department repeatedly raises 
fugitive cases with the Cuban Government and will continue to do so at 
every appropriate opportunity. We raised several cases with the Cubans 
when we met with them January 22.

    Question. A month after the beginning of the secret negotiations, 
Cuba was found smuggling 240 tons of weapons to North Korea (DPRK) in 
violation of multiple United Nations Security Council resolutions.

  <diamond> Was this issue discussed during the negotiations?
  <diamond> Did Cuba agree to halt its illicit relationship with North 
        Korea as part of the negotiations?
  <diamond> Did the U.S. negotiators asked the Cuban Government to do 
        so?
  <diamond> When the next North Korean ship docks in Havana, carrying 
        weapons or other illicit cargo, what action does the United 
        States plan to take?
  <diamond> Has the United States made any commitments to not interfere 
        in Cuban-North Korea relations?

    Answer. The United States remains concerned about attempts by North 
Korea (DPRK) to circumvent international sanctions and strongly 
condemn, and will continue to condemn, any efforts by states such as 
Cuba to assist in the illegal evasion of binding decisions of the U.N. 
Security Council.
    At the same time, the administration believes that through a policy 
of engagement with Cuba, we can more effectively stand up for our 
values and those shared by the international community, promote human 
rights and fundamental freedoms, and help the Cuban people help 
themselves.
    With respect to the Chong Chon Gang shipment to the DPRK, the 
administration has worked to ensure that those responsible for this 
egregious violation of U.N. sanctions pay a price for their wrongdoing. 
The United States pushed for the U.N. DPRK sanctions committee to 
designate the Ocean Maritime Management Company, a DPRK entity that 
played a key role in managing the Chong Chon Gang. The committee 
designated Ocean Maritime Management Company for sanctions last year.
    The administration worked to maximize the diplomatic cost to Cuba 
for its role in the incident, including by using meetings of the U.N. 
Security Council to repeatedly condemn Cuba's role in the violation. We 
applauded the U.N. DPRK Sanctions Committee's release of an 
Implementation Assistance Notice to publicize the facts of the case and 
advise states on how to protect themselves from future arms smuggling 
attempts. The United States ensured that this Implementation Assistance 
Notice also highlighted Cuba's role. The international community has 
unequivocally refuted Cuba's claim that this arms shipment was allowed 
under U.N. Security Council resolutions.

    Question. Since the President's announcement of his unilateral 
changes to Cuba policy, Gen. Raul Castro has made a series of demands 
that he believes the United States should agree to as part of this 
``normalization'' process.

  <diamond> Is the administration prepared to negotiate with Cuba 
        changes to U.S. immigration policy, specifically the Cuban 
        Adjustment Act?
  <diamond> Is the administration prepared to negotiate with Cuba U.S. 
        assistance to Cuban dissidents and human rights activists?
  <diamond> Is the administration prepared to negotiate with Cuba Radio 
        and TV Marti broadcasting to Cuba?
  <diamond> Is the administration prepared to negotiate with Cuba the 
        U.S. immigration program that allows Cuban medical personnel 
        forced to work overseas the opportunity to emigrate to the 
        United States?
  <diamond> Is the administration prepared to negotiate with Cuba the 
        lifting the broader U.S. embargo of Cuba, which requires an act 
        of Congress?
  <diamond> Is the administration prepared to negotiate with Cuba the 
        return of the U.S. naval facility at Guantanamo Bay?
  <diamond> Is the administration prepared to negotiate with Cuba the 
        $181 billion in reparations that Castro demanded in 1999 for 
        the claimed ``damages'' brought by the embargo?

    Answer. Reestablishment of diplomatic relations with Cuba will 
strengthen our ability to press the Cuban Government on important 
issues, including human rights, democratic governance, and property 
claims. Reestablishing diplomatic relations is a first step toward 
normalization, a long-term process that will address long-standing 
issues that have complicated our bilateral relationship for the last 
half-century. Through a policy of engagement, we can more effectively 
stand up for our values, and those shared by the entire hemisphere, and 
help the Cuban people better help themselves.
    Safe, orderly, and legal migration remains a top policy priority 
for the United States and is also shared by the Government of Cuba. The 
administration has no immediate plans to alter its Cuba migration 
policy and recognizes that the Cuban Adjustment Act is a law that can 
only be altered by Congress. We support Cuban nationals' ability to 
freely travel and will continue to monitor how Cuba implements its 
January 2013 migration reforms, specifically with respect to medical 
professionals and their families as well as peaceful civil society 
actors.
    We will continue to use U.S. foreign assistance funds to support 
adherence to democratic principles and norms, the promotion and 
protection of human rights, the exercise of political and civil 
liberties, and the free flow of information to, from, and within Cuba, 
and to provide humanitarian assistance. We will also continue Radio and 
TV Marti broadcasting to provide the Cuban people with the uncensored 
news and information they are denied due to Cuban Government policies.
    As the President said in his State of the Union Address, he 
believes Congress should begin working to lift the embargo.
    Reaching agreement on resolving outstanding claims is often a 
lengthy process, but the Department is committed to pursuing a 
resolution. We proposed to the Cubans starting discussions of 
outstanding claims once we have established diplomatic relations. In 
our discussions with the Cubans, we have made it clear that there are 
no plans to alter the existing lease agreement for the Naval Station at 
Guantanamo Bay.

    Question. Raul Castro has been clear about his demands for 
normalization of relations with the United States. So, what are our 
demands of this dictator?

  <diamond> Is the administration demanding free and fair elections of 
        the only country in our hemisphere that has not been elected 
        for the last 53 years?
  <diamond> Is the administration demanding full respect for human 
        rights and that the regime honors their obligations under 
        international law?
  <diamond> Is the administration demanding that the regime release all 
        political prisoners and that they furthermore not arrest any 
        further prisoners for exercising their basic human rights?
  <diamond> Is the administration demanding freedom of information, 
        assembly, and expression, and restitution for confiscated 
        American property, and restitution for those who have suffered 
        for years at the hands of that oppressive regime?
  <diamond> Many of these are codified in U.S. law as preconditions for 
        normalization of relations. If the administration has not made 
        these demands, why not?

    Answer. The administration fully recognizes that the Cuban people 
have long been deprived of the freedom that they deserve, and the 
fundamental goal of our policy is to advance a Cuba that is democratic, 
prosperous, and well-governed. We also recognize, however, that our 
previous approach over a half century, though rooted in the best of 
intentions, did not work. Our new approach is not about what the Cuban 
Government would do for us, but rather what we can do for the Cuban and 
American people. Reestablishing diplomatic relations and reopening 
embassies are just the first steps in the complex, long-term process of 
normalization of relations.
    This administration is under no illusions about the continued 
barriers to internationally recognized freedoms that remain for the 
Cuban people, but we are convinced that, through a policy of 
engagement, we can more effectively promote our interests and values, 
and help the Cuban people begin to enjoy more independence from the 
Cuban state. Diplomatic relations will provide us the opportunity to 
engage more effectively on a range of important issues, including 
claims, fugitives, and human rights. Our discussions with the Cuban 
Government will include promoting respect for universal human rights 
and fundamental freedoms.

    Question. You may be aware that the President of the Fraternal 
Order of Police recently sent a letter to President Obama saying, ``The 
blood of American law enforcement officers doing their job on American 
soil is too high a price to pay for closer ties with the Cuban 
regime.''

  <diamond> Do you agree with this statement?
  <diamond> Do you have any qualms about allowing a convicted accessory 
        to murder out of prison?
  <diamond> Are you aware of any other cases where a foreign national 
        convicted by a U.S. court and sentenced to life in prison for 
        crimes that led to the murder of American citizens, was traded 
        in a hostage negotiation?
  <diamond> What steps did the administration take to contact the 
        families of the Americans who lost their lives in 1996 at the 
        hands of the Cuban regime before an individual involved in 
        their family member's murder was set free?
  <diamond> What steps did the administration take to consult the 
        families of the law enforcement officers who were murdered by 
        fugitives currently in Cuba as you negotiated with the people 
        harboring those who killed their love ones?

    Answer. The reestablishment of diplomatic relations will allow us 
to more effectively represent U.S. interests, including pressing for 
the return of fugitives, and increase our engagement with the Cuban 
people. The Department repeatedly raises fugitive cases with the Cuban 
Government and will continue to do so at every appropriate opportunity. 
We raised several cases with the Cubans in Havana January 22, and we 
will continue to press for resolution. Our repeated efforts to address 
fugitive issues with the Cuban Government have met with limited success 
in recent years. Cuba has expelled to the United States at least four 
U.S.-national fugitives since 2011.
    When it is deemed to be in the U.S. national interest, the United 
States has exchanged imprisoned intelligence agents with other 
countries in the past, including those countries where we have 
historically had difficult or limited relations. In the exchange of 
intelligence agents that took place with Cuba on December 17, the 
United States released three Cuban intelligence agents to secure the 
release of an important intelligence asset, a man that provided key 
information to the United States about systematic Cuban espionage and 
efforts to penetrate the U.S. Government. In light of his sacrifice on 
behalf of the United States, securing his release from prison after 
nearly 20 years is fitting closure to this chapter of U.S.-Cuban 
relations.

    Question. The Cuban regime confiscated U.S. private property and 
owes damages exceeding $8 billion in restitution to rightful owners and 
more than $2 billion in judgments awarded in U.S. courts.

  <diamond> What progress was made on this issue during 18 months of 
        secret negotiations?
  <diamond> Will you commit to not open an embassy or normalize 
        relations with Cuba until a process has been established for 
        these claims to be addressed, as has been the case in past 
        instances when the United States restored diplomatic relations 
        with countries with outstanding claims, such as Libya?
  <diamond> If not, why would Cuba have any motivation to settle the 
        claims at all if the embargo is already lifted or Americans can 
        freely travel to Cuba and diplomatic ties exist?
  <diamond> Can you cite another instance where the United States 
        normalized relations with a country that had billions of 
        dollars in outstanding claims and judgments without an agreed 
        process in place for resolution of those claims?
  <diamond> What protections is the administration willing to provide 
        current American citizens who had stolen property in Cuba so 
        that U.S. and foreign entities do not exploit and traffic in 
        their stolen property? Would it be fair to allow these 
        Americans full access to U.S. courts to prosecute traffickers, 
        foreign and domestic?
  <diamond> As you may know, many licenses granted by OFAC result in 
        the trafficking by Americans in the stolen property of other 
        Americans, which includes hotels and even the art in Havana's 
        major museums. Is trafficking not a violation of U.S. law, or 
        at least the American moral and ethical principles? Should we 
        allow American visitors and business interests to have 
        commercial relations with Cuba without any concern that this 
        involves the stolen property, brands and trademarks of 
        Americans? Should traffickers be liable for these acts?
  <diamond> Did you traffic in stolen U.S. property at all when you 
        were in Cuba? If not, how are you sure? Has the U.S. Interests 
        section and any diplomats serving there ever trafficked in 
        stolen property, even if unintentionally?

    Answer. Following the President's December 17, 2014, announcement 
of a new course in Cuba policy, Assistant Secretary Jacobson raised the 
need to resolve outstanding property claims with the Cuban Government 
during January 22 talks in Havana. The Department is committed to 
pursuing a resolution of claims and firmly believes the reestablishment 
of diplomatic relations will provide the United States and Cuba the 
opportunity to engage more effectively on a range of important issues, 
including claims.
    With Cuba, the discussion of claims will be part of our broader 
normalization efforts, a long-term process. As in all claims settlement 
discussions, a range of issues will need to be considered. The Cuban 
Government agreed to begin a dialogue on claims in the months following 
the reestablishment of diplomatic relations and reopening of our 
respective embassies.
    Claims are not necessarily addressed as part of the reestablishment 
of diplomatic relations. In fact, diplomatic relations are generally in 
place when governments embark on claims discussions. We did not resolve 
claims with Libya or Iraq as part of establishing diplomatic relations. 
In both cases, we already had diplomatic relations before we began 
discussing claims. In Libya, we had not severed diplomatic relations; 
claims discussions were simply part of normalizing our bilateral 
relationship, along with discussing other pressing matters such as 
weapons of mass destruction.
    Title III of Cuban Liberty and Democratic Solidarity (LIBERTAD) Act 
of 1996 (Public Law 104-114; 22 U.S.C. 6021-6091) creates a private 
cause of action and authorizes U.S. nationals with claims to 
confiscated property in Cuba to file suit in U.S. courts against 
persons purported to be trafficking in that property. The President has 
repeatedly exercised the authority under the act to suspend the lawsuit 
provisions for periods of 6 months, as necessary to the national 
interest of the United States and to expedite a transition to democracy 
in Cuba. At this juncture, we continue to believe that claims 
discussions with the Cuban Government will afford the best opportunity 
to address issues regarding claims for property.

    Question. There have been many press reports in recent weeks about 
what the administration would like to see happen in Cuba as a result of 
the President's announcement, but very little on how it intends to get 
there.

  <diamond> What benchmarks or metrics has the administration developed 
        to determine your progress in achieving its objectives with its 
        new Cuba policy?
  <diamond> In other words, how will the administration determine 
        whether the policy is working or not?

    Answer. Our enduring objective remains the emergence of a 
democratic, prosperous, and stable Cuba that respects and adheres to 
human rights norms. The President's new approach to Cuba moves beyond 
decades of unsuccessful efforts to isolate Cuba and is designed to 
empower the Cuban people. Over time, the success of our policy can be 
judged in terms of its success in empowering the Cuban people to 
determine freely their own future, including in the areas of greater 
political space to express dissent, democratic accountability, access 
to information, and respect for human rights. The intensive discussions 
between the United States and the Cuban Government in January on the 
reestablishment of diplomatic relations were only the initial step in 
what is likely to be a long and complex process of normalization of 
relations.

    Question. The administration announced that the Cuban Government 
released 53 political prisoners as part of the President's new approach 
toward Cuba. However, according to reports from various independent 
groups, the Cuban Government has jailed over 250 other individuals for 
peacefully demonstrating against the dictatorship. These include two 
new long-term political prisoners, Cuban artist Danilo Maldonado ``El 
Sexto'' and rapper Maikel Oksob ``El Dkano.''
    According to news reports and independent organizations, Danilo 
Maldonado, known as El Sexto (the Sixth one, is a satirical reference 
to the five Cuban spies portrayed as heroes by the Cuban Government) 
was arrested on December 26 as he was on his way to Havana's Central 
Park to do an art performance with two pigs, named Fidel and Raul. The 
Cuban regime is accusing El Sexto of ``disrespect'' and he has been 
sent to the Valle Grande prison to await trial. Thus, Cuba is clearly 
refilling its jails to continue using political prisoners as pawns.

  <diamond> Does the administration believes that the Cuban Government 
        will stop detaining and imprisoning those who advocate for 
        freedom and democracy?
  <diamond> If not, why did the administration encourage them to 
        continue taking more political prisoners as pawns by succumbing 
        to the regime's coercion?
  <diamond> A/S Malinowski, the President has signed into law sanctions 
        imposed on human rights abusers in Venezuela and we have human 
        rights sanctions against other rogue regimes around the world. 
        Would it be appropriate to impose sanctions on Cuban officials 
        involved in human rights abuses? If not, why?
  <diamond> Why did your delegation to the recent normalization talks 
        not include A/S Malinowski or someone from his bureau?
  <diamond> Does the administration plan to raise human rights in any 
        sustained and direct way with Cuba in the months to come?
  <diamond> How will you implement your public commitment to not 
        abandon the Cuban opposition when the regime has expressed 
        disapproval of a simple breakfast you shared with some of the 
        democratic leaders, and the regime snubbed CODEL Leahy because 
        it met with dissidents on its recent trip to Cuba?
  <diamond> Josefina Vidal says the dissidents do not represent Cuban 
        society. Do you agree?

    Answer. The United States is committed to promoting universal human 
rights and democratic reforms in Cuba. We condemn any example of Cuban 
Government-sponsored harassment, use of violence, or arbitrary 
detention of Cuban citizens peaceably expressing their views. We 
continue to call on the Cuban Government to end these practices. We 
have no illusions the Cuban Government will change its behavior 
overnight. We believe reestablishing diplomatic relations will help 
remove a pretext the Cuban Government has used, for many years, to 
successfully counter pressure from the Cuban people for more freedom, 
access to information, economic prosperity, and other legitimate 
demands. We encourage all Members of Congress to engage all Cubans, 
including those who may have significant differences with their 
government.
    We expect that Assistant Secretary for Democracy, Human Rights, and 
Labor Malinowski will lead the U.S. delegation to the planned bilateral 
dialogue on human rights. Our objective in such talks will be to 
advance an agenda of specific reforms that will bring about concrete 
improvements consistent with applicable international human rights 
commitments. Regarding targeted sanctions, we are willing to consider 
those tools that we deem most effective for achieving our national 
interests.

    Question. Even as you were negotiating in secret with the Cuban 
regime, that regime stepped up its repression and incarceration of 
peaceful pro-democracy activists. Your Cuban interlocutors have yet to 
allow an international investigation into the murders, at the hands of 
the Cuban regime, of Oswaldo Paya and Harold Cepero, which the Cuban 
regime has prevented from taking place. By not investigating this 
tragedy, and by not requiring that the Cuban regime allow for such an 
investigation, we are sending a signal that they can enjoy impunity for 
these murders, and we are endangering the lives of every single pro-
democracy activist on the island, who tell us that they are at the 
mercy of that lawless regime.

  <diamond> Will you pledge to require the regime to allow these 
        international investigations to take place, as well as 
        investigations into the mysterious deaths of Laura Pollan, 
        founder of the Ladies in White, and Orlando Zapata Tamayo, 
        among many other innocent victims of that regime, as pre-
        conditions for normalization of relations with the United 
        States?

    Answer. We have the greatest respect for all democracy activists in 
Cuba who are working to create a better future for the Cuban people. 
Furthermore, we continue to call for an independent and credible 
investigation into the deaths of Oswaldo Paya and Harold Cepero, 
including giving the Paya family access to the autopsy report. An 
independent investigation would help address concerns about lack of 
transparency and possible involvement of Cuban security officials in 
their deaths. Our policy of engagement and empowerment of the Cuban 
people is better positioned to help Cubans to develop, over the long 
term, an independent judicial system that could address in a 
transparent, impartial manner cases like the ones you raise.

    Question. The administration has couched many of its changes in 
U.S. travel, banking, and trade with Cuba as part of an effort to 
empower the supposed Cuban ``private sector'' and 
``microentrepreneurs.''

  <diamond> What is the administration's definition of the ``private 
        sector'' in Cuba?
  <diamond> Will it define enterprises run by the Cuban military or 
        operated by the offspring of Cuban regime officials to be the 
        ``private sector''?
  <diamond> Will it define entities owned by the Cuban Government, but 
        operated by an individual with a ``self-employment'' license to 
        be the ``private sector''?

    Answer. The policy changes announced December 17, 2014, which build 
on President Obama's 2009 and 2011 Cuba policy changes, create new 
opportunities for Cuba's nascent private sector. These measures are 
intended to support the ability of the Cuban people to gain greater 
control over their own lives and freely determine their country's 
future.
    We consider the private sector in Cuba to encompass economic 
activity generated by private individuals and enterprises for profit as 
well as nonprofit organizations and charities. For example, Cubans who 
are self-employed, own independent small businesses, or form private 
cooperatives that are not part of Cuba's state sector are included in 
this category. We do not consider entities owned or operated, in whole 
or in part, by the Cuban Government or military to be part of the 
private sector.

    Question. Article 18 of the Cuban Constitution states that all 
foreign trade and commerce must be owned and operated by the state.

  <diamond> How are U.S. exports to benefit the Cuban people if they 
        must all be funneled through the state?
  <diamond> Do you believe the Cuban Government will provide the Cuban 
        people access to these goods?
  <diamond> Did the Cuban regime share the billions worth of goods from 
        the former Soviet Union and Venezuela with the Cuban people?
  <diamond> Why would it act differently now?

    Answer. U.S. exports in authorized areas will benefit the Cuban 
people. For example, while Cuban Government import agencies and other 
government owned, operated, or controlled companies and corporations 
may act as consignees to receive and effect delivery of certain 
eligible items to the private sector, the Cuban Government may not be 
the end user of such items. U.S. exporters would be subject to civil 
and/or criminal penalties if they were to export, with prior knowledge, 
ineligible items to Cuban Government end users. The Department of 
Commerce's new license exception ``Support for the Cuban People (SCP)'' 
would not apply to items exported to Cuban Government end users, except 
in the area of telecommunications. Similarly, consumer communications 
devices may be sold to Cuban Government owned, operated, or controlled 
companies and corporations for resale to the Cuban people.
    While most U.S. exports to Cuba remain prohibited under the 
embargo, past practice under the Department of Commerce's licensing 
exception for agricultural products and the general policy of approval 
for medicines and medical devices similarly permitted Cuban Government 
entities to import and effect delivery of certain products to the 
benefit of the Cuban people. In these cases, the Cuban Government did 
provide the Cuban people access to these goods, per the terms and 
conditions of those export authorizations. The Department of Commerce 
will continue to investigate and take appropriate action against any 
U.S. exporters that violate the terms of their licenses or the Export 
Administration Regulations.

    Question. The administration has stated a desire to see Cuban 
residents have access to Internet. The Cuban Government is one of the 
most oppressive in the world and the rate of Internet penetration in 
Cuba is among the lowest in the world. The Internet in Cuba is 
controlled by a state monopoly, ETECSA. This monopoly has clearly shown 
that the only obstacle to connectivity is the regime's unwillingness to 
do so. Despite the new fiber optic cables (Venezuela and Jamaica) and 
investments by foreign companies (Telecom Italia and Alcatel), ETECSA 
has yet to provide more access to the Cuban people. The only reason the 
Cuban people are unable to access the Internet is because the Castro 
regime won't allow them to.

  <diamond> What specific commitments has the administration obtained 
        from the Cuban regime about how U.S.-provided 
        telecommunications equipment will be utilized?
  <diamond> Has the Cuban regime pledged to allow unrestricted access 
        to the Internet as a result of this change in U.S. policy?
  <diamond> If not, what makes you think that even more cables and 
        investments will increase the Cuban people's connectivity?
  <diamond> Did Telecom Italia help the Cuban people access the 
        Internet through its investment in ETECSA?
  <diamond> Has France's Alcatel-Lucent helped the Cuban people access 
        the Internet? If not, why?
  <diamond> Is the administration willing to move forward with 
        authorizing the provision of telecommunications infrastructure 
        in Cuba without the guarantee that the Cuban people will have 
        the ability to speak freely over that infrastructure?
  <diamond> Instead of providing telecommunications infrastructure in 
        ways that will only enrich the Cuban regime, why not push for 
        companies like Google to provide Internet connectivity via 
        satellite or other programs that circumvent the regime?

    Answer. Unrestricted access to information through the Internet and 
other means is a U.S. priority in Cuba and around the world. The 
President announced in December our intention to facilitate 
telecommunication and Internet development and access in Cuba. In 
January, the Departments of Commerce and Treasury released amended 
regulations allowing U.S. companies to engage in more activities with 
Cuba to support better communications and access to information for the 
Cuban people. These regulatory changes respond directly to requests 
made to the administration by civil society to enable greater access to 
telecommunications equipment on the island.
    Internet access in Cuba remains extremely limited, in large part, 
because the Cuban Government has chosen not to offer its public 
widespread access to a high-speed fiber-optic cable from Venezuela. It 
is also true that U.S. sanctions made it difficult for U.S. telecom 
companies to engage with Cuba. While we cannot address what non-U.S. 
companies have done on the island, we are encouraging U.S. companies to 
consider the Cuban market and continuing to work to address their 
concerns. In addition, we will work with Cubans, including civil 
society actors, to promote uncensored Internet access.
    We are aware that efforts to facilitate access to uncensored 
information in Cuba have been, and will likely continue to be, opposed 
in various ways, including government censorship of the Internet. In 
those areas of the world where repressive governments have attempted to 
restrict Internet freedom, the U.S. Government has implemented programs 
to help promote such freedom. The U.S. Interests Section provides free, 
uncensored access through its Internet Resource Centers.
    The Cuban Government indicated it would like to develop 
communications and Internet on the island. We and our partners will 
encourage it to follow through. We proposed that Ambassador Daniel 
Sepulveda, U.S. Coordinator for International Communications and 
Information Policy, travel to Cuba to begin a dialogue on broadening 
telecommunications and Internet on the island with the objective of 
advancing unfettered Internet access for the Cuban people. We do not 
know if the Cuban Government will follow through on its stated 
intention of expanding Internet access in Cuba, but we want to be clear 
that we support and are doing all we can to facilitate that access.

    Question. The Cuban regime has been contracting monitoring 
technologies through state-entities, Albet, Xetid, and Datys. These 
companies have obtained lucrative contracts and operate in Venezuela, 
Bolivia, Argentina, Ecuador, and Nicaragua.

  <diamond> Why are they able to export software and technology, but 
        not provide basic connectivity to their people?

    Answer. Internet access in Cuba is expensive, of very poor quality, 
and available to a small number of people due to deliberate choices of 
the Cuban Government which, among other things, has chosen not to offer 
its citizens widespread access to a high speed fiber-optic cable from 
Venezuela. It is revealing that Cuba both limits its citizens' access 
to the Internet and devotes resources to developing monitoring 
technologies.
    Unrestricted access to information through the Internet and other 
means is a U.S. priority in Cuba and around the world. The United 
States supports greater connectivity for the Cuban people. In January, 
the Department of Treasury promulgated regulatory changes authorizing 
transactions incidental to telecommunications and Internet linkages 
between the United States and Cuba, including telecommunications 
facilities in Cuba under an OFAC general license, as opposed to the 
more restrictive specific license. Under a Department of Commerce 
license exception, the export of items for Cuba's telecom 
infrastructure is also permitted under certain conditions. Under new 
policies, U.S. companies may also make commercial sales of personal 
communication devices and software (e.g., telephones, computers, and 
Internet technology/applications) to Cuba, and can also send certain 
tools, equipment, and supplies to private enterprises in Cuba. These 
regulatory changes respond directly to requests made to the 
administration by civil society to enable greater access to 
telecommunications equipment on the island.
    We are encouraging U.S. companies to consider the Cuban market and 
continuing to work to address their concerns. We proposed that 
Ambassador Daniel Sepulveda, U.S. Coordinator for International 
Communications and Information Policy, travel to Cuba to begin a 
dialogue on broadening telecommunications and Internet on the island 
with the objective of advancing unfettered Internet access for the 
Cuban people. In addition, we will work with Cubans, including civil 
society actors, to promote uncensored Internet access. This is an 
important part of our efforts to enhance and strengthen the fundamental 
right to freedom of speech and expression.

    Question. General Castro has launched a public diplomacy campaign 
with other Latin American countries defending his interests in 
normalizing relations with the United States. The administration said 
it wanted to remove ``the Cuba distraction'' in order to improve 
relations with the countries of the Western Hemisphere.

  <diamond> Can you provide a detailed administration strategy to 
        capitalize on its Cuba policy shift as part of its diplomatic 
        engagements in the Western Hemisphere?
  <diamond> In what specific ways do you expect countries in the 
        Western Hemisphere to qualitatively modify their efforts to 
        support political freedom in Cuba, especially in the runup to 
        the April Summit of the Americas in Panama?
  <diamond> What specific commitments has the administration obtained 
        from any government, anywhere in the world, to join the United 
        States in support of greater political freedom in Cuba?

    Answer. As was the case before the administration's change in 
policy toward Cuba, we will continue to engage our hemispheric partners 
intensively in an effort to promote human rights, prosperity, and 
democracy not only in Cuba, but throughout the region at every 
appropriate opportunity. We have reinforced with other countries in the 
hemisphere the importance of supporting genuine progress on human 
rights and democratic principles in Cuba as a means to advance 
meaningful and principled regional integration. Assistant Secretary for 
Democracy, Human Rights, and Labor Malinowski carried this message to 
Bolivia during his attendance at the Presidential inauguration in 
January, as I did with numerous Foreign Ministers in Brazil at the 
Presidential inauguration, and indeed the Vice President did with heads 
of state as well. We will continue to engage regional partners at 
events including the Summit of the Americas and the associated Youth, 
Business, Civil Society, and Educators forums in April, the World 
Economic Forum for Latin America in April, the OAS General Assembly in 
June, and the Pathways to Prosperity Ministerial in October. We are 
confident our efforts will no longer be blunted by discussions of 
whether our own Cuba policy is effective.
    We cannot speculate on the diplomatic stance others will take going 
forward, but we have already seen indicators that with our Cuba policy 
more closely aligned with others in the hemisphere, we are in a much 
better position to seek cooperation from our partners both in the 
Americas and elsewhere.
    Announcing our new policy in December, the President said, 
``Through these changes, we intend to . . . begin a new chapter among 
the nations of the Americas.'' The response from partners throughout 
the region and around the globe has been overwhelmingly positive. We 
are already seeing signs that the updated approach will give us a 
greater ability to engage other nations in the hemisphere and around 
the world to join us in promoting respect for human rights and 
fundamental freedoms in Cuba. Canada, our closest ally and neighbor, 
said ``the more American values and American capital that are permitted 
into Cuba, the freer the Cuban people will be.'' The common reaction 
from leaders at the Brazilian inauguration was that the President's 
announcement was historic, and changed the nature of U.S.-Latin 
American relations for the better. Many leaders offered strong support 
and their assistance in advancing our common objectives. The same was 
heard at the Bolivian President's inauguration, underscoring that the 
time had come to encourage Cuba to do its part. The OAS, along with the 
Inter-American Commission on Human Rights, also expressed support for 
the updated approach the President announced. We appreciate these 
statements, and look to continued support from the entire Inter-
American system and community as we implement these historic changes 
and continue to promote democracy, human rights, and fundamental 
freedoms in Cuba.

    Question. We are nearing the 1-year anniversary of the political 
protests in Venezuela and the jailing of opposition leader Leopoldo 
Lopez. President Obama signed the Venezuela Defense of Human Rights and 
Civil Society Act of 2014 on December 18.

  <diamond> Why has the administration not yet imposed the financial 
        sanctions authorized under the act?
  <diamond> Now that the administration is engaging the Castro regime, 
        do you plan to pressure the Cuban regime to end its support for 
        the Maduro government and its involvement in the ongoing 
        repression of the Venezuelan people?

    Answer. We are expeditiously working with the National Security 
Council, the Department of the Treasury, and other relevant agencies to 
implement the Venezuela Defense of Human Rights and Civil Society Act 
of 2014. Fully implementing this law is a complex undertaking. A 
determination to sanction someone under this law must be supported by 
credible information and meet certain legal thresholds.
    Separate from requirements outlined in the sanctions law, the 
Department took steps in February to impose visa restrictions against 
individuals believed to be responsible for, or complicit in, human 
rights abuses and public corruption pursuant to Section 212(a)(3)(C) of 
the Immigration and Nationality Act. These actions may also affect 
family members of some of these individuals. We will not publicly 
identify these individuals because of U.S. visa confidentiality laws, 
but we are sending a strong message that human rights abusers, those 
who profit from public corruption, and their families are not welcome 
in the United States.
    We continue to call on the Venezuelan Government to release 
Leopoldo Lopez, Mayor Daniel Ceballos, and others it has unjustly 
jailed and to improve the climate of respect for human rights and 
democratic norms. We firmly believe the enjoyment of fundamental 
freedoms, such as the freedoms of expression and peaceful assembly, is 
essential to a functioning democracy and Venezuela must protect these 
fundamental freedoms.
    In our engagement with countries throughout the region, including 
Cuba, we press governments to live up to the hemisphere's shared 
commitment to democracy and convey our view that Venezuela is falling 
short of what is articulated in the OAS Charter, the Inter American 
Democratic Charter, and other fundamental instruments related to 
democracy and human rights.

    Question. Almost 2 months ago, the United States transferred six 
detainees from Guantanamo Bay to Uruguay. The President of Uruguay has 
downplayed the backgrounds of these men, raising concerns about how 
seriously Uruguay takes its responsibility to ensure they don't return 
to the fight. I have been asking for our agreement with the Government 
of Uruguay governing their acceptance of these detainees for several 
weeks now but the Department has been unresponsive.

  <diamond> Will you make this document available to interested Members 
        of Congress, especially in light of the news that members of 
        the so-called ``Taliban Five'' are attempting to circumvent the 
        restrictions imposed on them?

    Answer. The Department has consistently informed Congress, and 
represented to U.S. courts, that disclosing foreign government 
assurances pertaining to Guantanamo detainee transfers outside limited 
channels within the executive branch would likely have a chilling 
effect on the U.S. Government's ability to negotiate detainee transfers 
and the willingness of foreign governments to continue cooperating on 
these sensitive matters. As required by the NDAA, each detainee 
transfer notification letter sent to Congress provides a description of 
the arrangements to be implemented.
                                 ______
                                 

              Responses of Tomasz Malinowski to Questions 
                    Submitted by Senator Marco Rubio

    Question. It appears that the administration secured few, if any 
protections for the 53 political prisoners who were eventually 
released.

  <diamond> (a) A number of the released prisoners have been rearrested 
        and harassed since their releases. What commitments did the 
        Cuban regime make regarding treatment of prisoners after their 
        release?
  <diamond> (b) In your long career working on human rights issues, is 
        it standard for the release of political prisoners to be 
        negotiated by the United States that does not result in 
        complete freedom of movement and actions after their release?

    Answer. We condemn any conditions or restrictions placed on 
citizens who peacefully exercise their fundamental freedoms, whether 
they are recently released political prisoners or not. Neither these 53 
individuals, nor other Cubans, should be subjected to harassment, 
arrest, or violence for simply exercising their universal human rights.
    We have no illusions the Cuban Government will change its behavior 
simply because of our new policy approach. The purpose of our new 
approach is to better equip us and Cuban independent civil society to 
press the Cuban Government for real change. We are constantly 
monitoring reports of arrests of human rights defenders. I also said in 
my statement that we will spare no effort to ensure that everyone still 
detained for simply exercising their rights to freedoms of expression, 
association, or peaceful assembly is free, not just from prison but 
from harassment, threats, and restrictions on their movement and their 
work.
    When discussing prisoners of concern with repressive governments, 
we always push for full freedom of movement and actions, but those 
governments often do not fulfill that request. In Burma, for example, 
after the administration succeeded in obtaining the release of hundreds 
of political prisoners, it took months of more work for the Burmese 
Government to issue them passports; and most were released under a rule 
that allowed the government to put them back in jail at any time to 
finish their original sentence if they did anything out of line. 
Indeed, no one released from prison, or any person for that matter, in 
a country that is not free has complete freedom of movement and action. 
Our goal is to get dissidents out of prison, then push for the next 
step, and the next one after that.
    We will continue to raise prisoners of concern and object to any 
conditions attached to release, and we look forward to working with you 
and your committee to press for the release of all political prisoners 
in a Cuba that respects human rights.

    Question. The Cuban regime has yet to follow through on the other 
supposed human rights concessions--visits by ICRC and U.N. agencies.

  <diamond> (a) How many ICRC or U.N. visits have occurred, to Cuba, 
        since December 17 to discuss human rights?
  <diamond> (b) If none, when will the first visits occur?
  <diamond> (c) Which prisons will the ICRC be able to visit?
  <diamond> (d) We have been told by several of the relevant U.N. 
        agencies that in the wake of the President's announcement in 
        December, they engaged the Cuban regime and were told that they 
        were not able to visit the island. Can you explain why the 
        administration would herald this as a Cuban concession when the 
        Cubans appear to deny any agreement on this issue?

    Answer. The Cuban Government agreed to talk to the U.N. and other 
international organizations. They have not yet agreed to allow them to 
do all of the important work in Cuba we would like to see them carry 
out on human rights. So we need to work to take advantage of this 
development. The administration, including Assistant Secretary Jacobson 
during her January 22 visit to Cuba, has urged the Cuban Government to 
provide access to the U.N. and other international organizations. We 
have urged others to also press them in this regard. We will continue 
to press for greater access--and for the Cuban Government to live up to 
Raul Castro's statement that ``Cuba reiterates its willingness to 
cooperate in multilateral bodies, such as the United Nations.''
                                 ______
                                 

          additional material submitted by senator marco rubio

        Internet in Cuba Only for the Rich--or Resourceful, by 
               Alexandre Grosbois, AFP, Business Insider

    Havana (AFP).--With smartphones and tablet computers, they look 
much like young people anywhere, but Cubans have to go to extremes just 
to get an Internet connection and somehow get around the strict control 
of the Communist authorities.
    In the capital Havana, clusters of young Cubans can be spotted at 
weekends in groups near hotels, embassies, and business centers in a 
desperate attempt to get online--somehow.
    ``Some people capture wireless signals after getting the codes from 
friends who work here, but I know there are others who manage to crack 
passwords with special software,'' one computer enthusiast said, 
speaking on condition of anonymity at the foot of an office block.
    Lurking down a small street abutting a hotel, another strategy is 
at work. Several youngsters tap away furiously on their devices--they 
are online thanks to a shared connection courtesy of a classmate posted 
at hotel reception.
    Suffice it to say that in Cuba, wireless signals--or failing that, 
any Internet connection--are highly coveted.
    They are under strict control, reserved for companies, 
universities, and institutions. A privileged few--journalists, artists, 
and doctors, in particular--are entitled to a particular connection. 
And that's it.
                           prohibitive prices
    In 2013, only 3.4 percent of Cuban households were connected to the 
Internet, according to the International Telecommunication Union (ITU), 
which rates the connectivity of countries.
    Since June last year, the Cuban authorities have gone a small way 
to affording the island's 11.3 million population a rare chance to 
access the Internet, opening about 100 centers for the public to get 
online.
    But at $4.5 per hour, rates are prohibitively expensive in a 
country where the average monthly wage is around $20.
    Previously, only hotels could offer the Internet to the public, but 
again with a prohibitive rate of up to $10 an hour that only foreign 
visitors could afford.
    The state telecommunications service provider, ETECSA, does not 
offer mobile Internet to its customers, while the 3G network is only 
for foreign visitors using roaming and offers often patchy performance.
    ETECSA has now allowed subscribers to access their mail from their 
smartphones, but it only applies to the domain @nauta.cu. The company 
has also opened a service to send pictures from phones to any email 
address.
    They are minor concessions in a country where foreign-branded 
smartphones are increasingly visible.
                       ``among most restrictive''
    ``Cuba remains one of the most restrictive countries in the world 
in terms of Internet freedom,'' Sanja Tatic Kelly, project director for 
Freedom on the Net, at the American NGO Freedom House, told AFP.
    ``Rather than relying on the technically sophisticated filtering 
and blocking used by other repressive regimes, the Cuban Government 
limits users' access to information primarily via lack of technology 
and prohibitive costs,'' she said.
    The Cuban authorities do censor certain websites--press and blogs 
that are against the Castro leadership, pornography, and Skype--but 
Tatic Kelly noted: ``The total number of blocked websites is relatively 
small when compared to many other authoritarian states like China, 
Iran, or Saudi Arabia.''
    The more tech-savvy Cubans have found a way around that too, 
downloading software that can hide their IP addresses to avoid 
detection and mislead snooping eyes into thinking they are surfing the 
net in another country.
    For those who are less tech-smart, they can always rely on the 
``paquete''--USB sticks packed with pirated films, TV shows, pop music, 
and games and sold on the black market for a few U.S. dollars.
    Cuba's rulers say they need to keep a tight rein on the Internet to 
protect the island from cyberattacks.
    Over 18 months, Havana has been the victim of cyberattacks from 
thousands of addresses registered in over 150 countries, according to 
deputy minister of communications Wilfredo Gonzalez.
    That brooks no argument with Tatic Kelly.
    ``Cuba does not register as one of the leading countries 
experiencing cyberattacks,'' she said, citing data from online security 
experts Kaspersky Lab, which ranks Cuba 199th in terms of countries hit 
with counterattacks.
    At number one, the most targeted, is Russia, it says, with the 
United States third.
                                 ______
                                 

     U.S. Products Help Block Mideast Web, by Paul Sonne and Steve 
              Stecklow, Wall Street Journal, Mar. 28, 2011

    As Middle East regimes try to stifle dissent by censoring the 
Internet, the U.S. faces an uncomfortable reality: American companies 
provide much of the technology used to block websites.
    McAfee Inc., acquired last month by Intel Corp., has provided 
content-filtering software used by Internet-service providers in 
Bahrain, Saudi Arabia, and Kuwait, according to interviews with buyers 
and a regional reseller. Blue Coat Systems Inc. of Sunnyvale, Calif., 
has sold hardware and technology in Bahrain, the United Arab Emirates 
and Qatar that has been used in conjunction with McAfee's Web-filtering 
software and sometimes to block websites on its own, according to 
interviews with people working at or with ISPs in the region.
    A regulator in Bahrain, which uses McAfee's SmartFilter product, 
says the government is planning to switch soon to technology from U.S.-
based Palo Alto Networks Inc. It promises to give Bahrain more blocking 
options and make it harder for people to circumvent censoring.
    Netsweeper Inc. of Canada has landed deals in the UAE, Qatar and 
Yemen, according to a company document.
    Websense Inc. of San Diego, Calif., has a policy that states it 
``does not sell to governments or Internet Service Providers (ISPs) 
that are engaged in government-imposed censorship.'' But it has sold 
its Web-filtering technology in Yemen, where it has been used to block 
online tools that let people disguise their identities from government 
monitors, according to Harvard University and University of Toronto 
researchers.
    Websense's general counsel said in a 2009 statement about the 
incident: ``On rare occasion things can slip through the cracks.''
    Web-filtering technology has roots in the 1990s, when U.S. 
companies, schools and libraries sought to prevent people from surfing 
porn, among other things.
    Today, that U.S. technology is now among the tools used in the 
clampdowns on uprisings across the Middle East. In Egypt, Syria, 
Tunisia, and elsewhere, bloggers have been jailed and even beaten as 
governments try to repress online expression.
    In Bahrain, Nabeel Rajab, head of the banned Bahrain Human Rights 
Center, which runs a website the government blocks, says he was briefly 
thrown in a car and roughed up after authorities raided his house last 
week. The men threatened him with a pipe, he says, and slapped him when 
he refused to say he loved Bahrain's king and prime minister.
    For the U.S., the role of Western companies in Internet censorship 
poses a dilemma. In a speech last year, Secretary of State Hillary 
Rodham Clinton said, ``Censorship should not be in any way accepted by 
any company from anywhere. And in America, American companies need to 
take a principled stand.''
    Lately the State Department has spent more than $20 million to fund 
software and technologies that help people in the Middle East 
circumvent Internet censorship that is sustained by Western technology.
    Asked about that policy, a senior State Department official said 
the U.S. is responding to ``a problem caused by governments abusing 
U.S. products.'' When governments repurpose U.S.-made tools ``to filter 
for political purposes, we are involved in producing and distributing 
software to get around those efforts.''
    A Bahrain official defended censorship. ``The culture that we have 
in the Middle East is much more conservative than in the U.S.,'' says 
Ahmed Aldoseri, director of information and communication technologies 
at the Telecommunications Regulatory Authority.
    Freedom of speech is guaranteed in Bahrain, Mr. Aldoseri says, ``as 
long as it remains within general politeness.''
    Makers of Web-filtering technology say they can't control how 
customers use their products. ``You can add additional websites to the 
block list,'' says Joris Evers, a McAfee spokesman. ``Obviously what an 
individual customer would do with a product once they acquire it is 
beyond our control.'' A spokesman for Blue Coat made similar points.
    There are no special export restrictions on Web-filtering 
technology. Anti-censorship advocates say there needs to be a way for 
companies to track how their filtering software is used.
    ``They could build into the software something that signals and, in 
fact, sends back to them exactly what kind of filtering is taking 
place,'' says Jonathan Zittrain, a professor of law and computer 
science at Harvard Law School. ``There's no rocket science there, it's 
just their customer wouldn't like it.''
    Web-blocking companies declined to name their Middle Eastern 
customers, but The Wall Street Journal identified a number of them 
through interviews with ISPs, a reseller and former employees. In 
addition, OpenNet Initiative, made up of Harvard and University of 
Toronto researchers who study Internet filtering, identified three ISPs 
in Yemen, Qatar, and the UAE that were using Netsweeper in January. 
ISPs provide Internet access to households and companies.
    A Netsweeper official said the company doesn't comment on its 
clients.
    According to a forthcoming report from OpenNet, ISPs in at least 
nine Middle East and North African countries have used ``Western-made 
tools for the purpose of blocking social and political content, 
effectively blocking a total of over 20 million Internet users from 
accessing such websites.''
    Employees at ISPs in the Middle East said in interviews that 
government ministries give them databases of Internet addresses, 
including, at times, antigovernment sites, for blocking and that they 
must comply. The number of requests varies by country.
    Mishary Al-Faris, quality assurance manager at Qualitynet in 
Kuwait, says his ISP, which uses SmartFilter, receives several requests 
a year from the government to block content deemed religiously 
offensive. ``It's kind of a gentlemanly understanding: 'We're going to 
honor your requests,''' he says.
    Web filtering isn't exclusively a tool of Internet censorship. As 
companies like McAfee, Blue Coat, and Netsweeper note, their technology 
can prevent youngsters from encountering pornography and protect ISPs 
from malicious cyber attacks.
    In recent years, American companies aggressively have sought new 
customers abroad.The global Web-security market, including filtering, 
was valued at $1.8 billion in 2010, according to Phil Hochmuth of 
market-research firm IDC. The Middle East and Africa accounted for 
about $46 million and is growing at about 16 percent a year, he says.
    China is considered the king of Web filtering, with its elaborate 
censorship system dubbed the ``Great Firewall.'' China's technology 
remains unclear but its reach is vast: Local Chinese sites must be 
licensed and are required to remove any content the government deems 
objectionable. In addition, some major foreign sites, including 
Facebook, Twitter, and Google Inc.'s YouTube, have been blocked for 
more than a year.
    Middle East Web blocking has some differences. Government licenses 
for websites typically aren't required. Another difference: In the 
Middle East the ISP will generally show an explicit notice saying a 
site has been blocked, whereas in China it is often unclear why a site 
becomes inaccessible.
    Blocking websites can be done with hardware, specialized software 
or a combination of the two. On a basic level, Web filtering works this 
way: First, a list is built that groups websites into categories such 
as ``gambling,'' ``dating'' or ``violence.'' Netsweeper says it has 
categorized more than 3.8 billion Web addresses and adds 15 million a 
day. Then, a user of the software can use that list to block access to 
specific sites or categories.
    Companies like Websense and Netsweeper can now scan and categorize 
the content of an uncategorized page in real time. They can also block 
pieces of a site, rather than whole pages, if only a certain image or 
text is considered objectionable.
    The use of filtering to block websites could be seen this month in 
Bahrain, where a group of mostly Shia protesters took aim at the 
country's Sunni ruling family and met a violent crackdown. Batelco, 
Bahrain's main ISP, filters the Web using McAfee SmartFilter software 
and Blue Coat technology, according to Ali AbuRomman, who works on the 
network team. He says the government regularly uploads lists of 
websites to block, including some political sites, to the country's 
ISPs.
    In a test on a Batelco connection in Bahrain in recent days, The 
Wall Street Journal found that online-community forums for Shia 
villages and the websites of at least two human-rights groups were 
censored.
    ``Site blocked,'' the screen read in English and Arabic when a 
Journal reporter tried to view the sites. ``This website has been 
blocked for violating regulations and laws of Kingdom of Bahrain.''
    Since 2009, Bahrain has had the power to order the blocking of 
websites for ``transgressing local values and impairing national 
unity,'' according to the U.S. State Department.
    Also blocked during the Journal test was Malkiya.net, a news site 
and discussion forum for Malkiya, a mostly Shia fishing town that has 
seen antigovernment protests in recent years. Its owner, Ali Mansoor 
Abbas, says the site also was blocked after it covered protests over 
the seizure of part of a local beach by a cousin of Bahrain's king.
    Mr. Aldoseri, the Bahrainian telecom official, says his country 
plans to switch in the next few months from SmartFilter to technology 
from Palo Alto Networks. It can block activities within websites, like 
video or photo uploading, or Internet tools that let users bypass 
blocking altogether, which are illegal in Bahrain.
    Middle East Web filtering has sparked a cat-and-mouse game to 
outfox the censors. Website owners like Mr. Abbas of Malkiya.net 
sometimes create ``mirror'' sites, with slightly different names.
    Walid Al-Saqaf, a graduate student and former journalist from Yemen 
who now lives in Sweden, engineered his own circumvention tool after 
his news-aggregation site, YemenPortal.net, which included 
antigovernment content, was blocked by the country's filters. Known as 
Alkasir, the Arabic word for ``circumventor,'' his free program has 
attracted at least 16,000 users in Yemen, China, Iran and elsewhere, he 
says.
    Two years ago, OpenNet Initiative researchers found that Yemen was 
using filtering software from Websense to block privacy tools. In 
response, the company said it stopped providing the ISPs involved with 
its latest website-block lists since the ISPs violated its 
anticensorship policy.
    The new OpenNet report says Websense tools and services appeared to 
still be used in Yemen as recently as August. The company declined to 
comment. The report also found that in January, new filtering software 
was being used in Yemen from Canadian firm Netsweeper.
    ``Filtering decisions are made by the entity that decides to 
filter,'' says Scott O'Neill, Netsweeper's director of sales and 
marketing. ``Much as Ford Motor Co. can't decide how [its customers] 
are going to drive their cars.''
    An informational company document says telecom companies can use 
Netsweeper to ``block inappropriate content using [a] pre-established 
list of 90+ categories to meet government rules and regulations--based 
on social, religious or political ideals.''
    Emirates Integrated Telecommunications Co., or Du, one of the UAE's 
main ISPs, decided last year to switch to Netsweeper from the filtering 
system it had been using with Blue Coat devices, says Abul Hasan 
Jafery, a technical consultant who helped implement Netsweeper's 
filtering system there.
    ``We block malware, alternative lifestyles, profanity,'' says Mr. 
Jafery. ``If something is offensive to the religion, we block it.''
    Until recently, Tunisia had some of the most pervasive Internet 
filtering in the world, according to OpenNet. Then, a January popular 
revolt forced the resignation of the country's president--triggering 
the wave of protests that have spread across the Middle East.
    Tunisia has since pulled the plug on its Web-blocking gear. The new 
head of the Tunisian Internet Agency, Moez Chakchouk, says he was 
astounded when he recently visited a secured room at the state 
telephone company where the filtering equipment was kept.
    The room was full of unfamiliar gear, says the 36-year-old computer 
engineer, who took the job last month. ``I don't know'' what it all 
does, he says. Mr. Chakchouk says the Interior Ministry controlled the 
filtering equipment since 2004, and the entire country's Internet 
traffic flowed through it.
    For several years, according to Mr. Chakchouk, the Tunisian 
government used SmartFilter, which McAfee acquired in 2008. The McAfee 
spokesman confirmed the product has been sold in Tunisia, but declined 
to disclose its customers.
    For better or worse, says Mr. Chakchouk, part of the legacy of 
Tunisia's former regime has been to leave Tunisia with some of the most 
sophisticated Internet-filtering equipment in the world. ``I had a 
group of international experts from a group here lately, who looked at 
the equipment and said: `The Chinese could come here and learn from 
you.' ''
                                 ______
                                 

     Cuba's $6B Debt to Americans for Seized Properties Hangs Over 
      U.S. Talks, by Kelley Beaucar Vlahos, FoxNews, Jan. 27, 2015

    A $6 billion sticking point could create headaches for the U.S.-
Cuba talks.
    Though concerns over human rights, press freedoms and U.S. 
fugitives living free on the island have dominated debate over the 
Obama administration's negotiations on restoring diplomatic ties, the 
Castro regime also still owes Americans that eye-popping sum.
    The $6 billion figure represents the value of all the assets seized 
from thousands of U.S. citizens and businesses after the Cuban 
revolution in 1959. With the United States pressing forward on 
normalizing relations with the Communist country, some say the talks 
must resolve these claims.
    ``The administration has not provided details about how it will 
hold the Castro regime to account for the more than $6 billion in 
outstanding claims by American citizens and businesses for properties 
confiscated by the Castros,'' Sen. Robert Menendez, D-Fla., top 
Democrat on the Senate Foreign Relations Committee, wrote in a letter 
to Secretary of State John Kerry ahead of historic talks in Havana last 
week.
    Menendez urged the U.S. to ``prioritize the interests of American 
citizens and businesses that have suffered at the hands of the Castro 
regime'' before moving ahead with ``additional economic and political 
concessions.''
    Beginning with Fidel Castro's takeover of the Cuban Government in 
1959, the Communist regime nationalized all of Cuba's utilities and 
industry, and systematically confiscated private lands to 
redistribute--under state control--to the Cuban population.
    The mass seizure without proper compensation led in part to the 
U.S. trade embargo.
    Over nearly 6,000 claims by American citizens and corporations have 
been certified by the U.S. Foreign Claims Settlement Commission, 
totaling $1.9 billion.
    Today, with interest and in today's dollars, that amount is close 
to $6 billion.
    U.S. sugar, mineral, telephone and electric company losses were 
heavy. Oil refineries were taken from energy giants like Texaco and 
Exxon. Coca-Cola was forced to leave bottling plants behind. Goodyear 
and Firestone lost tire factories, and major chains like Hilton handed 
over once-profitable real estate for nothing in return.
    Assistant Secretary of State Roberta Jacobson, after leading the 
talks in Havana last week, did not mention the U.S. property claims at 
a press briefing. But a State Department spokesperson later told 
FoxNews.com the claims ``were addressed'' in the talks and ``will be 
subject to future discussions.''
    In Dec. 18 remarks, Jacobson said, ``registered claims against the 
Cuban government'' would be part of the ``conversation.''
    She also noted Cuban claims of monetary losses due to the 50-year-
old U.S. embargo.
    ``We do not believe those things would be resolved before 
diplomatic relations would be restored, but we do believe that they 
would be part of the conversation,'' she said. ``So this is a process, 
and it will get started right away, but there's no real timeline of 
knowing when each part of it will be completed.''
    The billions are owed, in part, to an array of major companies.
    U.S. banks ranging from First National City Bank (which became 
Citibank) to Chase Manhattan lost millions in assets. According to the 
list of claimants, the Brothers of the Order of Hermits of St. 
Augustine even lost $7.8 million in real estate when they were expelled 
from the island.
    According to a government study commissioned in 2007, however, some 
88 percent of the claimants are individual American property and asset 
owners, many of whom would probably like to see some sort of 
compensation out of the diplomatic deal-making.
    ``I think this is a significant issue and it has more resonance 
today than it would have had 20 years ago,'' as nationalization has 
seen a resurgence throughout Latin America in recent years, said Robert 
Muse, a Washington, DC, attorney who has represented corporate clients 
whose assets were seized. ``You have to take seriously the notion that 
a government must support their companies when their [property] is 
expropriated. You have to have some consistency on that.''
    Experts who spoke to FoxNews.com agree that fully compensating 
everyone on the list would be a complicated, if not impossible, 
endeavor.
    First, the Cuban Government, even if it did agree in spirit to pay, 
probably would not be able to afford it.
    Some individual claimants may be long dead. Further, some of the 
original corporations no longer exist, thanks to mergers, buyouts, and 
bankruptcies over the years.
    Such is the case with the Cuban Electric Company, which has the 
largest claim--$267.6 million in corporate assets (1960 dollars). The 
company was part of the paper and pulp manufacturer, Boise Cascade 
Company (which also has a claim for $11.7 million), at the time of the 
seizures.
    But Boise Cascade has since spun off and the part of it that held a 
subsidiary with a majority stake in Cuban Electric became Office Max--
which later merged with Office Depot in 2013. Company officials reached 
by FoxNews.com had no comment on the original Cuban Electric claims.
    Muse and others, like Cuba analyst Elizabeth Newhouse at the Center 
for International Policy, say that companies that still have an active 
interest in getting compensated might agree to more creative terms--
whether it be for less money, or tax breaks or other incentives on 
future investments if and when the U.S. embargo is lifted.
    ``My sense is that some corporations are more interested in having 
a leg up in any trade arrangements than they are in getting their money 
back,'' Newhouse said.
    Thomas J. Herzfeld, who heads the 20-year-old Herzfeld Caribbean 
Basin Fund which trades shares of firms that would have an interest in 
Cuba if the embargo is lifted, said his life-long goal has been ``to 
rebuild Cuba.'' He has approached claimants about taking their claims 
in exchange for investment shares. He said his fund is ``well-
prepared'' for when normalization resumes.
    But others warn about popping the corks too soon, particularly if 
the Castro regime is unwilling to take the compensation seriously. 
According to the Helms-Burton Act, which enforces the sanctions, the 
embargo cannot be lifted until there is ``demonstrable progress 
underway'' in compensating Americans for their lost property. (Congress 
also would have to vote to lift the embargo.)
    ``This is an issue where they are going to have to put their heads 
together and figure out how to resolve it,'' Newhouse said. ``I think 
everyone wants to see it resolved.''
    Jacobson, at the close of last week's opening talks, said there was 
some progress on opening up embassies, but there continue to be ``areas 
of deep disagreement,'' particularly on Cuban human rights and 
fugitives from U.S. justice in Cuba.
    ``Let me conclude,'' said Jacobson, the highest-ranking U.S. 
diplomat to visit Cuba in more than three decades, ``it was just a 
first step.
                                 ______
                                 

         additional material submitted by senator barbara boxer

    Dec. 17: A Day of Triumph for Cuban Americans, by Ric Herrero, 
               op-ed from the Miami Herald, Dec. 29, 2014

    The most damaging legacy of the Helms-Burton Act is not that it 
codified the bulk of U.S. sanctions into law, but that it codified the 
way we are supposed to think about solving the Cuban puzzle. It zapped 
our creativity and told us we must consider only one zero-sum, all-or-
nothing course of action to foster change in Cuba--a course that never 
had a serious chance of succeeding.
    Far worse, it codified our identity as victims. It denied us the 
freedom to take credit for the ground we've gained until the day the 
Castros are driven from power and there is a functional democracy in 
Cuba. It blinded us to the series of small victories that freedom 
advocates have won in Cuba over the past five years, and from 
recognizing the historic victory that the Cuban-American community won 
on Dec. 17.
Cuban Americans played a key role in the negotiations
    Some claim that Cubans and Cuban Americans were left out of the 
negotiations between our two countries. While I can't speak for what 
may have transpired in Havana, on the American side, that is not true. 
Over the better part of the last two years, Obama administration 
officials sought out the advice of prominent Cuban-American 
professional, civic and religious leaders on how to best chart a new 
course on Cuba policy. These talks often included members of 
distinguished organizations such as the Cuba Study Group, Roots of 
Hope, the Cuban American National Foundation and our own #CubaNow.
    A priority for the White House was that any new measures had to 
advance the cause of human rights in Cuba. To that end, they started 
meeting with visiting Cuban opposition leaders, including Yoani Sanchez 
and Berta Soler, shortly after the Cuban government reformed its 
migratory policy in February 2013.
    From the beginning it was clear that these officials understood 
something we all knew, but many refused to accept: Our policy wasn't 
working. They were particularly receptive to calls for a new approach 
that advanced three objectives: empower the Cuban people so they could 
become the authors of their own destinies; place the right kind of 
pressure on the Cuban government to improve human-rights conditions; 
and promote the interests of the United States in the region.
    Those Cuban Americans and visiting Cubans who shared creative and 
constructive ideas during these talks saw their recommendations 
reflected to varying degrees in the policy changes. Those who called 
for more of the same received less attention. Perhaps if Sens. Marco 
Rubio and Robert Menendez had spent less time defending a failed 
``moral'' policy and more time working with the President to develop an 
effective moral policy, they might have held more sway over the 
outcome.
The Cuban government did not set the terms of the prisoner swap
    Others are complaining that the United States allowed the Cuban 
regime to set the terms of the negotiations and received nothing in 
return. Again, this is wrong. For years the Cubans called for a three-
for-one prisoner swap as the only option, and the United States 
repeatedly rejected it. This was largely because of pressure from the 
Cuban-American community. While the rest of the country seemed 
accepting of a three-for-one, our community wouldn't settle. Some of us 
instead called for a more creative approach, one that went beyond the 
fates of Alan Gross and the Cuban Three--one that called for a larger 
bargain that would place us on the road to better relations. There are 
more than 50 years of unresolved conflicts, grievances and restrictions 
between our two nations. We said, let's put some of those on the table.
    In the end, the Cubans did not get the deal that they wanted. 
Instead, they agreed to release Gross, plus a CIA spy and 53 political 
prisoners. They also agreed to allow the International Red Cross and 
United Nations to monitor human rights inside the island and to re-
establish diplomatic relations, something that must have rattled their 
hardliners as much as it did ours. Had it not been for the pressure 
exerted by Cuban Americans, it is quite possible that the United States 
might have opted for the easy swap to bring Gross home.
All eyes are now on Cuba
    What Dec. 17 has taught us is that as long as we are willing to 
recognize when something has failed and remain open to exploring new 
ways of promoting democratic values in Cuba, Cuban Americans will 
always have a seat at the table.
    It will be increasingly difficult for Havana to explain to the 
Cuban people--and to the rest of the world--why it must maintain or 
tighten its internal embargo now that the United States has opened up.
    Our job as a community is to be flexible, creative and, most of 
all, strategic. We have to explore the wealth of new opportunities 
presented by this era of diplomatic relations and expanded travel, 
trade and telecommunications flows to help empower Cubans.
    Every Cuban who is actively seeking to increase his or her 
autonomy--from artists and entrepreneurs, to religious groups and 
democracy advocates--deserves our help. As barriers continue to be 
lifted, let's do more to contribute to their success.
    In the process, we do not have to trust Cuban officials to get them 
to take steps in the direction we'd like to see. But we must trust that 
they, too, want a better future for their children and that they can 
recognize a good deal when they see one.
    Our goal has been, and always will be, to facilitate peaceful 
changes that lead to a free and pluralistic Cuba. Let's be smart about 
how we seize new opportunities to advance this goal. But by all means, 
let's not give into despair and let's shed the veil of victimhood, 
because small victory by small victory, the Cuban-American community is 
winning.
    Ric Herrero is executive director of #CubaNow. He lives in Miami.
                                 ______
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
      
                                 
            White House Letter Regarding White House Staff 
                    Attendance at Committee Hearings

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 ______
                                 

        additional material submitted by senator robert menendez


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 

             Additional Statements Submitted for the Record

          statement submitted by alan p. gross, u.s. citizen 
                imprisoned in cuba from 2009 until 2014

    Chairman Rubio, Ranking Member Boxer, and members of the 
subcommittee, I appreciate the opportunity to submit this brief 
statement for the record. As the members of the subcommittee know, I 
recently concluded 5 years of imprisonment in Cuba due to my 
participation in a USAID-sponsored program authorized and funded 
pursuant to the Helms-Burton Act. Prior to my incarceration, I spent 
more than 30 years in 54 countries working to bring about positive 
change through USAID and other development programs. Much of my work 
involved increasing the availability of information access to 
populations around the world. Indeed, this was the fundamental purpose 
of the project in Cuba for which I ultimately was forced to forfeit 5 
years of my life. I fully support what the President is doing to 
meaningfully improve international relations, particularly with Cuba. 
My 5 years in Cuba did not deter me from wanting to bring about change 
through development and engagement. To the contrary, I believe more 
strongly than ever that the President's decisive first steps need to be 
followed by congressional action ultimately repealing Helms-Burton and 
related statutes.
    I understand that this hearing is to focus on Cuba and human 
rights. In my opinion, access to information is itself a fundamental 
human right and is essential to empowering the Cuban people.
    It bears emphasis that all people are decisionmakers in various 
ways, even if their decision is to do nothing. Decisions are made, 
correctly or not, on knowledge and perceptions derived from information 
to which individuals have access. Access to information enables people 
to make better-informed decisions and to give informed consent. The 
accuracy of such decisions depends upon the availability of 
information, and the quality, timeliness, and cost of access to that 
information. Based on my experience, the citizens of Cuba could, and 
likely would, be more decisive if they had better access to 
information. Information is food for the brain; nothing can reach its 
full capabilities without food. Insufficient access to information is 
unhealthy for any citizenry and it materially impacts human rights 
issues on all levels.
    If access to information is considered a human right, the Govemment 
of Cuba's legalization of access to the Internet in June of 2013 
represented a step forward for Cubans in this regard. The Internet, 
that information highway, is one of the most impactful paths an 
individual can take in order to obtain and communicate information.
    It is probable that the Government of Cuba is finally recognizing 
that the intellectual and competitive capabilities of its population 
will be enhanced with less-restrictive practices involving information. 
It is probable that the Government of Cuba is beginning to understand 
that Cubans cannot compete in world markets without the same tools that 
nearly everyone who competes has at his or her disposal, and that Cuba 
must compete if it is to survive economically.
    By easing Internet restrictions, even if ever so slightly, the 
Cuban Government is beginning to show some new-found respect for the 
fundamental right of its people to access information, even if the 
Government does not necessarily like it. Reestablishing diplomatic 
relations with the Government of Cuba is only a first step in 
reestablishing freedom of information for those who live on that 
island. However, it is an essential step. Why would anyone not want to 
take that step?
                                 ______
                                 

            letter submitted by dagoberto valdes hernandez, 
                     director, convivencia magazine

    Esteemed Members of the Senate Foreign Relations Committee of the 
United States of America. Honorable Senators, my name is Dagoberto 
Valdes Hernandez and for more than 20 years I have led a Civic 
Education project to prepare citizens for democracy in Cuba. I am also 
the founder and editor of two magazines: Vitral and Convivencia 
(www.convivenciacuba.es). Currently, I live and work in Cuba.
    The purpose of this letter is to convey to you my opinion and that 
of the Convivencia project's team regarding the current negotiations 
between the Governments of the United States and Cuba.

    1. Convivencia magazine welcomes the reestablishment of diplomatic 
relations between the Republic of Cuba and the United States of 
America.
    We hope that this climate of dialogue and negotiation would also be 
established between the Government of the Republic of Cuba and 
independent Cuban civil society, respecting both unity and diversity, 
the right to self-determination, and the exercise of citizens' 
sovereignty.

    2. Convivencia magazine is happy for the liberation of political 
prisoners and feels that all political prisoners should be freed, 
including those who are free on bail or parole in Cuba.
    Similarly, all acts of political repression must stop. The Cuban 
Government should ratify the U.N.'s Human Rights Treaties and the 
Conventions of the ILO, as outlined under the four consensus points 
identified by a growing and significant group of Cuban civil society.

    3. Convivencia magazine is grateful for His Holiness Pope Francis' 
mediation efforts to reestablish diplomatic relations between the 
Republic of Cuba and the United States of America.

    4. Convivencia magazine believes that the reestablishment of 
diplomatic relations between the Republic of Cuba and the United States 
of America removes a serious obstacle so that the world can clearly see 
that the fundamental differences exist between the Cuban Government and 
its citizens, not between Cuba and the United States. That way, people 
will understand that the most important thing for our people is 
inclusion, civil, political, economic, social, and cultural liberties, 
and the exercise of an ever more participatory democracy in Cuba.

    5. Convivencia magazine also hopes that this historic milestone, 
and the lifting of all embargos--especially the one that the Cuban 
Government inflicts upon the initiative and entrepreneurial character 
of its citizens--creates the necessary conditions for the Cuban people 
to write their own history and that it can lead the entire nation, 
including our compatriots on the island and the diaspora, to a future 
of peace, liberty, progress, and social justice.

    I appreciate your attention to this important matter, and remain 
respectfully yours.
                                 ______
                                 

                Cuba-U.S. Relations, Neo-Castroism, and 
            Regional Authoritarianism, by Antonio G. Rodiles

    When the Communist bloc in Eastern Europe collapsed in 1989, many 
sociologists and analysts shared in the vision of the end of history. 
It appeared that liberal democracies would triumph over any other 
system that opposed the modernization of nations; 25 years later we see 
a different reality.
    After a period in which the number of democracies increased on a 
global scale, we have seen a revival of authoritarianism, with some 
market freedoms, particularly in Latin America. It is not a return to 
crude military dictatorship, but it is a return to the structures that 
subject fundamental rights and freedoms to the interests of strongmen 
and populist groups.
    The argument that certain economic freedoms always allow for the 
development of civil and political liberties is false. The use of state 
institutions to dismantle democratic mechanisms has become a very 
useful and effective machinery.
    In this sense, the situation of Venezuela in our region is most 
alarming. Unfortunately, the mechanisms that have been tested there 
have become models for others. Electoral processes are now tools that 
are used to legitimize the power of these groups. The use of 
paramilitary members as a method of ensuring social control permits 
that the violation of fundamental rights and liberties have no legal 
consequences for the authorities.
    Furthermore, the formation of regional organizations such as ALBA 
and CELAC provide the necessary international support to said regimes 
to pressure democratic nations to accept these spurious democracies.
    The case of Cuba is very symbolic, as the regime in Havana managed 
to survive the collapse of the Communist bloc. Poor decisions made by 
the international community and a fragmented society allowed Fidel 
Castro to manipulate the situation and prevent the end of the 
dictatorship. One of these decisions, made by the Clinton 
administration, facilitated the drainage of all internal pressure 
through a mass exodus at a moment when Cubans demonstrated a clear 
sense of being fed up with the regime. The subsequent appearance of 
Hugo Chavez and his oil guaranteed the survival of the Castro regime 
for the next 15 years, amid a regional context more favorable to 
dictatorship.
    Twenty years later, Castroism dies. Neo-Castroism, which for some 
time now has been pressing for greater legitimacy, has found a path in 
President Barack Obama's measures. The presumed family and political 
heirs of Castro begin to find the urgent legitimacy they need.
    The outlook on the island is complex. The transition from 
totalitarianism to authoritarianism will have to muddle through an 
already miserable situation, a nation completely de-capitalized, 
growing social unrest, and widespread corruption. To sustain the 
transfer of power, they utilize repressive bodies trained in impunity, 
judicial power subject to State Security, structures that influence 
peddling, and social groups prostituted to political power.
    There are other warning signs, such as the significant increase in 
the human trafficking of Cubans through Mexico in coordination with 
organized crime, especially the Zetas narcotrafficking group. There is 
strong evidence of a possible connection between the Cuban military and 
intelligence services with a Venezuelan military involved in the 
growing drug trade. However, suspicions of this link begin to appear, 
above all, due to the great influence that the former group has over 
these military institutions.
    The opposition on the island and in exile has to prevent that the 
regime achieves a transfer of power. Our work is focused on seeking a 
democratic transition and the establishment of the rule of law in the 
midst of a very complex external and internal environment. Internally, 
we confront a regime that enjoys full impunity in abusing its 
population. Externally, we are in a situation where democratic 
principles have taken a serious hit.
    In the international arena we have made some progress regarding the 
demand that the regime ratify and implement the United Nations' 
Covenants on Human Rights, especially those on civil and political 
rights. Such ratification would oblige a change in key elements of the 
judicial and legal system prevailing on the island and that violate, 
even in writing, fundamental freedoms. This demand has already been 
heard by the European bloc that is presently working on a bilateral 
agreement with the regime.
    In the present context, the steps taken by President Obama are not 
wise and prove very dangerous. They grant legitimacy and additional 
resources to a regime that has shown ample capacity to adapt at crucial 
moments. For this reason we have expressed our disagreement with the 
lack of transparency, the unconditional character, and the ignoring of 
vital players both in the internal opposition and in exile during these 
discussions.
    A change of direction is fundamental in this political process; 
that concrete demands are made to the regime and that the process 
involves the active participation of indispensable leaders of the 
opposition. Recently, the ``Forum for Rights and Freedoms'' was created 
in Havana and brought together an important assembly of leaders and 
groups within the island and in exile, who demanded a Roadmap with 
seven points that we consider to be of vital importance. The logic of 
this document lies in the ratification and implementation of the 
Covenants on Human Rights of the United Nations.
    The upcoming Summit of the Americas in April will be a defining 
moment. Raul Castro expects to arrive with the support of all regional 
allies. His hopes are pinned on that President Barack Obama, in a 
second and symbolic handshake, provides him with the necessary support 
for the new authoritarian monstrosity that has its essential core based 
around his family and political descendants.
    We are convinced that the United States, with its global leadership 
in the promotion of democracy, will provide great support to those on 
the island and in exile who ask for real and measurable changes toward 
a true democracy.
    The future of the region will have much to do with the 
democratization or nondemocratization of Cuba. Prioritizing rights and 
fundamental freedoms, and promoting the idea that these are key 
elements in the structuring of our nations, is vital at this crucial 
moment in time. We are debating the next 20 or 30 years as a country 
and region. Taking steps toward the consolidation of Neo-Castroism 
implies tacit validation of authoritarianism as an alternative to 
democracy throughout the region.

ATTACHMENT

                     forum for rights and freedoms

    The announcements made by U.S. President Barack Obama and his 
administration have triggered an intense debate about the Cuban 
problem. Many of those in the opposition and activists from civil 
society, both inside the island and in exile, have lamented, above all, 
the lack of transparency and unilateral and unconditional character of 
the new measures announced.
    It is indisputable and indispensable that Cubans be primarily 
responsible for the fate of our nation, but we also expect an effective 
commitment from the democratic community for the defense of fundamental 
freedoms and the establishment of the rule of law in Cuba.
    Those of us who experience the abuses of the Cuban regime daily and 
those in exile who suffer and have suffered from the totalitarianism in 
their home country, are vital players in the process of transition. 
Ignoring many of our voices and acting from only one perspective of the 
problem weakens objectivity and endangers any political dialogue.
    We are faced with two options. First, to accept the transformation 
of the regime to authoritarian capitalism where Cubans will have to 
settle for meager handouts, while the inheritors of Castroism dispose 
of our rights and wealth. Second, to demand concrete and measurable 
changes that are conducive to the establishment of a true democracy.
    The demand for the restoration of our freedoms is a necessary 
prerequisite for achieving a successful political transition. During 
these 56 long years of one-party dictatorship, activists and the 
opposition have repeatedly demanded the full exercise of freedoms 
inherent to human beings, often paying a high price for such claims.
    The violation of fundamental rights in our country is validated 
under the current legal system. We therefore believe that the 
ratification and particularly the legal implementation of the Covenant 
on Civil and Political Rights and the Covenant on Economic, Social and 
Cultural Rights, with their optional protocols, serves as a key 
instrument and roadmap for solving the Cuban problem. Similarly, the 
guidelines of the International Labor Organization will provide us with 
an accurate idea of how to work on the legal system regarding labor 
issues and trade union freedoms.
    We hope that Latin American countries, the European Union, Canada, 
the Holy See and the United States, as important political actors in 
the Cuban issue, join us in this fair and urgent demand. We have used 
as a reference the association agreement signed between the EU and 
Central America in 2012, with a clear emphasis on respect for human 
rights and democracy promotion.
    Upon ratification of these agreements, we propose the following 
roadmap to ensure the effective and prompt implementation of the 
commitments made:

  <bullet> The immediate release and cancellation of sentences against 
        all prisoners arrested for political reasons (to decree 
        amnesty).
  <bullet> On the Constitution, laws, regulations, procedures and 
        administrative practices: the abolition of all articles that 
        violate the International Covenants and restrict liberties on 
        freedoms of expression, association, assembly, movement, 
        conscience and religion, economic and cultural rights. To 
        establish full guarantees for the exercise of those freedoms.
  <bullet> On the Penal Code: the elimination of the clause of pre-
        criminal dangerousness, as well as all rules that can 
        contribute to arrests, arbitrary detentions and acts of 
        harassment that violate the agreements made.
  <bullet> The restoration of constitutional-level judicial guarantees 
        and the right to due process.
  <bullet> New Law of Association that includes a multiparty system and 
        guarantees for freedom of assembly. Concerning trade union 
        rights, standards set by the International Labor Organization 
        should be taken into account.
  <bullet> New Media Law guaranteeing freedom of expression and the 
        free flow of information.
  <bullet> New Election Law (Restoration of National Sovereignty).

    We believe that every step should be conditioned on the progressive 
advance of the roadmap indicated above, sustained on the Universal 
Declaration of Human Rights.
    Our ultimate goal is to move toward becoming a true democracy, with 
political pluralism, judicial independence, freedom and human rights. 
Where a Cuban, through consultations and a process of free and 
transparent elections, as well as the creation of a constitutional 
assembly, can define the destiny of our nation.
    All genuine actors of the opposition and civil society, through 
their projects and demands both on the island and in exile, must play 
an active role in any process that seeks a solution to the Cuban 
problem. At stake is the very future of the nation. We exercise this 
great responsibility which has fallen to us.

    Ada Maria Lopez Canino; Adelma Guerra; Adis Niria Dallet Arguelles; 
Adnaloy Rodriguez Diaz; Adonis Salgado Perez; Adrian Perez Mendoza; 
Agustin Lopez Canino; Aida Norma Roque; Aide Gallardo Salazar; Ailer 
Gonzalez Mena; Alberto Sanchez Martiatu; Alejandro Garcia Arias; 
Alejandro Raga; Alexander Perez Rodriguez; Alexis Jardines; Alexis 
Perez Lescailles; Alfredo Guillermo Rodriguez; Aliette Padron Antigua; 
Alina Brouwer; Alina de la C Garcia; Aliuska Gomez Garcia; Amelia 
Suarez Naranjo; Ana Maria Socarras Pinon; Ana Olema; Ana Torricella 
Morales; Anay Penalver Subit; Andres Perez Suarez; Angel De Fana; Angel 
Luis Diaz; Angel Luis Martin; Angel Moya Acosta; Angel Santiesteban 
Prats; Anislay Escalona Polo; Antonio G. Rodiles; Antonio Jose Ponte; 
Arelis Blanco Coello; Arelis Rodriguez Silva; Ariadna Mena Rubio; Ariel 
Gonzalez Cuevas; Ariobel Castillo Villalba; Armando Abascal Serrano; 
Armando Peraza Hernandez; Barbara Rodriguez Vizcaino; Barbara Viera 
Rodriguez; Benito Fojaco Iser; Berta Soler Fernandez; Boris Larramendi; 
Camilo Ernesto Olivera Peidro; Caridad Ramirez; and Caridad Valdes 
Soriano.
    Carlos Lazaro Tamayo Frias; Carlos M Figueroa Alvarez; Carlos M 
Hernandez; Carlos Manuel Figueroa; Carlos Orlando Olivera Martinez; 
Carlos Rodriguez Seruto; Cecilia Guerra Alfonso; Cesar Reynel Gomez; 
Ciro Javier Diaz Penedo; Claudio Fuentes Madan; Cristina Xiomara 
Duques; Dairon Moises Torre Paz; Dairy Coello Basulto; Daisy Artiles 
del Sol; Damaris Reve Rodriguez; Damarys Moya Portieles; Damian Albert 
Suviaut; Danai Lopez Perdomo; Danaise Munos Lopez; Dandy Lazo; David 
Aguila Montero; Delises Gonzalez Borrego; Digna Rodriguez Ibanez; 
Duvier Blanco Acosta; Edely Orlando Suarez; Eduardo Gonzalez Molina; 
Eduardo Marcos Pacheco Ortiz; Egberto Angel Escobedo Morales; Elena 
Larrinaga; Elias Amor; Enrico M. Santi; Enrique del Risco; Enrique Diaz 
Rodriguez; Enrique Martinez Marin; Enrique Rafael Valido; Eralidis 
Frometa Polanco; Ernesto Fonseca Garcia; Ernesto Gutierrez; Ernesto 
Hernandez Busto; Esteban Ajetes Abascal; Eugenia Diaz Hernandez; 
Eugenio Hernandez Hernandez; Evelin Pineda Concepcion; Felix Navarro; 
Felix Perez Palenzuela; Francisco Rangel Manzano; Francisco Valido; 
Frank Calzon; Frank Cosme Valdes; Gisela Sanchez and Banos.
    Gladis Capote Roque; Gloria Samper Oliva; Gorki Aguila; Guillermo 
Farinas Hernandez; Guillermo Garcia V; Gustavo Garabito Gomez; Haymee 
Moya Montes de Oca; Hugo Damian Prieto Blanco; Igdariz Perez Ponciano; 
Ignacio Blanco Jimenez; Iris Quindelan; Ivan Founier Costa; Ivonne de 
las Mercedes Abreu; Jaime Suchlicki; Jaqueline Bone Hechevarria; 
Jaqueline Cutino Leite; Jeovani Diaz Lopez; Jeovany Jimenez Vega; Jesus 
Aristides Hernandez Perez; Joel Brito; Jordanca Borquinelis; Jorge 
Enrique Carbonell; Jorge Luis Artiles Montiel; Jorge Luis Garcia Ostia; 
Jorge Luis Romero Becerra; Jorge Luis Trujillo Gonzalez; Jorge Olivera 
Castillo; Jorge Rodriguez Rivero; Jose Agustin Benitez Lopez; Jose 
Alberto Gutierrez; Jose Azel; Jose Diaz Silva; Jose G. Ramon Castillo; 
Jose Hernandez Lopez; Jose Ignacio Brito; Jose Luis Leon Perez; Jose 
Ramon Polo Borges; Jose Raul Rodriguez Rangel; Juan Alberto de la Nuez 
Ramirez; Juan Antonio Blanco; Juan Carlos Linares Balmaseda; Juan 
Gonzalez Febles; Juan Manuel Lora Vidal; Julia Herrera Roque; Julio 
Aleaga Pesant; Julio Antonio Ramirez; Julio Herrera Roque; Julio Rojas 
Portal; Kessell Rodriguez Rodriguez; and Kirenia Molina.
    Laritza Olivares Dinza; Laudelina Alcalde Garcia; Laura Marante; 
Laura Marante Delgado; Lazara B. Sendina Recalde; Lazara M Borrego 
Guzman; Lazaro Diaz Sanchez; Lazaro Fresneda Fernandez; Lazaro Luis 
Ruiz Hechevarria; Lazaro Mendoza Garcia; Lazaro R Armenteros Martorel; 
Lazaro Yosvani Montesino; Lazaro Yuri Valle Roca; Leon Padron Azcuy; 
Lia-Lianelis Villares; Liset Naranjo; Lismeirys Quintana Avila; Liu 
Santiesteban; Livan Serafin; Lourdes Esquivel; Lucia Molina Villegas; 
Lucinda Gonzalez Gomez; Luis Alberto Cruz Silva; Luis Barbaro Ortega 
Avenza; Luis Cino Alvarez; Luis Enrique Labrador Diaz; Luis Jesus 
Gutierrez Campos; Luis Trapaga; Luisa R Toscano; Lupe Busto; Maikel 
Norton Cordero; Mailen Gonzalez Gonzalez; Manuel Aguirre Labarrere; 
Manuel Zayas Martinez; Marcelino Lorenzo Fernandez; Margarita Rodriguez 
Diaz; Maria Acon Sardinas; Maria cristina Labrada Varona; Maria Josefa 
Sardinas; Maria Rosa Rodriguez Molina; Marislaidys Sanchez Vargas; 
Maritza concepcion Salmiento; Mark Alonso Parada; Marta Belquis 
Rodriguez Gonzalez; Mayelin Pena Bullain; Mayelin Santiesteban Lopez; 
Maylin Gonzalez Gonzalez; Melvia Aguilera; Mercedes Perez; and Merenis 
Herry Garcia.
    Miguel Angel Tamayo Frias; Miguel Daniel Borroto Vazquez; Miguel 
Farinas Quey; Mijail Bonito; Mista Ricardo Torres; Nelson Rodriguez 
Chartrand; Nilo Gilbert Arencibia; Noelvis Leon Lopez; Normando 
Hernandez; Odelin Alfonso Torna; Olaida del Castillo Trujillo; Olga 
Lidia Torres Iglesias; Omar Suarez Campo; Orlando Rodriguez Rodriguez; 
Orlando Villar de Armas; Oscar Luis Milian Reinoso; Oslien Noda 
Fonseca; Osmal Laffita Rojas; Osmani Diaz Cristo; Oylin Hernandez 
Rodriguez; Paquito de Rivera; Paulino Estevez Jimenez; Pedro Fontanal 
Miranda; Pedro Roig; Quirenia Diaz Arguelles; Rachel Gamboa Campos; 
Rafael Hernandez Blanco; Rafael Rodriguez Rivero; Raisel Rodriguez 
Rivero; Ramon Alejandro Munoz Gonzalez; Ramon Jimenez Arencibia; Ramon 
Mor Hernandez; Ramon Zamoza Rodriguez; Raquel Maria Rodriguez Morejon; 
Raul Borges Alvarez; Regla Rios Casado; Reinaldo Figueros; Reinaldo 
Martinez; Ricardo Almira; Roberto Arsenio Lopez Ramos; Roberto Pupo 
Tejeda; Rogelio Fabio Hurtado Rodriguez; Rolando Ferrer Espinosa; 
Rolando Pulido; Rolando Reyes Rabanal; Rolando Rodriguez Rivero; Ronny 
Gamez Luna; Rosalinda Visiedo Gomez; Roxilene Sotolongo Cruz; and 
Santiago Jordan Rios.
    Saul Gonzalez; Sebastian Arcos; Serafin Moran Santiago; Serafin 
Moran Santiago; Sergio Girat Estrada; Smith Cantillo Perez; Sodrelis 
Torruella Poncio; Sonia Alvarez Campello; Sonia Garro Alfonso; Stewe 
Maikel Pardo Valdez; Tamara Rodriguez Quesada; Ubaldo Herrero 
Hernandez; Vicente Campanioni; Vicente Sebastian Borges; Virgen Coello 
Basulto; Vladimir Ortiz Suarez; Vladimir Turru Paez; Xiomara de las M 
Cruz Miranda; Yadelys Montano Leon; Yaimel Rodriguez Arroyo; Yamile 
Borges Hurtado; Yamile Garro Alfonso; Yamile Naranjo; Yaneisi Herrera 
Cabrales; Yanisel Bosa Garrido; Yanitza Estrada Liranza; Yasil 
Fernandez Denis; Yasmani Barroso Bergolla; Yasmani Barroso Pergolla; 
Yasmani Cuesta Gonzalez; Yelky Paez Rodriguez; Yeniset Aguilera; Yoan 
Guzman Diaz; Yoisy Jaramillo Sanchez; Yolanda Santana Ayala; Yoraida 
Pena Padilla; Yosbani Arce Blanco; Yuleidis Ortiz; Yuliet Margarita 
Rodriguez Baez; Yulinne Tamayo Frias; Yuneisis Coto Casino; Yuniesqui 
Gainza; Yuniset Amores Aguilera; Yurineisi Aleman; Yurleani Tamayo 
Martinez; Yuslaidis Balero Concepcion; Zaqueo Baez Guerrero; Zenen 
Daniel Cruz; Zulema Lay; and Ivan Garcia Quintero.
                                 ______
                                 

    Inter-American Commission on Human Rights Resolution N.6/2013, 
    Submitted by Berta Soler, President, Cuban Ladies in White, Cuba

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 

          Department of State Report Submitted for the record
                       by Senator Robert Menendez

                  U.S. DEPARTMENT OF STATE REPORT ON 
                 HUMAN RIGHTS PRACTICES IN CHINA (2013)

    Executive Summary

    The People's Republic of China (PRC) is an authoritarian state in 
which the Chinese Communist Party (CCP) constitutionally is the 
paramount authority. CCP members hold almost all top government and 
security apparatus positions. Ultimate authority rests with the 25-
member Political Bureau (Politburo) of the CCP and its seven-member 
Standing Committee. China completed its once-in-a-decade leadership 
transition in March, and Xi Jinping holds the three most powerful 
positions as CCP general secretary, state president, and chairman of 
the Central Military Commission. Civilian authorities generally 
maintained control of the military and internal security forces. 
Security forces committed human rights abuses.

    Repression and coercion, particularly against organizations and 
individuals involved in civil and political rights advocacy and public 
interest issues, ethnic minorities, and law firms that took on 
sensitive cases, were routine. Increasingly officials employed 
harassment, intimidation, and prosecution of family members and 
associates to retaliate against rights advocates and defenders. 
Individuals and groups seen as politically sensitive by authorities 
continued to face tight restrictions on their freedom to assemble, 
practice religion, and travel. Authorities resorted to extralegal 
measures such as enforced disappearance and strict house arrest, 
including house arrest of family members, to prevent public expression 
of independent opinions. Authorities implemented new measures to 
control and censor the internet and particularly targeted bloggers with 
large numbers of followers, leading some to close their online 
accounts. Public-interest law firms continued to face harassment, 
disbarment of legal staff, and closure. There was severe official 
repression of the freedoms of speech, religion, association, and 
assembly of ethnic Uighurs in the Xinjiang Uighur Autonomous Region 
(XUAR) and of ethnic Tibetans in the Tibet Autonomous Region (TAR) and 
other Tibetan areas. These minorities also faced harsh restrictions on 
movement. Abuses peaked around high-profile events, such as the visit 
of foreign officials, national meetings, and commemorations.

    As in previous years, citizens did not have the right to change 
their government, and citizens had limited forms of redress against 
official abuse. Other human rights problems during the year included 
extrajudicial killings, including executions without due process; 
enforced disappearance and incommunicado detention, including prolonged 
illegal detentions at unofficial holding facilities known as ``black 
jails''; torture and coerced confessions of prisoners; detention and 
harassment of lawyers, journalists, writers, bloggers, dissidents, 
petitioners, and others who sought to exercise peacefully their rights 
under the law; a lack of due process in judicial proceedings; political 
control of courts and judges; closed trials; the use of administrative 
detention; restrictions on freedom to assemble, practice religion, and 
travel; failure to protect refugees and asylum seekers; pressure on 
other countries to return PRC citizens forcibly; widespread corruption; 
intense scrutiny of and restrictions on nongovernmental organizations 
(NGOs); discrimination against women, minorities, and persons with 
disabilities; a coercive birth-limitation policy that in some cases 
resulted in forced abortion (sometimes at advanced stages of pregnancy) 
or forced sterilization; trafficking in persons; prohibitions on 
independent unions; lack of protection for workers' right to strike; 
forced and child labor; and poor enforcement of wage, overtime, and 
occupational safety and health laws.

    Although authorities prosecuted a number of abuses of power, 
particularly with regard to corruption, in many cases the internal 
disciplinary procedures of the CCP were opaque and only selectively 
applied to senior officials. Citizens who promoted efforts to combat 
corruption were themselves detained and arrested. For example, 
throughout the year, NGO sources reported that authorities arrested at 
least 29 persons associated with the New Citizens Movement on charges 
stemming from activities to promote good governance.

    Section 1. Respect for the Integrity of the Person, Including 
Freedom from:

    a. Arbitrary or Unlawful Deprivation of Life

    During the year security forces reportedly committed arbitrary or 
unlawful killings. In many instances few or no details were available.

    It was not clear to what extent impunity was a problem. Following 
cases of killings by police, there often was an announcement that an 
investigation was to be conducted, but it was not clear whether there 
were any findings of police malfeasance or any cases in which police 
were disciplined.

    For example, on October 24, plainclothes police arrested Shanghai 
petitioner Shen Yong for trespassing and, according to media reports, 
beat him. Hours later police returned Shen to his family, and he died 
shortly thereafter. Shen's family maintained he died as a result of the 
police beating. Police asserted he suddenly fell ill in their custody. 
Local media reported that the death was under investigation but by 
year's end provided no further information. Authorities detained more 
than 100 petitioners at a protest following Shen's death.

    A number of violent incidents in the XUAR resulted in multiple 
deaths. Official accounts of these events generally blamed 
``terrorists,'' ``separatists,'' and ``religious extremists'' for what 
were portrayed as violent terrorist attacks on community members and 
security personnel. Human rights organizations, on the other hand, 
asserted that security forces often shot at groups of Uighurs in their 
homes or during worship. The government's control of information coming 
out of the XUAR, together with its increasingly tight security posture 
there, made it difficult to verify the conflicting reports. (See also 
the Tibet annex for violent incidents in the TAR and other Tibetan 
areas.)

    For example on April 24, at least 21 persons were killed in a clash 
in Barchuk County, XUAR: nine bystanders, six police, and six Uighurs 
(described in the official press as ``thugs''). According to the 
official account, gunfights broke out when police entered persons' 
homes to search for ``illegal knives.''

    In April, Yu Qiyi, a chief engineer at a state-owned enterprise in 
Wenzhou, died after being interrogated for corruption. Authorities 
arrested six CCP investigators and convicted them of intentional 
assault (see section 1.d.).

    Defendants in criminal proceedings were executed following 
convictions that lacked due process and adequate channels for appeal.

    b. Disappearance

    In September authorities detained Cao Shunli at Beijing Airport as 
she was attempting to travel to Geneva to attend a training session in 
advance of China's Universal Periodic Review at the UN Human Rights 
Council. Five weeks after her disappearance, authorities at the 
Chaoyang District Detention Center confirmed that Cao had been 
criminally detained on charges of unlawful assembly. According to 
various media reports, her family did not received a detention notice 
in accordance with the Criminal Procedure Law.

    At year's end the government had not provided a comprehensive, 
credible accounting of all those killed, missing, or detained in 
connection with the violent suppression of the 1989 Tiananmen 
demonstrations. It is estimated that fewer than a dozen remained in 
prison, although some accounts suggest the number may be higher. Many 
activists who were involved in the demonstrations continued to suffer 
from official harassment.

    c. Torture and Other Cruel, Inhuman, or Degrading Treatment or 
Punishment

    The law prohibits the physical abuse of detainees and forbids 
prison guards from extracting confessions by torture, insulting 
prisoners' dignity, and beating or encouraging others to beat 
prisoners. Amendments to the criminal procedure law that exclude 
evidence, including confessions, obtained through illegal means, 
including under torture in certain categories of criminal cases, took 
effect on January 1.

    Numerous former prisoners and detainees reported that they were 
beaten, subjected to electric shock, forced to sit on stools for hours 
on end, deprived of sleep, and otherwise subjected to physical and 
psychological abuse. Although ordinary prisoners were subjects of 
abuse, prison authorities singled out political and religious 
dissidents for particularly harsh treatment. In some instances close 
relatives of dissidents also were singled out for abuse.

    Human Rights Watch reported that police beat and tortured suspected 
prostitutes.

    According to news reports Xiao Yong, a Guangzhou-based activist 
detained by police in April 2012 and remanded to two years of re-
education through labor (RTL) in Shaoyang, Hunan Province, was released 
in February and allowed to return to his home. Authorities charged him 
with illegal assembly for staging a demonstration calling on officials 
to disclose publicly their financial assets. During his initial 
detention authorities reportedly prevented Xiao from sleeping for up to 
five days, causing multiple medical complications.

    On May 18, police arrested a group of Fujian activists. Police held 
petitioner Lin Yingqiang for 33 hours, deprived him of food, and 
chained him to a ``tiger seat,'' a device meant to prevent the prisoner 
from sleeping during his detention.

    In May authorities in Sichuan Province detained and beat lawyers 
Tang Jitian and Jiang Tianyong as they attempted to visit a black jail 
in Ziyang that reportedly holds followers of the banned Falun Gong 
movement.

    On June 8, the Dongcheng District People's Court tried Peng Lanlan 
in closed proceedings. The court's decision was not available at year's 
end. Beijing police arrested Peng in August 2012, charged him with 
obstructing official business, and tortured him by binding him to a 
tiger seat.

    There were widespread reports of activists and petitioners being 
committed to mental-health facilities and involuntarily subjected to 
psychiatric treatment for political reasons. According to Legal Daily 
(a state-owned newspaper covering legal affairs), the Ministry of 
Public Security directly administered 24 high-security psychiatric 
hospitals for the criminally insane (also known as ankang facilities). 
From 1998 to May 2010, more than 40,000 persons were committed to 
ankang hospitals. In 2010 an official of the Ministry of Public 
Security stated that detention in ankang facilities was not appropriate 
for patients who did not demonstrate criminal behavior. Nonetheless, 
political activists, underground religious adherents, persons who 
repeatedly petitioned the government, members of the banned Chinese 
Democracy Party (CDP), and Falun Gong practitioners were among those 
housed in these institutions.

    In October 2012 the government passed legislation banning 
involuntary mental health examinations and inpatient treatment except 
in cases in which patients expressed an intent to harm themselves or 
others. Critics maintained, however, that the law still does not 
provide meaningful legal protections for persons sent to psychiatric 
facilities. The March 2012 amendments to the criminal procedure law 
require a procuratorate (the agency responsible for both prosecution 
and investigation) review and a court decision for the psychiatric 
commitment of persons who have committed serious offenses but are 
exempt from criminal responsibility under the law. The amendments went 
into effect in April and include a provision for appealing compulsory 
medical treatment decisions.

    On April 7, a new mainland China magazine Lens carried an article 
reporting abuses including torture with electric batons, forced 
feeding, and prolonged solitary confinement at the Masanjia Detention 
Center in Liaoning Province.

    Advocacy groups continued to report organ harvesting from 
prisoners. Former vice health minister Huang Jiefu, who in March 2012 
reportedly pledged to abolish taking organs for transplant from 
executed prisoners within three to five years, stated that organs from 
executed prisoners accounted for 64 percent of transplants in 2012 and 
for 54 percent in mid-2013.

    Prison and Detention Center Conditions

    Conditions in penal institutions for both political prisoners and 
criminal offenders were generally harsh and often degrading.

    Forced labor remained a serious problem in penal institutions (see 
section 7.b.) as well as in RTL facilities. On December 28, the 
National People's Congress (NPC) Standing Committee passed legislation 
that formally abolished the RTL system. State media announced that all 
inmates would be released beginning December 30 and clarified that all 
pre-abolition penalties would be considered legitimate. On December 17, 
Amnesty International reported that authorities relabeled many RTL 
camps as ``drug rehabilitation centers'' and ``legal education 
centers.''

    Physical Conditions: Prisoners and detainees were regularly held in 
overcrowded conditions with poor sanitation. Food often was inadequate 
and of poor quality, and many detainees relied on supplemental food, 
medicines, and warm clothing provided by relatives. Prisoners often 
reported sleeping on the floor because there were no beds or bedding. 
Adequate, timely medical care for prisoners remained a serious problem, 
despite official assurances that prisoners have the right to prompt 
medical treatment.

    Information on the prison population was not made public. In an 
April 2012 report to the NPC Standing Committee, the minister of 
justice stated that the country had 681 prisons with 1.64 million 
inmates. The International Center for Prison Studies (ICPS) reported 
that in 2009, in addition to sentenced prisoners, 650,000 persons were 
held in detention centers, and it estimated there were between 100,000 
and 260,000 pretrial detainees. The ICPS reported that in mid-2010 
female prisoners made up approximately 5.1 percent of the prison 
population, and in 2005 juveniles made up 1.4 percent. The law requires 
juveniles be held separately from adults, unless facilities are 
insufficient, but children were sometimes held with adult prisoners and 
required to work. Political prisoners were held with the general prison 
population and reported being beaten by other prisoners at the 
instigation of guards. Some dissidents were not allowed to receive 
supplemental food, medicine, and warm clothing from relatives.

    The law mandates that a prison shall be ventilated, allow for 
natural light, and be clean and warm. The law further provides that a 
prison ``shall set up medical, living, and sanitary facilities and 
institute regulations on the life and sanitation of prisoners.'' It 
also states that the medical and health care of prisoners shall be put 
into the public health and epidemic prevention program of the area in 
which the prison is located. In many cases provisions for sanitation, 
ventilation, heating, lighting, basic and emergency medical care, and 
access to potable water were inadequate.

    Conditions in administrative detention facilities, such as RTL 
camps, were similar to those in prisons. Beating deaths occurred in 
administrative detention and RTL facilities. Detainees reported 
beatings, sexual assaults, lack of proper food, and limited or no 
access to medical care.

    Administration: It was unclear whether recordkeeping on prisoners 
was adequate. Authorities employed alternatives to incarceration for 
both violent and nonviolent offenders. According to Vice Minister of 
Justice Zhao Dacheng, more than one million convicts served their 
sentences in community corrections programs since 2003. There were no 
prison ombudsmen per se, but prisoners and detainees are legally 
entitled to submit complaints to judicial authorities without 
censorship and request investigation of credible allegations of inhuman 
conditions. The law states that letters from a prisoner to higher 
authorities of the prison or to the judicial organs shall be free from 
examination, but it was unclear to what extent the law was implemented. 
While authorities occasionally investigated credible allegations of 
inhuman conditions, the results were not documented in a publicly 
accessible manner. Many prisoners and detainees did not have reasonable 
access to visitors and could not engage in religious practices. Under 
Article 52 of the prison law, ``considerations shall be given to the 
special habits and customs of prisoners of minority ethnic groups.'' 
Article 23 of the Detention Center Regulation has similar requirements. 
Little information was available about the implementation of these 
regulations.

    The law requires the government to investigate and monitor prison 
and detention center conditions, and an official from the Prosecutor's 
Office is responsible for investigating and monitoring prison and 
detention center conditions.

    Independent Monitoring: Information about prisons, including 
associated labor camps and factories, was considered a state secret, 
and the government did not permit independent monitoring of prisons or 
RTL camps. Prisoners remained inaccessible to local and international 
human rights organizations and media groups. Authorities did not allow 
the International Committee of the Red Cross to have access to 
prisoners or perform prison visits in the country.

    d. Arbitrary Arrest or Detention

    Arbitrary arrest and detention remained serious problems. The law 
grants police broad administrative detention powers and the ability to 
detain individuals for extended periods without formal arrest or 
criminal charges. Throughout the year human rights activists, 
journalists, unregistered religious leaders, and former political 
prisoners and their family members continued to be among those targeted 
for arbitrary detention or arrest.

    In January the official media reported that authorities in 
Heilongjiang Province confined petitioner Chen Qingxia to a deserted 
mortuary for three years. Chen previously served 18-months' in RTL, was 
allegedly paralyzed by repeated beatings, and separated from her then 
12-year-old son by local authorities. After the media report the local 
government reportedly found a house for Chen and pledged to help her 
look for her son.

    From June 3 to 25, in Shenyang, Liaoning Province, plainclothes 
police reportedly detained prodemocracy activist Jiang Lijun on 
suspicion of inciting subversion of state authority and disturbing the 
social order. Jiang previously served a four-year sentence for 
``inciting subversion of the state power.''

    In July, Guangdong activist Wu Bin, also known as Xiucai Jianghu, 
was detained for allegedly ``sabotaging electric power equipment.'' Wu 
previously filed a lawsuit against Shenzhen's Futian District Public 
Security Bureau (PSB) for illegally detaining him. He was released on 
bail in early August, rearrested in Zhejiang Province on September 12, 
and given 10 days' administrative detention for ``spreading rumors.''

    Many activists were subjected to extralegal house arrest, denied 
travel rights, or administratively detained. Shanghai dissidents Feng 
Zhenghu and Zheng Enchong were under unofficial house arrest at their 
apartments in Shanghai. Both were allowed to move around Shanghai on 
occasion but were kept under constant surveillance. Outsiders were 
often prevented from visiting them, and they were not allowed to leave 
Shanghai. Zheng Enchong was denied permission to travel to Hong Kong to 
accept a fellowship teaching law. Authorities also reportedly kept 
other dissidents under unofficial house arrest. Officials sentenced 
Shanghai activists Wang Kouma and Wei Qin to 30 months and 27 months in 
prison, respectively, for ``creating a disturbance'' related to their 
lawful petitioning. Mao Hengfeng was released from RTL on February 8 
and was serving the remainder of her 18-month sentence under house 
arrest.

    Role of the Police and Security Apparatus

    The main domestic security agencies include the Ministry of State 
Security, the Ministry of Public Security, and the People's Armed 
Police. The People's Liberation Army is primarily responsible for 
external security but also has some domestic security responsibilities. 
Local jurisdictions also frequently used civilian municipal security 
forces, known as ``urban management'' officials (chengguan), to enforce 
administrative measures. The Ministry of Public Security coordinates 
the country's civilian police force, which is organized into 
specialized police agencies and local, county, and provincial 
jurisdictions. Procuratorate oversight of the police was limited. 
Corruption at the local level was widespread. Police and urban 
management officials engaged in extrajudicial detention, extortion, and 
assault. In 2009 the Supreme People's Procuratorate acknowledged 
continuing widespread abuse in law enforcement. In 2009 domestic news 
media reported the convictions of public security officials who had 
beaten to death prisoners or suspects in their custody.

    In May 2012 the Ministry of Supervision, Ministry of Human 
Resources and Social Security, and Ministry of Justice jointly issued 
regulations stating that police in prisons and RTL facilities face 
dismissal if they are found to have beaten, applied corporal 
punishment, abused inmates, or instigated such acts.

    There were several media reports on deaths under the shuanggui 
system - the CCP internal disciplinary system used to investigate party 
members suspected of corruption. In April, Yu Qiyi, a chief engineer at 
a state-owned enterprise in Wenzhou, died after being interrogated for 
corruption. Authorities charged six investigators from the Communist 
Party's Disciplinary Committee in Wenzhou. The BBC reported they were 
sentenced to between four and 14 years in prison. They reportedly 
appealed their sentence.

    Oversight of civilian municipal security forces was highly 
localized and ad hoc. By law the officials can be criminally prosecuted 
for abuses of power, but such cases were rarely pursued. There were 
multiple reports of conflicts erupting between these officials and 
street vendors in Liaoning, Jilin, and Heilongjiang provinces. For 
example, on June 19, civilian municipal security forces reportedly beat 
a family of fried-chicken vendors in the Beihang night market in 
Shenyang, Liaoning Province, who refused to turn over their equipment. 
In protest more than one thousand Shenyang residents gathered at the 
scene and blocked traffic, and some reportedly retaliated by beating 
the officials. In some cases mediation resulted in compensation being 
paid to victims of these officials.

    Arrest Procedures and Treatment of Detainees

    Police detention beyond 37 days requires prosecutorial approval of 
a formal arrest. After arrest police are authorized to detain a suspect 
for up to an additional seven months while the case is investigated.

    After the completion of a police investigation, an additional 45 
days of detention are allowed for the procuratorate to determine 
whether to file criminal charges. If charges are filed authorities can 
detain a suspect for an additional 45 days before beginning judicial 
proceedings. Police sometimes detained persons beyond the period 
allowed by law, and pretrial detention periods of a year or longer were 
common.

    The law stipulates that detainees be allowed to meet with defense 
counsel before criminal charges are filed. Some criminal defense 
attorneys noted that under the newly revised criminal procedure law 
their ability to meet with clients improved significantly. In some 
cases defense attorneys were able to arrange visits at any time and to 
have private meetings with their clients in detention centers. This 
generally did not apply to cases considered politically sensitive.

    The criminal procedure law requires a court to provide a lawyer to 
a defendant who has not already retained one; who is blind, deaf, mute, 
or a minor; or who may be sentenced to death. Revisions that took 
effect on January 1 added defendants facing a life sentence or who are 
mentally ill. This law applies whether or not the defendant is 
indigent. Courts may also provide lawyers to other criminal defendants 
who cannot afford them, although courts often did not appoint counsel 
in such circumstances.

    Criminal defendants are entitled to apply for bail (also translated 
as ``a guarantor pending trial'') while awaiting trial, but the system 
does not appear to operate effectively and few suspects were released 
on bail.

    The law requires notification of family members within 24 hours of 
detention, but individuals were often held without notification for 
significantly longer periods, especially in politically sensitive 
cases. Under a sweeping exception officials are not required to provide 
notification if doing so would ``hinder the investigation'' of a case. 
The revised criminal procedure law limits this exception to cases 
involving state security or terrorism.

    The law allows for residential surveillance rather than detention 
in a formal facility under certain circumstances. Under the revised 
criminal procedure law, with the approval of the next higher-level 
authorities, officials can enforce ``residential surveillance'' on a 
suspect at a designated place of residence (i.e., a place other than 
the suspect's home) for up to six months, when they suspect crimes of 
endangering state security, terrorism, or serious bribery and believe 
that surveillance at the suspect's residence would impede the 
investigation. Authorities must notify relatives of individuals placed 
under formal arrest or residential surveillance in a designated abode 
within 24 hours, unless notification is impossible. They are not 
required to specify the grounds for or location of the detention. 
Authorities can also prevent defense lawyers from meeting with suspects 
in these categories of cases.

    The law provides for the right to petition the government for 
resolution of grievances, but citizens who traveled to Beijing to 
petition the central government were frequently subjected to arbitrary 
detention, often by police dispatched from the petitioner's hometown. 
Some provincial governments operated facilities in Beijing or in other 
localities where petitioners from their districts were held in 
extrajudicial detention. Some local governments took steps to restrict 
petitioning. According to a 2010 Shanxi provincial government report, 
the Shanxi Province People's Congress adopted regulations that listed 
eight types of ``prohibited'' petitioning, including: ``illegally 
gathering, encircling, or rushing into government offices or important 
public spaces, stopping cars or hindering public transportation, 
linking up with others to petition,'' and similar acts. The Shanxi 
regulations also stated that petitioners suspected of ``misrepresenting 
facts to frame others'' could be subject to criminal charges.

    Online reports claimed local officials in Zengcheng City, Guangdong 
Province, sealed off two villages in March during the People's Congress 
and the Chinese People's Political Consultative Conference (CPPCC) 
sessions to prevent residents from petitioning.

    On April 17, Shenzhen-based lawyer Jiang Yuanmin was arrested and 
charged with ``gathering a crowd to disrupt social order'' in 
connection with his work on behalf of Hainan farmers' land rights, 
according to online reports. Family members claimed he was denied 
medical treatment.

    Fujian petitioner Luo Xianying was reportedly arrested in Beijing 
in fall 2012 and forcibly returned to Sanming in November 2012. At 
year's end she was detained in a government building, and her family 
claimed she had not received adequate treatment for her medical 
problems.

    Before the December 28 NPC Standing Committee decision to abolish 
RTL, nonjudicial panels, known as ``labor re-education panels,'' could 
remand persons to RTL camps for up to three years without trial. Labor 
re-education panels were authorized to extend these administrative 
sentences for up to one year. Detainees were technically allowed to 
challenge administrative RTL sentences and appeal for sentence 
reduction or suspension, but appeals were rarely successful.

    Other forms of administrative detention include ``custody and 
education'' (for women engaged in prostitution and those soliciting 
prostitution) and ``custody and training'' (for minor criminal 
offenders). The law establishes a system of ``compulsory isolation for 
drug rehabilitation.'' The minimum stay in such centers is two years, 
and the law states that treatment can include labor. Public security 
organs authorize detention in these centers, and it often was meted out 
as an administrative rather than criminal measure. Authorities used 
administrative detention to intimidate political activists and prevent 
public demonstrations.

    Arbitrary Arrest: In February police began detaining and arresting 
dozens of activists, lawyers, and other citizens in an apparently 
coordinated crackdown on a loose grouping of activists known as the New 
Citizens Movement. The Beijing Municipality Traffic Security Division 
detained Beijing University of Post and Telecommunications lecturer and 
legal scholar Xu Zhiyong on July 16 on suspicion of ``gathering a crowd 
to disturb public order.'' He was formally arrested on August 22 and 
formally charged in December. On September 13, authorities detained 
venture capitalist and popular microblogger Wang Gongquan on charges of 
``gathering a crowd to disturb public order,'' after he used his 
microblog to decry Xu's arrest.

    Other New Citizens Movement associates arrested for peaceful 
advocacy of good governance included Liu Ping, Wei Zhongping, Li Sihua, 
Yuan Dong, Ma Xinli, Zhang Baocheng, Hou Xin, Li Wei, Wang Yonghong, 
Ding Jiaxi, Sun Hanhui, Zhao Changqing, Qi Yueying, Zhang Xiangzhong, 
Li Gang, Li Huanjun, and Song Guangqiang.

    Authorities arrested persons on allegations of revealing state 
secrets, subversion, and other crimes as a means to suppress political 
dissent and public advocacy. These charges - including what constitutes 
a state secret - remained ill defined. Authorities also detained 
citizens and foreigners under broad and ambiguous state secrets laws 
for, among other actions, disclosing information on criminal trials, 
meetings, commercial activity, and government activity. Authorities 
sometimes retroactively labeled a particular action as a violation of 
the state secret laws. According to a Radio Free Asia (RFA) report, 
local officials in Dujiangyan, Sichuan Province, detained Zhou 
Xingrong, whose child died in the 2008 Sichuan earthquake, for nine 
hours in April 2012 for allegedly revealing ``state secrets'' by 
microblogging about efforts by bereaved parents to obtain compensation 
for their children's earthquake-related deaths. According to a western 
media report, authorities continued to harass her during the year.

    Authorities placed numerous dissidents, activists, and petitioners 
under house arrest during the October National Day holiday period and 
at other sensitive times, such as during the visits of senior foreign 
government officials or in the period preceding the annual plenary 
sessions of the NPC and the CPPCC, the anniversary of the Tiananmen 
massacre, and sensitive anniversaries in Tibetan areas and the XUAR.

    Conditions faced by those under house arrest varied but sometimes 
included complete isolation in their homes under police guard. In some 
instances security officials were stationed inside the homes of 
subjects under house arrest. Others under house arrest occasionally 
were permitted to leave their homes to work or run errands but were 
required to ride in police vehicles. In some cases police or 
plainclothes security officers escorted the children of politically 
sensitive individuals to and from school. When permitted to leave their 
homes, subjects of house arrest were usually under police surveillance. 
Authorities in the XUAR used house arrest and other forms of arbitrary 
detention against those accused of supporting the ``three evils'' of 
religious extremism, ``splittism,'' and terrorism.

    After serving one year at an RTL camp for staging protests calling 
for political reforms and attempting to visit prominent activist Ai 
Weiwei, Fujian petitioner Wang Weizhu was released in July. She went to 
a foreign embassy compound in Beijing after her release to distribute 
leaflets about her grievances, after which Beijing Police reportedly 
detained her for five days.

    According to the RFA, in June authorities detained members of the 
Guizhou Human Rights Symposium, including Wu Yuqin, Li Renke, and Mo 
Jiangang, and forced them to leave the provincial capital for the 
duration of the two-day EU-China meeting on human rights there.

    Pretrial Detention: Pretrial detention can last as long as one 
year. Defendants in ``sensitive cases'' reported being subjected to 
prolonged pretrial detention.

    e. Denial of Fair Public Trial

    The law states that the courts shall exercise judicial power 
independently, without interference from administrative organs, social 
organizations, and individuals. The judiciary did not exercise judicial 
power independently. Legal scholars interpreted former president Hu 
Jintao's doctrine of the ``Three Supremes'' as stating that the 
interests of the CCP are above the law. Judges regularly received 
political guidance on pending cases, including instructions on how to 
rule, from both the government and the CCP, particularly in politically 
sensitive cases. The CCP Law and Politics Committee has the authority 
to review and influence court operations at all levels of the 
judiciary.

    During the year media sources indicated public security authorities 
used televised confessions of foreign and domestic bloggers, 
journalists, and business executives in an attempt to establish guilt 
before their criminal trial proceedings began.

    A CCP-controlled committee decides most major cases, and the duty 
of trial and appellate court judges is to craft a legal justification 
for the committee's decision.

    ``Judicial independence'' was reportedly one of the off-limit 
subjects that the CCP ordered university professors not to discuss (see 
section 2.a., Academic Freedom).

    Corruption also influenced court decisions. Safeguards against 
judicial corruption were vague and poorly enforced. Local governments 
appoint and pay local court judges and, as a result, often exerted 
influence over the rulings of judges in their districts.

    Courts are not authorized to rule on the constitutionality of 
legislation. The law permits organizations or individuals to question 
the constitutionality of laws and regulations, but a constitutional 
challenge can be directed only to the promulgating legislative body. 
Lawyers have little or no opportunity to rely on constitutional claims 
in litigation.

    Trial Procedures

    The criminal justice system was biased toward a presumption of 
guilt, especially in high-profile or politically sensitive cases. 
According to the Supreme People's Court, in 2011 the combined 
conviction rate for first- and second-instance criminal trials was 99.9 
percent. Of 1,051,638 criminal defendants tried in 2011, only 891 were 
acquitted.

    In many politically sensitive trials courts handed down guilty 
verdicts immediately following proceedings with no deliberation. Courts 
often punished defendants who refused to acknowledge guilt with harsher 
sentences than those who confessed. The appeals process rarely reversed 
convictions. Appeals processes failed to provide sufficient avenues for 
review, and remedies for violations of defendants' rights were 
inadequate.

    Regulations of the Supreme People's Court require all trials to be 
open to the public, with the exceptions of cases involving state 
secrets, privacy issues, and minors. Authorities used the state-secrets 
provision to keep politically sensitive proceedings closed to the 
public, sometimes even to family members, and to withhold access to 
defense counsel. Court regulations state that foreigners with valid 
identification should be allowed to observe trials under the same 
criteria as citizens, but foreigners were permitted to attend court 
proceedings only by invitation. As in past years, foreign diplomats and 
journalists unsuccessfully sought permission to attend a number of 
trials. In some instances the trials were reclassified as ``state 
secrets'' cases or otherwise closed to the public. During the year 
foreign diplomats attempted to attend nearly one dozen public trials 
throughout the country. In each instance court officials claimed that 
there were no available seats in the courtroom and that foreigners 
needed prior permission to attend trials.

    Some trials were broadcast, and court proceedings were a regular 
television feature. A few courts published their verdicts on the 
internet.

    The revised criminal procedure law makes clear that a criminal 
suspect may retain a lawyer immediately after an initial police 
interrogation or after his or her freedom has been officially limited. 
Investigators are required to inform suspects of their right to retain 
counsel. Police must also arrange meetings between a defense lawyer and 
his or her client within 48 hours of a request from defense counsel.

    Individuals facing administrative detention do not have the right 
to seek legal counsel. Criminal defendants were eligible for legal 
assistance, although more than 50 percent of criminal defendants went 
to trial without a lawyer. According to the Ministry of Justice, in 
2012 there were more than one million legal aid cases. The revised 
criminal procedure law expanded requirements for legal aid to include 
cases that could result in life imprisonment and cases involving 
individuals suffering from mental illness.

    Human rights lawyers reported that authorities did not permit them 
to defend certain clients or threatened them with punishment if they 
chose to do so. The government suspended or revoked the licenses of 
lawyers or their firms to stop them from taking sensitive cases, such 
as defending prodemocracy dissidents, house-church activists, Falun 
Gong practitioners, or government critics.

    The CCP continued to require law firms with three or more CCP 
members to form a CCP unit within the firm. Firms with one or two CCP 
members may establish joint CCP units with other firms. In smaller 
counties and cities with few lawyers, CCP members may join local 
Justice Bureau CCP units. This rule also applies to private companies 
and other organizations.

    Some lawyers declined to represent defendants in politically 
sensitive cases, and such defendants frequently found it difficult to 
find an attorney.

    Authorities detained Guangzhou-based activist Yang Maodong (also 
known under the pen name Guo Feixiong) on August 8 on suspicion of 
``gathering a crowd to disrupt order of a public place.'' According to 
several Western media sources, officials repeatedly denied him access 
to lawyers. International media speculated he was detained in 
connection with his participation in protests surrounding the incident 
in January involving censorship of the Guangzhou newspaper Southern 
Weekend and his association with the New Citizens Movement (see section 
2, Freedom of Speech and Press).

    When defendants were able to retain counsel in politically 
sensitive cases, government officials sometimes prevented attorneys 
from organizing an effective defense. Tactics employed by court and 
government officials included unlawful detentions, disbarment, 
harassment and physical intimidation, and denial of access to evidence 
and to clients.

    In April a court in Jiangsu Province placed Beijing rights lawyer 
Wang Quanzhang under a 10-day judicial detention for ``serious 
violations of court procedure.'' The violations consisted of using his 
mobile telephone to copy a set of original documents he was submitting 
to the court during the trial of a Falun Gong practitioner.

    Online reports indicated that on June 25 riot police in Wenchang, 
Hainan Province, intercepted a group of Guangzhou-based lawyers who had 
come to represent detained dissident Zheng Qiuwu and his wife. The riot 
police scuffled with the lawyers and forced them to return to the 
provincial capital of Haikou.

    The annual licensing review process administered by the Beijing 
Lawyers Association was used to withhold or delay the renewal of 
professional lawyers' licenses, which restricted the ability of a 
number of human rights and public interest lawyers to practice law.

    Government officials continued to harass lawyers for their 
involvement in high-profile, rights-related cases.

    Defense attorneys may be held legally responsible if their client 
commits perjury, and prosecutors and judges have wide discretion to 
decide what constitutes perjury. In some sensitive cases lawyers had no 
pretrial access to their clients, and defendants and lawyers were not 
allowed to communicate with one another during trials. Criminal 
defendants were frequently not assigned an attorney until a case was 
brought to court. According to a Ministry of Justice official, in 2011 
lawyers represented fewer than half of criminal defendants, and in some 
provincial-level administrative regions, only an estimated 12 percent 
of criminal suspects had lawyers.

    Mechanisms allowing defendants to confront their accusers were 
inadequate. Only a small percentage of trials involved witnesses, and 
fewer than 10 percent of subpoenaed witnesses appeared in court. A 
provision of the revised criminal procedure law compels witnesses to 
appear in court and includes protections for witnesses and financial 
allowances for performing the duties of a witness. In most criminal 
trials, prosecutors read witness statements, which neither the 
defendants nor their lawyers had an opportunity to rebut. Although the 
law states that pretrial witness statements cannot serve as the sole 
basis for conviction, prosecutors relied heavily on such statements. 
Defense attorneys had no authority to compel witnesses to testify or to 
mandate discovery, although they could apply for access to government-
held evidence relevant to their case. Defense attorneys received 
minimal pretrial access to information.

    The criminal code contains 55 capital offenses, including 
nonviolent financial crimes such as embezzlement and corruption. There 
was no publicly available government information on how many defendants 
were either sentenced to death or executed during the year. Official 
figures on execution are classified as a state secret. An international 
human rights NGO estimated that 4,000 persons were executed annually in 
recent years, a marked decrease in the years following the 2007 Supreme 
People's Court retrieval of its authority to conduct final reviews of 
death sentences. Lethal injection and shooting were employed as 
execution methods.

    Chen Youxi, the attorney for street vendor Xia Junfeng, who was 
convicted of killing two urban management officials in Shenyang, 
Liaoning Province, and executed on September 25, argued that the 
Supreme People's Court failed to consider evidence supporting Xia's 
claims of self-defense during its review of his sentence. According to 
a report, the presiding judge refused to admit the testimony of several 
eyewitnesses and relied on the statements of other urban management 
officials.

    Political Prisoners and Detainees

    Government officials continued to deny holding any political 
prisoners, asserting that authorities detained persons not for their 
political or religious views but because they violated the law. 
Authorities, however, continued to imprison citizens for reasons 
related to politics and religion. Tens of thousands of political 
prisoners remained incarcerated, some in prisons and others in RTL 
camps or administrative detention. The government did not grant 
international humanitarian organizations access to political prisoners.

    Foreign NGOs estimated that several hundred persons remained in 
prison for ``counterrevolutionary crimes,'' which were removed from the 
criminal code in 1997. Thousands of others were serving sentences under 
state security statutes. The government apparently neither reviewed all 
cases of those charged before 1997 with counterrevolutionary crimes nor 
released persons jailed for nonviolent offenses under repealed 
provisions of the criminal law. The government maintained that 
prisoners serving sentences for counterrevolutionary crimes and 
endangering state security were eligible to apply for sentence 
reduction and parole. Political prisoners, however, were granted early 
release at lower rates than other prisoners. Observers believed that 
persons remained in prison for crimes in connection with their 
involvement in the 1989 Tiananmen prodemocracy movement, although the 
number was unknown because related official statistics were never made 
public.

    Rights lawyer Gao Zhisheng remained in prison in Xinjiang for 
allegedly violating the terms of a suspended prison sentence. 
Authorities sharply limited access to him and at times concealed his 
whereabouts. Democracy activist Hada remained in unofficial detention 
in Inner Mongolia three years after reportedly completing a 15-year 
sentence in 2010. Hada's wife and sons also faced periods of extralegal 
house arrest.

    Many political prisoners remained in prison or under other forms of 
detention at year's end, including rights activists Wang Bingzhang and 
Liu Xianbin; Ablikim Abdureyim, son of Uighur activist Rebiya Kadeer; 
Zhou Yongjun; labor activist Kong Youping; Roman Catholic bishop Su 
Zhimin; and Tibetan Buddhist reincarnate lama Tenzin Delek Rinpoche, 
who was reportedly in poor health.

    Nobel Peace Prize laureate Liu Xiaobo, coauthor of the Charter `08 
manifesto that called for increased political freedoms and human 
rights, remained in Jinzhou Prison in Liaoning Province. Beijing-based 
human rights attorney Mo Shaoping, whose firm represented Liu, reported 
that Liu's wife Liu Xia was allowed to travel from Beijing to Jinzhou 
to see him monthly. She remained under 24-hour surveillance, and police 
escorted her whenever she was allowed to leave her home. Media reports 
in December indicated that Liu Xia might be suffering from depression 
due to her long-term isolation and deprivation of access to books and 
the internet.

    On August 16, a Beijing court sentenced Liu Hui, Liu Xiaobo's 
brother-in-law, to 11 years' imprisonment on spurious charges of 
contract fraud by. Liu Xia was allowed to attend the trial on April 23 
and told onlookers outside the court that she was not free.

    At year's end reliable information was not available as to whether 
the following individuals remained in detention: Abdulla Jamal, Uighur 
activist Dilkex Tilivaldi, Feng Xinchun, Gonpo Lhundrub, Gonpo Thar, 
Jalo, Tselo, and Wang Diangang.

    Criminal punishments continued to include ``deprivation of 
political rights'' for a fixed period after release from prison, during 
which time the individual was denied rights of free speech, 
association, and publication. Former prisoners reported that their 
ability to find employment, travel, obtain residence permits, rent 
residences, and access social services was severely restricted. Former 
political prisoners and their families frequently were subjected to 
police surveillance, telephone wiretaps, searches, and other forms of 
harassment or threats.

    Civil Judicial Procedures and Remedies

    Courts deciding civil matters faced the same limitations on 
judicial independence as criminal courts. The State Compensation Law 
provides administrative and judicial remedies for plaintiffs whose 
rights or interests government agencies or officials have infringed. 
The law also allows compensation for wrongful detention, mental trauma, 
or physical injuries inflicted by detention center or prison officials. 
Citizens seldom applied for state compensation because of the high cost 
of bringing lawsuits, low credibility of courts, and citizens' lack of 
awareness of the State Compensation Law. Victims' claims were difficult 
to assess because of vague definitions in the law and difficulties in 
obtaining evidence of injury or damage. Judges were reluctant to accept 
state compensation cases, and government agencies seldom implemented 
court judgments in favor of plaintiffs.

    f. Arbitrary Interference with Privacy, Family, Home, or 
Correspondence

    While the law states that the ``freedom and privacy of 
correspondence of citizens are protected by law,'' authorities often 
did not respect the privacy of citizens. Although the law requires 
warrants before law enforcement officials can search premises, 
officials frequently ignored this requirement. The Public Security 
Bureau and prosecutors are authorized to issue search warrants on their 
own authority without judicial review. Cases of forced entry by police 
officers continued to be reported.

    Authorities monitored telephone conversations, fax transmissions, 
e-mail, text messaging, and internet communications. They also opened 
and censored domestic and international mail. Security services 
routinely monitored and entered residences and offices to gain access 
to computers, telephones, and fax machines.

    According to foreign media reports, the Ministry of Public Security 
used tens of millions of surveillance cameras in the country. 
Authorities justified the security cameras as a way to improve public 
safety, crime fighting, traffic management, and ``social stability.'' 
Human rights groups stated authorities increasingly relied on the 
cameras to monitor and intimidate political dissidents, Tibetans, and 
Uighurs.

    The monitoring and disruption of telephone and internet 
communications were particularly widespread in the XUAR and Tibetan 
areas. Authorities frequently warned dissidents and activists, 
underground religious figures, and former political prisoners 
throughout the country not to meet with foreign journalists or 
diplomats, especially before sensitive anniversaries, at the time of 
important government or CCP meetings, and during the visits of high-
level foreign officials. Security personnel harassed and detained the 
family members of political prisoners, including following them to 
meetings with foreign reporters and diplomats and urging them to remain 
silent about the cases of their relatives.

    Family members of activists, dissidents, Falun Gong practitioners, 
journalists, unregistered religious figures, and former political 
prisoners were targeted for arbitrary arrest, detention, and harassment 
(see section 1.d.).

    In April four unidentified men forcibly removed 10-year-old Zhang 
Anni, the daughter of prodemocracy activist, Zhang Lin, from school and 
detained her at the Hefei city police station for several hours. Under 
government pressure, Hupo Elementary School refused to enroll Zhang 
Anni for seven weeks.

    Chen Kegui, nephew of activist Chen Guangcheng, remained in prison 
at year's end. In April media reported that Kegui was suffering from an 
unknown health condition in prison following allegations of torture by 
prison authorities. Authorities denied his family's request for medical 
parole.

    On August 16, Guangzhou police prohibited activist Tang Jingling 
and his wife Wang Yanfang from attending the funeral of well known 
house church pastor Samuel Lamb. Security officials reportedly put many 
pastors under house arrest to prevent them from attending the funeral. 
Guangzhou security personnel had previously detained Wang Yanfang for 
10 days in December 2011 and January 2012 in connection with protests 
in the Guangdong village of Wukan.

    On May 31, police in Wenchang, Hainan, arrested dissident Zheng 
Qiuwu's wife. On June 4, Zhejiang authorities detained Zheng himself 
and sent him home to Hainan. Both Zheng and his wife reportedly were 
charged with ``illegal business activity.''

    Forced relocation because of urban development continued and in 
some locations increased during the year. Protests over relocation 
terms or compensation were common, and some protest leaders were 
prosecuted. In rural areas infrastructure and commercial development 
projects resulted in the forced relocation of millions of persons.

    Property-related disputes between citizens and government 
authorities, which often turned violent, were widespread in both urban 
and rural areas. These disputes frequently stemmed from local 
officials' collusion with property developers to pay little or no 
compensation to displaced residents, combined with a lack of effective 
government oversight or media scrutiny of local officials' involvement 
in property transactions, as well as a lack of legal remedies or other 
dispute resolution mechanisms for displaced residents. The problem 
persisted despite the central government's efforts to impose stronger 
controls over illegal land seizures and to standardize compensation. 
Redevelopment in traditional Uighur neighborhoods in cities throughout 
the XUAR, such as the Old City area in Kashgar, resulted in the 
destruction of historically or culturally important areas. Some 
residents voiced opposition to the lack of proper compensation provided 
by the government and coercive measures used to obtain their agreement 
to redevelopment. There were several reports of herders in Inner 
Mongolia complaining of confiscation of traditional pastoral lands for 
development.

    Foreign media reported that at least 53 persons had self-immolated 
since 2009 to protest destruction of their homes.

    For information on the government's family planning policies and 
their consequences, see section 6, Women.


    Section 2. Respect for Civil Liberties, Including:

    a. Freedom of Speech and Press

    The law provides for freedom of speech and press, although 
authorities generally did not respect these rights. Authorities 
continued to control print, broadcast, and electronic media tightly and 
used them to propagate government views and CCP ideology. During the 
year authorities imposed censorship and manipulated the press and the 
internet, particularly around sensitive anniversaries.

    Freedom of Speech: With significant exceptions, especially speech 
that challenged the government or the CCP, political topics could be 
discussed privately and in small groups without official punishment. 
During the year some independent think tanks, study groups, and 
seminars reported pressure to cancel some sessions on sensitive topics. 
Those who made politically sensitive comments in public speeches, 
academic discussions, and comments to the media remained subject to 
punitive measures.

    In March the government merged the State Administration of Radio, 
Film, and Television with the General Administration of Press and 
Publication to create a new broadcast and press regulatory body, the 
General Administration of Press, Publication, Radio, Film, and 
Television.

    On September 9, the Supreme People's Court and Supreme People's 
Procuratorate issued a judicial interpretation that made online 
rumormongering a punishable offense. Under the interpretation the 
author of a libelous internet post that is reposted more than 500 times 
or read more than 5,000 times, or of an internet post that led to mass 
protests, instigated ethnic or religious clashes, damaged the country's 
image or caused ``a bad international effect,'' is subject to a maximum 
of three years in prison. By year's end this interpretation had a 
chilling effect on online discourse.

    The government frequently monitored gatherings of intellectuals, 
scholars, and dissidents where political or sensitive issues were 
discussed. In 2008, to commemorate International Human Rights Day, a 
group of 303 intellectuals and activists released a petition entitled 
Charter `08, calling for the CCP to respect human rights and implement 
democratic reforms. Since then Charter `08 signers continued to report 
official harassment, especially around sensitive dates.

    According to Western media reports, Shenzhen activist Yang Mingyu 
(also known as Yang Lin) was arrested July 19 for ``inciting subversion 
of state power'' in connection with his democracy activism, 
participation in Charter `08, and efforts to disclose official 
corruption.

    On August 12, activist Liu Jiacai, who served two years 
administrative detention sentence on a charge of ``inciting subversion 
of state power'' in 2002, was detained in Hubei Province on criminal 
charges of ``inciting subversion of state power.'' Police reported that 
he was detained for posting and disseminating online writings and views 
about legal reform in China. NGO sources reported that the charges 
stemmed from the fact that Liu had gathered activists in Yichang, Hubei 
Province for dinner parties, where they discussed corruption and other 
sensitive topics.

    Press Freedoms: All books and magazines require state-issued 
publication numbers, which were expensive and often difficult to 
obtain. Nearly all print media, broadcast media, and book publishers 
were affiliated with the CCP or a government agency. There were a small 
number of print publications with some private ownership interest but 
no privately owned television or radio stations. The CCP directed the 
domestic media to refrain from reporting on certain subjects, and all 
broadcast programming required government approval.

    In November the General Administration of Press, Publication, 
Radio, Film, and Television began requiring news organizations to hold 
weekly lectures on the CCP's journalistic principles, and journalists 
applying to renew their media credentials are required to take an 
examination on Marxist journalistic ideals.

    Foreign journalists based in the country found a challenging 
environment for reporting. According to the annual ``Reporting 
Conditions'' survey of the Foreign Correspondents' Club of China 
(FCCC), ``98 percent of respondents do not think reporting conditions 
in China meet international standards, and 70 percent feel conditions 
have worsened or stayed the same as the year before.''

    On July 8, journalist and documentary filmmaker Du Bin was released 
from a Beijing jail on bail after being detained for five weeks for 
allegedly ``disturbing order at a public place.'' In May, Du had posted 
an online documentary about the Masanjia Women's RTL Camp in Liaoning 
Province (see section 1.c.), and also in May a publisher with offices 
in Hong Kong and New York published his book on the Tiananmen massacre.

    Violence and Harassment: On July 15, law enforcement officers in 
Baita District of Liaoyang, Liaoning Province, allegedly beat a Chinese 
Business Morning View journalist who was reporting on a dispute between 
residents and developers at a construction site and destroyed his 
interview recordings.

    Restrictions on foreign journalists by central and local CCP 
propaganda departments remained strict, especially during sensitive 
times and anniversaries. Foreign press outlets reported that local 
employees of foreign news agencies were also subject to official 
harassment and intimidation. During the year the FCCC ``found 63 cases 
in which police officers or unknown persons impeded foreign reporters 
from doing their work, including nine cases in which reporters were 
manhandled or subjected to physical force.'' The report adds that while 
``this represents a welcome drop from last year,'' such intimidation 
``remains unacceptable.''

    According to Western media reports, in February a group of 
unidentified men in four vehicles assaulted a German television crew 
filming in a village near Beijing. According to a German correspondent 
present at the scene, the men ran the crew's minivan off the road and 
then smashed its windshield with baseball bats.

    In December, Chinese authorities prevented a Western reporter from 
attending a press event with UK Prime Minister David Cameron and 
Chinese Prime Minister Li Keqiang.

    The FCCC reported that, although routine delays in the provision of 
journalist visas appear to have shortened in recent months, 10 percent 
of survey respondents reported difficulties in obtaining official press 
accreditation or a journalist visa because of their reporting or that 
of their predecessors. While some reporters who authored particularly 
controversial news articles ultimately had their visas renewed, their 
news organizations experienced difficulty obtaining visas for new 
journalists and staff, even when these individuals previously held 
journalist visas for China.

    Additionally, among the correspondents surveyed, 30 percent stated 
their Chinese assistants encountered pressure from officials or 
experienced harassment.

    The government limited attendance at official press briefings to 
domestic media. Foreign media and diplomats were allowed to attend only 
briefings conducted by the Ministry of Foreign Affairs and a handful of 
press briefings held around special events.

    Authorities continued to enforce tight restrictions on citizens 
employed by foreign news organizations. The code of conduct for Chinese 
employees of foreign media organizations threatens with dismissal and 
loss of accreditation Chinese employees who engage in ``independent 
reporting'' and instructs them to provide their employers information 
that projects a good image of the country.

    Official guidelines for domestic journalists were often vague, 
subject to change at the discretion of propaganda officials, and 
enforced retroactively. Propaganda authorities forced newspapers to 
fire editors and journalists responsible for articles deemed 
inconsistent with official policy and suspended or closed publications. 
The system of postpublication review by propaganda officials encouraged 
self-censorship by editors seeking to avoid the losses associated with 
penalties for inadvertently printing unauthorized content. Officials 
can be punished for unauthorized contact with journalists.

    Government officials used criminal prosecution, civil lawsuits, and 
other punishments, including violence, detention, and other forms of 
harassment, to intimidate authors and journalists and to prevent the 
dissemination of controversial writings. A domestic journalist can face 
demotion or job loss for publishing views that challenge the 
government.

    In January a group of current and former journalists from the 
Guangzhou newspaper Southern Weekend (also translated as Southern 
Weekly), part of the Nanfang Daily Group, accused provincial propaganda 
officials of altering the newspaper's traditional New Year's message, 
which called for increased respect for constitutional rights. Southern 
Weekend journalists went on strike January 6 to protest editorial 
censorship, and students and activists began holding supportive 
demonstrations in front of the newspaper offices in Guangzhou. The 
protests turned into a broader public backlash against press censorship 
and were supported by editors, reporters, and social media. An 
agreement between the newspaper's staff and party overseers ended the 
strike January 8 and allowed the newspaper to resume publication 
January 10, but a clampdown on dissent reportedly followed. According 
to media reports, local authorities forcibly dispersed anticensorship 
protests, detained several activists for expressing solidarity with the 
newspaper, and blocked and deleted all references to the controversy 
from the internet.

    Journalists who remained in prison at year's end included Yang 
Tongyan, and Dhondup Wangchen. Uighur webmasters Dilshat Perhat and 
Nijat Azat continued to serve sentences for ``endangering state 
security.'' Uighur journalist Memetjan Abdulla was sentenced to life in 
prison in 2010, reportedly for transmitting ``subversive'' information 
related to the 2009 riots. During the year journalists working in 
traditional and new media were also imprisoned. In December 2012 the 
Prison Census of the Committee to Protect Journalists reported that, of 
32 known journalists imprisoned in the country, 12 were ethnic Tibetan, 
seven were ethnic Uighur, and one was ethnic Mongolian. The committee 
documented two new imprisonment cases in 2012.

    Censorship or Content Restrictions: Authorities continued to 
confiscate ``unauthorized publications.'' According to the National 
Office Against Pornographic and Illegal Publications, 45 million 
illegal publications were confiscated and more than 3.7 million pieces 
of online information involving pornography or other illegal content 
were deleted in 2012.

    Foreign journalists were denied permits to travel to the TAR, 
except for a very few highly controlled, government-organized press 
visits. Travel to Tibetan areas outside the TAR became increasingly 
difficult for foreign journalists. While foreign journalists were 
allowed access to Urumqi, XUAR, local and provincial authorities 
continued to control strictly the travel, access, and interviews of 
foreign journalists, even forcing them to leave cities in parts of the 
XUAR. After French news station France 24 broadcast journalist Cyril 
Payen's documentary about Tibet on May 30, Chinese embassy personnel 
went to the channel's headquarters in Paris to demand the withdrawal of 
the documentary from the station's website. The Chinese embassy in 
Bangkok also threatened Payen by telephone, according to Reporters 
Without Borders.

    Media outlets received regular guidance on topics that should not 
be covered from the CCP's Central Propaganda Department. For example, 
in April the department issued censorship instructions to mainland 
media prohibiting them from reusing, reporting, and commenting on Lens 
magazine's April article on the Masanjia Women's Labor Re-education 
Camp in Liaoning Province (see section 1.c.).

    Following an October typhoon in Yuyao, Zhejiang Province, that 
killed 10 persons and sparked protests about the government response, 
the State Council Information Office issued instructions to media 
outlets and internet companies not to report a local newspaper's story 
about the protests.

    In December 2012 the Central Propaganda Department ordered media 
outlets to adhere strictly to the information provided by authoritative 
departments when reporting on officials suspected of involvement in 
graft or bribery. Throughout the year the Central Propaganda Department 
issued similar instructions regarding the election of Hong Kong's chief 
executive, the self-immolation of Tibetans, and the Bo Xilai scandal. 
The orders included instructions for media outlets not to investigate 
or report on their own.

    Authorities continued to ban books with content they deemed 
controversial. The law permits only government-approved publishing 
houses to print books. The State Press and Publications Administration 
(PPA) controlled all licenses to publish. Newspapers, periodicals, 
books, audio and video recordings, or electronic publications may not 
be printed or distributed without the approval of the PPA and relevant 
provincial publishing authorities. Individuals who attempted to publish 
without government approval faced imprisonment, fines, confiscation of 
their books, and other sanctions. The CCP exerted control over the 
publishing industry by preemptively classifying certain topics as state 
secrets.

    Many intellectuals and scholars exercised self-censorship, 
anticipating that books or papers on political topics would be deemed 
too sensitive to be published. The censorship process for private and 
government media also increasingly relied on self-censorship and, in a 
few cases, postpublication sanctions.

    The General Administration of Press, Publication, Radio, Film, and 
Television, and the CCP remained active in issuing restrictive 
regulations and decisions constraining the content of broadcast media.

    Authorities continued to jam, with varying degrees of success, 
Chinese-, Uighur-, and Tibetan-language broadcasts of the Voice of 
America (VOA), the BBC, and RFA. English-language broadcasts on the VOA 
generally were not jammed. Internet distribution of streaming radio 
news and podcasts from these sources often was blocked. Despite the 
jamming of overseas broadcasts, the VOA, the BBC, RFA, Deutsche Welle, 
and Radio France International had large audiences, including human 
rights advocates, ordinary citizens, and government officials.

    Overseas television newscasts, largely restricted to hotels and 
foreign residence compounds, were occasionally subject to censorship. 
Such censorship of foreign broadcasts also occurred around the 
anniversary of the 1989 Tiananmen massacre and during the 18th Party 
Congress in 2012. Individual issues of foreign newspapers and magazines 
were occasionally banned when they contained articles deemed too 
sensitive. After two U.S. media websites published articles on 
Bloomberg.com and in the New York Times detailing the family wealth of 
Xi Jinping and Wen Jiabao, websites for both media outlets were 
blocked.

    Politically sensitive coverage in Chinese, and to a lesser extent 
in English, were censored more than coverage in other languages. The 
government prohibited some foreign and domestic films deemed too 
sensitive or selectively censored parts of films before they were 
released.

    Internet Freedom

    In 2010 the Information Office of the State Council released its 
first White Paper on the internet outlining the government's endeavors 
to allow certain freedoms of speech on the internet as long as the 
speech did not endanger state security, subvert state power, damage 
state honor and interests, jeopardize state religious policy, propagate 
heretical or superstitious ideas, or spread rumors and other content 
forbidden by laws and administrative regulations, among other caveats. 
The internet was widely available and widely used. The China Internet 
Network Information Center (CNNIC) reported that by the end of 2012 the 
number of internet users reached 564 million, including 420 million 
mobile telephone internet users. The CNNIC reported that 50.9 million 
new users were added in 2012 - a 3.8 percent increase from 2011. The 
International Telecommunication Union reported that 39 percent of 
individuals used the internet and 41 percent of households had access 
to the internet by the end of the year.

    The CCP underscored the importance of maintaining security and 
promoting core socialist values on the internet in its official 
decision adopted at the Sixth Plenum of the 17th CCP Congress in 
October 2011. The document called for developing a ``healthy and 
uplifting network culture'' that entails measures such as ``step[ping] 
up guidance and management over social networks and instant messaging 
tools, standardiz[ing] the transmission order of information on the 
internet, and foster[ing] a civilized and rational network 
environment.''

    The CCP continued to increase efforts to monitor internet use, 
control content, restrict information, block access to foreign and 
domestic websites, encourage self-censorship, and punish those who ran 
afoul of political sensitivities. According to news sources, more than 
14 government ministries participated in these efforts, resulting in 
the censorship of thousands of domestic and foreign websites, blogs, 
cell phone text messages, social networking services, online chat 
rooms, online games, and e-mail. These measures were not universally 
effective. In addition to its own extensive system of internet 
censorship, the government imposed more responsibilities on internet 
companies to implement online censorship and surveillance regimes, and 
it sought to prohibit anonymous expression online.

    A State Council regulation deems personal blogs, computer bulletin 
boards, and cell phone text messages to be part of the news media, 
which subjects these media to state restrictions on content. Internet 
service providers were instructed to use only domestic media news 
postings, to record information useful for tracking users and their 
viewing habits, to install software capable of copying e-mails, and to 
end immediately transmission of ``subversive material.''

    Under guidance from the CCP, the government employed thousands of 
persons at the national, provincial, and local levels to monitor 
electronic communications. Official monitoring focused on such tools as 
social networking, microblogging, and video-sharing sites. Internet 
companies also employed thousands of censors to implement CCP 
directives.

    In 2011 central government authorities ordered all public spaces 
offering free wireless internet access to install costly software that 
would enable police to identify users of the service. Authorities 
warned Beijing cafe and restaurant owners they would face a fine of 
20,000 renminbi (RMB) ($3,270) if they offered wireless internet access 
without installing the software. In December 2012 the NPC ratified a 
law requiring persons to give their real names when signing up for 
internet, fixed telephone line, or mobile telephone services. Providers 
must also require persons' names when allowing them to post information 
publicly.

    Major news portals require users to register using their real names 
and identification numbers to comment on news articles. Individuals 
using the internet in public libraries are required to register using 
their national identity card, and usage reportedly was monitored at all 
public library terminals.

    The government consistently blocked access to websites it deemed 
controversial, especially those discussing Taiwan, the Dalai Lama, 
Tibet, underground religious and spiritual organizations, democracy 
activists, and the 1989 Tiananmen massacre. The government also at 
times blocked access to selected sites operated by foreign governments, 
news outlets, health organizations, educational institutions, NGOs, and 
social networking sites, as well as to search engines that allow rapid 
communication or organization of users.

    In June 2012, following the publication of an expose on the 
financial affairs of Xi Jinping's family, the government blocked access 
to a Western media website. In October 2012 the government blocked 
access to the English- and Chinese-language versions of a U.S. media 
website after it published an article on Wen Jiabao's family fortunes. 
At year's end, several Western media and social media websites were not 
accessible.

    Some websites included images of cartoon police officers that warn 
users to stay away from forbidden content. Operators of web portals, 
blog-hosting services, and other content providers engaged in self-
censorship to ensure their servers were free from politically sensitive 
content. Domestic websites that refused to self-censor political 
content were shut down, and many foreign websites were blocked. 
Millions of citizens had Twitter-like microblogs that circulated some 
news banned in the national media. The microblogs themselves were 
censored but often hours or days after the posting.

    In July 2012 the State Internet Information Office and the State 
Administration of Radio, Film and Television issued a circular 
requiring online video content providers to review videos before making 
them available online and holding them responsible for the content.

    Authorities employed an array of technical measures to block 
``sensitive'' websites based in foreign countries. The ability of users 
to access such sensitive sites varied from city to city. The government 
also automatically censored e-mail and web chats based on a list of 
sensitive key words, such as ``Falun Gong,'' ``Dalai Lama,'' and 
``Tibetan independence.'' While such censorship was effective in 
keeping casual users away from sensitive content, it was defeated 
through the use of various technologies. Information on proxy servers 
outside China and software for defeating official censorship was 
readily available inside the country, but the government increasingly 
blocked access to the websites and proxy servers of commercial virtual 
private network providers. Despite official monitoring and censorship, 
dissidents and political activists continued to use the internet to 
call attention to political causes such as prisoner advocacy, political 
reform, ethnic discrimination, and corruption. Internet users spanning 
the political spectrum complained of censorship. Authorities sometimes 
blocked or closed the blogs of a number of prominent activists, 
artists, scholars, and university professors during the year.

    There were numerous press reports of purported cyber-attacks 
against foreign websites, foreign journalists, and foreign media 
organizations that carried information deemed offensive by the 
government.

    Authorities continued to jail numerous internet writers for 
peaceful expression of political views.

    According to online reports, in June police in Fujian detained an 
online activist for 10 days for her microblog comments about a June 7 
bus explosion in Xiamen. Police previously detained this same blogger 
in January 2012 for her comments about alleged corruption behind forced 
home evictions and demolitions in Xiamen's Jimei district.

    The blog of environmental writer Liu Futang remained inaccessible. 
His blog, which exposed environmental problems caused by government-
backed projects, was shut down in late 2012 after a Hainan Province 
court found him guilty of illegally profiting from self-published 
books.

    The State Secrets Law obliges internet companies to cooperate with 
investigations of suspected leaks of state secrets, stop the 
transmission of such information once discovered, and report the crime 
to authorities. Furthermore, the companies must comply with 
authorities' orders to delete such information from their websites, and 
failure to do so is punishable by relevant departments such as the 
police and the Ministry of Public Security.

    Regulations prohibit a broad range of activities that authorities 
interpret as subversive or slanderous to the state.

    Academic Freedom and Cultural Events

    The government continued restrictions on academic and artistic 
freedom, and political and social discourse at colleges, universities, 
and research institutes. The General Administration of Press, 
Publications, Radio, Film, and Television and the Central Propaganda 
Department issued restrictive regulations and decisions that 
constrained the flow of ideas and persons. In May the media reported 
that the CCP issued secret instructions to university faculty 
identifying seven ``off-limits'' subjects including universal values, 
freedom of the press, civil society, civil rights, an independent 
judiciary, elite cronyism, and the historical errors of the CCP. Some 
academics self-censored their publications, faced pressure to reach 
predetermined research results, or were unable to hold conferences with 
international participants during politically sensitive periods. Peking 
University economics professor Xia Yeliang came under government 
criticism for calling for public discussion of reform among 
intellectuals, and in October he was dismissed from his university 
position.

    In December the East China University of Political Science and Law 
in Shanghai dismissed law professor Zhang Xuezhong for criticizing one-
party rule in an online publication. According to reports, the school 
administration decided Zhang was unfit to teach after he refused to 
admit any wrongdoing.

    Censorship and self-censorship of artistic works was common, 
particularly those artworks deemed to involve politically sensitive 
subjects.

    Authorities on a few occasions blocked entry into the country of 
individuals deemed politically sensitive and declined to issue 
passports to Chinese citizens selected for international exchange 
programs who were considered ``politically unreliable,'' singling out 
ethnic Tibetans and Uighurs and individuals from other minority 
nationality areas.

    A number of other foreign government-sponsored exchange selectees, 
particularly those from minority provinces, encountered difficulties 
gaining approval to travel to participate in their programs.

    The government used political attitudes and affiliations as 
criteria for selecting persons for the few government-sponsored study 
abroad programs but did not impose such restrictions on privately 
sponsored students. The government and the party controlled the 
appointment of high-level officials at universities. While CCP 
membership was not always a requirement to obtain a tenured faculty 
position, scholars without CCP affiliation often had fewer chances for 
promotion.

    Foreign researchers, authors, and academics residing abroad 
reported they were subject to sanctions, including denial of visas, 
from authorities when their work did not meet with official approval. 
Thirteen foreign academics asserted that they were blacklisted and 
blocked from obtaining visas to travel to China for having contributed 
scholarly essays to a book on Xinjiang published in 2004. Other 
scholars continued to be blacklisted or faced difficulties obtaining 
visas because of their politically sensitive work on China.

    b. Freedom of Peaceful Assembly and Association Freedom of Assembly

    While the law provides for freedom of peaceful assembly, the 
government severely restricted this right. The law stipulates that such 
activities may not challenge ``party leadership'' or infringe upon the 
``interests of the state.'' Protests against the political system or 
national leaders were prohibited. Authorities denied permits and 
quickly suppressed demonstrations involving expression of dissenting 
political views.

    Citizens continued to gather publicly to protest evictions, 
relocations, and compensation in locations throughout the country, 
often resulting in conflict with authorities or other charges (see 
section 1.f.).

    Guangdong police worked aggressively to curtail free speech and 
preempt peaceful assembly during the anniversary of the Tiananmen 
Square incident. Authorities ordered 15-day administrative detention 
for the organizers of one event. Police placed other activists under 
surveillance or house arrest, encouraged some to leave town on 
``vacation,'' or invited them to police stations for ``tea'' and 
questioning. Police also reportedly restricted the freedom of Foshan 
rights activist Chen Qitang and Guangzhou rights activists Wang Aizhong 
and Tang Jingling in late May and early June in advance of and during 
the anniversary of the Tiananmen incident.

    In January, Guangzhou police detained numerous persons involved in 
public demonstrations against the provincial propaganda department's 
censorship of Southern Weekend's New Year's greeting. In addition to 
administrative detentions and formal arrests, police reportedly held a 
number of participants in irregular detention facilities including a 
movie theater and a military base (see section 2.a.).

    On January 2, police in the Luoxi neighborhood of Guangzhou 
preemptively detained dozens of activists, including organizer Xu Lin, 
for planning a musical performance and poetry recitation at a public 
square to celebrate the New Year.

    On February 23, Liu Yuandong, Sun Desheng, and 12 others were 
detained in Guangdong for their participation in protests directed at 
North Korea's nuclear test. Most of the protesters were freed or given 
administrative detentions, but police formally arrested and charged Liu 
on April 3. According to media reports, police subjected Liu and Sun to 
mistreatment in custody including sleep deprivation. On April 12, 
authorities in Dongguan, Guangdong Province, gave four activists 
administrative detentions after they held up banners calling for Liu's 
release. On August 13, authorities in Guangzhou again detained Sun 
Desheng for the crimes of gathering crowds and disrupting public order.

    In May, Chengdu authorities preemptively deployed 170,000 security 
personnel throughout the city on the date of a planned protest against 
the construction of a nearby petrochemical plant and its production of 
paraxylene. Authorities also detained suspected activists in the days 
leading up to the planned protest.

    Also in May, Changsha authorities in Hunan Province detained Xiang 
Yuhan following his organization of a peaceful march of 100 persons in 
commemoration of the International Day Against Homophobia. Xiang was 
confined for 12 days in administrative detention on a charge of 
``illegal protest.''

    In February the Nanjing NGO Tianxiagong (Justice for All) won a 
lawsuit against a hotel in Suzhou that in 2012 had canceled its 
conference reservations at the last moment on order from the local PSB. 
In May another NGO's legal rights conference in Hangzhou faced similar 
obstructions when hotels canceled reservations. The hotels informed the 
NGO that Zhejiang and Jiangsu province security officers ordered 
authorities not to permit holding the gathering anywhere in the 
provinces.

    All concerts, sports events, exercise classes, or other meetings of 
more than 200 persons require approval from public security 
authorities. Although peaceful protests are legal, police rarely 
granted approval. Despite restrictions there were many demonstrations, 
but those with political or social themes were broken up quickly, 
sometimes with excessive force. The number of ``mass incidents'' and 
protests, including some violent protests, against local governments 
increased during the year. According to an international NGO, a former 
leading member of the CCP's Politics and Law Commission stated that the 
country experienced 30,000 to 50,000 mass incidents every year. As in 
past years, the vast majority of demonstrations concerned land 
disputes; housing problems; industrial, environmental, and labor 
matters; government corruption; taxation; and other economic and social 
concerns. Others were provoked by accidents or were related to personal 
petitions, administrative litigation, and other legal processes.

    Disputes over land expropriation continued to trigger large-scale 
clashes between police and protesters.

    The law protects an individual's ability to petition the 
government, but persons petitioning the government faced restrictions 
on their rights to assemble and raise grievances (see section 1.d.). 
Most petitions addressed grievances about land, housing, entitlements, 
the environment, or corruption. Most petitioners sought to present 
their complaints at national and provincial ``letters and visits'' 
offices.

    Although banned by regulations, retaliation against petitioners 
reportedly continued. This was partly due to incentives the central 
government provided to local officials to prevent petitioners from 
raising complaints to higher levels. Incentives included provincial 
cadre evaluations based in part on the number of petitions from their 
provinces. This initiative aimed to encourage local and provincial 
officials to resolve legitimate complaints but also resulted in local 
officials sending security personnel to Beijing and forcibly returning 
the petitioners to their home provinces to prevent them from filing 
complaints against local officials with the central government. Such 
detentions often went unrecorded. Rules issued by the General Office of 
the State Council mandate sending officials from Beijing to the 
provinces to resolve petition problems locally, thereby reducing the 
number of petitioners entering Beijing. The rules also mandate a 60-day 
response time for petitions and provide for a single appeal in each 
case.

    Petitioners faced harassment, illegal detention, and even more 
severe forms of punishment when attempting to travel to Beijing to 
present their grievances.

    On January 5, authorities prevented 13 petitioners from Fujian 
Province from requesting assistance with their petitions from a foreign 
embassy in Beijing. According to online reports, police detained six of 
the petitioners for five days and one petitioner for 10 days.

    Freedom of Association

    The law provides for freedom of association, but the government 
restricted this right. CCP policy and government regulations require 
that all professional, social, and economic organizations officially 
register with, and receive approval from the government. These 
regulations prevented the formation of truly autonomous political, 
human rights, religious, spiritual, labor, and other organizations that 
the government believed might challenge its authority.

    The government maintained tight controls over civil society 
organizations.

    According to regulations issued by the State Administration for 
Foreign Exchange, foreign exchange donations to or by domestic 
institutions must ``comply with the laws and regulations.and shall not 
go against social morality or damage public interests and the 
legitimate rights and interests of other citizens.'' For donations to a 
domestic organization from a foreign NGO, the regulations require all 
parties and the banks to approve additional measures prior to 
processing a transaction. Application of the regulation varied, with 
some NGOs successfully navigating the requirements, others identifying 
other options by which to receive funds, and some severely limiting or 
shutting down operations.

    To register, an NGO must find a government agency to serve as its 
organizational sponsor, have a registered office, and hold a minimum 
amount of funds. Some organizations with social or educational purposes 
that previously registered as private or for-profit businesses 
reportedly were requested to find a government sponsor and reregister 
as NGOs during the year. Finding a government sponsor was often very 
difficult, since the government department can be held responsible if 
the NGO engages in sensitive behavior. In March the NPC announced 
changes for NGO registration that waived the requirement to find a 
government sponsor. However, these changes only apply to four types of 
NGOs - industrial associations, charities, community services, and 
organizations dedicated to the promotion of technology. NGO sources 
reported that the new regulations do not apply to organizations 
primarily focused on advocacy or rights promotion.

    In July the Ministry of Civil Affairs announced the intention to 
pass legislation that would allow international NGOs to register with 
provincial civil affairs authorities instead of the ministry. By year's 
end the legislation had not been promulgated.

    In 2012 Guangdong provincial government officials initiated 
proposals aimed at facilitating the operations and work of many NGOs, 
including, for example, simplifying registration procedures so that 
certain categories of NGOs could register directly with the Ministry of 
Civil Affairs. Implementation of regulations associated with these 
proposals was often inconsistent. Although some NGOs perceived to be 
working in nonpolitically sensitive areas enjoyed increased 
opportunities, others continued to face interference from authorities, 
for example, through increased financial scrutiny. Labor NGOs in 
Shenzhen continued to face a challenging environment, including 
registration hurdles and occasional government interference with their 
activities.

    Although registered organizations all came under some degree of 
government control, some NGOs were able to operate with a greater 
degree of independence.

    The number of NGOs continued to grow, despite the restrictions and 
regulations. The government used the term ``social organization'' to 
categorize social groups (shehui tuanti), such as trade and 
professional associations; civil noncommercial units (minban fei qiye 
danwei), which are the equivalent of nonprofit service providers; and 
foundations (jijinhui). The last category included two types of 
foundations: public fundraising and private fundraising foundations. 
The government continued to impose fundraising limits on private 
foundations.

    According to the Ministry of Civil Affairs, by the end of 2012 
there were at least one million NGOs either operating without legal 
status or registered as companies. The country had approximately 
462,000 legally registered social organizations, including 255,000 
social groups, 204,000 civil noncommercial units, and 2,614 
foundations. In 2012 an official of the Ministry of Civil Affairs 
wrote, ``In 2007 China started to use the term `social organization' 
instead of `civil organization' because `civil' contrasts with 
`official' and reflected the opposing roles of civil society and 
government in the traditional political order. The 16th and 17th CCP 
Congresses changed the name to `social organization.' NGOs existed 
under a variety of formal and informal guises, including national mass 
organizations created and funded by the CCP, known as `government 
NGOs.'''

    The lack of legal registration created numerous logistical 
challenges for NGOs, including difficulty opening bank accounts and 
receiving foreign funding, hiring workers, fundraising, and renting 
office space. NGOs that opted not to partner with government agencies 
could register as commercial consulting companies, which allowed them 
to obtain legal recognition at the cost of forgoing tax-free status. 
Security authorities routinely warned domestic NGOs, regardless of 
their registration status, not to accept donations from the foreign-
funded National Endowment for Democracy and other international 
organizations deemed sensitive by the government.

    In July officials from the Beijing Civil Affairs Bureau raided, 
closed, and confiscated materials from the think tank Transition 
Institute for not registering properly. The institute registered as a 
business, and its head, Guo Yushan, was associated with the New 
Citizens Movement and activists such as Chen Guangcheng and Xu Zhiyong.

    Authorities supported the growth of some NGOs that focused on 
social problems such as poverty alleviation and disaster relief, but 
remained concerned that these organizations might emerge as a source of 
political opposition. NGOs working in the TAR and other Tibetan areas 
faced an increasingly difficult operating environment, and many were 
forced to curtail their activities altogether due to travel 
restrictions, official intimidation of staff members, and the failure 
of local partners to renew project agreements.

    No laws or regulations specifically govern the formation of 
political parties. The Chinese Democracy Party remained banned, and the 
government continued to monitor, detain, and imprison current and 
former CDP members.

    c. Freedom of Religion

    See the Department of State's International Religious Freedom 
Report at www.state.gov/j/drl/irf/rpt/.

    d. Freedom of Movement, Internally Displaced Persons, Protection of 
Refugees, and Stateless Persons

    The law provides for freedom of internal movement, foreign travel, 
emigration, and repatriation, but the government generally did not 
respect these rights. While seriously restricting its scope of 
operations, the government occasionally cooperated with the Office of 
the UN High Commissioner for Refugees (UNHCR), which maintained an 
office in Beijing, to provide protection and assistance to refugees, 
asylum seekers, and other persons of concern.

    Increasingly the government silenced activists by denying them 
permission to travel, both internationally and domestically, or keeping 
them under unofficial house arrest. In the spring officials denied 
Jiangsu environmental activist Wu Lihong a passport to travel abroad to 
accept a human rights award, although his wife and daughter were 
eventually permitted to travel and accepted the award on his behalf. 
Uighur economist Ilham Tohti was detained at Beijing airport and 
prevented from traveling abroad to accept a position as a visiting 
scholar.

    In-country Movement: Authorities heightened restrictions on freedom 
of movement, particularly to curtail the movement of individuals deemed 
politically sensitive, before key anniversaries, visits by foreign 
dignitaries, or major political events and to forestall demonstrations. 
Freedom of movement continued to be very limited in the TAR and other 
Tibetan areas. Police maintained checkpoints in most counties and on 
roads leading into many towns, as well as within major cities such as 
Lhasa. Tibetans from other provinces reported that authorities 
subjected them to onerous documentation requirements to enter the TAR 
and required Tibetans who were not residents of Lhasa to obtain 
permission to enter the city, often forcing them to stay in specially 
designated accommodations, requirements not imposed on Han Chinese 
visitors to the TAR.

    In 2012 prominent Tibetan poet and blogger Woeser, a Beijing 
resident, was required to leave Beijing and return to Lhasa for three 
months before and during the 18th Party Congress in Beijing. Uighur 
economics professor Ilham Tohti was also required to leave Beijing 
during the Party Congress. Feng Zhenghu, Mao Hengfeng, and other 
Shanghai activists reported being repeatedly detained upon arrival in 
Beijing when attempting to visit other activists or petition the 
national government.

    Although the government maintained restrictions on the freedom to 
change one's workplace or residence, the national household 
registration system (hukou) continued to change, and the ability of 
most citizens to move within the country to work and live continued to 
expand. Rural residents continued to migrate to the cities, where the 
per capita disposable income was more than four times the rural per 
capita income, but many could not change their official residence or 
workplace within the country. Most cities had annual quotas for the 
number of new temporary residence permits that could be issued, and all 
workers, including university graduates, had to compete for a limited 
number of such permits. It was particularly difficult for rural 
residents to obtain household registration in more economically 
developed urban areas.

    The household registration system added to the difficulties rural 
residents faced even after they relocated to urban areas and found 
employment. According to the 2012 Statistical Communique of the 
People's Republic of China on 2012 National Economic and Social 
Development published in February by the Ministry of Human Resources 
and Social Security, 279 million persons lived outside the jurisdiction 
of their household registration. Of that number, 236 million 
individuals worked outside their home district. Many migrant workers 
and their families faced numerous obstacles with regard to working 
conditions and labor rights. Many were unable to access public 
services, such as public education or social insurance, in the cities 
where they lived and worked because they were not legally registered 
urban residents. Poor treatment and difficulty integrating into local 
communities contributed to increased unrest among migrant workers in 
the Pearl River Delta. Migrant workers had little recourse when abused 
by employers and officials. Some major cities maintained programs to 
provide migrant workers and their children access to public education 
and other social services free of charge, but migrants in some 
locations reported difficulty in obtaining these benefits due to the 
onerous bureaucratic processes involved in obtaining access to urban 
services.

    Under the ``staying at prison employment'' system applicable to 
recidivists incarcerated in RTL camps, authorities denied certain 
persons permission to return to their homes after serving their 
sentences. Some released or paroled prisoners returned home but were 
not permitted freedom of movement.

    Foreign Travel: The government permitted legal emigration and 
foreign travel for most citizens. Some academics and activists 
continued to face travel restrictions, especially around sensitive 
anniversaries (see section 1.d.). The government exercised exit control 
for departing passengers at airports and other border crossings and 
utilized this exit control to deny foreign travel to dissidents and 
persons employed in sensitive government posts. Throughout the year 
lawyers, artists, authors, and other activists were at times prevented 
from freely exiting the country. Border officials and police cited 
threats to ``national security'' as the reason for refusing permission 
to leave the country. Authorities stopped most persons at the airport 
at the time of the attempted travel. Wuxi environmental activist Wu 
Lihong was prevented from traveling abroad to accept a human rights 
award in July. Shanghai activist Zheng Enchong was prevented from 
accepting a teaching fellowship in Hong Kong in August. Shanghai 
activist Chen Jianfang was prevented from traveling to a UN human 
rights training course in Geneva in September. Well known artist Ai 
Weiwei was denied a passport to attend exhibitions of his work abroad. 
Other activists also reported being blocked from traveling abroad.

    Most citizens could obtain passports, although those government 
deemed potential threats, including religious leaders, political 
dissidents, petitioners, and ethnic minorities, reported routinely 
being refused passports or otherwise prevented from traveling overseas.

    Ethnic Uighurs, particularly those residing in the XUAR, reported 
that it was very difficult to get a passport application approved at 
the local level. They were frequently denied passports to travel 
abroad, particularly to Saudi Arabia for the haj, other Muslim 
countries, or Western countries for academic or other purposes. 
Authorities reportedly seized valid passports of some residents of the 
XUAR and other citizens.

    In the TAR and Tibetan areas of Qinghai, Gansu, and Sichuan 
provinces, ethnic Tibetans experienced great difficulty acquiring 
passports. The unwillingness of Chinese authorities in Tibetan areas to 
issue or renew passports for ethnic Tibetans created, in effect, a ban 
on foreign travel for a large segment of the Tibetan population. Han 
residents of Tibetan areas did not experience the same difficulties.

    Authorities denied Tibetan blogger and poet Woeser's passport 
application, preventing her from receiving the Secretary of State's 
International Women of Courage award in person. According to an RFA 
report, in June authorities placed Woeser and her husband under house 
arrest for speaking up about conditions in Tibet ahead of a state-
sponsored trip by foreign journalists to the TAR.

    Exile: The law neither provides for a citizen's right to repatriate 
nor addresses exile. The government continued to refuse reentry to 
numerous Chinese citizens who were considered dissidents, Falun Gong 
activists, or ``troublemakers.'' Although authorities allowed some 
dissidents living abroad to return, dissidents released on medical 
parole and allowed to leave the country often were effectively exiled. 
Authorities imprisoned some activists residing abroad upon their return 
to the country.

    Emigration and Repatriation: The government continued to try to 
prevent many Tibetans and Uighurs from leaving the country and detained 
many who were apprehended in flight (see Tibet Annex). During the year 
171 Tibetans transited the UNHCR reception center in Kathmandu. There 
also were reports of the forcible return of Uighur asylum seekers from 
Malaysia in 2012. Of a group of 20 Uighurs returned from Cambodia in 
2009, three persons, a woman and two children, were reportedly freed, 
and in 2011, 16 others received prison sentences ranging from 16 years 
to life. Chinese authorities continued to refuse to provide information 
regarding the whereabouts of the remaining individual.

    Protection of Refugees

    Access to Asylum: The law does not provide for the granting of 
refugee or asylee status, and the government did not establish a system 
for providing protection to refugees. Although the government does not 
grant refugee or asylee status, it allowed the UNHCR more latitude in 
assisting non-North Korean and non-Burmese refugees. The UNHCR office 
in Beijing recognized approximately 100 refugees from Pakistan, Iraq, 
Somalia, and Eritrea and was processing approximately 100 additional 
individuals who requested refugee status. Because the PRC did not 
officially recognize these individuals as refugees, they remained in 
the country as illegal immigrants unable to work, with no access to 
education, and subject to deportation at any time.

    Refoulement: The government did not provide protection against the 
expulsion or forcible return of vulnerable refugees and asylum seekers, 
especially North Korean and Kachin refugees, to countries where their 
lives or freedom would be threatened on account of their race, 
religion, nationality, membership in a particular social group, or 
political opinion. The government continued to consider all North 
Koreans ``economic migrants'' rather than refugees or asylum seekers, 
and the UNHCR continued to have no access to North Korean or Burmese 
refugees inside China. The lack of access to durable solutions and 
options, as well as constant fear of forced repatriation by 
authorities, left North Korean refugees vulnerable to human 
traffickers. Reports of various exploitation schemes targeting North 
Korean refugees, such as forced marriages, forced labor, and 
prostitution, were common. The government continued to deny the UNHCR 
permission to operate along its borders with North Korea and Burma.

    Some North Koreans who entered diplomatic compounds in the country 
were permitted to travel to foreign countries after waiting for periods 
of up to two years.

    On May 27, there were reports that the government of Laos 
coordinated with the Democratic People's Republic of Korea (DPRK) to 
deport nine North Korean asylum seekers from Laos to China. On June 3, 
the Foreign Ministry spokesperson stated the nine individuals entered 
China on May 27 and subsequently left Beijing bound for the DPRK 
holding valid travel documents and visas.

    After two-time North Korean defector and South Korean citizen Kim 
Kwang-ho defected from North Korea to China for the second time, 
Chinese security officials in Yanji, Jilin Province, detained Kim, his 
wife Kim Ok-sil, and their daughter in July and held them until August 
before allowing them to return to South Korea. Chinese authorities 
reportedly repatriated to North Korea Kim's North Korean brother- and 
sister-in-law, who defected with him.

    Refugee Abuse: The intensified crackdown begun in 2008 against 
North Korean asylum seekers and refugees reportedly extended to 
harassment of religious communities along the border. The government 
arrested and detained individuals who provided food, shelter, 
transportation, and other assistance to North Koreans. According to 
reports some activists or brokers detained for assisting North Koreans 
were charged with human smuggling, and in some cases the North Koreans 
were forcibly returned. There were also reports that North Korean 
agents operated clandestinely within the country to repatriate North 
Korean citizens forcibly. According to press reports, some North 
Koreans detained by Chinese police faced repatriation unless they could 
pay bribes to secure their release.

    Access to Basic Services: Undocumented children of some North 
Korean asylum seekers and of mixed couples (i.e., one Chinese parent 
and one North Korean parent) did not have access to health care, public 
education, or other social services due to lack of legal status.

    Durable Solutions: The government largely cooperated with the UNHCR 
when dealing with the resettlement of ethnic Han Chinese or ethnic 
minorities from Vietnam and Laos who resided in the country since the 
Vietnam War era. During the year the government and the UNHCR continued 
discussions concerning the granting of citizenship to these long-term 
residents and their children, many of whom were born in China.


    Section 3. Respect for Political Rights: The Right of Citizens to 
Change Their Government

    The constitution states that ``all power in the People's Republic 
of China belongs to the people'' and that the organs through which the 
people exercise state power are the NPC and the people's congresses at 
provincial, district, and local levels. While the law provides citizens 
the right to change their government peacefully, citizens cannot freely 
choose or change the laws or officials that govern them. In fact the 
CCP controlled virtually all elections and continued to control 
appointments to positions of political power.

    Elections and Political Participation

    Recent Elections: The NPC, composed of up to 3,000 deputies, elects 
the president and vice president, the premier and vice premiers, and 
the chairman of the State Central Military Commission. The NPC Standing 
Committee, which consisted of 175 members, oversaw these elections and 
determined the agenda and procedures for the NPC.

    The NPC Standing Committee remained under the direct authority of 
the CCP, and most legislative decisions require the concurrence of the 
CCP's seven-member Politburo Standing Committee. Despite its broad 
authority under the state constitution, the NPC did not set policy 
independently or remove political leaders without the CCP's approval.

    According to Ministry of Civil Affairs statistics, almost all of 
the country's more than 600,000 villages had implemented direct 
elections for members of local subgovernmental organizations known as 
village committees. The direct election of officials by ordinary 
citizens remained narrow in scope and strictly confined to the local 
level. The government estimated that serious procedural flaws marred 
one-third of all elections. Corruption, vote buying, and interference 
by township-level and CCP officials continued to be problems. The law 
permits each voter to cast proxy votes for up to three other voters.

    The election law governs legislative bodies at all levels, although 
compliance and enforcement was uneven across the country. Under this 
law citizens have the opportunity every five years to vote for local 
people's congress representatives at the county level and below, 
although in most cases higher-level government officials or CCP cadres 
controlled the nomination of candidates in those elections. At higher 
levels legislators selected people's congress delegates from among 
their ranks. For example, provincial-level people's congresses selected 
delegates to the NPC. Local CCP secretaries generally served 
concurrently within the leadership team of the local people's congress, 
thus strengthening CCP control over legislatures.

    In 2012 the local governments kept most independent candidates - 
those without official government backing - off the ballots despite 
their meeting nomination criteria. No declared independent candidates 
won election in 2012. Election officials pressured independent 
candidates to renounce their candidacies, manipulated the ballot to 
exclude independent candidates, refused to disclose electorate 
information to independent candidates, and sometimes adjusted electoral 
districts to dilute voter support for independent candidates.

    In September an independent People's Congress candidate from Foshan 
City, Guangdong Province, who was detained in 2011 during the People's 
Congress representative elections that year on a charge of undermining 
elections, was tried and found guilty of ``disrupting elections.'' 
According to open source websites, hundreds of her supporters who 
wanted to observe her trial were denied access to the court.

    Political Parties: Official statements asserted, ``The political 
party system [that] China has adopted is multi-party cooperation and 
political consultation under'' CCP leadership. The CCP, however, 
retained a monopoly on political power, and the government forbade the 
creation of new political parties. The government officially recognized 
nine parties founded prior to 1949, and parties other than the CCP held 
30 percent of the seats in the NPC. Activists attempting to support 
unofficial parties were arrested, detained, or confined.

    In 2009 in Hunan Province, dissident Xie Changfa, who tried to 
organize a national meeting of the banned CDP, was sentenced to 13 
years in prison. Guo Quan, a former Nanjing University professor and 
founder of the China New Democracy Party, remained imprisoned following 
his 2009 sentence to 10 years in prison and three years' deprivation of 
political rights for ``subversion of state power.'' Guo published 
articles criticizing the country's one-party system. Other current or 
former CDP members, including Yang Tianshui, remained in prison or in 
RTL camps for their calls for political reform and their affiliation 
with the CDP.

    Participation of Women and Minorities: While the government placed 
no special restrictions on the participation of women or minority 
groups in the political process, women held few positions of 
significant influence in the CCP or government structure. Among the 
2,987 delegates of the 11th NPC (term 2008-13), 637 were women (21 
percent).

    Ten women occupied ministerial or higher-ranked positions.

    According to government-provided information, there were more than 
230 female provincial and ministerial officials, 10 percent of the 
overall total; 670 female mayors and vice mayors, twice the number from 
1995; and one provincial governor, Li Bin in Anhui Province (until 
June). A total of 37 women were members of provincial standing 
committees, constituting 9 percent of standing committee members. 
Following the 18th Party Congress in November, two women were members 
of the CCP's 25-member Politburo. There were no women in the Standing 
Committee of the Politburo. There were approximately 15 million female 
CCP cadres, approximately one-fifth of the party's membership.

    The government encouraged women to exercise their right to vote in 
village committee elections and to run in those elections, although 
only a small fraction of elected members were women. In many locations 
a seat on the village committee was reserved for a woman, who was 
usually given responsibility for family planning. The election law 
provides a general mandate for quotas for female and ethnic minority 
representatives, but achieving these quotas often required election 
authorities to violate the election procedures specified in the 
election law. During the 2011-12 local people's congresses elections, 
many electoral districts in which independent candidates campaigned 
used these quotas as justification to thwart the independent 
candidacies.

    A total of 411 delegates from 55 ethnic minorities were members of 
11th NPC, accounting for 14 percent of the total number of delegates. 
All of the country's officially recognized minority groups were 
represented.

    The 18th Communist Party Congress elected 10 members of ethnic 
minority groups as members of the Central Committee.

    The only ministerial-level post held by an ethnic minority member 
was in the State Ethnic Affairs Commission, headed by Yang Jing, an 
ethnic Mongol from Inner Mongolia. Until November 2012 Hui Liangyu of 
the Hui ethnic group was a member of the Politburo. Minorities held few 
senior CCP or government positions of significant influence (see also 
section 6, National/Racial/Ethnic Minorities).


    Section 4. Corruption and Lack of Transparency in Government

    Although according to the law officials face criminal penalties for 
corruption, the government did not implement the law effectively, and 
officials frequently engaged in corrupt practices with impunity. Many 
cases of corruption involved areas heavily regulated by the government, 
such as land-usage rights, real estate, and infrastructure development, 
which were susceptible to fraud, bribery, and kickbacks. Court 
judgments often could not be enforced against powerful special 
entities, including government departments, state-owned enterprises, 
military personnel, and some members of the CCP.

    While corruption remained a serious problem, there were increasing 
indications that the government recognized the seriousness of the 
problem.

    In January the Central Commission for Discipline Inspection (CCDI), 
the CCP's leading body for countering corruption among members, 
reported that it had investigated 155,144 corruption-related cases and 
closed 153,704 of them and that the CCP and government had disciplined 
160,718 officials.

    In October the Supreme People's Procuratorate reported that 
prosecutors nationwide had investigated 18,283 cases involving bribery 
and major embezzlement from January to August. Among the suspects were 
129 officials at the director general level and above.

    In December the CCP Central Committee unveiled a five-year plan to 
punish and prevent corruption. On December 26, the CCDI reported it had 
punished 25,855 individuals for breaches to antibureaucracy and 
formalism rules during the year, including 6,247 CCP officials.

    In February 2012 the NPC's Standing Committee amended the criminal 
law to make citizens and companies paying bribes to foreign government 
officials and officials of international public organizations subject 
to criminal punishments of up to 10 years' imprisonment and a fine.

    In October 2012 the government established a ``frugal working 
style'' rule barring government officials from spending public money on 
luxury items such as lavish banquets and luxury cars and from accepting 
expensive gifts. In September the government banned officials from 
using public money to send mooncakes as gifts and in December published 
regulations that banned dishes containing shark fin, bird nests, and 
wild animal products from official banquets. In December the government 
issued guidelines forbidding officials from chartering planes or flying 
in private or corporate jets overseas.

    In 2012 the Supreme People's Court urged local courts to ban family 
members of officials and judges from being lawyers under the local 
court's jurisdiction. Also in 2012 the Higher People's Court of Fujian 
Province forbade judges from meeting privately with representatives in 
a case.

    In February 2012 the Supreme People's Procuratorate announced the 
availability of a national bribery database listing individuals and 
companies found guilty of certain offenses, including bribing an 
individual or entity, and facilitating bribery. Companies and 
individuals must apply in writing to have the procuratorate check 
nationwide to determine whether a particular individual or company has 
been convicted of bribery offenses in the PRC. Companies must provide a 
copy of their business license.

    In June 2012 the Supreme People's Procuratorate stated it would 
strengthen measures to recover and freeze illegal assets transferred 
abroad by corrupt officials.

    Corruption: In numerous cases during the year, public officials and 
leaders of state-owned enterprises, who generally hold high CCP ranks, 
were investigated for corruption. In June the CCDI announced that Guo 
Yongxiang, a former deputy governor of Sichuan Province, was under 
investigation for suspected disciplinary violations.

    In July a Beijing court sentenced former railroads minister Liu 
Zhijun to death, with a two-year reprieve. Liu came under scrutiny for 
his mismanagement of the country's high-speed train network.

    On August 26, the Ministry of Supervision announced that Wang 
Yongchun, a vice president at state-owned China National Petroleum 
Corporation and the general manager of Daqing oilfield in Heilongjiang 
Province, was being investigated for ``severe disciplinary 
violations.''

    In September the Beijing Municipal People's Procuratorate confirmed 
that it had indicted former Jilin vice governor Tian Xueren on 
corruption charges but did not provide a trial date or information 
about the specific charges against him. Tian was reported to have been 
stripped of both his party membership and government position for 
taking bribes.

    In December the CCDI investigated Vice-Minister of Public Security 
Li Dongsheng for ``suspected serious law and discipline violations.''

    Notable organizations that worked to address official corruption 
included the Central Commission for Discipline Inspection, the Ministry 
of Supervision, the National Bureau of Corruption Prevention, the 
International Association of Anti-Corruption Authorities, and the Anti-
Corruption and Governance Research Center at Tsinghua University.

    Whistleblower Protection: In 1991 the Supreme People's 
Procuratorate published the Regulation to Protect Citizen's 
Whistleblowing Rights. Whistleblowing protections are also included in 
various criminal and labor laws. Legal experts opined, however, that 
the constellation of laws and regulations did not provide adequate 
protections to whistleblowers. In September the government created an 
official website for citizens to report fraud, graft, and government 
mismanagement, with priority given to those who provide their real 
names and contact information. The government does not provide legal 
protection for whistleblowers who do not use official channels.

    Financial Disclosure: A 2010 regulation requires officials in 
government agencies or state-owned enterprises at the county level or 
above to report their ownership of property, including that in their 
spouses' or children's names, as well as their families' investments in 
financial assets and enterprises. According to Article 23 of the 
regulations, the monitoring bodies are the CCDI, the Organization 
Department of the CCP, and the Ministry of Supervision. The regulations 
do not state that declarations are to be made public. Instead, they are 
to go to a higher administrative level and a human resource department. 
Punishments for not declaring information vary from education on the 
regulations, warning talks, and adjusting one's work position to being 
relieved of one's position. Regulations further state that officials 
should report all income, including allowances, subsidies and bonuses, 
as well as income from other jobs such as giving lectures, writing, 
consulting, reviewing articles, painting, and calligraphy. Officials, 
their spouses, and the children who live with them also should report 
their real estate properties and financial investments. Government 
officials should report their marriage status, records of private 
travel abroad, marriage status of their children, and whether their 
spouses are from Hong Kong, Taiwan, or a foreign country. They must 
report whether their children live abroad, as well as the work status 
of their children and grandchildren (including those who live abroad). 
Officials are required to file reports annually and must report changes 
of personal status within 30 days.

    In December 2012 officials announced that Guangdong Province would 
pilot a program in select districts requiring all CCP and government 
officials to report their assets publicly, with officials who refuse to 
do so to be relieved of their posts and subjected to further 
investigations. This program was not put into practice by year's end.

    Public Access to Information: Open-government information 
regulations allow citizens to request information from the government. 
The regulations require government authorities to create formal 
channels for information requests and to include an appeal process if 
requests are rejected or not answered. They stipulate that 
administrative agencies should reply to requests immediately to the 
extent possible. Otherwise, the administrative agency should provide 
the information within 15 working days, with the possibility of a 
maximum extension of an additional 15 days. In cases in which third-
party rights and interests are involved, the time needed to consult the 
third party does not count against the time limits. According to the 
regulations, administrative agencies may collect only cost-based fees 
(as determined by the State Council) for searching, photocopying, 
postage, and similar expenses when disclosing government information on 
request. Citizens requesting information can also apply for a fee 
reduction or exemption. The regulations include exceptions for state 
secrets, commercial secrets, and individual privacy.

    Publicly released provincial- and national-level statistics for 
open-government information requests showed wide disparities across 
localities, levels of government, and departments in numbers of 
requests filed and official documents released in response.

    If information requestors believe that an administrative agency has 
violated the regulations, they can report it to the next higher-level 
administrative agency, the supervision agency, or the department in 
charge of open-government information. In 2011 the Supreme People's 
Court ruled that citizens can sue any government department that 
refused to provide unclassified information. Shortly thereafter a 
Tsinghua University graduate student sued three government ministries 
after her requests for information regarding the duties of 14 
ministries for use in her thesis were denied. A court delayed 
consideration of her case pending further research, and she withdrew 
her lawsuit after the ministries provided the requested information.


    Section 5. Governmental Attitude Regarding International and 
Nongovernmental Investigation of Alleged Violations of Human Rights

    The government sought to maintain control over civil society 
groups, halt the emergence of independent NGOs, hinder the activities 
of civil society and rights' activist groups, and prevent what it 
called the ``Westernization'' of the country. The government did not 
permit independent domestic NGOs to monitor openly or to comment on 
human rights conditions, and it harassed domestic NGOs. The government 
tended to be suspicious of independent organizations and scrutinized 
NGOs with financial and other links overseas. Most large NGOs were 
quasi-governmental, and many official NGOs had to be sponsored by 
government agencies. The NPC introduced new registration procedures in 
March that allowed certain types of nonadvocacy NGOs to register 
directly with the Ministry of Civil Affairs (see section 2.b., Freedom 
of Association).

    An informal network of activists around the country continued to 
serve as a credible source of information about human rights 
violations. The information was disseminated through organizations such 
as the Hong Kong-based Information Center for Human Rights and 
Democracy, the foreign-based Human Rights in China, and Chinese Human 
Rights Defenders and via the internet.

    The government remained reluctant to accept criticism of its human 
rights record by other nations or international organizations. It 
criticized reports by international human rights monitoring groups, 
claiming that such reports were inaccurate and interfered with the 
country's internal affairs. Representatives of some international human 
rights organizations reported that authorities denied their visa 
requests or restricted the length of visas issued to them. The 
government continued to participate in official diplomatic human rights 
dialogues with foreign governments although some governments 
encountered problems scheduling such dialogues.

    Government Human Rights Bodies: The government did not have a human 
rights ombudsman or commission. The government-established China 
Society for Human Rights was an NGO whose mandate is to defend the 
government's human rights record. The government maintained that each 
country's economic, social, cultural, and historical conditions 
influenced its approach to human rights.


    Section 6. Discrimination, Societal Abuses, and Trafficking in 
Persons

    While there were laws designed to protect women, children, persons 
with disabilities, and minorities, some discrimination based on 
ethnicity, sex, disability, and other factors persisted.

    Women

    Rape and Domestic Violence: Rape is illegal, and some persons 
convicted of rape were executed. The penalties for rape can range from 
three years in prison to a death sentence with a two-year reprieve and 
forced labor. The law does not address spousal rape. The government did 
not make available official statistics on rape or sexual assault, 
leaving the scale of sexual violence difficult to determine. Migrant 
female workers were particularly vulnerable to sexual violence.

    Violence against women remained a significant problem. According to 
reports at least a quarter of families suffered from domestic violence, 
and more than 85 percent of the victims were women. Domestic violence 
against women included verbal and psychological abuse, restrictions on 
personal freedom, economic control, physical violence, and rape. The 
government supported shelters for victims of domestic violence, and 
some courts provided protections to victims, including through 
restraining orders prohibiting a perpetrator of domestic violence from 
coming near a victim. In March, Shaanxi Province designated the Number 
Two People's Hospital as an antidomestic violence service station to 
treat victims of domestic violence, the first designation of its kind. 
Nonetheless, official assistance did not always reach victims, and 
public security forces often ignored domestic violence. In 2010 the All 
China Women's Federation (ACWF) reported that it received 50,000 
domestic violence complaints annually. Spousal abuse typically went 
unreported, and an ACWF study found that only 7 percent of rural women 
who suffered domestic violence sought help from police. Almost 30 
percent of respondents in a recent study felt that domestic violence 
should be kept a private matter.

    While domestic violence tended to be more prevalent in rural areas, 
it also occurred among the highly educated urban population. The ACWF 
reported that approximately one-quarter of the 400,000 divorces 
registered each year were the result of family violence.

    According to ACWF statistics nationwide in 2008 there were 12,000 
special police booths for domestic violence complaints, 400 shelters 
for victims of domestic violence, and 350 examination centers for women 
claiming injuries from domestic violence. Many domestic violence 
shelters had inadequate facilities, required extensive documentation, 
or went unused. The government operated most shelters, some with NGO 
participation. In 2012 the government provided 680,000 office spaces in 
government buildings for women's resource centers.

    There was no strong legal mechanism to protect women from domestic 
abuse. According to the ACWF, laws related to domestic violence were 
flawed since there was no national provision for dealing with 
offenders. During the year the creation of such mechanisms was added to 
the NPC's legislative agenda, the fifth time the ACWF submitted such a 
proposal. Both the marriage law and the law on the protection of 
women's rights and interests have stipulations that directly prohibit 
domestic violence, but some experts complained that the stipulations 
were too general, failed to define domestic violence, and were 
difficult to implement. Because of standards of evidence, even if 
certain that domestic violence was occurring, a judge could not rule 
against the abuser without the abuser's confession. Only 10 percent of 
accused abusers confessed to violent behavior, according to 2009 data 
from the Institute of Applied Laws. The institute reported that, 
although 40 to 60 percent of marriage and family cases involved 
domestic violence, less than 30 percent were able to supply indirect 
evidence, including photographs, hospital records, police records, or 
children's testimony. Witnesses seldom testified in court.

    Public support increased in the fight against domestic violence. A 
recent survey found that more than 85 percent of respondents believed 
that further antidomestic violence legislation was needed. A high-
profile case, Kim Lee's case against her celebrity husband, Li Yang, 
led to public outcry when she posted pictures of her injuries on a 
social networking site. After months of waiting, Lee was granted a 
civil protection order forbidding her husband from approaching within 
200 yards of her. In February a Beijing court granted Lee a divorce on 
the grounds of domestic abuse and issued a three-month protection order 
against her former husband. This case set a precedent because the court 
acknowledged domestic violence as grounds for divorce, granted a 
protection order, and ordered the former husband to pay compensation 
for the violence she had endured during their marriage.

    Sexual Harassment: The law bans sexual harassment, and the number 
of sexual harassment complaints increased significantly. A 2009 Harvard 
University study showed that 80 percent of working women in the country 
experienced sexual harassment at some stage of their careers. The same 
study found that only 30 percent of sexual harassment claims by women 
achieved favorable resolutions. In November an NGO published its survey 
of female manufacturing workers in Guangzhou, which indicated that as 
much as 70 percent of Guangzhou's female workforce had been sexually 
harassed. Approximately half did not pursue legal or administrative 
actions, while 15 percent of respondents reported leaving the workplace 
to escape their harasser.

    Sexual harassment was not limited to the workplace. According to a 
China Youth Daily survey reported in September, approximately 14 
percent of women had been sexually harassed while riding the subway, 
and 82 percent of those polled believed the problem existed. At a 
Hainan Province festival in 2012, a dozen women were pinned down by a 
crowd of men who mauled the women and stripped off their clothes in 
broad daylight. Police escorted the women away and, according to press 
reports, subsequently detained six suspects in the assault.

    According to information on the ACWF website, the internet and 
hotlines made it easier for women who were sexually harassed to obtain 
useful information and legal service. A Beijing rights lawyer told the 
ACWF that approximately

    100-200 million women in the country had suffered or were suffering 
sexual harassment in the workplace but that very few legal service 
centers provided counseling.

    Reproductive Rights: The government restricted the rights of 
parents to choose the number of children they have. Although national 
law prohibits the use of physical coercion to compel persons to submit 
to abortion or sterilization, intense pressure to meet birth-limitation 
targets set by government regulations resulted in instances of local 
family-planning officials' using physical coercion to meet government 
goals. Such practices included the mandatory use of birth control and 
the abortion of unauthorized pregnancies. In the case of families that 
already had two children, one parent was often pressured to undergo 
sterilization.

    The National Population and Family Planning Commission reported 
that 13 million women annually underwent abortions caused by unplanned 
pregnancies. An official news media outlet also reported at least an 
additional 10 million chemically induced abortions or abortions 
performed in nongovernment facilities. Government statistics on the 
percentage of all abortions that were nonelective was not available. 
According to Health Ministry data released in March 2012, a total of 
336 million abortions and 222 million sterilizations had been carried 
out since 1971.

    The national family-planning authorities shifted their emphasis 
from lowering fertility rates to maintaining low fertility rates and 
emphasized quality of care in family-planning practices. In 2010 a 
representative of the National Population and Family Planning 
Commission reported that 85 percent of women of childbearing age used 
contraception. Of those, 70 percent used a reversible method. A survey 
taken in September, however, found that only 12 percent of women 
between the ages of 20 and 35 had a proper understanding of 
contraceptive methods. The country's birth-limitation policies retained 
harshly coercive elements in law and practice. The financial and 
administrative penalties for unauthorized births were strict.

    The 2002 national population and family-planning law standardized 
the implementation of the government's birth-limitation policies, 
although enforcement varied significantly. The law grants married 
couples the right to have one birth and allows couples to apply for 
permission to have a second child if they meet conditions stipulated in 
local and provincial regulations. The one-child limit was more strictly 
applied in urban areas, where only couples meeting certain conditions 
were permitted to have a second child (e.g., if both of the would-be 
parents were an only child). In most rural areas couples were permitted 
to have a second child in cases where their first child was a girl. 
Ethnic minorities were subject to less stringent rules. Nationwide 35 
percent of families fell under the one-child restrictions, and more 
than 60 percent of families were eligible to have a second child, 
either outright or if they met certain criteria. The remaining 5 
percent were eligible to have more than two children. According to 
government statistics, the average fertility rate for women nationwide 
was 1.8, and in the country's most populous and prosperous city, 
Shanghai, the fertility rate was 0.8. In December the NPC Standing 
Committee amended the one-child policy to allow couples in which at 
least one spouse is an only child to have two children.

    The National Population and Family Planning Commission reported 
that all provinces eliminated the birth-approval requirement before a 
first child is conceived, but provinces may still continue to require 
parents to ``register'' pregnancies prior to giving birth to their 
first child. This registration requirement could be used as a de facto 
permit system in some provinces, since some local governments continued 
to mandate abortion for single women who became pregnant. Provinces and 
localities imposed fines of various amounts on unwed mothers.

    Regulations requiring women who violate family-planning policy to 
terminate their pregnancies still exist in Liaoning and Heilongjiang 
provinces. Other provinces - Fujian, Guizhou, Guangdong, Gansu, 
Jiangxi, Qinghai, Shanxi, and Shaanxi - require unspecified ``remedial 
measures'' to deal with unauthorized pregnancies. A number of online 
media reports indicated that migrant women applying for household 
registration in Guangzhou were required to have an intrauterine 
contraceptive device (IUD) implanted.

    In October, Western media reported that officials from the Shandong 
Province Family Planning Commission forced their way into the home of 
Liu Xinwen, dragged her to a nearby hospital, and injected her with an 
abortion-inducing drug. Shandong officials reportedly forced Liu, who 
was six months into her pregnancy, to sign a document stating that she 
had agreed to the abortion.

    The government continued to impose ``child-raising fees'' on 
violators of the one-child policy. In the first half of the year, for 
example, Guangzhou City collected more than RMB 300 million ($49 
million) in such fees without disclosing how the money was used. 
Guangdong Province reportedly refused to disclose the amount of fees it 
had collected from one-child policy violators. Family planning 
officials in Tunchang County, Hainan Province, used fines and 
terminated employment as punishment for one-child policy violators.

    On December 30, overseas media reported that officials at Nurluq 
Hospital in Keriye County of Xinjiang's Hotan Prefecture carried out 
forced abortions on four pregnant women. According to the report, the 
deputy chief of Hotan's Arish Township confirmed that authorities had 
carried out four of six planned abortions utilizing abortion-inducing 
drugs. One woman escaped and another was in the hospital awaiting the 
procedure, the report stated. The head of the township's Family 
Planning Department stated the abortions were carried out following 
orders from higher authorities. The husband of one victim stated that 
his wife had been seven months' pregnant when the procedure was 
performed and that the baby had been born alive before succumbing to 
the effects of the chemical toxins hours later.

    The law requires each parent of an unapproved child to pay a 
``social compensation fee,'' which can reach 10 times a person's annual 
disposable income.

    Social compensation fees were set and assessed at the local level. 
The law requires family-planning officials to obtain court approval 
before taking ``forcible'' action, such as detaining family members or 
confiscating and destroying property of families who refuse to pay 
social compensation fees. This requirement was not always followed, and 
national authorities remained ineffective at reducing abuses by local 
officials.

    The population control policy relied on education, propaganda, and 
economic incentives, as well as on more coercive measures. Those who 
had an unapproved child or helped another do so faced disciplinary 
measures such as social compensation fees, job loss or demotion, loss 
of promotion opportunity, expulsion from the CCP (membership is an 
unofficial requirement for certain jobs), and other administrative 
punishments, including in some cases the destruction of private 
property.

    It continued to be illegal in almost all provinces for a single 
woman to have a child, with fines levied for violations. The law states 
that family-planning bureaus conduct pregnancy tests on married women 
and provide them with unspecified ``follow-up'' services. Some 
provinces fined women who did not undergo periodic pregnancy tests.

    Officials at all levels remained subject to rewards or penalties 
based on meeting the population goals set by their administrative 
region. Promotions for local officials depended in part on meeting 
population targets. Linking job promotion with an official's ability to 
meet or exceed such targets provided a powerful structural incentive 
for officials to employ coercive measures to meet population goals. An 
administrative reform process initiated pilot programs in some 
localities that removed this criterion for evaluating officials' 
performance.

    Although the family-planning law states that officials should not 
violate citizens' rights in the enforcement of family-planning policy, 
these rights, as well as penalties for violating them, are not clearly 
defined. By law citizens may sue officials who exceed their authority 
in implementing birth-planning policy, but few protections for 
whistleblowers against retaliation from local officials exist (see 
section 4, Whistleblower Protection). The law provides significant and 
detailed sanctions for officials who help persons evade the birth 
limitations.

    According to online reports, women who registered newborns in 
Nanhai District, Foshan, Guangdong Province, were requested to insert 
an IUD. Many posted online complaints that officials threatened not to 
register the baby if the mother did not comply, even when the newborn 
was the mother's only child. Other reports indicated that a mother 
could not enroll her child in school if she was unwilling to insert an 
IUD.

    Discrimination: The constitution states that ``women enjoy equal 
rights with men in all spheres of life.'' The Law on the Protection of 
Women's Rights and Interests provides for equality in ownership of 
property, inheritance rights, access to education, and equal pay for 
equal work. The ACWF was the leading implementer of women's policy for 
the government, and the State Council's National Working Committee on 
Children and Women coordinated women's policy. Many activists and 
observers expressed concern that discrimination was increasing. Women 
continued to report that discrimination, sexual harassment, unfair 
dismissal, demotion, and wage discrepancies were significant problems.

    Authorities often did not enforce laws protecting the rights of 
women. According to legal experts, it was difficult to litigate sex-
discrimination suits because of vague legal definitions. Some observers 
noted that the agencies tasked with protecting women's rights tended to 
focus on maternity-related benefits and wrongful termination during 
maternity leave rather than on sex discrimination, violence against 
women, and sexual harassment.

    Despite government policies mandating nondiscrimination in 
employment and remuneration, women reportedly earned 66 percent as much 
as men. The Ministry of Human Resources and Social Security and the 
local labor bureaus are responsible for ensuring that enterprises 
complied with the labor law and the employment promotion law, each of 
which contains antidiscrimination provisions.

    Many employers preferred to hire men to avoid the expense of 
maternity leave and childcare (paid paternity leave exists for men in 
some localities, but there is no national provision for paternity 
leave). Work units were allowed to impose an earlier mandatory 
retirement age for women than for men, and some employers lowered the 
effective retirement age for female workers to 50. In general the 
official retirement age for men was 60 and for women 55. Lower 
retirement ages also reduced pensions, which generally were based on 
the number of years worked. Job advertisements for women sometimes 
specified height and age requirements.

    Women's rights advocates indicated that in rural areas women often 
forfeited land and property rights to their husbands in divorce 
proceedings. Rural contract law and laws protecting women's rights 
stipulate that women enjoy equal rights in cases of land management, 
but experts argued that this was rarely the case due to the complexity 
of the law and difficulties in its implementation. A 2011 
interpretation of the country's marriage law by the Supreme People's 
Court exacerbated the gender wealth gap by stating that, after divorce, 
marital property belongs solely to the person registered as the 
homeowner in mortgage and registration documents - in most cases the 
husband. In determining child custody in divorce cases, judges make 
determinations based on the following guidelines: Children under age 
two should live with their mothers; custody of children two to nine 
years of age should be determined by who can provide the most stable 
living arrangement; and children 10 and over should be consulted when 
determining custody.

    A high female suicide rate continued to be a serious problem. There 
were approximately 590 female suicides per day, according to a report 
released in September 2012 by the Chinese Center for Disease and 
Control and Prevention. This was more than the approximately 500 per 
day reported in 2009. The report noted that the suicide rate for women 
was three times higher than for men. Many observers believed that 
violence against women and girls, discrimination in education and 
employment, the traditional preference for male children, birth-
limitation policies, and other societal factors contributed to the high 
female suicide rate. Women in rural areas, where the suicide rate for 
women was three to four times higher than for men, were especially 
vulnerable.

    The World Bank reported that in 2009, 99 percent of women between 
the ages of 15 and 24 were literate, with a literacy rate of 91 percent 
for women above 15 compared with 97 percent for men above 15.

    Women faced discrimination in higher education. The required score 
for the National Higher Entrance Exam was lower for men than for women 
at several universities. According to 2010 Ministry of Education 
statistics, women accounted for 49.6 percent of undergraduate students 
and 50.3 percent of master's students in 2012 but only 35 percent of 
doctoral students. Women with advanced degrees reported discrimination 
in the hiring process, since the job distribution system became more 
competitive and market driven.

    Gender-based Sex Selection: According to the 2010 national census, 
the national average male-female sex ratio at birth was 118 to 100. Sex 
identification and sex-selective abortion were prohibited, but the 
practices continued because of traditional preference for male children 
and the birth-limitation policy.

    Children

    Birth Registration: Citizenship is derived from parents. Parents 
must register their children in compliance with the national household 
registration system within one month of birth. Unregistered children 
cannot access public services. No data was available on the number of 
unregistered births.

    Education: Although the law provides for nine years of compulsory 
education for children, in economically disadvantaged rural areas many 
children did not attend school for the required period; some never 
attended. Although public schools were not allowed to charge tuition, 
faced with insufficient local and central government funding, many 
schools continued to charge miscellaneous fees. Such fees and other 
school-related expenses made it difficult for poorer families and some 
migrant workers to send their children to school.

    In 2010 the official literacy rate for youth (defined as persons 
between the ages of 15 and 24) was 99 percent. The proportion of girls 
attending school in rural and minority areas was reportedly smaller 
than in cities. In rural areas 61 percent of boys and 43 percent of 
girls completed education at a grade higher than lower middle school. 
The government reported that nearly 20 million children of migrant 
laborers followed their parents to urban areas. Denied access to state-
run schools, most children of migrant workers who attended school did 
so at unlicensed and poorly equipped schools.

    Medical Care: Female babies suffered from a higher mortality rate 
than male babies, which was contrary to the worldwide norm. State media 
reported that infant mortality rates in rural areas were 27 percent 
higher for girls than boys and that neglect was one factor in their 
lower survival rate.

    Child Abuse: The physical abuse of children can be grounds for 
criminal prosecution. Kidnapping, buying, and selling children for 
adoption increased during the past several years, particularly in poor 
rural areas. There were no reliable estimates of the number of children 
kidnapped, but according to media reports as many as 20,000 children 
were kidnapped every year for illegal adoption. Most children kidnapped 
internally were sold to couples unable to have children. Those 
convicted of buying an abducted child may be sentenced to three years' 
imprisonment. In the past most children rescued were boys, but 
increased demand for children reportedly drove traffickers to focus on 
girls as well. The Ministry of Public Security maintained a DNA 
database of parents of missing children and children recovered in law 
enforcement operations in an effort to reunite families.

    Forced and Early Marriage: The legal minimum age for marriage is 22 
for men and 20 for women. Child marriage was not known to be a problem, 
but there were reports of babies sold to be future brides. For example, 
families would adopt and raise babies for eventual marriage to their 
sons.

    Sexual Exploitation of Children: By law those who force young girls 
under age 14 into prostitution may be sentenced to 10 years to life in 
prison, in addition to a fine or confiscation of property. If the case 
is especially serious, violators can receive a life sentence or be 
sentenced to death, in addition to confiscation of property. Those 
inducing girls under age 14 into prostitution can be sentenced to five 
years or more in prison in addition to a fine. Those who visit female 
prostitutes under age 14 are subject to five years or more in prison in 
addition to paying a fine.

    According to the law the minimum age for consensual sex is 14.

    Pornography of any kind, including child pornography, is illegal. 
Under the criminal code, those producing, reproducing, publishing, 
selling, or disseminating obscene materials with the purpose of making 
a profit may be sentenced up to three years in prison or put under 
criminal detention or surveillance in addition to paying a fine. 
Offenders in serious cases may receive prison sentences of three to 10 
years in addition to paying a fine. In especially serious cases 
offenders are to be sentenced to 10 years or more in prison or given a 
life sentence in addition to a fine or confiscation of property. 
Persons found disseminating obscene books, magazines, films, audio or 
video products, pictures, or other kinds of obscene materials, if the 
case is serious, may be sentenced up to two years in prison or put 
under criminal detention or surveillance. Persons organizing the 
broadcast of obscene motion pictures or other audio or video products 
may be sentenced up to three years in prison or put under criminal 
detention or surveillance in addition to paying a fine. If the case is 
serious they are to be sentenced to three to 10 years in prison in 
addition to paying a fine.

    Those broadcasting or showing obscene materials to minors less than 
age 18 are to be ``severely punished.''

    Infanticide or Infanticide of Children with Disabilities: The Law 
on the Protection of Juveniles forbids infanticide, but there was 
evidence that the practice continued. According to the National 
Population and Family-planning Commission, a handful of doctors were 
charged with infanticide under this law. Female infanticide, sex-
selective abortions, and the abandonment and neglect of baby girls 
remained problems due to the traditional preference for sons and the 
coercive birth-limitation policy.

    Displaced Children: There were between 150,000 and one million 
urban street children, according to state-run media. This number was 
even higher if the children of migrant workers who spent the day on the 
streets were included. In 2010 the ACWF reported that the number of 
children in rural areas left behind by their migrant-worker parents 
totaled 58 million, 40 million under the age of 14.

    Institutionalized Children: The law forbids the mistreatment or 
abandonment of children. The vast majority of children in orphanages 
were girls, many of whom were abandoned. Boys in orphanages were 
usually disabled or in poor health. Medical professionals sometimes 
advised parents of children with disabilities to put the children into 
orphanages.

    The government denied that children in orphanages were mistreated 
or refused medical care but acknowledged that the system often was 
unable to provide adequately for some children, particularly those with 
serious medical problems. Adopted children were counted under the 
birth-limitation regulations in most locations. As a result, couples 
who adopted abandoned infant girls were sometimes barred from having 
additional children.

    International Child Abductions: The country is not a party to the 
1980 Hague Convention on the Civil Aspects of International Child 
Abduction. For information see the Department of State's report at 
travel.state.gov/abduction/resources/congressreport/congressreport--
4308.html.

    Anti-Semitism

    There were no reports of anti-Semitic acts during the year. The 
government does not recognize Judaism as an ethnicity or religion. 
According to information from the Jewish Virtual Library, the country's 
Jewish population was 2,500 in 2012.

    Trafficking in Persons

    See the Department of State's Trafficking in Persons Report at 
www.state.gov/j/tip/.

    Persons with Disabilities

    The law protects the rights of persons with disabilities and 
prohibits discrimination, but conditions for such persons lagged far 
behind legal dictates and failed to provide persons with disabilities 
access to programs intended to assist them.

    According to Article 3 of the Law on the Protection of Disabled 
Persons, ``disabled persons are entitled to enjoyment of equal rights 
as other citizens in political, economic, cultural and social fields, 
in family life and other aspects. The rights of disabled persons as 
citizens and their personal dignity are protected by law. 
Discrimination against, insult of, and infringement upon disabled 
persons is prohibited.''

    The Ministry of Civil Affairs and the China Disabled Persons 
Federation (CDPF), a government-organized civil association, are the 
main entities responsible for persons with disabilities. In June the 
CDPF stated that, based on 2010 census figures, 85 million persons with 
disabilities lived in the country. According to government statistics, 
in 2011 there were 5,254 vocational training facilities, which provided 
training for 299,000 persons with disabilities. Of the 32 million 
persons with disabilities of working age, more than 22 million were 
employed. Government statistics stated that 7.4 million persons with 
disabilities enjoyed ``minimum-life-guarantee'' stipends, and nearly 
three million had social insurance.

    The law prohibits discrimination against minors with disabilities 
and codifies a variety of judicial protections for juveniles. In 2007 
the Ministry of Education reported that nationwide there were 1,618 
schools for children with disabilities. According to NGOs, there were 
approximately 20 million children with disabilities, only 2 percent of 
whom had access to education that could meet their needs.

    According to the CDPF, in 2010 more than 519,000 school-age 
children with disabilities received compulsory education, 68 percent of 
them in inclusive education, and 32 percent in 1,705 special schools 
and 2,775 special classes. NGOs claimed that, while the overall school 
enrollment rate was 99 percent, only 75 percent of children with 
disabilities were enrolled in school. Nationwide, an estimated 243,000 
school-age children with disabilities did not attend school. In 2011 a 
total of 7,150 persons with disabilities were admitted to standard 
colleges and universities.

    Nearly 100,000 organizations existed, mostly in urban areas, to 
serve those with disabilities and protect their legal rights. The 
government, at times in conjunction with NGOs, sponsored programs to 
integrate persons with disabilities into society.

    Misdiagnosis, inadequate medical care, stigmatization, and 
abandonment remained common problems. According to reports doctors 
frequently persuaded parents of children with disabilities to place 
their children in large government-run institutions where care was 
often inadequate. Those parents who chose to keep children with 
disabilities at home generally faced difficulty finding adequate 
medical care, day care, and education for their children. Government 
statistics showed that almost one-quarter of persons with disabilities 
lived in extreme poverty.

    In part as a result of discrimination, unemployment among adults 
with disabilities remained a serious problem. The law requires local 
governments to offer incentives to enterprises that hire persons with 
disabilities. Regulations in some parts of the country also require 
employers to pay into a national fund for persons with disabilities 
when the employees with disabilities do not make up the statutory 
minimum percentage of the total workforce.

    Standards adopted for making roads and buildings accessible to 
persons with disabilities are subject to the Law on the Handicapped, 
which calls for their ``gradual'' implementation. Compliance with the 
law was limited. The law permits universities to exclude candidates 
with disabilities who were otherwise qualified.

    The law forbids the marriage of persons with certain mental 
disabilities, such as schizophrenia. If doctors find that a couple is 
at risk of transmitting congenital disabilities to their children, the 
couple may marry only if they agree to use birth control or undergo 
sterilization. The law stipulates that local governments must employ 
such practices to raise the percentage of births of children without 
disabilities.

    National/Racial/Ethnic Minorities

    Most minority groups resided in areas they traditionally inhabited. 
Government policy calls for members of recognized minorities to receive 
preferential treatment in birth planning, university admission, access 
to loans, and employment. Nonetheless, the substance and implementation 
of ethnic minority policies remained poor, and discrimination against 
minorities remained widespread.

    Minority groups in border and other regions had less access to 
education than their Han counterparts, faced job discrimination in 
favor of Han migrants, and earned incomes well below those in other 
parts of the country. Government development programs often disrupted 
traditional living patterns of minority groups and included, in some 
cases, the forced relocation of persons. Han Chinese benefited 
disproportionately from government programs and economic growth. As 
part of its emphasis on building a ``harmonious society'' and 
maintaining social stability, the government downplayed racism and 
institutional discrimination against minorities, which remained the 
source of deep resentment in the XUAR, the Inner Mongolia Autonomous 
Region (IMAR), the TAR, and other Tibetan areas.

    Ethnic minorities represented approximately 14 percent of delegates 
to the NPC and more than 15 percent of NPC Standing Committee members, 
according to an official report issued in 2011. A 2011 article in the 
official online news source for overseas readers stated that ethnic 
minorities comprised 41 percent of cadres in the Guangxi Zhuang 
Autonomous Region, 25 percent of cadres in Ningxia Hui Autonomous 
Region, and 51 percent of cadres in the XUAR. According to a July 2012 
article from the official Xinhua News Agency, 32 percent of cadres in 
Yunnan Province were members of an ethnic minority. A June 5 government 
report stated that, of the 296 civil servants Guangxi Province 
recruited in 2012, almost 60 percent were ethnic minorities. During the 
year all five of the country's ethnic minority autonomous regions had 
chairmen (equivalent to the governor of a province) from minority 
groups. The CCP secretaries of these five autonomous regions were all 
Han. Han officials continued to hold the majority of the most powerful 
CCP and government positions in minority autonomous regions, 
particularly the XUAR.

    The government's policy to encourage Han Chinese migration into 
minority areas significantly increased the population of Han in the 
XUAR. In recent decades the Han-Uighur ratio in the capital of Urumqi 
reversed from 20/80 to 80/20 and continued to be a source of Uighur 
resentment. Discriminatory hiring practices gave preference to Han and 
reduced job prospects for ethnic minorities. According to the 2010 
national census, 8.75 million, or 40 percent, of the XUAR's 21.8 
million official residents were Han. Hui, Kazakh, Kyrgyz, Uighur, and 
other ethnic minorities constituted approximately 13 million XUAR 
residents, or 60 percent of the total population. Official statistics 
understated the Han population, because they did not count the tens of 
thousands of Han Chinese who were long-term ``temporary workers.'' As 
the government continued to promote Han migration into the XUAR and 
filled local jobs with domestic migrant labor, local officials coerced 
young Uighur women to participate in a government-sponsored labor 
transfer program to cities outside the XUAR, according to overseas 
human rights organizations.

    The XUAR government took measures to dilute expressions of Uighur 
identity, including reducing the use of ethnic minority languages in 
XUAR schools and instituting Mandarin Chinese language requirements 
that disadvantaged ethnic-minority teachers. The government continued 
to apply policies that prioritized standard Chinese for instruction in 
school, thereby reducing or eliminating ethnic-language instruction. 
The dominant use of Mandarin Chinese in government, commerce, and 
academia disadvantaged graduates of minority-language schools who 
lacked Mandarin Chinese proficiency.

    Authorities continued to implement repressive policies in the XUAR 
and targeted the region's ethnic Uighur population. Officials in the 
XUAR continued to implement a pledge to crack down on the government-
designated ``three forces'' of religious extremism, ``splittism,'' and 
terrorism, and they outlined efforts to launch a concentrated 
antiseparatist re-education campaign. Some raids, detentions, and 
judicial punishments ostensibly directed at individuals or 
organizations suspected of promoting the ``three forces'' appeared to 
be targeted at groups or individuals peacefully seeking to express 
their political or religious views. The government continued to repress 
Uighurs expressing peaceful political dissent and independent Muslim 
religious leaders, often citing counterterrorism as the reason for 
taking action.

    According to the 2013 China Law Yearbook, authorities in 2012 
arrested 1,105 individuals for ``endangering state security,'' a 19 
percent increase from 2011. The NGO Dui Hua estimated that arrests from 
Xinjiang accounted for 75 percent of ``endangering state security'' 
charges.

    Uighurs continued to be sentenced to long prison terms, and in some 
cases executed without due process, on charges of separatism and 
endangering state security. The government pressured foreign countries 
to repatriate Uighurs, who faced the risk of imprisonment and 
mistreatment upon return. Some Uighurs refouled to China have simply 
disappeared.

    Freedom of assembly was severely limited during the year in the 
XUAR. For information about violations of religious freedom in 
Xinjiang, please see the Department of State's International Religious 
Freedom Report at www.state.gov/j/drl/irf/rpt/.

    Reportedly at year's end one son of exiled Uighur leader Rebiya 
Kadeer, president of the World Uighur Conference, whom the government 
blamed for orchestrating the 2009 riots in Urumqi, remained in prison.

    Possession of publications or audiovisual materials discussing 
independence, autonomy, or other sensitive subjects was not permitted. 
Uighurs who remained in prison at year's end for their peaceful 
expression of ideas the government found objectionable included 
Abduhelil Zunun. Reportedly, Uighur poet Nurmuhemmet Yasin, originally 
imprisoned in 2005, died in prison in 2011.

    XUAR and national-level officials defended the campaign against the 
three forces of religious extremism, ``splittism,'' and terrorism and 
other policies as necessary to maintain public order. Officials 
continued to use the threat of violence as justification for extreme 
security measures directed at the local population, journalists, and 
visiting foreigners.

    The law criminalizes discussion of separatism on the internet and 
prohibits use of the internet in any way that undermines national 
unity. It further bans inciting ethnic separatism or ``harming social 
stability,'' and requires internet service providers and network 
operators to set up monitoring systems or to strengthen existing ones 
and report violations of the law.

    Han control of the region's political and economic institutions 
also contributed to heightened tension. Although government policies 
continued to allot economic investment in and brought economic 
improvements to the XUAR, Han residents received a disproportionate 
share of the benefits. Job advertisements often made clear that Uighur 
applicants would not be considered.

    Reuters News Agency reported that in November police used electric 
batons to prevent approximately 100 ethnic Mongols from attending the 
trial of six nomadic herders charged with sabotaging production and 
intentionally destroying property. Authorities arrested the six herders 
in June after a confrontation with employees of a state-owned forestry 
company. Protests against land seizures occurred throughout the year 
across the IMAR, resulting in detentions and police abuse, as the 
regional government sought to implement Beijing's policy of resettling 
China's nomadic population.

    Societal Abuses, Discrimination, and Acts of Violence Based on 
Sexual Orientation and Gender Identity

    No laws criminalize private consensual same-sex activities between 
adults. Due to societal discrimination and pressure to conform to 
family expectations, most gay, lesbian, bisexual, and transgender 
(LGBT) persons refrained from publicly discussing their sexual 
orientation. Individual activists and organizations working on LGBT 
problems continued to report discrimination and harassment from 
authorities, similar to other organizations that accept funding from 
overseas.

    In June 2012 the Beijing LGBT center was notified by property 
management that its lease would be terminated early due to complaints 
that it was too noisy. Neighbors reportedly pressured management to 
terminate the lease after learning that it was an LGBT organization. 
The center was able to recoup only less than one-half of its investment 
of RMB 11,000 ($1,800) for the move.

    In September organizers of the China Charity Fair in Shenzhen, 
Guangdong Province, told two gay rights advocacy groups that they could 
not display their advertisements and informational brochures because 
they were not registered with the Ministry of Civil Affairs. One of the 
advocacy groups attempting to participate reported that his 
organization unsuccessfully sought to register with the ministry for 
several years, despite making dozens of visits to local government 
offices.

    In contrast with 2012, there reportedly was no government 
interference with the seventh Beijing Queer Film Festival. Organizers 
kept a low profile.

    Other Societal Violence or Discrimination

    The law prohibits discrimination against persons carrying 
infectious diseases and allows such persons to work as civil servants. 
The law does not address some common types of discrimination in 
employment, including discrimination based on height, physical 
appearance, or ethnic identity.

    Despite provisions in the law, discrimination against persons with 
HIV/AIDS and hepatitis B carriers (including 20 million chronic 
carriers) remained widespread in many areas, and local governments 
sometimes tried to suppress their activities. In August 2012 a man who 
was refused employment after it was discovered he had hepatitis was 
awarded RMB 8,000 ($1,310) in damages by a Xi'an court.

    HIV/AIDS activist Wan Yanhai, founder and director of the Beijing-
based NGO Aizhixing, remained overseas after leaving the country in 
2010. The organization continued to come under pressure from the 
government.

    Western media reported that on May 30, Guangxi activist Ye Haiyan, 
who advocated for the rights of prostitutes and persons infected with 
HIV/AIDS, was beaten in her home by a group of 10 police officers 
before being detained at the local police station in Bobai County.

    While in the past, persons with HIV/AIDS were routinely denied 
admission to hospitals, discrimination was less overt, and some 
hospitals came up with excuses for not being able to treat them. The 
hospitals feared that, should the general population find out that they 
were treating HIV/AIDS patients, patients would choose to go elsewhere. 
It was common practice for general hospitals to refer patients to 
specialty hospitals working with infectious diseases

    International involvement in HIV/AIDS prevention, care, and 
treatment, as well as central government pressure on local governments 
to respond appropriately, brought improvements in many localities. Some 
hospitals that previously refused to treat HIV/AIDS patients had active 
care and treatment programs because domestic and international training 
programs improved the understanding of local health-care workers and 
their managers. In Beijing dozens of local community centers encouraged 
and facilitated HIV/AIDS support groups.

    In March 2012 Zhejiang Province eliminated its mandatory HIV 
testing for suspects arrested for drug charges, a move seen as a step 
in protecting the privacy of the individuals.

    On July 1, Guangxi Zhuang Autonomous Region implemented new 
legislation requiring real name registration for HIV testing and 
obliging individuals who tested positive inform their spouses.

    Despite a 2010 nationwide rule banning mandatory hepatitis B virus 
tests in job and school admissions applications, 61 percent of state-
run companies in 2011 continued to use hepatitis B testing as a part of 
their preemployment screen.

    A 2011 report from a Beijing-based NGO stated that 32 percent of 
kindergartens surveyed would refuse to enroll children infected with 
hepatitis B.

    In July 2012 a widely used public health website for persons 
infected with hepatitis was blocked within the country. The website had 
been blocked two times earlier, in 2007 and 2008. The website's main 
goal is to eliminate discrimination of hepatitis carriers and provide a 
social forum to build awareness of the disease.

    In October the Ministry of Commerce posted online for public 
consultation draft regulations that would ban individuals with AIDS 
from entering public bathhouses. The draft regulations stipulated a 
fine of RMB 30,000 ($4,910) for violators and mandated that all spas, 
hot springs, and bathhouses post anti-HIV/AIDS visitor signs on their 
premises. At year's end the draft regulations remained under review.


    Section 7. Worker Rights

    a. Freedom of Association and the Right to Collective Bargaining

    The law does not provide for freedom of association, and workers 
are not free to organize or join unions of their own choosing. 
Independent unions are illegal, workers are not free to organize, and 
the right to strike is not protected in law.

    The Trade Union Law gives the All-China Federation of Trade Unions 
(ACFTU) control over all union organizations and activities, including 
enterprise-level unions. The ACFTU is a CCP organ chaired by a member 
of the Politburo and is tasked to ``uphold the leadership of the 
Communist Party.'' The ACFTU and its provincial and local branches 
continued aggressively to organize new constituent unions and add new 
members, especially in large, multinational enterprises. According to 
the ACFTU the total trade union membership reached 280 million during 
the year, 109 million of whom were rural-urban migrant workers.

    The law provides specific legal protections against antiunion 
discrimination and specifies that union representatives may not be 
transferred or terminated by enterprise management during their term of 
office. While there were no publicly available official statistics on 
the enforcement of these laws, there were periodic domestic media 
reports of courts awarding monetary compensation for wrongful 
terminations of union representatives.

    The Trade Union Law specifically assigns the ACFTU and affiliated 
unions the responsibility to ``coordinate the labor relations and 
safeguard the labor rights and interests of the enterprise employees 
through equal negotiation and collective contract system'' and to 
represent employees in negotiating and signing collective contracts 
with enterprises or public institutions. The law states that trade 
union representatives at each level should be elected.

    The Labor Dispute Mediation and Arbitration Law provides for labor 
dispute resolution through a three-stage process: mediation between the 
parties, arbitration by officially designated arbitrators, and 
litigation. A key article of this law requires employers to consult 
with labor unions or employee representatives on matters that have a 
direct bearing on the immediate interests of their workers.

    The Labor Contract Law provides that labor unions ``shall assist 
and direct the employees'' in establishing ``a collective negotiation 
mechanism'' and that collective contracts can include ``matters of 
remuneration, working hours, breaks, vacations, work safety and 
hygiene, insurance, benefits, etc.'' It further provides that there may 
be industrial or regional collective contracts ``in industries such as 
construction, mining, catering services, etc. in the regions at or 
below the county level.''

    The labor law allows for collective bargaining for workers in all 
types of enterprises, and collective contract regulations provide 
protections against discrimination and unfair dismissal for employee 
representatives during collective consultations. Regulations require a 
union to gather input from workers prior to consultation with 
management and to submit collective contracts to workers or their 
congress for approval. There is no legal obligation for employers to 
negotiate, and some employers refused to do so.

    If collective bargaining negotiations do begin, there is no 
requirement for employers to bargain in good faith. If no agreement is 
reached, the employer does not have a right to lock out the workers, 
and the workers do not have a right to strike. While work stoppages are 
not expressly prohibited in law and it is not illegal for workers to 
strike spontaneously, Article 53 of the constitution has been 
interpreted as a ban on labor strikes by obligating all citizens to 
``observe labor discipline and public order.''

    Although the ACFTU, especially at provincial levels, often played 
an important role in advocacy for improved labor protections during 
2012, this activism stalled during the year, in part due to a lack of 
clear direction from the Xi Jinping and Li Keqiang administration. 
During the ACFTU's 16th National Congress in October, high-level 
officials called on participants to improve the lives of workers 
through proactive employment policies, a better social safety net, and 
attention to safety in the workplace. They noted the need for both 
increased government enforcement and supervision and responsibility by 
trade unions and the public.

    In November the CCP concluded a high-level meeting by issuing a 
resolution that outlined reforms with the potential to affect freedom 
of association and collective bargaining, including expanding the use 
of employees' representative committees and innovating channels for 
workers to make appeals. The role of the ACFTU in a strike is primarily 
limited to involvement in investigations and assistance to the Ministry 
of Human Resources and Social Security in resolving disputes.

    ACFTU constituent unions were generally ineffective in representing 
and protecting the rights and interests of workers. This was 
particularly true in the case of migrant workers, who generally have 
less interaction with the ACFTU, who tend to work in foreign-invested 
enterprises, and for whom, especially among second-generation migrant 
workers, expectations of working conditions have increased. The ACFTU 
and the CCP maintain a variety of mechanisms to influence the selection 
of trade union representatives. Although the law states that trade 
union officers at each level should be elected, most factory-level 
officers were appointed by ACFTU-affiliated unions, often in 
coordination with employers, and were drawn largely from the ranks of 
management. Direct election by workers of union leaders continued to be 
rare, occurred only at the enterprise level, and was subject to 
supervision by higher levels of the union or the CCP. In enterprises 
where direct election of union officers took place, regional ACFTU 
officers and local CCP authorities retained control over the selection 
and approval of candidates. Even in these cases, workers and NGOs 
expressed concern about the sustainability of elections and the 
knowledge and capacity of elected union officials who often lacked 
collective bargaining skills.

    In March 2012 the Fair Labor Association (FLA) and Apple drafted an 
action plan for remediation at Foxconn supplier facilities. A key 
component of this action plan was the establishment of union elections. 
In its final report the FLA verified that no workplace elections had 
been conducted in the three facilities (Guanlan, Longhua, and Chengdu) 
since the beginning of the year.

    In a joint open letter to the Shenzhen Federation of Trade Unions 
(SFTU) in October, a group of students from nine universities in China 
outlined their findings in five Shenzhen factories at which the SFTU 
had purportedly adopted direct elections. While the elections did occur 
in many cases, the students found that trade union committees were 
still composed of members of company management. They also found that 
the union continued to fail to protect workers from basic labor law 
violations.

    Many autonomous regions and municipalities enacted local rules 
allowing collective wage negotiation, and some limited form of 
collective bargaining was more or less compulsory in 25 of 31 
provinces, according to the ACFTU. The Guangdong provincial government 
guidelines on enterprise collective wage bargaining require employers 
to give employee representatives information regarding a company's 
operations, including employee pay and benefits, to be used in wage 
bargaining. The guidelines also allow the local labor bureau, if 
requested by the employees and employers, to act as a mediator to help 
determine wage increases.

    Despite the Labor Contract Law's provisions for collective 
consultation related to common areas of dispute such as wages, hours, 
days off, and benefits, noncompliance with this provision, even at the 
minimum levels required by law, was common. Instead, tactics used by 
management included forcing employees to sign blank contracts and 
failing to provide workers a copy of their contract. Lack of government 
resources also undermined effective implementation and enforcement of 
the Labor Contract Law.

    The number of labor disputes nationwide continued to rise as 
workers' awareness of the laws increased. According to figures from the 
Ministry of Human Resources and Social Security, as of September 2012, 
there were more than 3,000 labor arbitration units and 25,000 labor 
arbitrators. Through 2011 the Ministry of Human Resources and Social 
Security handled 1.3 million ``labor and personnel disputes.'' Of 
these, 589,000 were registered arbitration cases, of which 93.9 percent 
were resolved. Most formal dispute resolution continued to occur 
between individual workers and employers, rather than managing 
collective disputes. The relevant regulations and rules address 
predominantly rights-based, rather than interest-based, disputes.

    Strikes primarily continued to be resolved directly between workers 
and management without the involvement of the ACFTU or its constituent 
local trade unions. In order to avoid strikes or address minor labor 
relations disputes, factory management continued to prefer to engage 
directly with workers via labor-management committees, rather than 
through the legally approved ACFTU-affiliated trade union. The Ministry 
of Human Resources and Social Security voiced support for the expansion 
and establishment of labor-management committees throughout all 
enterprises. Labor NGOs often provided information, training, and legal 
support to workers on collective bargaining and dispute resolution, in 
lieu of effective support by the ACFTU.

    There continued to be reports of workers throughout the country 
engaging in strikes, work stoppages, and other protest actions. 
Although the government restricted the release of figures for the 
number of strikes and protests each year, the frequency of 
``spontaneous'' strikes remained high, especially in Shenzhen and other 
areas with developed labor markets and large pools of sophisticated, 
rights-conscious workers. Local government responses to strikes varied, 
with some jurisdictions showing tolerance for strikes while others 
continued to treat worker protests as illegal demonstrations.

    In January, Hong Kong media reported that thousands of workers from 
the Panzhihua Iron and Steel Group in Chengdu took to the streets to 
demand wage increases. Authorities deployed 1,000 police to suppress 
the march and to disperse the crowd after a confrontation with the 
protesters. On November 7, police dispersed 200 striking workers at a 
Dongguan toy factory. Reports indicated that authorities beat and 
arrested numerous workers.

    Workers engaged in collective action for a number of reasons. In 
many cases striking workers called attention to wage arrears, 
insufficient pay, and poor working conditions. New areas of disputes 
included factory closure or relocation, severance pay and other 
compensation, and benefits such as pensions. Although a large number of 
the major strikes reported in the media occurred in the Pearl River 
Delta, labor unrest was widespread throughout the country. Small-scale 
worker protests and strikes regularly occurred in Shanghai and 
Zhejiang, Jiangsu, and Anhui provinces.

    Workers increasingly went on strike to demand payment of past 
wages, as an economic downturn led to diminishing profits, more factory 
closures, and abandoned construction projects. On March 6, nearly 1,000 
workers at an electronics factory in Dongguan, Guangdong Province, 
protested and blocked roads over compensation problems.

    Strikes also occurred in an increasingly broad range of sectors. 
While many strikes occurred in manufacturing, reports increased of 
strikes in the transport, sanitation, and service industries similarly 
stemming from failure to gain adequate compensation. In August a 
hospital in Guangzhou attempted to impose a management-dictated 
settlement for unpaid overtime on a group of hospital security guards. 
Despite threats of dismissal, the guards went on strike. Management 
refused to negotiate with the guards, and local authorities detained 
them for staging an illegal demonstration.

    In August an estimated 3,000 workers at a toy factory in Shenzhen 
conducted a solidarity strike in support of 551 long-term migrant 
workers also at the factory. Despite having employed the workers for 
well over the 15 years required for pension eligibility, the company 
had failed to make mandatory contributions to their pension funds prior 
to 2008. Facing retirement, these workers were not able to claim the 
pensions to which they were entitled.

    In May informally elected workers' representatives at Shenzhen 
Diweixin furniture factory led a protest against their employers over 
the company's refusal to discuss compensation for a planned relocation. 
On May 23, authorities detained worker leader Wu Guijun after 
protracted strikes and petitions to the city government to intervene in 
fruitless negotiations. According to independent labor organizations, 
Wu was formally charged with ``assembling a crowd to disturb social 
order'' on September 28, but later reports indicated that the 
procuratorate refused to accept the charges due to lack of evidence and 
sent the case back to the public security officials for further 
investigation. Wu remained in detention as of year's end.

    Other labor activists detained in previous years reportedly 
remained in detention at year's end, including Chen Yong, Kong Youping, 
Liu Jian, Liu Jianjun, Memet Turghun Abdulla, Wang Miaogen, Xing Shiku, 
Zhou Decai, Zhu Chengzhi, and Zhu Fangming.

    b. Prohibition of Forced or Compulsory Labor

    The law prohibits forced and compulsory labor, but there were 
reports that forced labor of adults and children occurred (see section 
7.c.).

    There were reports that employers withheld wages or required 
unskilled workers to deposit several months' wages as security against 
the workers departing early from their labor contracts. These practices 
often prevented workers from exercising their right to leave their 
employment and made them vulnerable to forced labor. Implementation of 
amended labor laws, along with workers' increased knowledge of their 
rights under these new laws, continued to reduce these practices.

    International NGOs alleged that provincial and local governments 
were complicit in some cases of forced labor of university students as 
``interns'' at facilities managed by the Taiwanese electronics giant 
Foxconn. Local governments, in order to encourage Foxconn to establish 
operations in their cities, promised to help recruit workers for 
Foxconn's labor-intensive operations. In September the media reported 
that students in Shandong and Jiangsu provinces complained that their 
universities made it mandatory that they serve 45-day internships on 
assembly lines in Foxconn factories to meet Foxconn's production 
demands. A December 12 FLA report of Foxconn facilities in Guanlan, 
Longhua, and Chengdu indicated that no student interns had been 
employed at those sites during the year.

    Forced labor in penal institutions remained a serious problem, 
according to the International Trade Union Confederation. Many 
prisoners and detainees were required to work, often with no 
remuneration. Compulsory labor of detainees in RTL facilities, who had 
not been tried and convicted in a competent court, also constituted 
forced labor.

    In both cases detainees reportedly experienced harsh and 
exploitative conditions of work, including long periods without a rest 
day and often working more than 10, and sometimes 12 or 14, hours per 
day to meet informal ``quotas'' imposed by facility management. 
Detainees who did not meet their quota were threatened with physical 
violence and other forms of punishment.

    In addition there were credible allegations that prisoners were 
forced to work for private production facilities associated with 
prisons. These facilities often operated under two different names, a 
prison name and a commercial enterprise name. No effective mechanism 
prevented the export of goods made under such conditions. Goods and 
materials likely to be produced by forced labor included toys, garments 
and textiles, electronics, bricks, and coal.

    The Ministry of Justice discussed allegations of exported prison-
labor goods with foreign government officials, but information about 
prisons, including associated labor camps and factories, was tightly 
controlled. Although the ministry has official control over the RTL 
system, police and other local authorities had a great degree of 
influence on a case-by-case basis.

    In November 2012 a Chongqing court rejected the wrongful 
imprisonment suit brought by Ren Jianyu, who had been released from an 
RTL center one year into his two-year sentence for ``incitement to 
subvert state power'' for posting online statements critical of the 
political system. In July, Ren submitted an application to the 
Chongqing RTL committee requesting compensation totaling RMB 167,762 
($27,440) to cover the wages he lost while in the camp and the 
psychological harm he suffered.

    After the Standing Committee of the NPC voted to abolish the RTL 
system in December (see section 1.d.), media and NGO reports indicated 
that many of the RTL facilities were converted to drug rehabilitation 
centers or prisons. It is not clear whether forced labor continued in 
these facilities.

    Also see the Department of State's Trafficking in Persons Report at 
www.state.gov/j/tip/.

    c. Prohibition of Child Labor and Minimum Age for Employment

    The law prohibits the employment of children under the age of 16. 
It refers to workers between the ages of 16 and 18 as ``juvenile 
workers'' and prohibits them from engaging in certain forms of 
dangerous work, including in mines.

    The law specifies administrative review, fines, and revocation of 
business licenses of those businesses that illegally hired minors and 
provides that underage children found working should be returned to 
their parents or other custodians in their original place of residence. 
The penalty for employing children under 16 in hazardous labor or for 
excessively long hours ranges from three to seven years' imprisonment, 
but a significant gap remained between legislation and implementation.

    Child labor remained a problem. Print media and online reports most 
frequently documented the use of child labor in the electronics 
manufacturing industry, although many reports indicated it occurred in 
a number of sectors.

    The government does not publish statistics on the extent of child 
labor, but rising wages and a tightening labor market led some 
companies to seek to hire underage workers in violation of the law. 
Some local authorities also ignored the practice of child labor or even 
facilitated it to prevent employers from moving to other areas.

    Reports of child labor persisted in areas suffering from labor 
shortages and in smaller enterprises that compensated workers on a 
piece-rate basis. For example, in Dongguan, Guangdong Province, a 
manufacturing hub hit hard by labor shortages and rising wages, local 
employers admitted that the use of child labor on a temporary basis was 
common. Although Dongguan Bureau of Human Resources and Social Security 
statistics showed an increase in child labor cases, the bureau did not 
have sufficient resources to increase enforcement operations among the 
thousands of small enterprises operating in the area.

    In May a 14-year-old boy working at an electronics factory in 
Dongguan died suddenly in the factory dormitory. The boy used a false 
identity card to gain employment, and local officials cited the company 
for violating child labor laws.

    In an open letter to the Guangdong Province Communist Party 
secretary posted on the internet, the mother of a 15-year-old boy from 
Henan, burned badly in 2012 while working in a Zhuhai electronics 
factory, appealed for help in obtaining compensation for the injury. 
The employer had refused to pay both the compensation sought by the 
family and the award subsequently determined by the labor arbitration 
board. Provincial authorities fined the employer and urged the local 
labor bureau to expedite the case, but compensation for the injury was 
still pending at year's end.

    On December 27, the Guangzhou-based Southern Metropolis Daily 
reported that approximately 70 underage workers were discovered working 
at an electronics company in Shenzhen's Baoan District. The alleged 
underage workers were all from the Yi ethnic minority group, and all 
were from a remote mountainous region of Liangshan, Sichuan Province, 
the origin of several recent child-labor trafficking cases. This 
followed incidents in 2011 and 2008 involving underage workers from the 
same region. Although in each instance local labor authorities 
intervened after the Southern Metropolis Daily notified them of the 
underage workers, the three similar cases reflect a systemic inability 
to deter trafficking of underage workers or to identify child labor 
through regular labor inspections. In the most recent case the Shenzhen 
company posted a notice on its website blaming the company's labor 
dispatch service provider for providing worker identity cards 
purporting to show all of them to be older than age 16.

    Abuse of the student-worker system continued as well. One 
international labor NGO reported that most students working in domestic 
companies in the supply chains of multinational electronics 
manufacturers, where there was greater scrutiny, did not have the 
formal written contracts required by law. After an internal audit, one 
multinational electronics company admitted it had violated the labor 
law after interns between the ages of 14 and 16 were discovered working 
at its subsidiary in Yantai, Shandong Province.

    As in past years, there continued to be allegations that schools 
and local officials improperly facilitated the supply of student 
laborers. Some reports indicated that schools supplied factories with 
illegal child labor under the pretext of vocational training, in some 
cases making this labor compulsory for the student.

    d. Acceptable Conditions of Work

    There was no national minimum wage, but the law requires local and 
provincial governments to set their own minimum wage according to 
standards promulgated by the Ministry of Human Resources and Social 
Security. Average wage levels continued to increase. Monthly minimum 
wages varied greatly with Shenzhen, Guangdong Province, reaching RMB 
1,600 ($262) from March 1 and towns in remote Ningxia Province the 
lowest at RMB 750 ($123). During the year the country increased its 
``rural poverty level'' to RMB 192 ($31.40) per month.

    The law mandates a 40-hour standard workweek, excluding overtime, 
and a 24-hour weekly rest period. It also prohibits overtime work in 
excess of three hours per day or 36 hours per month and mandates 
premium pay for overtime work.

    A regulation states that labor and social security bureaus at or 
above the county level are responsible for enforcement of labor law. 
The law also provides that where the ACFTU finds an employer in 
violation of the regulation, it shall have the power to demand that the 
relevant local labor bureaus deal with the case.

    Many vulnerable workers, including those older workers laid off as 
a result of restructuring of state-owned enterprise, as well as many 
rural-urban migrants, were employed in the informal economy. In 2012 
Chinese Academy of Social Sciences' researchers estimated that the 
prevalence of informal employment ranged from 20 to 37 percent overall, 
based on the definition used, with between 45 and 65 percent of 
migrants employed in the informal sector. UN experts reported that 
women were particularly active in the informal economy, often as 
domestic workers or petty entrepreneurs. Micro- and small businesses 
with fewer than seven employees also meet the international criteria 
for informality. Workers in the informal sector often lacked coverage 
under labor contracts, and even with contracts migrant workers in 
particular had less access to benefits, especially social insurance. 
Workers in the informal sector worked longer hours and earned one-half 
to two-thirds as much as comparable workers in the formal sector.

    The State Administration for Work Safety (SAWS) sets and enforces 
occupational health and safety regulations. The Law on Prevention and 
Control of Occupational Diseases requires employers to provide free 
health checkups for employees working in hazardous conditions and to 
inform them of the results. Companies that violate the regulation have 
their operations suspended or are deprived of business certificates and 
licenses.

    Effective May 2012 the SAWS and the Ministry of Finance jointly 
issued the Measures on Incentives for Safe Production Reporting, which 
authorize cash rewards to whistleblowers reporting companies for 
violations, such as concealing workplace accidents, operating without 
proper licensing, operating unsafe equipment, or failing to provide 
workers with adequate safety training. The measures warn against false 
accusations but also stipulate protection under the law for legitimate 
whistleblowers who report violations.

    While many labor laws and regulations on worker safety were fully 
compatible with international standards, implementation and enforcement 
were generally poor due to a lack of adequate resources. Compliance 
with the law was weak, and standards were regularly violated. While 
excessive overtime occurred, in many cases workers encouraged 
noncompliance by requesting greater amounts of overtime to 
counterbalance low base wages and increase their overall wages. 
Inadequately enforced labor laws, occupational health and safety laws, 
and regulations continued to put workers' livelihoods, health, and 
safety at risk.

    Almost all local and provincial governments raised minimum wage 
levels significantly during the year as a result of changing economic 
and demographic conditions. As the average tenure of workers in the 
Pearl River Delta increased, their skills improved, adding more upward 
pressure on wages. Spot shortages of skilled labor, increased inland 
investment, and successful strikes led to generally increased wage 
levels for workers in all parts of the country.

    Nonpayment of wages remained a problem in many areas. Governments 
at various levels continued efforts to prevent arrears and to recover 
payment of unpaid wages and insurance contributions. It remained 
possible for companies to relocate or close on short notice, often 
leaving employees without adequate recourse for due compensation. In 
some extreme cases, workers who feared that they would be deprived of 
adequate compensation or severance engaged in actions such as taking 
managers hostage.

    Although creative strategies by some multinational purchasers 
provided new approaches to reducing the incidence of labor violations 
in supplier factories, insufficient government oversight of both 
foreign affiliated and purely domestic supplier factories continued to 
contribute to poor working conditions. Questions related to acceptable 
working conditions, especially overtime, continued to plague 
electronics manufacturers such as Foxconn.

    On December 12, the FLA released the third and final verification 
report on conditions at Foxconn facilities in China, tracking progress 
on that action plan through July 1. The report documented that nearly 
100 percent of all actions recommended by the FLA had been completed at 
three key facilities in Guanlan, Longhua, and Chengdu, resulting in 
clear changes in company policy. Nonetheless, FLA assessors documented 
numerous violations of domestic law. While some workers received an 
average of one day off per week, others went for a month or more 
without these breaks. In some cases workers worked more than 60 hours 
per week, and for a six-month period, more than one-half of the workers 
in the Longhua and Guanlan facilities exceeded the legal overtime limit 
of 36 hours per month. In Chengdu from July to October more than 75 
percent of workers exceeded this limit.

    Although SAWS reported that the rate of industrial accidents 
continued to decline, there were several high-profile instances of 
industrial accidents. On June 3, a total of 121 workers died in a fire 
that swept through a poultry-processing plant in the northeastern 
province of Jilin. In that incident most of the exits at the plant had 
been locked from outside, and none of the 395 employees working at the 
time had received fire safety training. SAWS responded by dispatching 
teams to assess safety standards at factories. Although inspections 
routinely identified existing problems that increased the risk of 
industrial accidents, ensuring that companies acted on the findings of 
the inspections remained a challenge.

    Authorities continued to press mines to improve safety measures and 
mandated greater investments in safety. In August 2012 SAWS announced 
its goal of closing hundreds of small coal mines during the year in an 
attempt to reduce the number of deadly accidents.

    Despite consistent reductions in mining deaths, there continued to 
be many coalmine accidents throughout the country.

    In Jilin Province, gas explosions at coalmines on March 29 and 
April 1 killed 53 workers. An third explosion on April 21, also in 
Jilin, killed 18 workers - despite an order for all coal mines in the 
province to suspend operations and undergo safety inspections following 
the earlier two explosions.

    ACFTU occupational disease experts estimated that 200 million 
workers worked in hazardous environments. According to the Chinese 
Center for Disease Control and Prevention, only an estimated 10 percent 
of eligible employees received regular occupational health services. 
Small- and medium-sized enterprises, the largest employers, often 
failed to provide the required health services. They also did not 
provide proper safety equipment that could help prevent disease, and 
were rarely required to pay compensation to victims and their families. 
Instances of pneumoconiosis, or black lung disease, remained high. A 
charitable NGO that helped to treat migrant workers estimated the 
disease affected approximately six million rural residents.


                               __________



                 U.S. CUBAN RELATIONS--THE WAY FORWARD

                              ----------                              


                        WEDNESDAY, MAY 20, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker 
(chairman of the committee) presiding.
    Present: Senator Corker, Risch, Rubio, Johnson, Flake, 
Perdue, Cardin, Boxer, Menendez, Shaheen, Udall, Murphy, Kaine, 
and Markey.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Senate Foreign Relations Committee will 
come to order. Thank you. Thanks for your interest.
    Today, we will hear from the State Department's Assistant 
Secretary for Western Hemisphere Affairs on the strategy behind 
the President's significant shift in U.S. policy toward Cuba. 
Assistant Secretary Jacobson is joined at the witness table by 
the Counselor of the State Department, Ambassador Thomas 
Shannon. We welcome you both.
    Cuba has been left behind politically and economically, a 
far cry from a time decades ago when it was among the most 
prosperous countries in the region.
    The administration's Cuba policy initiative has been 
welcomed in Latin America and the Caribbean. But significant 
differences of opinion, which we will hear today, exist in the 
United States over the extent to which this change in policy 
will advance U.S. interests and improve circumstances for the 
Cuban people.
    Today, we look forward to our witnesses speaking to how our 
Nation can best engage strategically with the region and beyond 
to help Cuba rejoin the mainstream of the Americas and offer 
its citizens the same rights and freedoms enjoyed by citizens 
of other countries in the region.
    To this end, our witnesses can help us understand the 
administration's policy goals with regard to Cuba. What do they 
intend to achieve in restoring full diplomatic relations and 
relaxing sanctions? We would also like to hear their assessment 
of what the Cuban Government's goals are for engaging in this 
diplomatic process with the United States.
    Every policy initiative will inevitably come into contact 
with the reality that the Cuban state and, most importantly, 
the Cuban state's relationship with its own citizens, have not 
yet changed. In truth, we have to define what a normal 
relationship with Cuba looks like bilaterally, but also in the 
context of our relationship with the Americas more broadly.
    Our overall relations with Latin America and the Caribbean 
have evolved significantly over past decades. The last 
unilateral U.S. military intervention in the region occurred 
more than 20 years ago in Haiti.
    U.S. trade with Latin America and the Caribbean has more 
than doubled from 2000 to 2012. In the process of opening to 
increased trade with the United States and each other, Latin 
American countries have taken steps to adopt market reforms and 
create more transparent legal and investment standards.
    The norm in the region is for regular multiparty elections 
and, more broadly, inter-American institutions today reflect 
the commitment by the region to more democratic, inclusive 
governments. The U.S. relationship with Latin America is very 
different than it was during the Spanish-American War in 1898 
or during the cold war in 1959. This is the larger strategic 
context in which the way forward for our relations with Cuba 
will be defined.
    And we thank you both very much for being here. I look 
forward to the opening comments of our distinguished ranking 
member, Senator Cardin.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, thank you, Mr. Chairman. I, 
certainly, welcome our witnesses today. I thank you very much 
for conducting this hearing.
    There is no question that the December 17th speech by 
President Obama marked a watershed moment in our relationship 
toward Cuba. There are members of this committee who believe it 
went too far. There are members of this committee who think it 
did not go far enough.
    But one thing I think is critically important is that we 
have an open committee hearing and discussion on these issues. 
That is why I particularly thank the chairman for bringing 
forward this hearing, so that we can begin a discussion on the 
new direction with Cuba.
    On December 17 we also--we celebrated the long overdue of 
Maryland resident Alan Gross to the United States.
    Mr. Chairman, by consent, I would ask that his statement be 
included in our record.
    The Chairman. Without objection.

[Editor's note.--The Alan Gross written statement mentioned 
above can be found in the ``Additional Material Submitted for 
the Record'' section at the end of this hearing.]

    Senator Cardin. We all are interested to hear from our 
witnesses. Today's hearing provides an important opportunity to 
review the advances achieved under the administration's new 
Cuba policy and to understand the strategy for moving forward.
    Without a doubt, this is a complicated process, and it will 
take time to achieve the progress we all want.
    I want to underscore that there is one issue that I think 
unites us, even though we all may have different views as to 
where we should move with our policy on Cuba. That one area 
that I think unites every member of this committee and the 
United States Senate is that we all stand together in our 
aspirations to see the Cuban people have the opportunity to 
build a society where human rights and fundamental freedoms are 
respected, where democratic values and political pluralism are 
tolerated, and where individuals can work unobstructed to 
improve their living conditions. This is particularly true with 
the Afro-Cuban population.
    We also share concerns about critical issues such as the 
Cuban Government's ongoing human rights abuses and the presence 
of American fugitives in Cuba, especially those wanted for the 
murder of U.S. law enforcement officers.
    But the central question is, how can we best advance these 
aspirations while also addressing our concerns? Our previous 
policy did not achieve the progress that we wanted to see, so a 
new approach is needed.
    President Obama has laid out a new path based on the belief 
that principled engagement will bring more results. I think 
that this is the right path to follow for the following 
reasons.
    First, for far too long, the Cuban Government has used U.S. 
policy as an excuse to justify its shortcomings and the 
hardships of the Cuban people. The Cuban Government has also 
exploited U.S. policy for diplomatic gains, focusing 
international debate about what the U.S. should do rather than 
about what Cuba needs to do to better to provide for its 
citizens. This has been a particular challenge here in our own 
hemisphere where governments, including some of our closest 
partners, have long preferred to speak out critically about 
U.S. policy rather than about the conditions on the island.
    The President's policy has reset the geopolitical calculus 
in the region and will provide new opportunities for 
cooperation with our Latin American and Caribbean partners.
    The recent Summit of the Americas in Panama showcased this 
point clearly, and both President Obama and the United States 
were praised widely for their leadership.
    In one particularly important development, the Presidents 
of Costa Rica and Uruguay joined President Obama in meeting 
with Cuban dissidents. This was an incredibly important moment 
in what it showed the international community. Seeing Latin 
American Presidents joining the U.S. President to meet with 
members of the Cuban opposition was unthinkable just 6 months 
ago.
    I also want to thank Senator Boxer. Senator Boxer and the 
Western Hemisphere Subcommittee had a chance to hear from Mr. 
Cuesta Morua at that hearing. I think that was an important 
point also.
    Second, despite differences we may have with the 
government, our foreign policy should always endeavor to 
support the country's people to the greatest degree possible. 
When President Obama first came to office in 2009, he created 
greater flexibility for Cuban-Americans to visit their families 
in Cuba and to send remittances to the island. These early 
policy changes have provided important support to the emerging 
class of Cuban entrepreneurs that have been able to launch new 
economic initiatives, often working out of their own homes.
    While the Cuban Government still limits their activities 
widely, and not all Cubans are able to take advantage of them, 
U.S. policy is directly responsible for helping the Cuban 
people improve their living conditions and achieve a new degree 
of independence from the Cuban Government.
    The President's December announcement went one step further 
and has made it easier for U.S. citizens to engage in 
purposeful travel to Cuba. Whether for academic, philanthropic 
or business reasons, U.S. citizens will now have greater 
opportunities to take part in people-to-people programs that 
provide increased interaction with the people of Cuba.
    I have no doubt that the dynamism of American society will 
make a positive contribution to empowering the Cuban people and 
provide them with the information they need to build the future 
of their country.
    While the President's policies have made important changes 
to U.S. travel regulations, there are some things that only 
Congress can do. For that reason, I am a cosponsor of Senator 
Flake's Freedom to Travel to Cuba Act. I think we must do 
everything we can to promote robust ties between the citizens 
of the United States and Cuba, and I hope we will have the 
opportunity to discuss that bill during this hearing.
    Then third, the administration's new Cuba policy will 
provide U.S. diplomats with new tools to engage directly with 
the Cuban Government, to have principled and frank discussions 
about the issues we disagree about, and how we might work 
together to resolve these issues.
    Every day, our diplomats around the world demonstrate their 
ability to engage foreign governments and advance U.S. national 
interests. It is not unreasonable to think that we will have a 
better chance to address the outstanding claims held by U.S. 
citizens for property confiscated by the Cuban Government or to 
secure the return of American fugitives to face justice in the 
United States if we actually engage in direct dialogue with the 
Cuban Government and articulate our demands.
    When it comes to issues of confronting the illicit 
narcotics trade or addressing migration issues, it is in the 
national interest of both the United States and Cuba to have 
channels of communication between our two governments. 
Diplomacy will make this possible.
    The President's Cuba policy puts the United States on the 
right path. But we must remain clear-eyed about several issues, 
and we must continue to speak out about them.
    We cannot ignore the Cuban Government's record of human 
rights abuses or human trafficking. Every month, there are way 
too many instances where the Cuban Government jails political 
activists for what they believe, what they say publicly. Human 
rights and freedom of expression must be central to all of our 
engagements with the Cuban Government.
    I know that Assistant Secretary Tom Malinowski led a human 
rights dialogue with the Cuban Government earlier this year. I 
welcome our witnesses' comments on this development.
    Mr. Chairman, as I said initially, we do welcome the 
witnesses that are going to testify today. I thank you again 
for this opportunity for our committee.
    The Chairman. Thank you very much.
    Our first witness is the honorable Roberta Jacobson. She is 
the Assistant Secretary of State for Western Hemisphere 
Affairs. Assistant Secretary Jacobson has led the State 
Department discussions with the Cuban Government regarding 
establishing diplomatic relations.
    Our second witness is Ambassador Thomas Shannon. He is the 
Counselor of the State Department. Most recently, he served as 
American Ambassador to Brazil. Among his duties, he has also 
served as senior director for the Western Hemisphere at the 
National Security Council.
    We thank you both for being here. You can keep your 
comments fairly brief, if you wish, and we will accept your 
written testimony into the record. We look forward to the 
questions. Thank you.

STATEMENT OF ROBERTA S. JACOBSON, ASSISTANT SECRETARY OF STATE 
   FOR WESTERN HEMISPHERE AFFAIRS, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ms. Jacobson. Thank you so much, Mr. Chairman and Ranking 
Member Cardin, for the opportunity to testify on United States-
Cuba policy today and your interest in the hemisphere more 
broadly.
    Let me just underscore this unique moment, I think, in the 
Americas for the United States. It is remarkable to see how 
U.S. relations with countries of the hemisphere are 
increasingly characterized by mature partnerships and shared 
values and interests. The depth and breadth of the partnerships 
we have with Canada, Brazil, Chile, Colombia, Peru, Mexico, and 
so many others is extraordinary. I am especially proud of the 
renewed commitment to working with Central America and the 
Northern Triangle countries, including our $1 billion 2016 
request, which we believe will strengthen regional security, 
prosperity, and good governance.
    Since I last appeared before this committee in February, we 
have begun to see the administration's new approach on Cuba 
providing space for other nations in the hemisphere and around 
the world to focus on promoting respect for human rights and 
fundamental freedoms in Cuba.
    At the Summit of the Americas in Panama, engagement by the 
President and the Secretary reinvigorated our momentum. Our 
approach has drawn attention to the potential for greater 
political and economic freedom for the Cuban people and the gap 
between Cuba and other countries in the hemisphere.
    More Americans are traveling to Cuba, meeting Cubans, and 
building shared understanding between our people. We have seen 
practical cooperation in our dialogues with Cuba on issues in 
our national interest, like maritime and aviation security, 
telecommunications, and environmental cooperation.
    Our future discussions on law enforcement cooperation 
coupled with ongoing migration talks will expand the avenues 
available to seek the return of American fugitives from 
justice, among other issues.
    And we are planning on future talks on human rights and 
settling American claims for expropriated property.
    Most importantly, the President's new approach makes clear 
that the United States can no longer be blamed as an obstacle 
to progress on such things as access to information or 
connecting Cubans to the world.
    Fundamentally, on this issue, I am a realist. And as anyone 
who ever dealt with Cuba knows, being a realist is essential.
    Indeed, as the President made clear prior to his historic 
meeting with Raul Castro at the summit, significant differences 
remain between our two governments. We continue to raise our 
concerns regarding democracy, human rights, and freedom of 
expression.
    The policy is based on a clear-eyed strategy that empowers 
the Cuban people to determine their own future by creating new 
economic opportunities and increasing their contact with the 
outside world. These changes create new connections between our 
countries and help the nascent private sector in Cuba.
    But comprehensive changes in our economic relationship will 
require congressional action to lift the embargo, and the 
President has urged Congress to begin that effort.
    The administration's decision to rescind Cuba's designation 
as a State Sponsor of Terrorism was a fact-based process, as 
the President has emphasized.
    While progress has been made in our efforts to reestablish 
diplomatic relations, we are not there yet. There are still 
outstanding issues that need to be addressed to ensure a future 
U.S. Embassy will be able to function more like other 
diplomatic missions in Cuba and elsewhere in the world.
    But even today under challenging circumstances, our 
diplomats unite families through our immigration processing, 
provide American citizens services, issue visas, and aid in 
refugee resettlement. They work hard to represent the interests 
and values of the United States. Our engagement with the 
broadest range of Cubans will expand once we establish 
diplomatic relations with Cuba.
    And tomorrow we will be holding a new round of talks with 
our Cuban counterparts to advance these objectives. As we move 
the process ahead, we hope we can also work together to find 
common ground toward our shared goal of enabling the Cuban 
people to freely determine their own future.
    Thank you, and I welcome your questions.
    [The prepared statement of Ms. Jacobson follows:]

               Prepared Statement of Roberta S. Jacobson

    Mr. Chairman, Ranking Member Cardin, thank you for the opportunity 
to testify today on U.S.-Cuba policy. I know many of you have a deep 
interest in U.S. policy toward Cuba and have closely followed our 
implementation of the President's new approach to Cuba since December 
17. I appreciate the committee's engagement on Western Hemisphere 
issues and your strong commitment to democratic values, human rights, 
and expanding social and economic opportunity in the Americas.
    Before I move to my remarks on Cuba, I wanted to underscore the 
unique moment that the United States is facing in the Americas. As 
someone who has spent her career working with this region, it is 
remarkable to see how U.S. relations with the countries of the 
hemisphere are increasingly characterized by mature partnerships and 
shared values and interests. Without at all minimizing the difficulties 
that we have with some countries, and the challenges that remain with 
regard to the subject of the hearing today, the depth and breadth of 
our partnerships with Brazil, Canada, Chile, Colombia, Peru, Mexico, 
and so many others is extraordinary and continues to grow. I am 
especially proud of our renewed commitment to working with the Northern 
Triangle countries of Central America, including our $1 billion FY 2016 
request that will strengthen regional security through increased 
investments in security, prosperity, and good governance. We have 
launched the Caribbean Energy Security Initiative to help countries to 
achieve a more sustainable and cost-effective energy matrix. And of 
course, the President's new direction on Cuba has generated enormous 
good will among all these partners and underscores our desire to turn 
the page on the 20th century and to build a more forward-looking 
relationship with the region.
    Since I last appeared before this committee in February, we have 
begun to see the administration's new approach to Cuba providing space 
for other nations in the hemisphere and around the world to focus on 
promoting respect for human rights and fundamental freedoms in Cuba and 
elsewhere in the region. This was illustrated at the Summit of the 
Americas in Panama last April. Engagement by the President and the 
Secretary at the summit reinvigorated our momentum on a variety of 
issues. Our new approach has drawn greater attention to the potential 
for greater political and economic freedom for the Cuban people and the 
gap between Cuba and other countries in the hemisphere. More Americans 
are traveling to Cuba, getting past the rhetoric, meeting Cubans, and 
building shared understanding between our people. We have seen 
practical cooperation in our official dialogues with Cuba on issues in 
our national interest like maritime and aviation safety, 
telecommunications, and environmental cooperation. Our future 
discussions on law enforcement cooperation, coupled with the ongoing 
migration talks, will expand the avenues available to seek the return 
of American fugitives from justice as well as the return of Cubans 
residing illegally in the United States. We are also planning future 
talks on human rights and settling American claims for expropriated 
properties. Most importantly, the President's new approach makes clear 
that the United States can no longer be blamed as an obstacle to 
progress on things such as access to information and connecting Cubans 
to the world.
    Now while I like to think of myself as an optimist, fundamentally I 
am a realist--and as anyone who has ever dealt with Cuba knows, a 
realistic perspective is a very useful one to have. Indeed, as the 
President made clear prior to his historic meeting with Raul Castro at 
the Summit of the Americas, significant differences remain between our 
two governments. We continue to raise our concerns regarding democracy, 
human rights, and freedom of expression. And we will seek to engage 
with all Cubans to gain their perspectives on the best way forward for 
the country.
    While the President's new direction on Cuba has been welcomed by 
many Cubans and Americans, I know that there are divergent views in the 
U.S. Congress on the policy of engaging the Cuban Government. I 
appreciate that these views are deeply held and based on personal and 
professional experience with Cuba and with broader issues of foreign 
affairs.
    Our policy toward Cuba is based on a clear-eyed strategy that 
empowers the Cuban people to determine their own future by creating new 
economic opportunities and increasing their contact with the outside 
world. That is why we made it easier for Cuban-Americans to travel and 
send remittances to their families in Cuba, and opened new pathways for 
academic, religious, and people-to-people exchanges. These changes 
create powerful new connections between our two countries and help the 
nascent private sector in Cuba, which is already creating opportunities 
on the island. The steps we have implemented build on this foundation 
by increasing authorized travel, authorized commerce, and the flow of 
information to, from, and within Cuba.
    Our new approach emphasizes targeted forms of commerce that offer 
economic opportunity to independent Cuban entrepreneurs or, like 
expanded communications, benefit all Cubans. Comprehensive changes in 
our economic relationship will require congressional action to lift the 
embargo. The President has urged Congress to begin that effort. In the 
meantime, we are using available policy tools to promote a prosperous, 
democratic, and stable Cuba.
    In a short period of time, we have already started to see U.S. 
enterprises seizing the new opportunities. The regulatory changes we 
announced are intended to increase the financial and material resources 
available to the Cuban people and the emerging Cuban private sector. 
They also enable U.S. companies to offer expanded telecommunications 
and Internet services in ways that will help all Cubans, including 
students, academics, entrepreneurs, and members of Cuban civil society, 
advance their aspirations and collectively become more prosperous.
    Regarding the administration's decision to rescind Cuba's 
designation as a State Sponsor of Terrorism, as President Obama said, 
``throughout this process, our emphasis has been on the facts. So we 
want to make sure that, given that this is a powerful tool to isolate 
those countries that genuinely do support terrorism, that when we make 
those designations we've got strong evidence that, in fact, that's the 
case. And as circumstances change, then that list will change as 
well.'' We will continue to have differences with the Cuban Government, 
but our concerns over a wide range of Cuba's policies and actions do 
not relate to any of the criteria relevant to that designation.
    While progress has been made in our efforts to reestablish 
diplomatic relations, we are not there yet. There are still outstanding 
issues that need to be addressed to ensure a future U.S. Embassy will 
be able to function more like other diplomatic missions in Cuba and 
elsewhere in the world. Even today, under challenging circumstances, 
our diplomats do their very best to represent the interests and values 
of the United States, just as we do in hundreds of places around the 
world. The services our Interests Section offers to Cubans are no 
different than those we offer in most other U.S. embassies. Our 
engagement with the broadest range of Cubans will expand once we 
establish diplomatic relations with Cuba.
    We will continue our discussions with Members of Congress as we 
move toward a new relationship with Cuba. As this process moves ahead, 
we hope that we can also work together to find common ground toward our 
shared goal of enabling the Cuban people to freely determine their own 
future.
    We appreciate your attention to these important issues. Thank you 
and I welcome your questions.

  STATEMENT OF HON. THOMAS A. SHANNON, JR., COUNSELOR OF THE 
      DEPARTMENT, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Shannon. Mr. Chairman, Ranking Member Cardin, 
and members of the committee, thank you very much for this 
opportunity to appear before you.
    As the chairman noted, we have submitted our testimony, so 
I will just hit a few of the high points. I would like to start 
by saying it is a pleasure and honor to appear before you with 
Assistant Secretary Roberta Jacobson, who has served so ably 
and successfully as our principal diplomat in the Americas.
    My purpose today, along with the Assistant Secretary, is to 
address the regional context in which our Cuba policy is 
unfolding and to lay out some of the strategic dimensions of 
our diplomacy.
    The great American theorist of international relations, 
Hans Morgenthau, once wrote, ``Our purpose is not to defend or 
preserve a present or restore a past, it is to create the 
future.'' He noted that our global engagement, whether it be 
diplomacy or force of arms, has always been meant to defend one 
kind of future against another kind of future.
    It is in this light that we should understand the 
President's policy toward Cuba. The decision to engage with 
Cuba and seek normalization of our bilateral relationship 
attempts to create a new terrain on which to pursue a future 
that meets our interests and corresponds to our values.
    Our commitment to democracy and human rights, and our 
desire and hope that the Cuban people will know the benefits of 
liberty and become the sovereigns of their own destiny, is no 
less for our action.
    The President has been clear about the commitment in our 
Cuba policy to our enduring fundamental principles of self-
government and individual liberty. However, he has also been 
clear about our inability to effect significant change in Cuba 
acting alone across so many decades.
    Instead, he determined that our efforts would be more 
effective if we could position Cuba squarely within an inter-
American system that recognizes democracy as a right that 
belongs to all the peoples of our hemisphere; that believes 
that democracy is essential to the political, economic, and 
social development of our peoples; and has the juridical 
instruments, treaties, and agreements to give shape, form, and 
weight to these commitments.
    It is our determination that this kind of environment would 
be the most propitious to support the only legitimate agent of 
peaceful and enduring political change in Cuba: the Cuban 
people.
    To understand this point better, it would be worthwhile to 
take a closer look at what the hemisphere Cuba is a part of 
looks like in the second decade of the 21st century. The 
Americas and specifically Latin America, has anticipated many 
of the events that are shaping our world today. It is a region 
that has largely moved from authoritarian to democratic 
government, from closed to open economies, from exclusive to 
inclusive societies, from autarkical development to regional 
integration, and from isolation to globalization.
    There are a few points worth making in this regard.
    First, Latin America is the first region in the developing 
world to commit itself to democracy. It was also the first 
region to establish regional and subregional structures to 
promote and defend human rights and to build subregional 
institutions and mechanisms for dialogue.
    Because of this, it has also built shared economic 
understandings, including a commitment to market economies, 
free trade, and regional integration. But perhaps most 
dramatically, Latin America today is pursuing a second 
generation of change or transformation. It is attempting to use 
democratic governance and democratic institutions to build 
democratic societies and states.
    The great experiment in Latin America today is to show that 
democracy and markets can deliver economic development and can 
address the social inequities of poverty, inequality, and 
social exclusion.
    The profound changes unleashed in Latin America show that 
democracy and markets can deliver economic development. And in 
effect, Latin America has used democracy and markets to launch 
a peaceful, social revolution that is transforming many 
countries in the region in long-lasting ways.
    Our ability to promote profound and dramatic change in 
Latin America is an example of what the United States can 
accomplish through diplomacy and engagement. If we accomplish 
such a profound transformation in our hemisphere through 
engagement, why not try the same approach with Cuba? Better 
yet, why not try it in partnership with countries and 
institutions that are now prepared to work with us because of 
the President's new policy?
    Cuba finds itself today part of a dynamic, vibrant region 
where transformative change has been the watchword for several 
decades. And it finds itself in a region where the momentum of 
that change will continue to reshape political, economic, and 
social landscapes. In such an environment that the Cuban people 
will find many models and partners from which to learn and 
choose, we should be one of those models and partners.
    Mr. Chairman, thank you very much for this opportunity to 
speak. We look forward to your questions.
    [The prepared statement of Ambassador Shannon follows:]

                Prepared Statement of Thomas A. Shannon

    Mr. Chairman, Ranking Member Cardin, and members of the committee, 
thank you for the opportunity to testify before you today on this 
important topic.
    It is a pleasure and honor to appear before you with Assistant 
Secretary Roberta Jacobson, who has served so ably and successfully as 
our principal diplomat in the Americas.
    She has addressed in her testimony President Obama's policy toward 
Cuba, and the steps we are taking to implement that policy. She is well 
placed to respond to specific questions you might have about that 
policy, and is familiar with the reaction around our hemisphere to our 
policy.
    My purpose today is to address the regional context in which this 
policy is unfolding, and to lay out some of the strategic dimensions of 
our diplomacy.
    In starting, I would like to note that in my current assignment as 
Counselor of the Department of State I have had the pleasure to work on 
key administration priorities around the globe. During my travels 
throughout Africa, Asia, and the Middle East, as well as my specific 
and incidental engagement in the Western Hemisphere, I have had many 
opportunities to see, experience, and reflect on the importance of the 
United States in the world, and the enduring role and relevance of 
American diplomacy.
    The great American theorist of international relations, Hans 
Morgenthau, once wrote, ``Our purpose is not to defend or preserve a 
present or restore a past, it is to create the future.'' He noted that 
our global engagement is meant to defend one kind of future against 
another kind of future.
    It is in this light that we should understand the President's 
policy toward Cuba. The decision to engage with Cuba and seek 
normalization of our bilateral relationship attempts to create a new 
terrain on which to pursue a future that meets our interests and 
corresponds to our values. Our commitment to democracy and human 
rights, and our desire and hope that the Cuban people will know the 
benefits of liberty and become the sovereigns of their own destiny, is 
no less for our action.
    The President has been clear about the commitment in our Cuba 
policy to our enduring and fundamental principles of self-government 
and individual liberty. However, he has also been clear about our 
inability to effect significant change in Cuba acting alone across so 
many decades. Instead, he determined that our efforts would be more 
effective if we could position Cuba squarely within an inter-American 
system that recognizes democracy as a right that belongs to all the 
peoples of our hemisphere, believes that democracy is essential to the 
political, economic, and social development of our peoples, and has the 
juridical instruments, treaties, and agreements to give shape, form, 
and weight to these commitments. It was our determination that this 
kind of environment would be the most propitious to support the only 
legitimate agent of peaceful and enduring political change in Cuba: the 
Cuban people.
    To understand this point better, it would be worthwhile to take a 
closer look at what kind of hemisphere Cuba is a part of in the second 
decade of the 21st century.
    The Americas, and specifically Latin America, has anticipated many 
of the events that are shaping our world. It is a region that has moved 
largely from authoritarian to democratic government, from closed to 
open economies, from exclusive to inclusive societies, from autarkical 
development to regional integration, and from isolation to 
globalization.
    Latin America is the first developing region of the world to commit 
itself explicitly to democratic governance through the Inter-American 
Democratic Charter, the first to build a democratic model of 
development, and the first to establish regional structures to promote 
and protect human rights.
    While creating a broad base of shared political values, Latin 
America has also constructed shared economic understandings and a 
commitment by many of the most successful countries in the hemisphere 
to market economies and free trade. In the process, it has built 
subregional integration and political dialogue through organizations 
like the Common Market of the South, the Andean Community, the Union of 
South American Nations, and the Central American Integration System, 
all the while preserving larger hemispheric institutions, such as the 
Organization of American States and the Summit of the Americas process, 
that connect Latin America to the Caribbean and North America.
    As Latin America advances into the 21st century, it is undergoing a 
second generation of change. Politically, it has consolidated 
democratic government and is strengthening democratic states and 
societies. This has opened up political institutions to new voices and 
actors, deepening the representativeness of many Latin American 
governments and challenging traditional elites and interests. In some 
countries, weak democratic institutions have not been able to contain 
the social energy unlocked by democratization, leading to populism and 
political polarization as groups struggle for control of the state. As 
troubling as this phenomenon can be, it does not define the 
democratization of the region but instead presents a challenge for the 
region to show how it can address such incidents through the 
organizations and institutional mechanisms it has created.
    Economically, Latin America is building innovative integration 
mechanisms such as the Pacific Alliance, and reaching into Asia and 
North America to find new and important economic partners. We have FTAs 
with 12 countries in the hemisphere, and the continued globalization of 
Latin America is driven not only by the regions abundant commodities, 
especially food and energy, but also by growing middle classes that 
have created attractive markets for manufactured goods and services.
    The profound changes unleashed in Latin America show clearly that 
democracy and markets can deliver economic development and address 
long-standing social inequities such as poverty, inequality, and social 
exclusion. In effect, Latin America has used democracy and markets to 
launch peaceful social revolutions that are transforming many countries 
in important and long lasting ways. Our ability to promote profound and 
dramatic change in Latin America is an example of what the United 
States can accomplish through diplomacy and engagement.
    If we accomplished such a profound transformation in our hemisphere 
through engagement, why not try the same approach with Cuba? And better 
yet, why not try it in partnership with countries and institutions that 
are now prepared to work with us because of the President's new policy?
    Cuba today finds itself part of a dynamic, vibrant region where 
transformative change has been the watchword for several decades. And 
it finds itself in a region where the momentum of that change will 
continue to reshape political, economic, and social landscapes. In such 
an environment, the Cuban people will find many models and partners 
from which to learn and choose. We should be one of those models and 
partners.
    Hans Morgenthau wrote, ``The world has been conscious of America's 
purpose in the measure that America is determined to achieve it.'' The 
President's actions in regard to Cuba are a clear indication of our 
determination to achieve our purpose. How we achieve that purpose opens 
a great opportunity for cooperation between the executive and 
legislative branches of government. We hope this hearing deepens the 
dialogue between us on how we can shape our policy and diplomacy to 
achieve our ends while further advancing the integration and well-being 
of our hemisphere.

    The Chairman. Thank you both.
    I want to thank the committee for the way that it has 
handled what I think have been some really difficult issues 
since we began this year. And I know there are significant 
differences of opinion relative to the Cuba policy that have 
been laid out. I am really glad we have those differences of 
opinion represented here. I look forward to a robust Q&A.
    One of the questions that I have had from the very 
beginning has been, what are the specific changes within Cuba 
that we have negotiated or asked for as it relates to this 
policy change? It is my sense that there have really been none. 
I wonder if you might expand on that. I think it has been a 
question that most people have asked that have not been 
following the Cuba situation nearly as closely as you, and that 
is, are there specific things that we expect Cuba to do in 
return for this change in policy toward them?
    Ms. Jacobson. Thank you, Mr. Chairman.
    I think that as we move forward with this policy, what is 
important to understand is the majority of the things that the 
President did, he took action on because he believes strongly, 
we believe, that they are in our interests and in the interests 
of the Cuban people--the United States and the Cuban people. 
They were not negotiated with the Cuban Government.
    So the regulatory changes that allow for greater purposeful 
travel, that allow for support by Americans to the emerging 
private sector in Cuba, indeed, the normalization itself to 
pursue engagement--normalization and the reestablishment of 
diplomatic relations, of course, must be worked out mutually 
with the Cuban Government--but the rest of the measures that 
were taken to support and, indeed, empower the Cuban people, 
were not things that were negotiated with the Cuban Government. 
They were actions and policies taken unilaterally by us.
    We believe that, over time, especially things like support 
for emerging private sector entrepreneurs and, in particular, 
hopefully the increase in telecommunications and information 
technology in Cuba will make a big difference in the ability of 
Cuban citizens to determine their own future. So they were not 
negotiated with the Cuban Government, per se.
    The Chairman. Ambassador Shannon, do you want to expand on 
that any?
    Ambassador Shannon. I think Roberta covered it well.
    The Chairman. Okay. So let me ask you, I was going to go in 
a different direction, but since you mentioned technology, it 
was an interesting thing to announce that U.S. companies were 
going to be more involved technology-wise. But it is my 
understanding that the Cuban Government does not really allow 
much access relative to the outside world with communications.
    So I am just wondering, we made a big deal out of that 
announcement, but what is the net effect of it, if the 
government itself does not really allow its citizens to 
participate in that way?
    Ms. Jacobson. Well, I think it is very important that the 
Cuban Government has said, as part of the U.N.'s efforts to 
open information to citizens around the world that they want to 
expand access for the Cuban people. We are hopeful that that 
will happen.
    Right now, there is not access for most Cubans. It is very 
expensive. It is not available. And it is not necessarily 
something they can have in their own homes.
    But the ability of the Cuban Government and Cuba, in 
general, to have a more up-to-date modern infrastructure on 
telecommunications and information is something that is 
critical to the modernization of the Cuban economy. And, 
therefore, we would like American companies to be part of 
bringing better information technology to Cuba, which is why 
the President felt it was important to allow American companies 
to do so.
    The Cuban Government has not yet made decisions to move 
forward with that, but there are American companies that are 
talking with the Cuban Government. And there is no doubt that 
there is a desire for greater information by the Cuban people, 
and we would like to do everything we can to enable that.
    The Chairman. So since we did not negotiate for changes, 
and I understand that, because we thought this was in our 
interests, what is it that you think, on the other hand, will 
be the response by the Cuban Government? In other words, what 
do you think, even though we did not negotiate or even though 
we did not try to leverage in any way, what are the policy 
changes that will occur inside Cuba as a result of these 
changes?
    Ms. Jacobson. Well, there have already been underway in 
Cuba, obviously, some limited economic reforms. The ability of 
half a million or more entrepreneurs to go into 200 or so 
approved businesses, business areas in private business, self-
employment, that is an area I think that is really right for 
support, that the regulations support.
    I would hope there will be many more of these entrepreneurs 
emerging and that they will be able to prosper and expand and 
be agents for change within Cuba.
    There are, obviously, very different views on the political 
system as well as the economic system of Cuba. The President 
has been clear about that.
    We think that engagement with citizens of Cubans by average 
Americans who are going for purposeful travel, which has 
increased under this policy, and the ability for the private 
sector to increase, and hopefully information to increase--and 
we are not sure what the Cuban Government will do in the face 
of these things. I think they are still absorbing our changes 
and making their own policy decisions.
    But we know from polling that has been done inside Cuba 
that the narrative of the United States being responsible for 
economic privations and other disadvantages of the Cuban people 
is no longer blamed on the United States. That narrative is 
eroding.
    The Chairman. Okay. Thank you.
    I have one last question. I want to first thank you for the 
time that both of you spent in my office on another matter. I 
know we talked about the region in general.
    I wonder if, Ambassador Shannon, you might just talk a 
little bit about the effect that this policy announcement has 
had on our ability in the region to discuss other issues of 
importance to our country.
    Ambassador Shannon. Thank you very much, Senator. This is 
an important component of our policy, because we believe that 
the decision to engage with Cuba and to normalize relations 
removes an irritant that has not only limited where we can work 
with some of our partners and others in the region, but it has 
also, over time, degraded some of our most important 
multilateral institutions, especially in the inter-American 
system, within the OAS and Summit of the America's process.
    I mentioned in my testimony the region has built a series 
of subregional mechanisms and institutions to build dialogue. 
For the most part, this has been very positive.
    But in some instances, some of these institutions have been 
built--I am speaking, in particular, of the community of Latin 
America and Caribbean nations--to permit Caribbean and Latin 
American countries to have a conversation among themselves with 
Cuba where we are not present. And this, in the long term, is 
not in our advantage.
    Therefore, by working toward normalization, we actually 
create an opportunity for the inter-American system to reassert 
itself as the premier political, economic, and social 
institution in the Americas. I believe this is an opportunity 
that we need to take advantage of.
    But in particular, in regard to Cuba, the region 
understands and knows that Cuba is the only country in the 
hemisphere that has not made an explicit commitment to 
democracy and has not recognized through the Inter-American 
Democratic Charter democracy as a right of all the peoples of 
the Americas.
    And although they have taken different approaches, we are 
really now in a position to be able to press them to work 
harder on democracy and human rights issues inside of Cuba.
    The Chairman. Thank you both.
    Senator Cardin.
    Senator Cardin. Again, thank you both for being here.
    Let me just quote from the most recent State Department 
human rights report, where it has acknowledged that Cuba is an 
authoritarian state where elections are neither free nor fair. 
And quoting, ``The principal human rights abuses were 
abridgement of the rights of citizens to change the government 
and the use of government threats, extrajudicial physical 
violence, intimidation, mobs, harassment, and detentions to 
prevent free expression and peaceful assembly. The following 
additional abuses continued: harsh prison conditions, arbitrary 
arrests, selective prosecutions, and denial of fair trials.''
    It goes on to say, `` . . . interfered with privacy, 
engaging in pervasive monitoring of private communications, do 
not respect freedom of speech, severely restricted Internet 
access, monopoly on media outlets, circumscribed academic 
freedoms, maintained significant restrictions on the ability of 
religious groups, refused to recognize independent human rights 
groups, prevent workers from forming unions, exercising their 
labor rights.
    ``Most human rights abuses were official acts committed at 
the direction of the government. Impunity for the perpetrators 
remained widespread.''
    That is the most recent report from the State Department.
    And then the independent human rights organization, the 
Cuban Human Commission for Human Rights and National 
Reconciliation, has documented in the first 4 months of this 
year about 1,600 cases of arbitrary politically motivated 
detentions, which is about the same pace we have seen 
historically in Cuba over the last 3 years.
    I mention that because I want to get specific here for a 
moment as to how you intend to evaluate Cuba's progress on 
human rights and use our tools at our disposal to advance that. 
I use as an example the OSCE, which is a consensus organization 
without enforcement and yet it is known globally for its 
commitment to advance human rights. It has been very 
successful, the Helsinki Watch, the Helsinki groups.
    I am not aware of the OAS having the same type of 
effectiveness in advancing human rights in our own hemisphere.
    So my question to you is, How do you intend to use the OAS? 
How do you intend to use the United Nations now that we have 
removed this obstacle, as you see it, as far as having 
credibility to raise these issues? How do we intend to use 
United States leadership to advance human rights progress in 
Cuba? And how can we evaluate whether we are making progress in 
that area?
    Ms. Jacobson. Senator, thank you. I think there are a 
couple things.
    First, there is no doubt that we will continue to write 
human rights reports that are honest and unflinching in what 
they describe as going on in Cuba, that there continue to be 
these short-term detentions that should not be going on, 
harassing individual human rights activists groups, preventing 
them from having their rights exercised.
    And so there is a range of tools. One of which the 
President highlighted in terms of speaking out. But we also now 
have another tool at our disposal, which is direct engagement, 
including the human rights dialogue, which will move forward.
    There is no doubt from the preliminary conversations we 
have had that we have very distinct views of human rights and 
universal, internationally recognized human rights. But we will 
now be able to have that conversation much more directly going 
forward.
    In addition, in terms of international organizations and 
our ability to work with others more effectively in those 
international organizations, as you know, Cuba is suspended 
from the OAS. They have been since 1962. But the questions of 
looking at human rights issues in Cuba, as Ambassador Shannon 
said, whether they are living up to the commitments that all of 
the rest of us have made in the hemisphere through the Inter-
American Democratic Charter, through tools like the Inter-
American Commission on Human Rights, those are tools which we 
are more able to use, reference, and discuss with our partners, 
who I think are much more engaged in having that discussion 
with us post-policy engagement and opening now that we are 
more----
    Senator Cardin. How will that be reflected? I understand 
that. I said that in my opening comments. How can we know that 
we are making that progress? What specific agenda items do you 
intend to do? And what allies will we have to hold Cuba 
accountable for adhering to internationally recognized human 
rights?
    Ms. Jacobson. Obviously, the best metrics of progress will 
be on the ground in terms of whether it is a reduction in 
short-term detentions or a growing ability by Cubans of all 
stripes to be able to speak and be able to exercise their 
democratic rights.
    I think the President was pretty clear on our also 
understanding that change is not going to come to Cuba 
overnight. As we work on this, we have to understand that, in 
empowering Cubans to take their own responsibility for these 
rights, there will be progress, and there will be setbacks.
    We will speak out about those. We will work with other 
countries in the various international organizations. I cannot 
tell you exactly the agenda, where we will talk with other 
countries. We will, certainly, do so at the OAS. We will do so 
in the U.N. bodies, whether that is the U.N. Human Rights 
Council or other instruments such as those.
    Senator Cardin. What leverage will we exercise over Cuba in 
regard to our expectations that they will make progress on 
these internationally recognized human rights standards?
    Ms. Jacobson. I think one of the things that is most 
important is the ability to have embassies and to carry out the 
functions under the Vienna Conventions to travel around Cuba 
and to be able to interact with the widest number of Cuban 
citizens, which we have not been able to do up until now. And 
that is critical, that our diplomats also be the first-person 
observers of things, which has not been the case in the past. 
That is obviously something we are working on right now.
    Senator Cardin. What countries in our hemisphere do you 
believe can you work closest with in putting pressure on Cuba 
to comply with international recognized human rights?
    Ms. Jacobson. I think that the Ambassador may have more to 
say about this. My own view is there are many countries in the 
hemisphere that will work with us, whether it is publicly or 
behind the scenes. Countries that have committed are obviously 
democratic countries committed to human rights, countries 
around the hemisphere such as Costa Rica and Uruguay, and 
allies like Colombia and Peru and Mexico, which have worked on 
tough human rights issues around the hemisphere and will be in 
conversations with us.
    But many in the region, in the Caribbean, in Central 
America, will be working with us on this, committed to the same 
principles.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Rubio.
    Senator Rubio. Thank you both for being here.
    Secretary Jacobson, before I get to my questions, I wanted 
to ask, you discussed that we are in these discussions with the 
Cubans and we have distinct views on human rights. I do not 
mean to say this is what you meant, but let us just be clear. 
These are not two distinct views that both are legitimate. This 
is a view of human rights that we have, and a view of human 
rights they have, which under no circumstances fits under any 
definition of human rights.
    Their views on human rights are not legitimate. They are 
immoral. The notion you can round up people and arrest them 
because they disagree with the government, the theory that can 
you send thugs to Panama to beat up on democracy activists, we 
would say this upfront, right, that their view of human rights 
is not just different from ours, they are flat out wrong and 
immoral in their views?
    Ms. Jacobson. We have said clearly that we do not think 
those views accord with international standards and the 
Universal Declaration of Human Rights.
    Senator Rubio. So the Cubans are flat out wrong when it 
comes to human rights?
    Ms. Jacobson. On repressing people's rights to free speech 
and assembly, we do not think they are correct.
    Senator Rubio. There is no moral equivalence between our 
view of human rights and theirs?
    Ms. Jacobson. I did not say that, and I would not. That is 
not what I was trying to say.
    Senator Rubio. All right, good. I wanted to get that clear.
    Let me talk about travel. It is a big part of what everyone 
is talking about. The truth is, going from Hotel magazine, 
Hotel magazine wrote a few years ago that Gaviota S.A., which 
is owned by the Cuban military, and is a prominent subsidiary 
Grupo GAESA, which is the holding company that basically 
controls the entire Cuban economy, it is also the largest hotel 
conglomerate in Latin America and the Caribbean. It has hotel 
holdings equivalent to the Walt Disney Company's holdings, and 
it is run by General Luis Alberto Rodriguez Lopez-Callejas. 
That is a long name. He is Raul Castro's son-in-law.
    Let me read you something that McClatchy newspapers wrote a 
few years ago about this network. It wrote, ``Tourists who 
sleep in some of Cuba's hotels, drive rental cars, fill up 
their gas tanks, and even those riding in taxis, have something 
in common. They are contributing to the Cuban Revolutionary 
Armed Forces' bottom line,'' in essence, recognizing that if 
you travel to Cuba, if you stay in a Cuban hotel, in all 
likelihood, you are staying in a hotel run by the Cuban 
military. If you rent a car, you are renting it from the Cuban 
military. If you fill up your gas tank, you are filling up from 
the Cuban military.
    And I would add that if you stay at a hotel, you are 
staying in all likelihood in a confiscated property, a land 
that was taken from a previous private owner who was never 
compensated for it. In essence when you travel to Cuba and stay 
in one of these hotels, not only are you putting money in the 
hands of the Cuban Government, you are trafficking in stolen 
goods, because it is property that belonged to a private 
holder, some of them American citizens who were never 
compensated for it.
    So when we talk about increased travel to Cuba and more 
commerce with Cuba through travel, what we are really talking 
about is increased business ties with the Cuban military, for 
the most part.
    Is that not an accurate assessment at this time?
    Ms. Jacobson. It is, certainly, accurate that the Cuban 
state, including the military, runs a large percentage of the 
hotels and other infrastructure. We also now have an increasing 
number of casas particulars, people's individual homes, which 
are being used as hotels or B&Bs--Airbnb is working on that--
and private entrepreneurs moving into spaces to support the 
purposeful travel.
    Senator Rubio. So then why would we not limit our opening 
in travel to say that if you travel to Cuba, you can only stay 
at one of these casas particulares or one of these other 
nongovernmental, nonmilitary-owned facilities? Why would we 
not, as part of our opening, say can you travel to Cuba, but 
you cannot stay in a property that was stolen and you cannot 
stay in a property owned or operated by the Cuban Government, 
which includes even the foreign-flagged hotels, because they 
have majority ownership there as well.
    Ms. Jacobson. Senator, our strong belief is though we are 
aware that there will be some financial benefit to the Cuban 
Government by the larger number of Americans going to Cuba, the 
benefit of those larger numbers, which could not be supported 
only by individual homes, for example, the benefit to the Cuban 
people of this larger number of Americans going far outweighs 
the increased economic benefit that may accrue to the Cuban 
Government.
    Senator Rubio. Just so I understand clearly, and bottom 
line is you agree that if you travel to Cuba, you are staying 
in all likelihood in a stolen property that is in all 
likelihood run by the Cuban Government. But that said, the fact 
that there are going to be Americans present there, the benefit 
of having Americans being able to travel and interact with Cuba 
outweighs the economic benefits that are going directly to the 
Cuban military.
    Ms. Jacobson. I would say that it is possible those 
properties are confiscated. It is, certainly, the case that 
many of the properties are state-owned. But we do believe that 
the benefit outweighs----
    Senator Rubio. Other than the private homes you talked 
about, which are largely state-owned as well, but at least an 
individual is running it, other than the private homes, which 
is still a very small sector of the economy, which Cuban hotel 
is not owned or operated by the Cuban Government?
    Ms. Jacobson. I said that I assume most of them are state-
run, especially because even joint ventures are majority Cuban.
    Senator Rubio. They are all state-run. Is there a private-
owned hotel in Cuba?
    Ms. Jacobson. I do not know, sir. But I assume there are 
none. But as I say, there are these bed and breakfasts and 
individual homes.
    But again, I think the premise on which we are basing this 
is that the benefits of engagement, purposeful travel, are 
very, very great to the Cuban people, and seen overwhelmingly 
by the Cuban people as of benefit to them, as surveys show.
    Senator Rubio. I want to talk about the Internet for a 
moment. Cubans, as you said, blamed the United States for lack 
of access to the Internet and so forth. It has been couched as 
a lack of capacity. In fact, Cubans say, our own President said 
that. He said, ``Unfortunately, our sanctions on Cuba have 
denied Cubans access to technology that has empowered 
individuals around the world.''
    But I think you know that is not true. For example, there 
is no Japanese embargo on Cuba. There is no South Korean 
embargo on Cuba. And, yet, those technologies are not widely 
available either.
    Is it not true that at the end of the day access to 
Internet in Cuba is not simply a function of capacity, because 
there are multiple other countries around the world that do not 
have an embargo on Cuba that can provide cell technology or 
Internet technology. Is it not true that the vast majority of 
the impediment to access to the Internet and technology in Cuba 
is a result of Cuban Government censorship?
    Ms. Jacobson. I think the denial of access has been both 
one of policy and one, in terms of access to American products, 
also one of polices of the United States. We are taking one of 
those two things away.
    They are now able to have access to U.S. products, which we 
always believe are the best in the world. And that leaves only 
policy.
    Senator Rubio. I understand. But there are still other 
countries--I have a Samsung. Why is Cuba not awash in Samsungs? 
All these other countries around the world who do not have an 
embargo on Cuba, why have they not been allowed to come in and 
offer Wi-Fi and all the sorts of things that developed 
countries have?
    In essence, it is not a capacity issue. The reason why 
people in Cuba do not have access to the Internet ultimately is 
because the Cuban Government will not allow it.
    Ms. Jacobson. Well, there is a question of infrastructure 
that needs to be present to utilize the----
    Senator Rubio. But other countries could have provided 
that.
    Ms. Jacobson. They could have. The Cuban policy is clearly 
a big part of this. And we do not know whether that policy will 
change. They have said they want to modernize their 
telecommunications sector.
    Senator Rubio. So why did they not do it with the Japanese, 
the Koreans, the Germans, or any number of countries around the 
world that have Internet and technology capabilities outside of 
United States. capabilities?
    Ms. Jacobson. I am hoping they want our stuff.
    Senator Rubio. No, I understand that.
    Ms. Jacobson. And we will be able to compete well. But we 
also see on the island many Samsung phones, many other cell 
phone technology of the latest make, but it is not connected to 
anything yet.
    Senator Rubio. It is connected to the Cuban Government 
telecommunications.
    Ms. Jacobson. And that will be the question. Can they open 
to something that allows their economic development to enter 
the modern world and connect Cubans to the world?
    The Chairman. Senator Boxer.
    Senator Boxer. Mr. Chairman, thank you.
    Senator Cardin, as the ranking member on the Latin America 
Subcommittee--Senator Rubio is my chairman--I really appreciate 
the full committee looking at this.
    I do want to pick up on what Senator Rubio said, but in 
kind of a different way. When you listen to my colleague, you 
would think this was the only country in the world that we have 
relations with and we are starting to have relations with where 
the state owns hotels.
    A lot of my colleagues, maybe all my colleagues on the 
Republican side, I cannot be sure, but I think voted to go 
ahead with a free trade agreement that includes Vietnam, an out 
and out Communist country that pays a minimum wage of 70 cents 
and owns many of the hotels, trust me. But yet, we still have 
relations.
    The reason we have relations are geopolitical reasons, that 
we want to work to change these places. So I think my 
colleague, with his line of questioning, has really proven the 
point, because Russia, some Russian hotels are owned by the 
country, China.
    Are we going to start telling people what hotels to stay 
in, in China and Russia and Vietnam and Cuba? Come on. We do 
not do that. We are not an authoritarian country.
    You know, if people chose to stay in an Airbnb in Cuba, 
that would make me happy. That is a San Francisco-based 
company.
    I wanted to mention that I am very proud. They are one of 
the first United States businesses to take advantage of new 
economic opportunities in Cuba that my colleagues, some who sit 
on this committee, would take away.
    And in March, a New Jersey-based telecommunications company 
announced an agreement to provide direct international long-
distance telephone service between the United States and Cuba, 
so relatives could talk to each other.
    These companies have an opportunity to make an incredible 
difference in the lives of everyday Cubans by connecting them 
to outside world. Now, there are plenty of problems and 
challenges that we face. There is no question about that.
    And I was going to ask you, Ambassador or Assistant 
Secretary Jacobson, what have been the greatest areas of 
progress in the talks so far with Cuba? And what can we expect 
from this upcoming round of talks? If you can be brief and 
concise, because I have a bunch of other questions.
    Ms. Jacobson. I will. Thanks.
    I think the greatest progress so far is just the acceptance 
by both sides that we do want diplomatic relations, that we 
want embassies, and our understanding that we will be able to 
operate in Cuba in a way that allows us to engage with more 
Cuban citizens. That is incredibly important, and we see that 
as really critical to this whole engagement process.
    I think in terms of what we will talk about tomorrow, it is 
really getting rest of the agreement for an embassy that 
operates similar to the way we operate in some other countries.
    Senator Boxer. Thank you.
    Assistant Secretary, you testified in a subcommittee 
hearing Senator Rubio and I held in February about the impact 
of the President's new policy on human rights and democracy in 
Cuba. And I asked you about the impact of the President's new 
Cuba policy on United States relations with other countries in 
the region and the world. And you answered then that the 
reaction was immediate and extremely positive. Those are your 
words. I was very pleased about that.
    Now, we also discussed then the importance of engaging 
regional partners on issues related to human rights. Has the 
administration been able to leverage regional and international 
support for its new Cuba policy to increase pressure on the 
Castro regime for its blatant violations of basic freedoms and 
systemic repression and abuse of its citizens? Has there been 
any success so far in engaging our partners on those issues?
    Ms. Jacobson. Well, thank you, Senator. I do think that we 
have had conversations, certainly, with many of our hemispheric 
partners that have been much more productive than they have 
been in the past. I certainly would second what Senator Cardin 
said about the fact that in Panama the President was able to 
have a roundtable on civil society with the President Tabare 
Vazquez of Uruguay and President Solis of Costa Rica, which 
included two independent Cuban activists, dissidents, as well 
as 12 or 15 others from around the hemisphere.
    That is something very unusual. They would not necessarily 
have sat with the U.S. President to do that before this policy 
change. And the Cuban dissidents who were there were able to 
connect with colleagues around the hemisphere, which was not 
possible in the past.
    I also think that the reaction of the Panamanian Government 
to things that happened in Panama, including government-
sponsored nongovernmental organizations preventing the full 
exercise of freedom of speech in the civil society forum was 
very forceful on how democracies operate, and that, too, was a 
change from what we have seen sometimes in the past.
    Senator Boxer. I think the fact that our regional partners 
got to actually meet human rights advocates is very important, 
because a lot of times, you know, see no evil, that is it. But 
having spent time with them I think is critical. So that is a 
very good report.
    Now, Cuban President Raul Castro has said he will step down 
in 2018, following the end of his second term. This means for 
the first time since 1959, Cuba will not be led by one of the 
Castro brothers.
    Reports indicate that President Castro is grooming his 
first Vice President, Miguel Diaz-Canel, to succeed him. Can 
you talk about the importance of this transition of power in 
Cuba? And could you shed a little light on this first Vice 
President?
    Ms. Jacobson. I am not sure I can shed that much light in 
this area. What I can say is I do think that a transition that 
is taking place is not just one of a normal or even Cuban 
election that is taking place in 2018. It is a generational 
change. And the exit of either of the Castro brothers is very, 
very significant.
    There are changes in the way that elections are going to be 
done in Cuba. Still not what we would like to see in a free, 
multiparty election, but I do think it is going to be 
significant.
    Obviously, the Vice President, Diaz-Canel, is the next 
generation of leaders. We have not met with him. I have not met 
with him, but I know many of you have who have gone to Cuba, 
many of the codels have. So there may be more knowledge in the 
Congress than we have.
    Senator Boxer. Mr. Chairman, I will close with this.
    I think this 2018 election is a real test for us, in a way, 
because if we can focus on democracy and freedom and fairness, 
it is a very specific thing we can work on, and I am going to 
work on that myself.
    In closing, may I put my opening statement in the record?
    Chairman. Without objection.

[Editor's note.--The statement mentioned above can be found in 
the ``Additional Material Submitted for the Record'' section at 
the end of this hearing.]

    Senator Boxer. Thank you.
    The Chairman. Absolutely.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Secretary Jacobson, I want to talk about the legal 
authority that President Obama is using to take his actions.
    In 1996, in reaction to the Cuban downing of two civilian 
aircraft, Congress passed the Cuban Liberty and Democratic 
Solidarity Act of 1996, commonly referred to as the Libertad 
Act. Its purpose is to assist the Cuban people in regaining 
their freedom and prosperity, as well as enjoying the community 
of democratic countries that are flourishing in the Western 
Hemisphere. Another reason for the act, and I think the primary 
one, is to provide for the continued national security of the 
United States in the face of continuing threats from the Castro 
government of terrorism and theft of property of United States 
nationals.
    I think what was noteworthy about the act is it codified 
all restrictions under the Cuban Assets Control Regulations 
that were promulgated by the Treasury Department in 1963, and 
it codified the Cuban embargo.
    What is also noteworthy is this had long-lasting effects on 
United States policy options toward Cuba because the executive 
branch is prevented from lifting the economic embargo without 
congressional concurrence until certain democratic conditions 
set forth in the law are met.
    Let me talk specifically about what those conditions are. 
In section 203, it says that upon making determination under 
subsection (c)(3) that a democratically elected government in 
Cuba is in power, the President shall, upon determining that a 
democratically elected government of Cuba is in power, submit 
the determination to the appropriate congressional committees.
    So let me first ask, has the President made a determination 
that a democratically elected government in Cuba is now in 
power?
    Ms. Jacobson. The President has not taken actions under 
those aspects of the Libertad Act. So he has not invoked that 
part or any of the Libertad Act to take the actions he has 
taken.
    Senator Johnson. So he simply does not feel like he has to 
refer to the Libertad Act? What is he doing, if he is not 
basically lifting the embargo? What is this? How is he skirting 
it?
    Ms. Jacobson. I think the President has made very clear 
that Congress is the only body that can lift the embargo. And 
as he said in his State of the Union message, he called on 
Congress to do so. Therefore, he has made clear that he does 
not have the authority to lift the embargo.
    Senator Johnson. What is he doing? It seems like a lifting 
of the embargo to me.
    Ms. Jacobson. What he has taken are Executive actions and 
regulatory changes within the Executive's purview, with the 
embargo still in place.
    As you know, there were, for years, exceptions and continue 
to be exceptions to the embargo on agriculture. His changes 
make their exceptions on telecommunications and to support the 
private sector in Cuba. Those are the kinds of exceptions to 
the embargo that are within the executive branch's purview.
    Senator Johnson. Okay. Do you basically agree with the 
primary purpose of that act, which I read earlier, to ensure 
the freedom and prosperity of the Cuban people and, certainly, 
to enhance the national security of America?
    Do you think those are the two primary policy goals of this 
country toward Cuba?
    Ms. Jacobson. Certainly, the President has made clear that 
what we want is a democratic, prosperous, and stable Cuba, 
which I think is similar to what is in that act. The question 
of our own national security should always be paramount in our 
decisionmaking.
    Senator Johnson. Ambassador Shannon, I was struck by your 
comments, that democracy and freedom is flourishing in Central 
America. Certainly, we have some good examples in Colombia 
because of courageous leadership, but I am not seeing a whole 
lot of democracy flourishing in Venezuela or Cuba, from that 
standpoint.
    Can you help me out in terms of what you are talking about?
    Ambassador Shannon. There is no doubt that democracy is not 
flourishing in Cuba. And it is part of the President's effort 
to pursue a new approach to see what more we can do to help the 
Cuban people begin their own political opening.
    But as we look back over the last several decades, what is 
important to remember and acknowledge about our hemisphere, is 
this was a region that was largely ruled by authoritarian 
governments, some military, some not, but which has found 
through its commitment to human rights and its ability to 
organize and use inter-American institutions, like the Inter-
American Commission on Human Rights and the Inter-American 
Court of Human Rights, to develop civil societies around human 
rights issues and use that to build democracy.
    Whether it is Chile in the 1980s; whether it is our work in 
Central America to face down insurgencies and move military 
governments to allow elections to take place for civilian 
government to take over; whether it is what we have done in 
Colombia; whether it is transition to civilian and democratic 
governments in Argentina, Uruguay, and Brazil--I think this 
hemisphere has distinguished itself over the past three 
decades----
    Senator Johnson. Okay. I am running out of time here.
    Seeing as the primary purpose is to provide for the 
continued national security of America, is anybody going to 
make the case that the Castro regime has been helpful in 
promoting democracy and freedom in the hemisphere? Is it not 
true that they are supporting FARC in Colombia, and supporting 
the repressive regime in Venezuela?
    Is that not true, Secretary Jacobson?
    Ms. Jacobson. What the Cuban Government has done and what 
we asserted in the report that we sent to Congress is the 
support for the FARC that we have seen recently is support for 
the peace process that is going on in Cuba between the FARC and 
the Colombian Government. Obviously, that was not always the 
case in the past, but at this time we think they are playing a 
constructive role in the peace process.
    In Venezuela, it is a different issue.
    But I think in many areas, we do not see Cuba in national 
security terms. We believe the engagement with Cuba through 
diplomatic relations will be far better for our interests than 
the previous policy of isolation.
    Senator Johnson. In regards to the other purpose, to assist 
the Cuban people to regain their freedom and prosperity, as 
Senator Rubio is pointing out, the United States is basically 
the only country engaged in embargo. Cuba has been able to 
trade freely with the rest of the world.
    I am not seeing the flourishing of prosperity as a result 
of that engagement. How in the world do we think being able to 
trade with the United States is going to improve their 
prosperity at all under the repressive regime of the Castros?
    Ms. Jacobson. You are, certainly, right that their economic 
system has not made them a magnet for the trade and investment 
from other countries that they are able to have.
    In other words, other countries could have invested and 
been trading with them more than they are. But Cuba has to 
change to make that possible.
    But they have been able to promote a narrative of the 
U.S.'s embargo and isolation from them as the reason for those 
economic problems. We have now taken that excuse away, so it 
will be obvious that the problems are the lack of movement in 
their system.
    Senator Johnson. Thank you, Madam Secretary.
    Thank you, Mr. Chairman.
    The Chairman. Senator Menendez.
    Senator Menendez. Mr. Chairman, today is the 113th 
anniversary of Cuban Independence Day. It is a bittersweet 
date, given the Cuban people's languishing for more than 55 
years under a dictatorship.
    As Assistant Secretary Jacobson reopens negotiations 
between Cuba and the United States tomorrow, let me be frank. I 
have deep concerns that the more these talks progress, the more 
the administration continues to entertain unilateral 
concessions without in return getting agreement on fundamental 
issues that are in our national interests and those of the 
Cuban people.
    So I know you said in response to another question these 
are not things we negotiated, these are things decided 
unilaterally. I really cannot believe that.
    The Cubans, Castro, said, you want a relationship? You have 
to return the three convicted spies, three convicted spies of 
the United States, including one who was convicted of 
conspiracy to commit murder of three United States citizens in 
international airspace. Check, we gave them the three spies.
    You want a relationship? Take us off the list of State 
Sponsors of Terrorism. Check, we gave them that.
    You want a relationship? Stop or change the democracy 
programs that we do throughout the world because we do not like 
those democracy programs because they interfere with our 
totalitarian regime.
    So I wake up to an article from Reuters that says U.S. 
signals it could change pro-democracy programs in Cuba that 
Havana objects to. Cuba has long objected to the pro-democracy 
program, which includes basic courses, for my friends sitting 
in the press, in basic journalism and information technology to 
the United States diplomatic mission in Havana. Check.
    Bring us to the Summit of the Americas even though Cuba 
violates the Democratic Charter of the OAS. And one of your 
people says it does not matter who is invited to the table, it 
is what is talked about. Guess what? The Democratic Charter, 
the message, Counselor Shannon, that is sent to the hemisphere 
is, you can violate the Democratic Charter and still be part of 
the club. So why not go ahead and violate it if you think you 
are compelled to do so? Pretty amazing.
    I have not seen any movement at all toward greater freedom. 
As a matter of fact, I would like to commend the committee's 
attention to someone inside of Cuba, a Cuban blogger, Yusnaby 
Perez.
    In The Daily Beast, ``Cuba's 12 Most Absurd Prohibitions 
That Tourists May Never Notice.'' I am just going to read a 
couple, Mr. Chairman. Cubans cannot access the Internet from 
their homes or on cell phones, not because, in fact, of 
technology infrastructure. That is not the case. They cannot 
access because the government will not let them because 
information is a problem. So, yes, they want to perfect greater 
infrastructure, but for them to control it.
    You cannot live in Havana without a permit. The blogger 
goes on to say, can someone from L.A. live in Washington, D.C.? 
The answer is obviously yes. But you cannot live in Havana 
without a permit from the government.
    No public demonstrations are allowed. Imagine that.
    No political parties are allowed except the Partido 
Comunista de Cuba, the Cuban Communist Party.
    No investment in medium and large enterprises.
    No inviting a foreigner to spend a night without a permit 
in your own home.
    Among many others, something as absurd as you cannot bring 
from abroad 25 artificial fingernails, in violation of the law.
    I ask unanimous consent that the full article it be 
included the record.
    The Chairman. Without objection.

[Editor's note.--The article mentioned above can be found in 
the ``Additional Material Submitted for the Record'' section at 
the end of this hearing.]

    Senator Menendez. So here we are. Human rights abuses 
continue unabated with more than 1,600 cases of arbitrary 
political arrests this year alone, only 5 months into the year.
    So, President Obama may have outstretched his hand, but the 
Castros still have their fists real tight.
    You and Secretary Malinowski came before this committee, 
heralded that there was a downturn. Guess what? We are 
skyrocketing back up in human rights violations and political 
dissidents being arrested, including the rearrest of the people 
who you negotiated to ultimately be released, several of them 
have been rearrested.
    Now, despite the desire to move in a different direction, I 
see we get nothing in return.
    You are taking Cuba off the terrorism list. Well, Joanne 
Chesimard on the FBI's 10 Most Wanted Terrorists list for 
murdering New Jersey State Trooper Werner Foerster, Charles 
Hill wanted for killing a New Mexico State Trooper and 
hijacking a United States civilian plane, they are both living 
in Cuba, protected by the regime.
    The regime says we will talk to you, we will talk to you, 
even though your counterpart has already said she got political 
asylum and she is not going anywhere, but we will talk to you 
about it. We will talk to you about it. We will all talk ad 
infinitum.
    So I just do not see it. And I hope my colleagues who are 
so passionate, and I listened to them, about democracy and 
human rights in many parts of the world, in Burma, in Vietnam, 
in a whole host of places in the world, but are almost silent 
when it comes to Cuba.
    Somehow democracy and human rights there is not as 
important as other places in the world. I hope we can keep the 
same standard.
    Let me ask you, Madam Secretary, to your knowledge, were 
you or any member of the State Department told not to push for 
sanctions on Cuba in violation of sending MiGs and missiles to 
North Korea in violation of U.N. Security Council Resolutions, 
the type of missiles that, in fact, were in the hull of a cargo 
ship full of sugar being hidden where the MiG insignias of Cuba 
were taken off to try to hide it?
    Were you told not to push? Or to your knowledge, was any 
member of the State Department told not to push for sanctions 
at the U.N.?
    Ms. Jacobson. Not that I know of.
    Senator Menendez. Did the U.N. sanction Cuba?
    Ms. Jacobson. They did not.
    Senator Menendez. They did not.
    Let me ask you this, in the list of State Sponsor of 
Terrorism, you got a letter that says that, in fact, Cuba has 
not, never did, oddly the Castro regime's assurances also 
asserted the Government of Cuba has never--this is in their 
letter, and the State Department quoted it--has never supported 
any act of international terrorism and that the Cuban territory 
has never been used to organize, finance, or execute terrorist 
acts against any country, including the United States.
    Do you intend for members of the committee to believe that 
the Castro regime never supported any acts of international 
terrorism over the last half century?
    Ms. Jacobson. Senator, I think what is crucial is----
    Senator Menendez. No, not what is crucial. Answer my 
question.
    Ms. Jacobson. Sorry.
    Senator Menendez. Do you believe, do you want the committee 
to believe the Cuban Government has never sponsored any act of 
terrorism over the last half century?
    Ms. Jacobson. I cannot say that I would urge you all to 
believe that it has never occurred, no.
    Senator Menendez. Well, I hope you do not mean to suggest 
that the historical examples of providing support to former 
armed insurgents in the 1980s, including the M-19 in Colombia, 
the FMLN in El Salvador, the FSL in Nicaragua, or the fact that 
the Cuban military did not shoot unarmed civilian planes 
carrying American citizens over international waters, for which 
there are pending indictments from a United States jurisdiction 
against several individuals in Cuba, which I am wondering, are 
you pursuing that in your negotiations with Cuba about them 
answering those indictments?
    Ms. Jacobson. That is why we are going to have the law 
enforcement conversation for the Justice Department to be able 
to pursue----
    Senator Menendez. Do you realize who some of those 
indictments are against?
    Ms. Jacobson. Yes, sir.
    Senator Menendez. And do you think you are going to engage 
in a conversation with them responding to justice? Do you think 
the Castros are going to say, yes, we are going to appear in a 
court? I do not think so.
    Ms. Jacobson. Understood.
    Senator Menendez. Let me ask you one last question, if I 
have the chair's indulgence.
    You know, you all came here and said that, oh, there is a 
reduction of political arrests in January, as a sign that the 
administration's Cuba policy was achieving results. Not 
surprisingly, these numbers climbed dramatically in the ensuing 
months with more than 450 political arrests in February, more 
than 600 in March, more than 1,600 political arrests in total 
during the first 4 months of 2015--1,600 in the first 4 months 
of 2015.
    Now, as I am sure you know, this past Sunday, more than 100 
activists in Cuba were violently arrested, including 60 members 
of Damas de Blanco, represented there by Bertha Soler, 
following their attendance at a church service.
    So I guess Bertha was right when she said the Cuban 
Government will only take advantage to strengthen its 
repressive machinery, because all these women were doing was 
marching in white with a gladiola to church. And result of that 
is to be beaten and thrown into prison.
    That is not success. I do not get it.
    The final thing I will say, Mr. Chairman, I have a lot of 
other questions, but in deference to my colleagues, and I 
appreciate it, is that this is one-sided. I do not know what we 
have gotten in return. We have gotten nothing in return, but 
the Cubans have gotten plenty in return.
    If that is our way of negotiating, then we have a real 
problem on our hands. And the message we send in the Western 
Hemisphere, in Venezuela, where we have--I do not see our 
partners engaging with us because we have changed our Cuba 
policy, this opens door toward promotion of democracy. We are 
not seeing very much democracy in Venezuela. I am not sure 
about it happening in other places in the hemisphere for which 
we have challenges as well.
    So I think that that is a hollow promise based on what we 
see.
    I appreciate the chair's courtesy because of my interest.
    The Chairman. Absolutely. Thank you.
    Senator Perdue.
    Senator Perdue. Thank you, Mr. Chairman.
    Thank you both for being here today. This is an important 
topic.
    In my career, I have watched and seen the United States 
strategy of engagement in various parts of the world, China, 
Vietnam, Dominican Republic, Haiti, to mention a few. It has 
worked in some. It has not in others.
    I echo what Senator Menendez just said about Venezuela. We 
buy $32 billion of oil a year. We have not affected their 
regime one iota, that I can see.
    I have three concerns about what we are talking about today 
with regard to changing our relationship with Cuba. One is 
their continued support of terrorism. Two is their human rights 
record that continues today. And, three, is their activity in 
arms smuggling. We will get to those in a second.
    I have a very short question. I hope you will be brief.
    In 2003, Cuba allowed Iran to operate on their soil. We 
know about the attack on U.S. telecommunications. Cuba is 
reported to have supplied intelligence services to Venezuela 
recently and its allies.
    Cuba has provided assistance and safe haven to terrorists, 
including members of FARC and Basque ETA. They continue to 
harbor fugitives wanted in the United States, including a 
fugitive today listed on the FBI's Most Wanted Terrorists list.
    Cuba has also helped Islamic extremists, including members 
of Hezbollah, slip into North America unnoticed. A Cuban state-
owned enterprise provided Venezuela with advanced technology 
they used to provide illicit United States passports, visas, 
and other documentation to 173 individuals from the Middle East 
between 2008 and 2012.
    That is ancient history, according to the administration. 
Let us talk about recent history.
    Just since President Obama started these secret 
negotiations with the Castro regime, since June 2013, there 
have been reportedly 15,000 political arrests, 2,500 such 
arrests just since the President's speech on United States-
Cuban relations in December.
    To make it even worse, between February and March of this 
year alone, Cuba has increased the number of politically 
motivated arrests by 70 percent.
    As troubling as that is, I am even more troubled by Cuba's 
continued nefarious activities with regard to arms smuggling. 
We know about the earlier shipment of 240 tons of military 
equipment confiscated on the way to North Korea, but we are 
talking about February 28 of this year, 2015, a Chinese-flagged 
vessel, Da Dan Xia, was intercepted in Cartagena, with over 100 
tons of explosives, 2.6 million detonators, 99 projectile 
heads, and over 3,000 artillery shells. This was bought from a 
Chinese arms manufacturer named Norinco, on behalf of 
Tecnoimport, which is a shadow company of the Cuban military.
    The question is, With this type of activity, what 
assurances can you give us? Mr. Ambassador, I would like you it 
take a shot at this first. With this kind of continuing and 
current activity, why should we be optimistic that just by 
opening up economic relations with these people, this regime, 
that this type of activity will change?
    Ambassador Shannon. Thank you very much, Senator.
    I can assure you that just by opening up economic activity 
we will not necessarily change behavior. It is a longer process 
in this.
    But in regard to the larger diplomatic environment, and 
Assistant Secretary Jacobson can address some of the more 
specific issues, in regard to the larger diplomatic 
environment, the fact that these ships were stopped was 
significant. The fact they were inspected was significant. The 
fact that these items were found was significant and shows an 
ability to cooperate with our partners in the region to control 
and monitor this kind of activity.
    And this will deepen with time as people understand that 
the broader purpose of our diplomacy is not simply to normalize 
relations with Cuba and build a relationship with Cuba that 
will change how we try to promote our interests and democratic 
values, but that it is also about how we enhance the 
integration and cooperation inside the hemisphere.
    And partners who have been leery of working with us around 
Cuba issue, because they do not want to get caught in the 
vortex of a very powerful and historic animosity, are going to 
be more open to engaging with us in this kind of activity.
    So I believe we are actually going to be able to do more in 
the area of security. We are going to be able to do more in the 
area of nonproliferation. We are going to be able to do more in 
the area of fighting drugs because of this.
    Senator Perdue. Can I ask a followup on that, Mr. 
Ambassador? So to follow up on Senator Menendez, why would we 
not make that a prerequisite, that better behavior would lead 
to open economic relations?
    Or, Madam Secretary, either one.
    Ms. Jacobson. I think, Senator, if I could, we all want the 
same end. It is a question of how we basically motivate that 
behavior or how effectively we can help support change.
    The President believes firmly that the efforts we made in 
the past, which were, in fact, to say you must change first and 
then we will engage, just did not work to make the changes 
inside Cuba.
    Senator Perdue. Can I ask you a question on that?
    Ms. Jacobson. Certainly.
    Senator Perdue. We have evidence, though, cause and effect 
of several other countries, Britain, Canada, others, having 
open trading relations with Cuba. We are the only one really 
embargoing. And yet that engagement really has not changed 
behavior.
    So what makes us believe today our opening up of economic 
relations with Cuba will actually have that effect?
    Ms. Jacobson. I mean, I think that is a fair point. We do 
not know yet what the effect of this policy will be on the 
Cuban Government. We do see already the beginning of the effect 
on the Cuban people.
    While we decry the detentions of the activists, we know 
there are Cubans benefiting from this new policy in their 
independent businesses and in their belief that they are going 
to prosper and have a better life because of engagement with 
the United States.
    The other thing I would say is, I am very engaged with my 
E.U. counterpart and with my counterpart in Spain in working 
with them so that we can now work together. And when we work 
together, not just with our regional counterparts but with our 
European counterparts, that is more powerful. I think that 
could have a more galvanizing effect.
    But it will be slow. I do not deny that.
    Senator Perdue. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chairman.
    Thank you to the witnesses.
    My colleagues have asked great questions about the 
particulars of the United States-Cuba discussion. I want to 
talk a little bit about the region.
    The Americas and the Caribbean are 35 nations. I guess by 
the general count, nearly 1 billion people. If I do my kind of 
back-of-the-envelope math, 35 nations means about 600 bilateral 
relationships between the nations in the region. Some of the 
bilateral relationships are strong and friendly. Some are weak. 
They are warm and cold. They change over time.
    Is there any other bilateral relationship in the Americas 
that does not include normal diplomatic relationships, other 
than the United States and Cuba? I am not aware of one, but you 
guys are the experts.
    Ms. Jacobson. No, sir.
    Senator Kaine. So this is the only one of the 600 bilateral 
relationships in the Americas that does not involve a normal 
diplomatic relationship.
    Let me ask you this, I am not aware of any war between 
nations in the Americas, our two continents, right now, between 
nations, am I right about that?
    Ambassador Shannon. You are correct.
    Senator Kaine. The only civil war, there are security 
challenges, obviously, of many kinds because we are 35 nations 
and 1 billion people, but the only civil war right now in the 
region is the war between the Colombian Government and FARC and 
another smaller terrorist organization that is currently 
subject to a negotiation that Cuba is hosting, where the United 
States is playing a role accompanying the Colombian Government, 
correct?
    Ms. Jacobson. Right. That is correct. And we are not 
accompanying but have this special envoy now. It is also the 
longest running civil conflict in the hemisphere.
    Senator Kaine. I do not want to get ahead of myself, but if 
that negotiation works out positively, and we have the ability 
to be two continents, all Americans, without war, without civil 
war, without war between nations, that would be pretty unusual 
in the history of these two continents, would it not?
    Ambassador Shannon. It would be a historic achievement.
    Senator Kaine. And it would be pretty unusual on other 
continents, wars or civil wars in Asia, wars or civil wars in 
Africa, sadly, wars or civil wars in Europe.
    You talked in your opening testimony about increasing trade 
in the Americas. The majority of the American trade agreements 
are with nations in the Americas. There is more trade between 
the nations in the Americas. There has been a move in the last 
30 years from governments that have been autocratic or military 
toward democracy--again, not that there are not challenges, not 
that there are not problem children. We are human beings, after 
all. There are going to be challenges.
    You each have spent your entire professional careers 
working in the Western Hemisphere. It is what you have devoted 
your professional lives to. Tell us what it means to the United 
States of America to potentially be the anchor and the leading 
nation in two continents with no war, no civil war, complete 
diplomatic relations, and an ever-increasing trade and 
interdependence.
    Talk about what that means to the United States of America.
    Ms. Jacobson. Senator, I think those are incredibly 
important points. And for me, one of the things that I see in 
this hemisphere is not only the hemisphere's importance to the 
United States and to our people daily, whether trade, familial 
ties, the growing influence and culture that we share, and the 
way in which the values in this hemisphere are the same as 
ours, but I also see this as a model with so many flaws that 
still have to be overcome, and challenges that we all face, and 
inequalities of systems and democracies even where they exist.
    But remember that in the transition from military to 
civilian government, truth commissions and the process of that 
was first done in this hemisphere with the CONADEP in 
Argentina, a model that then South Africa looked at and Eastern 
European countries looked at and others have looked in the Arab 
world now.
    Remembering also that the terrible adjustment of the 1990s 
on macroeconomic issues were things that this hemisphere went 
through first. And now with the free trade agreements, the 
broadening of those economic changes to be greater social 
inclusion and ensure that everybody is included in those 
benefits is taking root here first.
    So I think it is not just what we do for ourselves. It is 
what we are then able to do elsewhere, including working with 
these partners increasingly capable on global issues that 
matter to us, from climate change to the Middle East to 
peacekeeping, where Uruguay per capita is the largest 
contributor of peacekeepers in the world.
    So I think it is not just a phenomenon we will be proud of 
here, but one that is in fact projecting outside.
    Ambassador Shannon. If I could add briefly, as we look out 
on to the globe and see some very demanding and, in some 
instances, some frightening security challenges, to have a 
strategic enclave in our own hemisphere, where we are fighting 
no wars, facing no significant insurgencies or terrorist 
groups, and are able to have commerce, both in manufacturing 
and services, but also in political dialogue, is a remarkable 
thing and a remarkable accomplishment.
    To have examples of societies that have moved from 
authoritarian government to democracy, have moved from closed 
economies to open economies, as I have noted, is a confidence-
builder for other countries around the world who are facing 
similar challenges, because our hemisphere has shown that 
democracy is not a status quo power structure. It is not about 
preserving privilege. It is about addressing profound social 
problems and doing so in a peaceful way, in a transformative 
way.
    So I think we have a remarkable platform in the Western 
Hemisphere from which to engage the rest of the world. As the 
Assistant Secretary noted, and as I noted in my testimony, this 
is a region that is moving from global isolation to global 
engagement.
    In many ways, one of most interesting stories of the first 
half of the 21st century is not going to be inter-American 
relations. It is going to be how the Americas relate to the 
rest of the world. The fact that we have four of our free-
trading partners being part of the Trans-Pacific Partnership 
and looking for ways to transform their own economies by 
reaching across the Pacific into Asia, and doing so as 
democratic countries that support open markets, that support 
free trade, and that support the international institutions 
that regulate trade, is a dramatic accomplishment, and will 
have an impact on the larger economies in South America that 
have yet to sign up for these kind of larger agreements.
    So we are at a moment of strategic momentum. And if we are 
able to show that this hemisphere can function hemispherically 
around establishing priorities and building approaches to those 
priorities, and if we can show that through our dialogue we can 
present a consolidated face to the rest of the world, we will 
have done something remarkable.
    Senator Kaine. I thank the witnesses for their testimony.
    Thank you, Mr. Chair.
    The Chairman. Thank you, sir.
    Senator Flake.
    Senator Flake. Thank you, Mr. Chairman. I want to thank the 
chairman and ranking minority member for scheduling this 
hearing. This has been very informative and, obviously, an area 
where there is much interest here.
    I want to thank the witnesses, and I want to thank them 
particularly for explaining that this new policy is not a 
reward for good behavior on behalf of the Cuban Government. 
Obviously, there are concerns, huge concerns, in terms of human 
rights that need to be addressed. But I appreciate the clear-
eyed vision of that, that the administration holds.
    And if you could explain, Ms. Jacobson, is it easier to 
have those discussions with regard to human rights or perhaps 
negotiating for fugitives from American justice if we have 
diplomatic relations or a better relationship and better 
contact than this situation as it has been?
    Ms. Jacobson. It is only possible, really, with a policy of 
engagement. Those were things we really could not do before.
    Senator Flake. All right. Thank you. That is important, I 
think, important in this discussion. We often think, well, you 
know, is this a guarantee now, this greater engagement, that 
any improvements will be in the offing?
    That assumes that we have a good policy now that is 
yielding benefits, and we have not. We have not for about 50 
years now. And now at least there is a possibility that we 
might be able to make some improvements and see increased 
freedom for the Cuban people.
    So I applaud the administration for taking this position 
and for pursuing this.
    Let us turn to travel for a minute. It was said before that 
when people travel, some do stay in the hotels owned by the 
government and, therefore, revenue will flow to government. 
There is no doubt that will happen.
    But it is significant, as was mentioned by Senator Boxer, 
that companies like Airbnb have gone into Cuba now. This a 
company that has a Web site that books travel, mostly bed and 
breakfast, for people in their private homes. I was just 
looking at it while we were here, if you just scroll down, they 
have now, I understand, more than 2,000 listings in Cuba.
    A bit of perspective, it took them years in some of their 
other markets like San Francisco to get up to 1,000 listings. 
You have 2,000 listings. I think this is just, I think, a 1,000 
over just about 50 days. So it is very significant.
    And for the most part or virtually all of these listings 
are people in their homes, people who will benefit from visits 
by Americans and others. And there is less of a chance that 
money will certainly flow through government. Nobody denies 
that increased travel will increase revenue that goes to the 
Cuban Government, but at what cost to the Cuban Government?
    I have always felt that if we lift some of our 
restrictions, that the Cuban Government may seek to impose some 
of their own, because obviously they want revenue but they fear 
what else, the freedom that might come with the increased 
travel.
    But I have often also said that if somebody is going to 
limit my travel, it should be a Communist. That is what they 
do. Not our own government here. That is not our purview. That 
is not our prerogative, to limit the travel of Americans.
    So with regard to Cuban-American travel, I think it is 
significant the President lifted some restrictions a few years 
ago.
    Ms. Jacobson or Ambassador Shannon, can you tell us what 
has happened in that regard in terms of increased travel over 
the last couple of years with the policy changing with regard 
to Cuban-American travel?
    Ms. Jacobson. Thank you, Senator, very much.
    I think that it is clear that in the regulatory changes 
that the administration has made over the last few years to 
increase the ability for families to see each other, for Cuban-
Americans to go to Cuba, as well as the changes most recently 
in December, there have been many more Cuban-Americans 
traveling. Certainly, it has been critical to us I think to 
ensure that remittance amounts go up, and they did dramatically 
in the most recent regulatory changes, because in many ways, 
they have been the capital that has founded some of the most 
important private sector emergence, and will almost certainly 
continue to do so, including some of these private homes that 
are serving on Airbnb, people who want to run their own 
businesses who are allowed to in areas that the Cuban 
Government will permit, but do not have the resources to do so 
and can be helped by folks in the United States.
    Senator Flake. Well, thank you. As one who has traveled 
frequently to Cuba over the past 15 years, I can tell you, for 
several years there, it was tough to see any change or progress 
because the Cuban Government, it seemed they would loosen 
controls when they needed to and then tighten them again. But 
traveling there over the past couple of years, there has been a 
significant difference. And I think it is because of the 
increased travel, particularly by Cuban-Americans, that you see 
the type of entrepreneurship that has been allowed but will 
likely continue now. Much tougher to turn and reverse, that, 
certainly, is the feeling that those of us who traveled down 
more recently have gotten, and I think that will only increase 
with increased American travel.
    Like I said before, there are no guarantees that anything 
will happen, but change is more likely to occur with increased 
contact from the United States.
    Let me touch on diplomatic relations and the appointment, 
ultimately, of an Ambassador to Cuba. How will that help with 
regard to those who do business legally, Americans who do 
business legally in Cuba under the new regs, and increased 
number of Americans who travel? What benefits will they have, 
if we have full diplomatic relations, that they do not have 
now?
    Ms. Jacobson. Obviously, our interest section in Cuba 
already provides some services in both of those areas. But I 
would say that having a U.S. Ambassador, having full diplomatic 
relations, is always much better in terms of being able to 
engage with governments at the highest level, the 
representative of the President, and being able to advocate for 
those U.S. businesses that can operate legally, being able to 
advocate for them against competitors, being able to support 
Americans while they are there.
    It also critical to us that we have sufficient staff to be 
able to support the influx of people and Americans who are 
going to Cuba so we can provide those services. We can only do 
that with full diplomatic relations.
    Senator Flake. Thank you.
    In closing, Mr. Chairman, I just want to thank the ranking 
minority member for mentioning the Freedom to Travel Act that 
has sponsorship of the majority of this committee, I think 10 
of 19. We look forward to pushing that forward.
    So thank you, Mr. Chairman.
    The Chairman. Thanks for your interest in this issue.
    Senator Udall.
    Senator Udall. Thank you very much, Mr. Chairman. I really 
appreciate you holding this hearing, you and Senator Cardin, 
and doing it in such a balanced way. I very much appreciate 
that.
    I am honored, Senator Flake, to be on your Freedom to 
Travel bill. I think one of the things that is so important is 
opening Cuba up to travel, and there could not be better 
ambassadors than our citizens going down to Cuba and visiting 
about what we are all about in terms of democracy and human 
rights and those very, very important values.
    At the beginning, I just want to say I very much support 
this policy of normalization. I think we are turning the page 
on a failed policy that has been going on since the early 
1960s. We are moving to empowering the Cuban people, empowering 
Cuban entrepreneurs. I really welcome this new chapter of 
normalized relations.
    It was mentioned earlier, and you were asked several 
questions--I really appreciate you both being here and all of 
your hard work over the years in this area--about the private 
sector. And I have looked for reports on what is happening down 
there.
    I think it is fascinating, in terms of the growth, the 
dramatic growth in the private sector. A 2013 Brookings report, 
and there are probably more because that is an old report, is 
looking at close to 1 million classified as private sector. You 
have 500,000 legally registered as self-employed and you have 
another 570,000 farmers who own or lease private plots working 
solo or in cooperatives. As I think is mentioned in your 
testimony, there is an organic sector also working there, 
organic farming and organic marketing.
    In addition to that, there is another estimated, from this 
report, 600,000 to 1 million who are labeled private sector but 
they are considered illegal by the Cuban Government. So there 
is also a sector there that is growing.
    So you have these two large sectors, which could be in the 
range of 2 million. I think that is what, when we travel down 
there, when we engage down there, with our commerce, these are 
the folks that we are helping. These are the folks that we are 
helping grow. These are the folks that we are empowering. And I 
think that is a very, very good thing.
    Now, one of the areas that I think is critically important 
is increasing our agriculture interaction with Cuba. So I am 
also proud to be, in addition to Senator Flake, Senator 
Heitkamp has a bill to permit increased agricultural sales, I 
am on that.
    And this week I am introducing the Cuba Digital and 
Telecommunications Advancement Act, also known as the Cuba DATA 
Act, with Senator Flake, Senator Durbin, and Senator Enzi. The 
goal of the legislation is very simple: Give U.S. 
telecommunications companies the opening and certainty they 
need to invest and help Cuba open to the world, and give the 
Cubans the tools they need to engage in a 21st century economy 
and to share information and communicate more efficiently with 
each other and the world.
    Secretary Jacobson, both you and the President emphasized 
that access to the Internet is one of the cornerstones to the 
new Cuba policy. For those who have not been to Cuba, it is one 
of the least wired countries in the Western Hemisphere. Things 
we take for granted, such as email on the phone, are basically 
nonexistent in Cuba.
    What are the major challenges Cubans are facing to access 
the Internet? And what can United States companies and the 
Congress do to open up Cuba to the global Internet?
    Ms. Jacobson. Thank you so much, Senator. Thank you so much 
for your interest in this and the conversations we have had.
    I think, obviously, a huge part of the obstacles to the 
Cuban people right now are sheer access to Internet connected 
devices, whether it is computers or whether it is smartphones. 
When they have access, that access is expensive. It is almost 
prohibitive. Even when the cost came down recently for the 
public to access the Internet, it was still extremely 
expensive. For most Cubans, it was about a half month's wage.
    Then there is a question of whether everything is 
accessible once you get on the Web and whether there are things 
that are blocked.
    So there are huge challenges for the average Cuban. I think 
there is a combination of reasons for that, but the Cuban 
Government fundamentally has to make decisions, and we 
obviously want to encourage in every way possible that 
information and access to the Internet be made easier, cheaper, 
available, and open for the Cuban people. That will take a 
variety of decisions by the government that we are encouraging 
them to take by encouraging American businesses to have those 
conversations with them, and these are the means to do so.
    Senator Udall. The goal, as I think you said in your 
testimony, Madam Secretary, of the Cuban Government is to have 
Internet access for 50 percent of its population by 2020. So 
they have stated this goal, saying we are trying to move there. 
This is the goal that the U.N. has also made for developing 
countries around the world.
    Is this goal achievable by Cuba? If the United States 
telecom companies were allowed to invest in Cuba, how long 
would it take to completely wire the island?
    Ms. Jacobson. That is a great question, Senator. I am not 
the best of tech experts, but I will tell you that the tech 
companies that I speak to who had conversations either with 
Cuba or about Cuba believe it is absolutely possible. And in 
terms of how long it would take, a lot depends on what the 
Cubans decide to do and what kind of infrastructure they put 
in.
    Senator Udall. Thank you very much for those answers.
    Mr. Chairman, just a final comment, I know that all of the 
things that have been mentioned here that are problems, that we 
do not agree with, problems and challenges in Cuba, we just 
have different goals to try to go those things changed.
    And as the last note, I would like to express my support 
for the extradition of Charlie Hill. Extradition of criminals, 
I think, is an important part of any normal relations between 
countries. Charlie Hill, who allegedly murdered a New Mexico 
State Police officer and hijacked a plane, must be brought to 
justice.
    And I know the State Department shares this objective. I 
hope we continue to make this a priority until we get it done.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    My sense is there may be additional questions, and I will 
defer my time for others who may wish to ask additional 
questions.
    Senator Rubio.
    Senator Rubio. Thank you. Just a couple points I wanted to 
touch on. This Internet thing is important.
    I have talked about it extensively in the past. As I listen 
to some of this conversation, I think there is still this 
perception that somehow the reason why there is no Internet 
infrastructure in Cuba is because the United States has not 
gone into build it. The Cuban Government had a joint venture 
with an Italian company for many years.
    By the way, the telecom industry in Cuba is run by the 
Cuban Government, and it is a holding held by GAESA, the 
holding company run by the son-in-law of Raul Castro.
    The bottom line is virtually every telecom company in the 
world--and there are dozens of advanced telecom companies in 
the world that are not within the territory of the United 
States--have had access to the Cuban market, and they have not 
been allowed to build out or have dropped out of joint 
ventures.
    The bottom line is the fact that American infrastructure 
will be allowed to come in does not mean the Cubans will allow 
it. Here is why: They do not want the Cuban people to have 
access to the Internet.
    In China, they have something called the Great Firewall. 
They have access to the Internet in China. There is all sorts 
of infrastructure. China has both nationally owned and private 
companies in China that offer telecommunication infrastructure, 
yet the people of China do not have access to the Internet the 
way you and I understand it because the government places 
filters upon it.
    This is a government that will not even allow you to bring 
certain books onto the island. This is a government that will 
not allow you to read certain newspapers on the island.
    This idea that they are going to somehow allow AT&T and 
Verizon to say, yes, come in, build all of this infrastructure, 
unfettered access to the Cuban people, is absurd. They cannot 
survive an Internet opening.
    So we can pass all the laws we want. The Cuban Government 
is still going to place filters, and you still have to work 
through their telecommunications company in a joint venture in 
order to build infrastructure on the island.
    As far as travel is concerned, I think Airbnb, that is 
fantastic, that they are building this up. Here is the point, 
number one, even private operators on the island of Cuba, bed 
and breakfast, casas particulars, whatever you call them, still 
pay an exorbitant fee to the government for the right to be 
able to provide that service. So they even game that system to 
get their hands on money.
    That being said, the vast majority of people that travel to 
Cuba will not be staying at one of these facilities. They will 
be staying at segregated tourist destinations where tourists 
are largely brought in. They experience that facility, and then 
they leave. And the money is going to the Cuban military.
    I have heard discussion about Vietnam, China. Look, we have 
full travel to China and Vietnam. We have business with them. 
They are not any more democratic than they were when all of 
this started. So I think it actually proves my point, that 
economic openings do not lead to political openings, by 
evidence of China and Vietnam.
    But here is my point about the Cuban military: In addition 
to the fact that the Castro regime stole 6,000 properties owned 
by U.S. citizens or U.S. companies, of which zero dollars have 
been compensated, this is the Cuban military that has four, 
four senior officials, three senior officials indicted, for the 
murder of four Floridians, indicted in U.S. courts. That is the 
Cuban military.
    This is the Cuban military that was helping smuggle heavy 
weapons to North Korea without consequence. They were caught, 
no U.N. sanctions, no U.S. sanctions. This is not just the 
Cuban military. This is a Cuban military that uses access to 
funds to carry out this sort of grotesque activity.
    So when we talk about travel to Cuba, business with Cuba, 
let us be very clear. We are not doing business with the Cuban 
people. You may eat at a home somewhere, but this is still a 
very small part of their economy. For the vast and enormous 
majority of Americans that travel there, and that includes 
congressional codels, journalists, diplomats, everyday American 
citizens, you will stay in a government-run facility. Every 
dollar you spend there will wind up in the hands of the Cuban 
military that sponsors terrorism by smuggling arms to North 
Korea, that has senior officials indicted for the murder of 
Americans over international airspace, and a Cuban military 
that uses every access it has to funds to enrich themselves and 
repress the Cuban people.
    So there is no economic opening to Cuba. There is an 
economic opening to GAESA, which is the Cuban military-run 
holding company.
    The Chairman. Thank you.
    Senator Cardin.
    Senator Cardin. Let me very briefly, and then I will yield 
to Senator Menendez.
    Just in regards to just some responses here, there are 2 
million cell phone users in Cuba. When I was in China, they do 
block full access to the Internet, although the U.S. Embassy 
site on air quality is one of the most frequently visited sites 
by Chinese nationals. It is the only reliable information they 
can get about air quality.
    Our engagement will bring faster connectivity and more 
quality connectivity to the people of Cuba. I am convinced of 
that. The technology is there, as Senator Rubio points out. It 
is a matter of making it available, and the people of Cuba will 
demand that.
    And let me just also also point out, in regards to the 
Libertad Act, the Libertad Act provides for licensing authority 
by the administration, which is common in these types of 
legislation. So there are certain authorities included in the 
act. And I do look forward to a robust discussion in our 
committee.
    Mr. Chairman, I would yield the time to Senator Menendez.
    Senator Menendez. Mr. Chairman, I see that Senator Markey 
is here, so I will just wait.
    The Chairman. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Welcome and thank you for all of the good work, which you 
have done. Over the years, there has been clearly an isolation 
from our country that Cuba has had to live with. And I very 
much appreciate this administration's attempts to normalize our 
relations. I think it is important. I think it is a step in the 
right direction. And I think the actions which you are taking 
are beginning to make it possible for us to envision a day 
where we truly have normalized relations with Cuba, but it is 
not going to happen overnight. And clearly, Cuba itself has to 
deal with behavioral changes that are not going to come easy.
    But that said, I think the process has opened, and I think 
that we are going to head in the right direction.
    I know Senator Udall has already talked about this, but I 
think it is important to focus on it, and that is the 
relationship that exists between information and freedom. I 
think there is, without question, a huge cultural compatibility 
that we have with Cuba, otherwise the Red Sox would not be 
paying all this money to sign Cuban players right now. They 
have at least mastered that part of our culture.
    And hopefully, we will be able to use better relationships 
to be able to broaden that even further.
    Talking about the Internet, talking about 
telecommunications, can you just outline a little bit for me? I 
may have missed the detail that you gave to Senator Udall. But 
what is your hope, in the terms of the transfer and sale of 
telecommunications technology into the Cuban marketplace?
    Ms. Jacobson. Thank so much, Senator.
    Obviously, the regulatory changes are fairly broad in terms 
of what can now be sold and provided to Cuba in the 
telecommunications and information area. That may be hardware, 
whether cell phones or other forms of computers that can now be 
sort of not just donated as they could be before but sold to 
Cuba--people in Cuba. And it also is services that are 
providing information, such as the phone card and phone service 
that IDT in New Jersey recently signed a contract with the 
Cuban Government to do, or other forms of telecommunications 
work.
    But I do want to be clear that it is true that all of this 
takes a decision by the Cuban Government to move forward with 
modernization in their telecom sector. That is, certainly, 
true.
    American companies can be able to, under our changes, 
participate in Cuba, but the Cuban Government has already said 
it wants to modernize and said things to the U.N. And we will 
have to see if they really take those steps. But we want to be 
part of it, if and when they do. We want to encourage them to 
do so.
    I think as others have said, we think the Cuban people want 
that as well.
    Senator Markey. I think the more that we have American 
tourists down there, the more that we have cultural exchanges, 
the more we have students in Cuba, the more normalized to that 
extent, it is more likely that the Cuban people--Cuban students 
are going to be saying to themselves, why can we not have that 
technology?
    And it is a resistance, by the way, that existed in our own 
country. Our own country did not want to move to the digital 
revolution. Our cable and telephone companies did not move to 
it. There was not one home that had digital in 1996 in America 
until we changed the laws.
    We pretty much had to incentivize those companies. We were 
going nowhere. Same thing with cell phones, until 1994, it was 
the size of a brick and it cost 50 cents a minute, and we did 
not have one, ordinary people. Some wealthy businessman, Gordon 
Gecko in Wall Street, had one, but not ordinary people.
    In 2001, in Africa, only 12 million people had cell phones, 
wireless devices. Today it is 800 million.
    So we have moved from these devices to these devices very 
rapidly in America, but they are doing it in Africa as well. 
The more that it insinuates itself into the culture of 
individual countries, it changes the culture. It changes the 
business relationships. It changes the entrepreneurial spirit 
of a country. And we can see it in country after country. It is 
not uniform. No question about it, but you can see it. Where it 
works, it works big time.
    So I think the same thing is going to be true in Cuba. The 
more we can move these devices in, and the more the people in 
the country demand they have access to it so they are not the 
last country in the world without access to modern 
technologies, I think we are going to see dramatic telescoping 
of the changes that we are hoping that will happen in that 
country.
    And so of all of the sectors, that is why Radio Marti and 
TV Marti were always focused on by the Reagan administration. 
They understood the importance of this.
    And the openings, which you are talking about here, kind of 
puts it in the mind of many Cuban ordinary citizens, why not, 
why not us?
    So what is the level of negotiation or discussion that is 
going on, in terms of these telecommunications technologies? 
Who are we speaking to? Who ultimately makes the decision 
inside Cuba?
    Ms. Jacobson. All right, thank you, Senator.
    There are basically two tracks, if you will. One is 
government. That is the beginning of conversations with the 
Cuban Government about telecommunications. And the other 
obviously are many, many private sector conversations with the 
Cuban Government, to which we are not a party but we obviously 
know about, that they are taking place.
    On the government side, we had our Ambassador for 
International Communications Policy Danny Sepulveda who was in 
Havana about 2 months ago now. That was the first time we had 
that kind of conversation with the Cuban Government at an 
official level, meeting both with their telecommunications 
ministry as well as their telecom provider, which is state-run, 
ETECSA, to talk about sort of what kind of infrastructure they 
are interested in and how we have done things in the United 
States in terms of the regulation and access issues, as well as 
obviously many, many United States companies have had 
conversations with the Cuban Government. And they are beginning 
to think about the solicitations they put out, the request for 
proposals, if you will, of their own telecom sector.
    Senator Markey. So the quicker we can move them in that 
direction, the quicker their whole society changes. It has 
happened all over the world. They will not be immune to you.
    Thank you both for your great work.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Without objection, I would like to enter into the record on 
behalf of Senator Rubio a letter to him dated February 18 from 
the U.S. Coast Guard. And if there is no objection, I will put 
it into the record.

[Editor's note.--The letter mentioned above can be found in the 
``Additional Material Submitted for the Record'' section at the 
end of this hearing.]

    The Chairman. Senator Flake.
    Senator Flake. Thank you, Mr. Chairman.
    I just wanted to clarify a few issues. Again, we talk about 
telecommunications and say the Cuban Government may not allow 
this, and it is up to them, and we cannot control them, and 
they may not allow it. That is true. They will allow what they 
will allow.
    But we have had a policy for decades that has not yielded 
the results we want. The question is not this policy or a 
policy in a perfect world. It is this policy compared to the 
nonengagement that we had before. And we know what 
nonengagement has yielded.
    The Cuban Government may or may not keep their promise to 
make sure that 50 percent of the Cuban people are wired by a 
certain time. We have no control of that.
    We have control of what is in our national interest. And I 
think it is more likely that it will occur than under the 
former policy we had.
    Also, with regard to a statement made that whenever an 
American traveler goes to Cuba, every dollar ends up with the 
Cuban Government, that simply is not the case. That may be said 
by those who have not traveled to Cuba recently. But many 
Americans travel to Cuba.
    And it is true that you cannot travel to Cuba without some 
revenue going to government. That is certain. But the notion 
that every dollar spent ends up in the hands of Cuban military 
simply is not the case.
    You have burgeoning entrepreneurship in Cuba that is a 
testimony to the fact that some money does flow to ordinary 
Cuban people. That has been particularly the case with the 
travel of Cuban-Americans over the past couple of years.
    I should mention that when that policy was announced a 
couple of years ago, that Cuban-Americans could travel not just 
once every 3 years but as often as they like, and remittance 
levels were increased, there was talk here in Congress about 
reversing that. ``You cannot have that. That is not good for 
the Cuban people. It is not good for America.''
    I can tell you there is no serious talk today about 
reversing that, because why? Because when Americans get more 
freedom, we tend to enjoy that and we tend to want more. And I 
would suggest that a year from now, the notion that we would 
reverse this policy that has allowed more Americans to travel 
to Cuba and to help Cuban people have access to more 
technology, more capital, more values, more contact with 
Americans, will seem as absurd as reversing the changes that 
were made with Cuban-American travel just a couple of years 
ago.
    So again, I applaud you for what you are doing, and I look 
forward to working with the administration as this policy 
unfolds.
    The Chairman. Thank you.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Let me ask you, when a Cuban-American sends or visits their 
relatives in Cuba and gives them a little money, the only place 
really to buy something is the dollar store, is that not true? 
If you want to get something?
    Ms. Jacobson. I believe, certainly, there is more in those 
stores to buy.
    Senator Menendez. By the way, who owns the dollar stores?
    Ms. Jacobson. They are state-run.
    Senator Menendez. Okay. The government.
    And so if I want to send a remittance to my relative in 
Cuba, the Cuban Government takes a slice, right?
    Ms. Jacobson. They do but your relatives probably want 
their part of that anyway.
    Senator Menendez. But the Cuban Government gets a slice.
    Ms. Jacobson. Yes.
    Senator Menendez. So let us not deny that the Cuban 
Government is greatly enriched by all these resources, which is 
why it has been its number one foreign policy objective.
    Now let us talk about what full diplomatic relations are. 
You are going to be having this discussion tomorrow, as I 
understand it, what my colleague Senator Markey said, 
normalized relations are.
    After the Summit of the Americas, the Washington Post ran a 
story suggesting that the talks to restore diplomatic relations 
were hung up because the Castro regime was unwilling to grant 
unrestricted travel to our diplomats, unwilling to allow us to 
send secure shipments to a future embassy, unwilling to allow 
us to have the number of staff necessary to operate a future 
embassy, and unwilling to remove the military presence around a 
future embassy.
    So let me ask you, would the State Department actually to 
agree to establish an embassy in Havana if all of our diplomats 
are not able to travel freely throughout Cuba?
    Ms. Jacobson. Senator, what I can tell you is that we have 
to have an embassy where our diplomats can get out and travel 
and see the country and talk to people. We have restrictions on 
the way our embassy personnel travel, in terms of notification 
to governments, in many countries around the world that range 
from 24 hours to 10 days.
    So we are going to do everything possible to make sure that 
we have the least restrictions possible but our embassy 
officials----
    Senator Menendez. So we will accept restrictions that all 
of our diplomats at embassy would be able to travel throughout 
the country?
    Ms. Jacobson. We will make sure that the embassy is on a 
par with the way we operate in other places that are 
restrictive environments.
    Senator Menendez. Would you agree to conditions under which 
we cannot send secure shipments to supply a future embassy 
without the regime rifling through them?
    Ms. Jacobson. Well, Senator, I am not going to necessarily 
layout all of the negotiations for tomorrow here.
    Senator Menendez. Why not? Wait a minute.
    Ms. Jacobson. Senator, no, let me----
    Senator Menendez. Are these negotiations secret or do we 
not have, the United States Congress, have the right to 
understand how you are trying to establish diplomatic 
relations?
    Ms. Jacobson. You absolutely do.
    Senator Menendez. I think the Nation needs to know under 
what conditions we are going to have or not have relationships.
    Ms. Jacobson. You absolutely do.
    Senator Menendez. So are you going to allow the Cubans to 
rifle through your diplomatic pouches with impunity or are 
going to insist you can send anything to the embassy, as we do 
in other places in the world? That is a simple yes or no.
    Ms. Jacobson. We absolutely believe in the viability of the 
diplomatic pouch. We also believe that it is critical to 
resupply a future embassy, as we believe it is important to 
supply the building now that has maintenance and upkeep issues. 
So that is a critical part of our discussion.
    Senator Menendez. So will you accept conditions less than 
that?
    Ms. Jacobson. We will not accept conditions in which we 
cannot securely supply our facilities. We have to be able----
    Senator Menendez. Would you agree to open an embassy if you 
are not granted the number of staff you need to operate it 
efficiently?
    Ms. Jacobson. Not if we cannot have the number of staff we 
believe we need, no.
    Senator Menendez. Are you willing to open an embassy if the 
Castro regime does not remove its military cordon from around 
the building, which basically is a way to intimidate average 
Cubans from approaching our facility?
    Ms. Jacobson. We will not open an embassy unless we believe 
that the security outside the embassy is appropriate to protect 
our installation, but we will also make sure that it is 
welcoming of Cubans into the installation as an embassy, the 
way we do around the world.
    Senator Menendez. Let me ask you, you agreed with me 
ultimately that the Castro regime statement as it relates to 
that they have never supported, never supported, any act of 
international terrorism is not true. So if you agree that these 
statements by the Castro regime are categorically false, how 
can you explain to the committee why you would think you can 
believe any assurances about the regime's current or future 
conduct, if they bald-face lied in the first place?
    Ms. Jacobson. What I would say, Senator, is that what we 
were looking at in the assurances is not necessarily whether or 
not their assertions on behalf of all recorded history for the 
Cuban Government, we agree with every statement of the past. 
What we have to look at is what the requirements are under the 
law, which talk about the rejection of international terrorism, 
which they have made, and the lack of support or any evidence 
for support for international terrorism.
    Senator Menendez. So they can partially lie to you, but not 
fully lie.
    Ms. Jacobson. Senator, we have differences in what they do 
not believe they have ever supported international terrorism.
    Senator Menendez. But they sent you a letter and the State 
Department quoted that specific section, which basically means 
you buy into it. It is incredible to believe that that section 
of the letter you buy into.
    Let me ask you this, the Red Cross under the President's 
December 17 announcement was supposed to have access to Cuban 
jails. Has that taken place?
    Ms. Jacobson. We did not say the Red Cross would have 
access to jails.
    Senator Menendez. You announced that they would have--I 
understand it was access to Cuban jails. What is it that they 
have access to?
    Ms. Jacobson. I do not believe we ever said that the Cubans 
had agreed to that. What we said was that we were hoping that 
international organizations would renew their discussions with 
the Cuban Government about those issues, including the Red 
Cross and U.N. In other words, we----
    Senator Menendez. Has the Red Cross been able to get in 
freely?
    Ms. Jacobson. Not that I know.
    Senator Menendez. Not that you know of. Okay.
    Last question, we talk about telecom access. A lot has been 
discussed here about that. In late February, the First Vice 
President Miguel Diaz-Canel, who Senator Boxer referred to as 
it looks like he would be the next heir in an election.
    First of all, there is no election in 2018. It is a 
selection. There is no election. Can we agree on that?
    Ms. Jacobson. We can agree that what the Cuban Government 
calls an election is not what we believe meets international 
standards.
    Senator Menendez. It is the Cuban Communist Party, and that 
is it. So it is not an election. I do not want to anybody to 
think we are working on an election in 2018.
    He gave a long, rambling speech, he is the second highest 
official in the Cuban Government, about the Internet in Cuba. 
One of the most revealing statements was the affirmation that 
the regime's Internet strategy would be led by the Communist 
Party.
    Given the Communist Party's half-century long effort to 
deprive the Cuban people of the most minimal standards of 
freedom of the press and of information, would you have the 
committee believe that the Communist Party will not make every 
possible effort to block access to all content that it deems 
undesirable, similar to what we have seen in other closed 
societies around the world?
    Ms. Jacobson. Senator, what I know is that when more people 
have access to the Internet, even if governments try to prevent 
them seeing things they do not want them to, they are 
remarkably inventive in finding ways to do so.
    Senator Menendez. Okay, good.
    Then let me ask you this. Can we have your assurances that 
the State Department and the United States Government will take 
all possible steps to ensure that the Cuban people have access 
to circumnavigation technologies that would be able to get 
around regime censorship?
    If we are going to say we want United States companies to 
go develop this infrastructure in Cuba, surely we can have 
circumvention technologies so that the Cuban people are truly 
free to go see any site they want, not only that which the 
regime want them to see.
    Ms. Jacobson. Certainly, I hope that the majority and vast 
majority or all of the Cuban people will be able to have 
complete access to the Internet. What I cannot----
    Senator Menendez. Hope is not a policy achievement.
    I am asking you, if we are going to license companies under 
the Libertad Act to go ahead and put infrastructure in Cuba, 
can we not make a condition of that license that they have 
circumnavigation technologies so Senator Flake and Senator 
Udall and Senator Markey and everybody who wants access to the 
Internet for the Cuban people, which I also want, we are in 
common cause on that, actually can get access to the Internet? 
What is so difficult about insisting on circumvention 
technology?
    Ms. Jacobson. I do not know that we can do that, but I also 
know----
    Senator Menendez. We can put any condition we want as a 
condition of sale.
    Ms. Jacobson [continuing]. I also----
    Senator Menendez. I wrote that section of law when I was in 
House of Representatives.
    Ms. Jacobson. I understand.
    Senator Menendez. I know what it says, and you can put 
conditions on it. I hope to hear back from you whether you will 
insist on that as an ability to have U.S. companies--if we want 
access for the Cuban people to have the Internet, which I do.
    Ms. Jacobson. I do as well, Senator, but I also want them 
to be able to have those deals go through and to make it the 
most effective way that more on the island can have access----
    Senator Menendez. A deal without full access to the 
Internet is a deal is----
    Ms. Jacobson. More than they have now.
    Senator Menendez [continuing]. A deal to an end without 
access to the critical information that we think can help 
liberate the Cuban people.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Any other questions?
    I want to thank the committee again. I know there are a lot 
of diverse views about this proposed new policy, actually a 
policy that is being implemented.
    And I want to thank the witnesses for being here. If you 
would, the record will be open, without objection, until the 
close of business Thursday. If you would answer promptly, we 
would appreciate it.
    The Chairman. We thank you for your service to our country.
    With that, we are adjourned.
    [Whereupon, at 12:12 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


             Prepared Statement of Senator Barbara Boxer, 
                      U.S. Senator From California

    Chairman Corker, Senator Cardin--thank you for holding this 
important hearing.
    I would also like to extend a warm welcome to our distinguished 
witnesses. Thank you both for your service to our country.
    Five months ago, President Obama announced that the United States 
would begin the process of normalizing relations with Cuba.
    This historic decision rejects the failed sanctions policy of the 
past 50 years and opens a new chapter in U.S.-Cuban relations that 
provides an opportunity for dialogue and constructive engagement with 
the Cuban government and, most importantly, the Cuban people.
    We are already beginning to see the positive effects of this policy 
change.

  <bullet> It has reinvigorated U.S. leadership in Latin America and 
        improved U.S. relations with countries in the region, which had 
        been strained by our unilateral sanctions policy.
  <bullet> It has allowed the United States to expand direct support to 
        the Cuban people by increasing the amount of remittances that 
        can be sent to Cuban individuals and organizations, easing 
        restrictions on travel, expanding exports of goods and services 
        to empower Cuban entrepreneurs and small farmers, and improving 
        telecommunications and Internet services.
  <bullet> It has led to increased communication between the United 
        States and Cuban governments on areas of mutual interest 
        including migration, environmental protection, and law 
        enforcement cooperation.
  <bullet> It has opened up new opportunities for American businesses 
        in Cuba.

    Tomorrow, Assistant Secretary Jacobson will host a delegation of 
Cuban officials in Washington, DC, to continue discussions on the 
normalization of ties between our two nations. President Obama's 
decision to rescind Cuba's designation as a State Sponsor of Terrorism 
after a comprehensive technical review is an important step forward in 
this effort.
    As we continue to pursue this new policy of engagement with Cuba, 
we all know there are many issues that will not be resolved overnight--
including the Cuban Government's abysmal human rights record. And we 
will continue to press Cuban leaders on these matters.
    But, I agree with President Obama that America's interests and the 
interests of the Cuban people are best served by dialogue and 
engagement, not isolation.
                                 ______
                                 

      Written Statement of Alan P. Gross Submitted for the Record 
                     by Senator Benjamin L. Cardin

    Chairman Corker, Ranking Member Cardin, and members of the 
committee, thank you for the opportunity to submit this brief statement 
for the record. Some phenomena occurring in Cuba right now are acutely 
apropos to these proceedings. This committee should be aware of some 
tangible outcomes directly correlated with U.S.-Cuba policy decisions 
made since 2009, beginning with President Obama's Executive order that 
eased restrictions on remittances to Cuba. The following is an 
approximate sequencing of resultant events:

    1. U.S. eases restrictions on remittances from Cuban-Americans to 
family members living in Cuba, as well as nonfamily remittances.
    2. Cuban Government eases some restrictions on private sector 
development; expresses need to reduce the number of Cuban workers 
employed in the public sector in order to reduce government deficit.
    3. U.S. remittances to Cuba increase.
    4. Remittances are used to finance private sector business 
development in Cuba. Thousands of private, nongovernment businesses 
start up.
    5. Cuban Government allows private sector to employ nonfamily 
members.
    6. More than 500,000 workers are employed in Cuba's private sector 
by the end of 2014, representing nearly 11 percent of Cuba's total 
workforce.

    These changes in Cuba are not anecdotal. In a relatively short 
period of time (compared to over five decades of economic sanctions) 
positive and constructive shifts in U.S. policy toward Cuba have led to 
notable and meaningful changes for the Cuban people. These changes are 
completely consistent with U.S. interests and development objectives 
worldwide, particularly involving private sector development and growth 
and employment generation.
    As the members of the committee know, I recently concluded 5 years 
of imprisonment in Cuba due to my participation in a USAID-sponsored 
program authorized and funded pursuant to the Helms-Burton Act. Prior 
to my incarceration, I spent over 30 years working in over 50 countries 
to bring about positive change through development programs funded by 
private sector clients. These included Fortune 100 companies, USAID and 
other international financial and development institutions. For the 
last 15 years much of my work involved increasing the availability of 
information access to populations around the world. Indeed, this was 
the fundamental purpose of the project in Cuba for which I was 
ultimately forced to forfeit 5 years of my life.
    The principal theme throughout most of my international career has 
been export and investment development as an engine of vital and 
vibrant economic growth. Consequently, the primary focus of my overseas 
work has been private sector development and growth. And with the 
advent of new, user-friendly information and communications 
technologies prospects of closer linkages between producers, consumers 
and the global marketplace have been greatly enhanced.
    Export and investment development in emerging markets is important 
to U.S. interests. In many ways U.S. foreign policy implemented through 
international development work not only serves to improve emerging 
market business, social and political environments, it simultaneously 
serves as a form of market development for U.S. producers and exporters 
as these markets emerge.
    I fully support what the President is doing to meaningfully improve 
international relations, particularly with Cuba. My 5 years in Cuba did 
not deter me from wanting to bring about positive change through 
development and constructive engagement. To the contrary, I believe 
more strongly than ever that the President's decisive first steps need 
to be followed by decisive congressional action, including repealing 
Helms-Burton and related statutes.
    My beliefs are not based only on the last 5 years, but also over 30 
years of international development experience in more than 50 
countries. However, my beliefs are not as relevant as the evidence of 
change on the ground in Cuba that followed the Executive order. And 
while I am totally and personally cognizant of the Cuban Government's 
repressive human rights record, I am also experientially (not 
experimentally) cognizant that improved personal economic security is 
essential to empowering people--including Cubanos--and that such 
empowerment is a critical step toward improved living conditions 
overall.
    If we all want to move forward with Cuba, we cannot be looking 
back. It is in our own interests, as well as the interests of the Cuban 
people, to move forward together.
                                 ______
                                 

Daily Beast Article Submitted for the Record by Senator Robert Menendez

                  [From the Daily Beast, May 15, 2015]

   Cuba's 12 Most Absurd Prohibitions That Tourists May Never Notice

    It's getting easier to go to Cuba, but not necessarily to live 
there. Sometimes it's the little things that make you crazy. But, then, 
there are big things, too.
    HAVANA--Here's a list of the 12 most absurd prohibitions and 
limitations that we Cubans have to endure in our homeland. It is worth 
highlighting that the socialist Government of Cuba applies some of them 
exclusively to Cuban citizens, while foreign residents and tourists do 
not suffer from the bans. A curious double standard, no? And worth 
remembering if you are planning a visit and discover your new Cuban 
friends can't join you in the fun.
    1--Cubans can't access the Internet from their homes or on their 
cellphones. ETECSA is the Cuban state-owned telecommunications 
monopoly. According to its policy, Internet access in private homes is 
not a service provided to Cuban citizens. It is exclusively provided to 
state-owned and foreign businesses, and to foreigners residing in the 
country, as its website makes clear.
    2--No sailing on tourist boats. There is not an actual law that 
forbids Cubans getting on boats and ships, but authorities have applied 
this restriction for many years. According to Cubatur (a state travel 
agent) ``Cubans--no matter where they live--may not be sold a tourist 
package that includes a catamaran or a yacht. This enjoyment is 
exclusive to foreign tourists.''
    3--No cable TV. The socialist firm Telecable is the only one that 
provides cable TV. This service is exclusive to the tourist 
infrastructure (mainly hotels), diplomats, foreign companies, and 
foreigners residing in Cuba. Telecable offers a selection of 
international channels such as CNN, Discovery, HBO, ESPN . . .
    The Cuban population, for no other reason than being Cuban, cannot 
access this service and can only consume national state-owned TV 
channels and Telesur (a socialist Latin American channel).
    4--Can't live in Havana (without a permit). Can someone from L.A. 
live in Washington, D.C.? The answer is obvious. But in Cuba, can 
someone from Bayamo live in Havana? The answer is NO, unless he or she 
has a permit. The Decree-Law 217-1997 on ``Internal migrations 
regarding the city of Havana'' dictates that people from other 
provinces may not live in the capital without a ``transitory'' 
document; that is, an authorization issued by the Ministry of the 
Interior. This violates the Universal Declaration of Human Rights, 
which says, ``Everyone has the right to freedom of movement and 
residence within the borders of each state.'' Not here.
    5--No public demonstrations allowed. The Constitution of Cuba 
(1976) recognizes the right to demonstrate under certain regulations 
while the Penal Code, in its article 209, warns that ``he who 
participates in meetings or demonstrations celebrated without 
respecting the dispositions that regulate this right, is committing a 
felony against public order.'' But in the 39 years that have gone by 
since 1976, no law has been adopted to regulate the right to 
demonstrate in Cuba. It's a Catch-22. Not to belabor the point, 
``Everyone has the right to freedom of peaceful assembly and 
association,'' according to the Universal Declaration of Human Rights.
    6--No Political Parties allowed (except the Partido Comunista de 
Cuba). Even though the Cuban Constitution permits all citizens to run 
in public elections, our magna carta also mentions in its article 62 
that, ``None of the recognized freedoms of citizenship may be executed 
against the Constitution, the laws or the existence or ends of the 
socialist State, nor the decision of the Cuban people to build 
socialism and communism. Violating this principle will be punished.''
    The Constitution also declares that, ``The Communist Party of Cuba 
. . . the organized vanguard of the Cuban nation, is the superior 
managing force of society and the state, organizing and guiding the 
common efforts towards the high ends of the construction of socialism 
and advances towards the communist society.'' Therefore one can infer 
that any political party that is not the Communist Party is forbidden.
    7--No investment in medium and large enterprises. Law 188 on 
foreign investment regulates investments in Cuba by foreign individuals 
and legal entities, as well as by Cuban legal entities that partner 
with a foreign party with the objective of investing in Cuba. There is 
no mention of Cuban individuals or their right to invest in Cuba. The 
only possibility for a Cuban individual who wants to engage in private 
economic activity is to become ``self-employed,'' but in this case he 
or she is only allowed to work in one of the professions authorized by 
the government (such as restaurants, hair dresser, food vendor on the 
street, lumberjack, masseur, public toilet security, etc.)
    The Cuban police are allowed to fine or even confiscate the vehicle 
of a Cuban citizen if he or she gives a ride to a foreigner.
    8--Can't import wireless microphones, walkie-talkies and satellite 
communication devices without authorization. Resolution 10-2006 states 
in its second section that a person who wishes to import wireless 
microphones, walkie-talkies and satellite communication devices ``needs 
a specific authorization to introduce the equipment into the country 
and a license for its installation, exploitation and functioning, both 
issued by the Supervision and Control Agency of the Ministry of 
Information of Communications.'' And, in case you are getting your 
hopes up, it clarifies ``requesting the authorization does not 
necessarily imply that it will be granted.''
    9--No inviting a foreigner to spend the night without a permit. If 
the police or migratory authorities catch a foreigner sleeping without 
authorization in the home of a Cuban, the owner of the house may face a 
severe fine.
    10--Freely selling lobster and shrimps is not allowed. Only the 
state and foreigners can sell these delicacies in this Caribbean 
nation.
    11--If you pick up a foreigner in a private car you may be in 
trouble. The Cuban police are allowed to fine or even confiscate the 
vehicle of a Cuban citizen if he or she gives a ride to a foreigner 
without a taxi license. There is no explicit law that forbids it, but a 
foreigner in a car privately owned by a Cuban (there are not that many, 
most cars are state-owned) might be interpreted as ``illicit 
enrichment.''
    12--Bringing from abroad 25 artificial fingernails violates the 
law. The Cuban Customs Law establishes exhaustively detailed limits on 
the goods that can be imported from abroad into the island. Sometimes 
these are ridiculous, especially for items that cannot be found in the 
country. Customs Resolution 206 specifically limits the number of 
artificial nails to 24 units.
    Of course, there are more--many more--bans and prohibitions that 
Cuba imposes on Cuba. This was just a taste.
                                 ______
                                 

          Two Letters to Marco Rubio Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 

  Responses of Roberta S. Jacobson and Thomas A. Shannon to Questions 
                    Submitted by Senator Marco Rubio

    Question. Since President Obama's December 17 announcement to 
establish ties with the Castro government, there has been an increase 
in the number of Cubans risking their lives to reach freedom in the 
United States; well over 2,000 political arrests; a dramatic increase 
in weekly violence against democracy activists, such as The Ladies in 
White; new long-term political prisoners, such as Cuban artist Danilo 
Maldonado ``El Sexto'' and rapper Maikel Oksobo (known as ``El 
Dkano''); the beatings and rearrest of most of the 53 political 
prisoners who were released as part of the December 17th agreement; 
violence employed against Cuban democracy activists even outside the 
island, such as the nefarious attacks that took place at the Panama 
summit; and Cuban activists who have been barred from leaving the 
island, like artist Tania Bruguera and democracy leader Antonio 
Rodiles.
    We've also heard multiple anecdotes from Cuban democracy leaders 
and political prisoners who have told us that during the beatings and 
attacks against them now, they are mocked with comments, such as ``this 
one is courtesy of Obama'' and ``the United States doesn't care about 
you.''
    Meanwhile, Cuban dictator Raul Castro has since been named for the 
first time as one of Time's 100 Most Influential People, while foreign 
dignitaries, such as France's President, and the Japanese and Dutch 
Foreign Ministers, visit and fawn over Fidel and Raul Castro in Havana, 
but ignore Cuba's dissident leaders.

  <diamond> Do these trends, which are obviously aiding the Cuban 
        regime, while undermining the Cuban democracy movement, concern 
        you?
  <diamond> Are you concerned that the Cuban regime is interpreting 
        President Obama's engagement and unilateral concessions as a 
        carte blanche for its repressive tactics?
  <diamond> Has the State Department communicated to the Cuban regime 
        any potential consequences for its continued repressive 
        behavior?

    Answer. We share your deep concern about the Cuban Government's 
continued use of politically motivated detentions, at times with 
violence, to prevent Cubans from exercising their rights to freedom of 
peaceful assembly and expression. The Department is constantly 
monitoring human rights in Cuba, speaking out to defend our values, and 
consulting with other countries. Human rights are central to our 
discussions with the Cuban Government and we continue to press for 
greater respect of fundamental freedoms and an end to these practices 
in our conversations with the Cuban Government.
    Our updated approach is designed to advance human rights over time 
by empowering the Cuban people. We have no illusions about the 
intention of the Cuban Government to maintain tight political controls, 
and we continue to monitor reports of arrests of human rights 
activists. We want to work closely with Congress on such arrests and on 
bringing positive change on human rights in Cuba in general. We are 
convinced that, through a policy of sustained engagement, we can more 
effectively stand up for our values and help the Cuban people help 
themselves.

    Question. Ms. Jacobson, a senior State Department official told 
reporters yesterday that, ``democracy programs . . . have changed over 
time, and they will continue to change over time to reflect a reality, 
whether that reality is on the ground in Cuba or in the United 
States.'' This statement was in regards to a question involving Raul 
Castro's complaints against these programs, which is apparently another 
precondition it has placed for the establishment of diplomatic 
relations, in particular the training of independent journalists, which 
he called ``illegal activities.''

  <diamond> Do you believe that independent journalism is an ``illegal 
        activity''?
  <diamond> Are you cognizant that U.S. democracy programs toward Cuba 
        are codified in law?
  <diamond> Have you agreed to adjust these programs, despite their 
        codification in law, during your negotiations with the Castro 
        regime?
  <diamond> Will a potential U.S. Embassy in Cuba continue to execute 
        these democracy programs, as required by law, including the 
        training of independent journalists?

    Answer. We believe that neither independent journalism nor U.S. 
Government training exposing Cubans to how individuals in democratic 
societies exercise freedom of speech are ``illegal activities.'' 
Current Cuban laws criminalizing independent journalism undermine human 
rights contrary to Cuba's international human rights commitments. The 
work of a free and independent media is essential to a democratic 
society. And our training falls clearly within the scope of permissible 
diplomatic activity under international law.
    As Assistant Secretary Malinowski testified before the Senate 
Foreign Affairs Committee in February, we will continue to conduct 
programs that promote respect for human rights and fundamental freedoms 
such as freedoms of expression, association, and peaceful assembly in 
Cuba, just as we do for 95 countries around the world. The 
administration requested $20 million in Economic Support Funds for FY16 
to support the promotion of democracy and human rights in Cuba.
    The Cuban Government likely will continue to object to some of our 
programs. But as stated in my testimony on February 3, ``We will 
continue to use funds appropriated by Congress to support the exercise 
of political and civil liberties in Cuba, facilitate the free flow of 
information, and provide humanitarian assistance.'' As President Obama 
said in April at the Summit of the Americas, ``we are not going to stop 
talking about issues like democracy and human rights and freedom of 
assembly and freedom of the press.''

    Question. Media reports indicate that negotiations regarding the 
establishment of diplomatic relations between the United States and 
Cuba are being stalled by the Castro regime's refusal to allow U.S. 
diplomats to move around freely on the island. The Castro regime also 
does not want to allow U.S. diplomats the secure passage of supplies 
and materials to upgrade our diplomatic mission. Moreover, the Cuban 
regime places a heavy security cordon around the U.S. Interests Section 
in Havana, in order to vet, harass, and intimidate any Cuban (or anyone 
else for that matter) that wants to approach the diplomatic mission. 
This is unprecedented in any U.S. Embassy throughout the world. And to 
add insult to injury, last week Raul Castro complained about the 
``illegal activities'' the U.S. Interests Section in Havana, such as 
``the training of independent journalists.'' That was verbatim.

  <diamond> Do you believe training independent journalists is an 
        ``illegal activity''? Will you commit that the U.S. mission in 
        Havana will continue training independent journalists and 
        supporting democracy efforts on the island?
  <diamond> Will you commit that the United States will not accept any 
        restrictions on the movement of U.S. diplomats anywhere in Cuba 
        as a precondition for establishing diplomatic relations?
  <diamond> Will you commit that the U.S. will not establish diplomatic 
        relations, so long as the Cuban regime insists on maintaining 
        its security cordon around our diplomatic facility?

    Answer. The United States continuously works to promote freedom of 
expression around the world through bilateral engagement, public 
diplomacy programming, and multilateral diplomacy. This includes 
support for independent journalism, particularly in closed countries 
where press freedom is lacking or independent journalists are under 
threat. We do not view independent journalism in Cuba or our training 
programs as ``illegal activities.''
    The United States will continue promoting respect for human rights 
and fundamental freedoms such as freedoms of expression, association, 
and peaceful assembly in Cuba, just as we do for 95 countries around 
the world.
    We are making steady progress in our discussions with the Cuban 
Government on certain operational issues to ensure our Embassy, once 
reopened, will be able to carry out the necessary functions to 
facilitate this evolving U.S.-Cuba relationship as well as service the 
thousands of U.S. citizens visiting Cuba every year to see relatives 
and engage in other authorized activities. These operational issues 
include those relating to travel restrictions on U.S. diplomats, 
controls on access by visitors to the U.S. facility, and limitations on 
diplomatic staffing.
    The future U.S. embassy will continue engaging with all Cubans, 
including those promoting the realization of universal human rights.

    Question. Assistant Secretary Jacobson, you stated in an answer to 
a question for the record to this committee that ``the reestablishment 
of diplomatic relations, including reopening our Embassy in Havana, 
will allow us to more effectively represent U.S. interests, including 
property claims, fugitives, human rights, and needed political reforms 
and increase our engagement with the Cuban people. We will continue to 
condemn any example of Cuban Government-sponsored harassment, use of 
violence, or arbitrary detention of Cuban citizens peaceably exercising 
their freedoms of expression and association. We proposed to the Cubans 
starting discussions of outstanding claims, in the event we reestablish 
diplomatic relations. On the issue of fugitives, the Department 
repeatedly raises fugitive cases with the Cuban Government and will 
continue to do so at every appropriate opportunity. We raised several 
cases with the Cubans when we met with them January 22.''

  <diamond> Since you last raised these issues with the Government of 
        Cuba, what progress has been made with regards to the 
        discussions leading to the return of fugitives Joanne Chesimard 
        and William Morales to justice; and the unresolved U.S. 
        certified claims which total $8 billion?

    Answer. The Cuban Government has agreed to enter into a law 
enforcement dialogue with the United States that will include 
discussions with the aim of resolving outstanding fugitive cases. We 
believe that this is the best method for addressing these cases.
    We also proposed discussions of outstanding claims to the Cubans, 
following the reestablishment of diplomatic relations. The Cuban 
Government has agreed in principle to discuss this issue. Although 
reaching agreement on the resolution of outstanding claims is often a 
lengthy process, the Department is strongly committed to advancing this 
effort.

    Question. In a QFR response from the February 3rd hearing on Cuba, 
you stated that there were no plans to alter the existing lease 
agreement for the Naval Station at Guantanamo Bay. Additionally, 
Secretary of Defense Ash Carter wrote in a letter dated February 6, 
2015, that ``There are no plans to close Guantanamo Naval Station.''
    I would like to enter into the record a letter from Admiral Paul F. 
Zukunft the Commandant of the Coast Guard from February 18, 2015. In 
this letter, he writes about GTMO: ``Its strategic location, airfield, 
moorings, logistics capabilities, and migrant processing facilities 
make Naval Station GTMO an indispensable resource for steady-state and 
surge events.''
    But just yesterday a senior State Department official was quoted as 
saying that ``I can't say what the future may bring on this (Guantanamo 
Bay), but it's not on the table right now, and I don't know that 
there's a reason to justify having it or not having it.''

  <diamond> Can you clarify the statement by the senior official in 
        your Department with regards to any future talks on Guantanamo 
        Bay?
  <diamond> Are there any circumstances in which the administration 
        would modify the lease or status of Guantanamo Bay?
  <diamond> Can you guarantee to this committee that Simon Trinidad 
        will not be released from U.S. custody as part of Colombia's 
        negotiations with the FARC?

    Answer. We have no intention at present to alter the existing lease 
treaty and other arrangements related to the Naval Station at 
Guantanamo Bay or to discuss the issue of the Naval Station with the 
Cuban Government.
    Colombian officials have raised with us a variety of peace process 
issues relevant to U.S. interests. Simon Trinidad has been convicted of 
serious crimes against U.S. citizens and is serving his sentence in a 
U.S. prison. We have made clear to the Colombian Government that his 
release is not a matter that we are prepared to discuss.

    Question. Assistant Secretary Jacobson, in negotiating a settlement 
agreement for claims, such as American certified claims against Cuba 
that are worth close to $8 billion, each country gives the other 
something the other wants as an exchange. Historically, in these 
situations, the other country settles and pays what is owed to American 
claimants in exchange for trade and commerce with the U.S. market. Each 
settlement process is unique, but one thing is clear, we do not grant 
concessions for nothing.
    Libya paid the U.S. claimants before they were removed from the 
state sponsor of terrorism list, and allowed to do business with U.S. 
oil companies, but they also had to renounce terrorism. Vietnam agreed 
to pay the U.S. claimants in exchange for trade and commerce with the 
U.S. market. Both of those, as in most settlements agreements, were 
done with congressional cooperation.
    Frankly, this is one of the most disconcerting matters of these 
Cuba talks. Not only are we turning U.S. policy on its head, but we 
then appear to be ignoring the primary reason why the sanctions were 
imposed in the first place. Why are we not talking about claims issues, 
U.S. claims issues? As you know, there are nationals from other 
countries that also have claims, and they are seeking compensation as 
well. Will U.S. taxpayers be left out or put at a disadvantage in this 
process?
    How do you see this settlement agreement process working with Cuba, 
if your administration appears to be eager to give Cuba everything it 
wants without getting them to pay for the property they took? Or do you 
plan to just give Cuba things you can, while you can, and leave the 
real claim settlement negotiations for the next administration to deal 
with?
    Is your Bureau responding to title IV investigation requests, if 
not, why not? Do you need more money for policing and enforcement and 
how can we loop in the Treasury Department on these matters, including 
the Office of Foreign Assets Control as well as the Bureau of Industry 
and Security at Commerce?

    Answer. The Department is committed to pursuing a resolution of 
outstanding claims against the Cuban Government. We expect that a 
discussion of property claims will follow in the months after 
diplomatic relations are reestablished. In January, we proposed and the 
Cuban Government agreed to discuss pending claims following the 
reestablishment of diplomatic relations. Although reaching agreement 
resolving outstanding claims likely will be a complex and lengthy 
process, it will nevertheless be greatly facilitated by having better-
developed diplomatic ties.
    With respect to title IV of the LIBERTAD Act, there are a number of 
factors necessary for a determination that trafficking in confiscated 
property has taken or is taking place for purposes of this provision. 
The Department continues to review potential cases and respond in 
accordance with the statute.

    Question. On February 28, 2015, a Chinese-flagged vessel, the Da 
Dan Xia, was intercepted in Cartagena, Colombia, carrying 15 containers 
of heavy weaponry hidden as a grain shipment. It consisted of 100 tons 
of explosives, 2.6 million detonators, 99 projectile heads and around 
3,000 artillery shells. The containers marked that they originated from 
Norinco, a Chinese arms manufacturer, on behalf of Tecnoimport, a 
shadow company of the Cuban military.
    This is the second time in 18 months that the Cuban military has 
been caught smuggling weapons internationally. As you are surely aware, 
last year Cuba was found in breach of international sanctions for 
attempting to smuggle 240 tons of weapons to North Korea. Both of these 
shipments, with false manifests, also threatened the safety and 
integrity of the Panama Canal.

  <diamond> Do you find this weapons smuggling by the Cuban military a 
        concerning trend? If so, why hasn't the State Department made 
        any statements about this latest incident?
  <diamond> According to media reports, the Colombian Government will 
        not disclose what the vessel was supposed to unload in 
        Cartagena and Barranquilla, its two scheduled stops before 
        Havana. Has the State Department looked into whether these 
        weapons may have actually been intended for FARC 
        narcoterrorists or other rogue groups, particularly as 
        President Obama was preparing to remove Cuba from the State 
        Sponsors of Terrorism list?
  <diamond> If weapons sales between China and Cuba are otherwise not 
        sanctioned internationally, why do you think they went to such 
        great lengths to hide this shipment?
  <diamond> Despite these two recent incidents to deceive the 
        international community, the Obama administration was still 
        willing to accept--as part of the ``assurances'' given in its 
        rescission memo to remove Cuba from the State Sponsors of 
        Terrorism list--that the Castro regime has ``never'' supported 
        terrorist activities, which we all know is another lie. Do you 
        think accepting lies is wise?

    Answer. We are not aware of any information linking the shipment 
contents to the FARC. The Department believes it would be premature to 
speculate regarding the outcome of Colombia's investigation of the 
Chinese-flagged vessel and its captain, who could be charged under 
Colombian law for illegal transport of military materials.
    Our review of Cuba's State Sponsor of Terrorism designation focused 
on the questions of whether Cuba provided any support for international 
terrorism during the previous 6 months, and whether Cuba provided 
assurances that it will not support acts of international terrorism in 
the future, consistent with the statutory standard for rescission.
    There is no credible evidence that the Government of Cuba has, 
within the past 6 months, provided support for international terrorism. 
The Government of Cuba provided us with assurances that it will not 
support acts of international terrorism in the future, consistent with 
the requirements of the relevant statutes.

    Question. There are roughly three transition models from communism, 
the Chinese model, the Russian model and the East European model. Only 
in the last one has there been a break with the past and true 
democracy, full civil rights and free markets for their citizens. But 
by recognizing the regime of Raul Castro, you have made it easier for 
the military/technocratic oligarchy that he has put in place over the 
years to move into power once he passes from the scene. They will now 
be able to acquire funds more easily and show the population that they 
have international support. That would be the Russian model or at best 
the Chinese model. Neither of those countries has freedom or democracy.

  <diamond> Is a free and democratic Cuba the goal of this 
        administration?

    Answer. Our enduring objective remains the emergence of a 
democratic, prosperous, and stable Cuba. The goal of our Cuba policy 
has been, and continues to be, to empower the Cuban people to freely 
determine their own future. Our updated approach is designed to promote 
changes that support Cubans' universal human rights and fundamental 
freedoms as well as our other national interests.

    Question. The East European countries are also staunch friends of 
the United States. Many of them have indeed become defense and economic 
treaty allies. That is not true of either China or Russia, or of 
Vietnam or Belarus, which continue to be rivals internationally. This 
administration has been criticized, rightly in my opinion, for not 
treating traditionally U.S. allies well and for coddling our enemies.

  <diamond> Does your administration seek a friendly Cuba that sides 
        with us internationally, or do you just seek stability in the 
        region?
  <diamond> Does having a friendly regime that shares our values matter 
        to this administration?

    Answer. The President's 2015 National Security Strategy calls for 
``promoting a prosperous, secure, and democratic Western Hemisphere by 
expanding integration and leveraging a new opening to Cuba to expand 
our engagement.'' Our enduring objective remains the emergence of a 
democratic, prosperous, and stable Cuba. A stable neighbor 90 miles 
from our shores that reflects and upholds the democratic values and 
priorities shared by all countries of the Americas is strongly in our 
national interest. Our ability to achieve this goal is strengthened by 
a policy of proactive engagement, rather than isolation.

    Question. The President again and again states that our policy of 
not engaging with the Castro dictatorship failed. For decades, Europe, 
Latin America and Asia have traded with Cuba and allowed people to 
freely travel there.

  <diamond> Couldn't we say that their approach failed, too?

    Answer. Our enduring objective remains the emergence of a 
democratic, prosperous, and stable Cuba that respects internationally 
recognized human rights. We are convinced that, through a policy of 
engagement, we can do more to effectively promote our interests and 
values in collaboration with other international partners, thereby 
helping the Cuban people begin to enjoy more independence from the 
Cuban state.
    Cuba is undergoing important changes to its economic, social, and 
leadership landscape, allowing for more options for economic autonomy, 
loosened restrictions on travel, greater connectivity with the rest of 
the world, and generational changes to top leadership. Our policy aims 
to empower the Cuban people to take advantage of these changes--as well 
as those yet to come--to determine their own future. The President's 
new approach makes clear that the United States can no longer be blamed 
as an obstacle to progress on issues that are important to the Cuban 
people.
    Over time, our policy can be judged in terms of its success in 
empowering the Cuban people to determine freely their own future, 
including respect for universal human rights, greater political space 
to express dissent, democratic accountability, and access to 
information.

    Question. The State Department bureaucracy tried to stop President 
Reagan's Brandenburg speech in 1987, in which he called for Mikhail 
Gorbachev to tear down the Berlin Wall. State Department officials even 
called it ``a mediocre speech'' and a ``wasted opportunity'' and tried 
to edit out the reference to the wall. Earlier, in 1983, State also 
thought the speech in which the President called the Soviet Union ``an 
evil empire'' to be needlessly provocative. Yet, dissidents behind the 
Iron Curtain, and especially those in the Gulag, took special comfort 
in knowing that America's leaders were on their side. Natan Sharansky, 
in the Gulag at the time, said later, ``This was the moment. It was the 
brightest, most glorious day. Finally a spade had been called a 
spade.''

  <diamond> Would you characterize the nature of the Castro regime for 
        us here, and call on him to free the Cuban people?
  <diamond> Would you ask the President to do so, in a public manner, 
        without caveats?

    Answer. Our annual Human Rights Report has for years characterized 
Cuba as an ``authoritarian state,'' and has detailed Cuba's lack of 
respect for political and civil rights.
    The administration fully recognizes, and has stated so publically 
on numerous occasions, that the Cuban people have long been deprived of 
the fundamental freedoms that they deserve. With this in mind, the 
fundamental goal of our policy is to advance a Cuba that is democratic, 
prosperous, well-governed, and responsive to the rights of its 
citizens. As President Obama said at the Summit of the Americas in 
April with respect to Cuba, ``Our governments will continue to have 
differences and the United States will continue to stand firmly for 
universal values and human rights.''
                                 ______
                                 

  Responses of Roberta S. Jacobson and Thomas A. Shannon to Questions 
                   Submitted by Senator David Perdue

    Question. The Castro regime, time and again, has violated 
international norms. I fear that President Obama's recent shift in 
policy toward Cuba is sending the wrong message about our democratic 
values as a nation. Cuba has a long history of supporting revolutionary 
movements and governments in Latin America and Africa.
    In 2003, Cuba allowed Iran to operate on their soil to attack U.S. 
telecommunications that posed a threat to the Iranian regime's control 
and censorship. Cuba is reported to have supplied intelligence services 
to Venezuela and its regional allies. Cuba has provided assistance and 
safe haven to terrorists, including members of the FARC and the Basque 
ETA. And, they continue to harbor fugitives wanted in the United 
States--including a fugitive listed on the FBI's ``Most Wanted 
Terrorists'' list. The Cuban Government provides these fugitives with 
support such as housing, food ration books, and medical care.
    A Cuban state-owned enterprise provided Venezuela with advanced 
technology that it used to provide passports, visas, and other 
documentation to 173 individuals from the Middle East between 2008 and 
2012. Twice in the past 18 months--most recently this February--Cuba 
has been involved in arms smuggling that's directly in violation of 
international sanctions. Cuban officials have reportedly been involved 
in the Venezuelan Government's recent crackdown of pro-democracy 
demonstrators.
    And since President Obama began his secret negotiations with the 
Castro regime in June 2013, there have been reportedly 15,000 political 
arrests. There have been 2,500 such arrests since the President's 
speech on U.S.-Cuban relations in December.
    In fact, between February and March of this year, Cuba has 
increased the number of politically motivated arrests by 70 percent.

  <diamond> How can you prove that Cuba will stop this type of 
        behavior? How can you prove that Cuba has stopped supporting 
        terrorism?

    Answer. The Department's analysis for State Sponsor of Terrorism 
(SST) rescission does not imply that we agree on everything with Cuba 
or dispute the fact the Cuban Government engages in repressive or 
authoritarian activities. Our new approach is not about what the Cuban 
Government would do for us, but rather what we can do for the Cuban and 
American people.
    In our review of Cuba's SST designation, we focused on the question 
of whether Cuba provided any support for international terrorism during 
the 6 months prior to providing the statutorily required report to 
Congress. During that time we had no credible information that Cuba 
supported international terrorism.
    We also obtained the required assurances from the Cuban Government 
that it will not support acts of international terrorism in the future, 
consistent with the relevant statutes.
    We will continuously monitor available information to determine 
whether it has resumed support for international terrorism and whether 
an SST designation might be appropriate in the future, consistent with 
the statutory standard.

    Question. What makes you think, that if we normalize relations with 
Cuba, that their behavior will change?

    Answer. Our previous approach to relations with Cuba over a half 
century, though rooted in the best of intentions, failed to empower the 
Cuban people and isolated us from our democratic partners in this 
hemisphere and around the world. The Cuban Government used this policy 
as a rationale for restrictions on its people.
    Reestablishing diplomatic relations, which is only the first step 
in the long process of normalization, is designed to help empower the 
social and economic forces in Cuba that are demanding change and is in 
the U.S. national interest. It will give our diplomats increased access 
to the Cuban people and will give the Cuban people freer access to our 
Interests Section in Havana. Our new approach is not about what the 
Cuban Government would do for us, but rather what we can do for the 
Cuban and American people. The fundamental goal of our policy is to 
advance a Cuba that is democratic, prosperous, and well-governed. We 
are convinced that, through a policy of engagement, we can more 
effectively promote our interests and values and enable the Cuban 
people begin to enjoy more independence from the Cuban state.
    Normal diplomatic relations with the Cuban Government will provide 
us the opportunity to engage more effectually on a range of important 
issues, including human rights. Our discussions with the Cuban 
Government will include promoting respect for universal human rights 
and fundamental freedoms.

    Question. If we do not insist on a demonstrated change in 
behavior--encompassing human rights, support for terrorism, and 
compliance with arms embargoes--who is really benefiting here? Whose 
goals are being met?

    Answer. We will not stop insisting on these changes, and we have 
not agreed to do so as part of normalization. We believe that 
normalization will give us a better platform for expressing these ideas 
to the Cuban Government. Moreover, normalization helps take the focus 
off U.S. policies and puts it on the Cuban Government's behavior.

    Question. On February 28, 2015, a Chinese-flagged vessel, the Da 
Dan Xia, was intercepted in Cartagena, Colombia, carrying 15 containers 
of heavy weaponry hidden as a grain shipment.
    It consisted of 100 tons of explosives, 2.6 million detonators, 99 
projectile heads and around 3,000 artillery shells.
    The containers marked that they originated from Norinco, a Chinese 
arms manufacturer, on behalf of Tecnoimport, a shadow company of the 
Cuban military.
    This is the second time in 18 months that the Cuban military has 
been caught smuggling weapons internationally.
    As you are surely aware, last year Cuba was found in breach of 
international sanctions for attempting to smuggle 240 tons of weapons 
to North Korea.
    Both of these shipments, with false manifests, also threatened the 
safety and integrity of the Panama Canal.

  <diamond> Do you find this weapons smuggling by the Cuban military a 
        concerning trend? If so, why hasn't the State Department made 
        any statements about this latest incident?

    Answer. With respect to the March interception of a Chinese ship by 
Colombian authorities, the Department has not made any public 
statements to date because the Colombian investigation is ongoing. We 
believe it would be premature to speculate on the incident, though we 
take the matter seriously and continue to consult closely with our 
Colombian partners.
    Regarding the weapons shipment destined for North Korea, the 
administration has worked to ensure that all those responsible for this 
egregious violation of U.N. sanctions pay a price for their wrongdoing. 
The administration also worked to maximize the diplomatic cost to Cuba 
for its role in the incident, including by repeatedly condemning Cuba's 
role in the violation in meetings of the U.N. Security Council. We also 
welcomed the U.N. DPRK Sanctions Committee's release of an 
Implementation Assistance Notice to publicize the facts of the case and 
worked to ensure that this Notice made clear Cuba's role.
    The United States remains concerned about attempts by North Korea 
to circumvent international sanctions and strongly condemns--and will 
continue to condemn--any efforts by states such as Cuba to assist in 
the evasion of binding decisions of the U.N. Security Council.

    Question. Has the State Department looked into whether these 
weapons may have actually been intended for FARC narcoterrorists or 
other rogue groups, particularly as President Obama was preparing to 
remove Cuba from the State Sponsors of Terrorism list?

    Answer. We are not aware of any information linking the shipment 
contents to the FARC. The Department believes it would be premature to 
speculate regarding the outcome of Colombia's investigation of the 
Chinese-flagged vessel and its captain, who could be charged under 
Colombian law for illegal transport of military materials.

    Question. If weapons sales between China and Cuba are otherwise not 
sanctioned internationally, why do you think they went to such great 
lengths to hide this shipment?

    Answer. The Department believes it would be premature to speculate 
regarding the outcome of Colombia's investigation of the Chinese-
flagged vessel and its captain, who could be charged under Colombian 
law for illegal transport of military materials.

    Question. The Washington-based Center for a Secure Free Society 
reports that a Cuban state-owned enterprise provided Venezuela advanced 
technology that it used to provide 173 individuals from the Middle East 
with identification cards that are extremely difficult to trace.
    The Center noted that one of the individuals provided with an 
identification card was Suleiman Ghani Abdul Waked, who is an operative 
of Hezbollah.

  <diamond> Can you confirm the Center's findings?

    Answer. We take any allegations that threaten our national security 
seriously. We share your concern that Venezuelan citizenship, identity, 
and travel documents are easy to obtain, making Venezuela a potentially 
attractive source of documentation for terrorists. International 
authorities remain suspicious of the integrity of Venezuelan documents 
and their issuance process.

  <diamond> What risk do these 173 people pose to regional and 
        international security?

    Answer. We remain concerned about Hezbollah's involvement in a 
range of destabilizing activities all around the world, including their 
members and supporters' involvement in criminal activities. Countering 
these activities remains a priority for the United States. Hezbollah 
receives funding from supporters around the world who engage in a host 
of licit and illicit activities, including drug trafficking and money 
laundering, some of which takes place in the Western Hemisphere. We are 
concerned about any Hezbollah-linked activity in Latin America.
    We remain alert to indications of other activities, particularly 
operational activity. I can provide more information in a classified 
setting on this issue.

  <diamond> Can you explain what Cuba's objective is in providing such 
        sensitive technology to Venezuela?

    Answer. Cuba and Venezuela have a long-standing and wide-ranging 
partnership. They cooperate in areas ranging from intelligence services 
to medical services. Many observers have recognized the significant 
role Cuba has played in Venezuela over the past decade, including 
providing support for sensitive functions like identification 
documents.
    Our concern is that individuals, regardless of their place of 
origin, do not enter the United States with false documentation. The 
U.S. Government verifies all documents as necessary. Those who 
fraudulently or willfully misrepresent material facts to procure a 
visa, admission to the United States, or any other immigration benefit, 
which may include submission of false documents to the U.S. immigration 
authorities, are ineligible for visas and admission to the United 
States.

    Question. The most-recent State Department Country Report on 
Terrorism noted that ``The Cuban Government continued to harbor 
fugitives wanted in the United States. The Cuban Government also 
provided support such as housing, food ration books, and medical care 
for these individuals.''

  <diamond> In total, how many fugitives does Cuba continue to harbor, 
        and for how long have these individuals been harbored by 
        Havana? How many of these can be described as violent 
        terrorists? What, specifically, are these fugitives wanted for?

    Answer. We are concerned about fugitives from the United States in 
Cuba and work closely with the Department of Justice and other agencies 
to bring those fugitives to justice. This includes fugitives like 
Joanne Chesimard and William Guillermo Morales as well as those 
individuals who hijacked planes to Cuba, primarily in the 1970s and 
1980s. The United States has pressed for the return of fugitives with 
the Cuban Government at every appropriate opportunity, including in the 
bilateral talks held in January in Havana. Cuba has expelled to the 
United States at least four non-Cuban-national fugitives from U.S. 
justice since 2011.

    Question. Why did the Obama administration not insist that these 
individuals be returned to U.S. custody as a prerequisite for removing 
Cuba from the State Sponsors of Terrorism list?

    Answer. The return from Cuba of fugitives from U.S. justice is a 
priority of the U.S. Government. We have consistently and will continue 
to press the Cuban Government for the return of U.S. fugitives. We work 
closely with the Department of Justice and other agencies to bring 
those fugitives to justice. The reestablishment of diplomatic relations 
and reopening of the U.S. Embassy will allow the United States to more 
effectively press the Cuban Government on law enforcement issues 
including the return of fugitives.
    The Cuban Government has agreed to enter into a law enforcement 
dialogue with the United States that will include discussions with the 
aim of resolving outstanding fugitive cases. We believe that this is 
the best method for addressing these cases.

    Question. These fugitives include members of FARC, the terrorist 
organization that has been battling the Colombian Government for the 
past 50 years. Can you likewise describe Cuba's past and present 
support for FARC? How many FARC members does Cuba currently shelter?

    Answer. Our review process of Cuba's designation as a State Sponsor 
of Terrorism included a comprehensive review of Cuba's actions during 
the 6 months prior to submitting our report to Congress, consistent 
with the statutory standard for rescission. There is no credible 
evidence the Cuban government has, within the past 6 months, provided 
material support, services, or resources to members of the FARC or ELN 
outside of facilitating the internationally recognized peace process 
between those organizations and the Colombian Government.
    The Colombian Government told the United States that it has no 
evidence Cuba has provided any political or material support in recent 
years to the FARC or ELN for terrorist activity in Colombia. 
Furthermore, the Colombian Government believes the Cuban Government 
plays a constructive role in the peace negotiations with the FARC.

    Question. Under the Anti-Terrorism and Arms Export Amendments Act 
of 1989, a country can only be removed from the State Sponsors of 
Terrorism list if ``there has been a fundamental change in the 
leadership and policies of the government of the country concerned; 
that government is not supporting acts of international terrorism; and 
that government has provided assurances that it will not support acts 
of international terrorism in the future.''

  <diamond> In light of Havana's continued harboring of fugitives and 
        terrorists, can you say that there has there been a 
        ``fundamental change in the leadership and policies'' of the 
        Castro regime?

    Answer. There are two possible paths to rescission of a State 
Sponsor of Terrorism (SST) designation under the relevant statutes. The 
first requires the President to submit a report to Congress before the 
proposed rescission would take effect certifying that: (1) there has 
been a fundamental change in the leadership and policies of the 
government of the country concerned; (2) the government is not 
supporting acts of international terrorism; and (3) the government has 
provided assurances that it will not support acts of international 
terrorism in the future. The second path requires that the President 
submit a report to Congress, at least 45 days before the proposed 
rescission would take effect, justifying the rescission and certifying 
the subject government has not provided any support for international 
terrorism for the preceding 6-month period and has given assurances 
that it will not support acts of international terrorism in the future.
    The rescission of Cuba's designation was done consistent with the 
second path. We had no credible information that Cuba supported 
international terrorism in the 6 months prior to submitting the 
statutorily required report to Congress and the Cuban Government has 
provided assurances that it will not support acts of international 
terrorism in the future. While the United States has significant 
concerns and disagreements with a wide range of Cuba's policies and 
actions, these fall outside the criteria relevant for determining 
whether to rescind an SST designation pursuant to the second path.
    We will continuously monitor available information to determine 
whether the Cuban Government has resumed support for international 
terrorism and whether an SST designation might be appropriate in the 
future consistent with the statutory standard.

    Question. The State Department's review of Cuba's status as a State 
Sponsor of Terrorism focused narrowly only the question of whether or 
not the Castro regime is ``not supporting acts of international 
terrorism.''

  <diamond> Can you please explain how Cuba's current sheltering of 
        these fugitives and terrorists does not constitute support for 
        terrorism?

    Answer. Our review of Cuba's State Sponsor of Terrorism (SST) 
designation took into account all relevant factors. For the purposes of 
our review of Cuba's designation and consistent with the statutory 
standard for rescission, we examined Cuba's actions during the 6 months 
prior to submitting our report to Congress. During that time period we 
have no credible information that Cuba supported international 
terrorism. While we continue to have significant concerns and 
disagreements with a wide range of Cuba's policies and actions, 
including the possible presence of fugitives from U.S. justice in Cuba, 
these concerns fall outside the criteria for SST designation.
    The return of fugitives from U.S. justice is a priority of the U.S. 
Government, and we have consistently pressed the Cuban Government for 
the return of U.S. fugitives, and will continue to do so. The 
reestablishment of diplomatic relations and reopening of the U.S. 
Embassy will allow the United States to more effectively push the Cuban 
Government on law enforcement issues including the return of fugitives 
from U.S. justice.
    The Cuban Government has agreed to enter into a law enforcement 
dialogue with the United States that will include discussions with the 
aim of resolving outstanding fugitive cases. We believe this is the 
best method for addressing these cases.

    Question. Cuban officials have reportedly been involved in the 
Venezuelan Government's recent crackdown of pro-democracy 
demonstrators. This repression, as you know, prompted the Obama 
administration to issue sanctions against current and former Venezuelan 
officials, citing the ``unusual and extraordinary threat to the 
national security and foreign policy of the United States'' these 
actions posed.

  <diamond> Can you detail how many Cuban agents have previously worked 
        with, and are currently working with, Venezuela to suppress 
        domestic opposition and bolster their security services?

    Answer. According to Venezuelan Government-associated media, an 
estimated 40,000 Cuban advisers and aid workers are in Venezuela, 
including doctors, teachers, and Cuban military personnel. While both 
governments have stated the Cuban presence in Venezuela is limited to 
these areas, we are also aware of reports of Cuban-Venezuelan 
cooperation in the intelligence services.
    Media reports assert Cuban security and military advisers played a 
role in activities against Venezuelan protesters, including training 
pro-government vigilante groups that subsequently attacked peaceful 
protesters during demonstrations. However, we have seen no further 
evidence establishing a direct link between Cuban advisers and these 
acts of violence.

    Question. Why did the Obama administration not insist that Cuba 
cease its support for the Venezuelan regime's antiopposition activities 
as a prerequisite for its removal from the State Sponsors of Terrorism 
list?

    Answer. While the United States has significant concerns and 
disagreements with a wide range of Cuba's policies and actions, these 
fall outside the criteria relevant for determining whether to rescind a 
State Sponsor of Terrorism (SST) designation.
    Consistent with the statutory standard for recession, we focused on 
the questions of whether Cuba provided any support for international 
terrorism in the 6 months prior to submitting our report to Congress, 
and whether Cuba has provided assurances that it will not support acts 
of international terrorism in the future.

    Question. In light of Havana's support of the Venezuelan crackdown, 
can you say that there has been a ``fundamental change in the 
leadership and policies'' of the Castro regime, pursuant to U.S. law?

    Answer. There are two possible paths to rescission of a State 
Sponsor of Terrorism (SST) designation under the relevant statutes. The 
first requires the President to submit a report to Congress before the 
proposed rescission would take effect certifying that: (1) there has 
been a fundamental change in the leadership and policies of the 
government of the country concerned; (2) the government is not 
supporting acts of international terrorism; and (3) the government has 
provided assurances that it will not support acts of international 
terrorism in the future. The second path requires that the President 
submit a report to Congress, at least 45 days before the proposed 
rescission would take effect, justifying the rescission and certifying 
the subject government has not provided any support for international 
terrorism for the preceding 6-month period and has given assurances 
that it will not support acts of international terrorism in the future.
    The rescission of Cuba's designation was done consistent with the 
second path. We had no credible information that Cuba supported 
international terrorism in the 6 months prior to submitting the 
statutorily required report to Congress and the Cuban Government has 
provided assurances that it will not support acts of international 
terrorism in the future. While the United States has significant 
concerns and disagreements with a wide range of Cuba's policies and 
actions, these fall outside the criteria relevant for determining 
whether to rescind a State Sponsor of Terrorism designation pursuant to 
the second path.

    Question. The Spanish Government requested in March that the United 
States use the removal of Cuba from the State Sponsor of Terrorism list 
to help secure the return of two leaders of the Basque ETA terrorist 
group to Madrid.

  <diamond> Can you confirm for this committee that these ETA leaders 
        remain in Cuba?

    Answer. Cuba and Spain have agreed to a bilateral process to 
resolve the matter of the two ETA members in Cuba for whom Spain has 
requested extradition.

  <diamond> How many more members of the ETA are being sheltered by the 
        Castro regime?

    Answer. The Government of Cuba continues to allow approximately two 
dozen members of the Basque Fatherland and Liberty organization (ETA) 
to remain in Cuba. The Cuban Government has provided assurances that it 
would never permit the ETA members living in Cuba to use Cuban 
territory for that organization's activities against Spain or any other 
country. We have no information that Cuba has allowed any of these ETA 
members to plan, finance, lead, or commit acts of international 
terrorism while residing in Cuba in the past 6 months. Additionally, 
for those two ETA members for whom Spain has requested extradition, 
Cuba and Spain have agreed to a bilateral process to resolve the 
matter, which is now underway.
  <diamond> Why did the United States not assist the Spanish Government 
        with their request?

    Answer. The Cuban Government has responded to Spain's extradition 
requests and a bilateral process is now underway for Spain and Cuba to 
resolve this matter. The Spanish Government has assured the United 
States that it is satisfied with this process and that it has no 
objection to the rescission of Cuba's State Sponsor of Terrorism 
designation.

    Question. On Sunday, April 26, nearly 100 members and supporters of 
the human rights group Ladies in White were arrested and suffered abuse 
at the hands of the Cuban police.
    Between February and March of this year, Cuba has increased the 
number of politically motivated arrests by 70 percent.
    There have reportedly been 15,000 political arrests since the 
administration began secret negotiations with the Castro regime in June 
2013, and 2,500 since the President's December speech on U.S.-Cuban 
relations.

  <diamond> Can you detail in what ways, if any, the United States has 
        expressed its disapproval of these actions to Cuban officials?

    Answer. We raise human rights regularly during our discussions with 
the Cuban Government, and continue to make human rights observance a 
fundamental part of our policy toward Cuba, as it is with other 
countries in the hemisphere.
    In March, we raised arbitrary detentions at a planning meeting with 
the Cuban Government to discuss the methodology and structure of future 
human rights talks. We are in the process of determining dates for the 
first substantive human rights talks.
    Our updated approach is designed to promote changes that support 
Cubans' universal human rights and fundamental freedoms. We believe 
that reestablishing normal diplomatic relations, which includes 
allowing U.S. diplomats more freedom of movement in Cuba and allowing 
Cuban citizens freer access to the U.S Interests Section, will help 
improve the atmosphere for promoting such changes.
    We remain committed to working closely with Congress on human 
rights in Cuba.

    Question. Would you agree that the administration's outreach to the 
Castro regime has thus far had no effect on Havana's harassment and 
imprisonment of dissidents?

    Answer. We have not yet seen any significant change in the Cuban 
Government's practice of harassing and detaining dissidents.
    We have no illusions that the Cuban Government will change its 
behavior overnight. At the same time, we are convinced that, through a 
policy of sustained engagement, we can more effectively stand up for 
our values and help the Cuban people help themselves.
    Our enduring objective remains the emergence of a democratic, 
prosperous, and stable Cuba that respects and adheres to human rights 
norms.

    Question. In Freedom House's 2015 ``Freedom in the World'' and 
``Freedom of the Press'' reports, Cuba ranked dismally low.
    Cuba ranks among the 10 worst-rated nations for freedom of the 
press. And Cuba was ranked as ``not free.''
    Cuban pro-democracy and human rights activists and civil society 
groups are calling on the United States to place human rights reforms 
and free and open space for civil society at the center of our ongoing 
negotiations with Cuba.
    At the same time, the Castro regime is demanding that the United 
States stop providing classes to dissidents in Havana, and that we 
cease providing Internet access.

  <diamond> How is the United States including democracy and human 
        rights in the negotiations to restore full diplomatic and 
        economic ties with Cuba?
    Answer. Our updated approach to Cuba is designed to advance human 
rights over time by empowering the Cuban people. We believe that 
reestablishing diplomatic relations will help us better promote human 
rights in Cuba.
    On March 31, we held a planning meeting with the Cuban Government 
to discuss the methodology and structure of future human rights talks. 
The atmosphere of that meeting was professional, and there was broad 
agreement on the way forward for a future substantive dialogue. We are 
in the process of determining possible dates for the first substantive 
dialogue.
    We are focused on consulting with and empowering independent Cuban 
civil society. Assistant Secretary for Democracy, Human Rights, and 
Labor Malinowski has held two video conferences with on-island Cuban 
civil society and will continue to do so.
    We frequently speak out on human rights issues in Cuba and 
throughout the hemisphere and will continue to do so.
    We will continue to work closely with Congress on bringing about 
positive change on human rights in Cuba. We urge you and your 
congressional colleagues who may visit the island to raise democracy 
and human rights with the Cuban Government and to meet with independent 
civil society.

                                  [all]
</pre></body></html>
